<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION OF APPROPRIATIONS FOR FISCAL YEAR 2015 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 113-465, Part 5]
[From the U.S. Government Publishing Office]




                                                 S. Hrg. 113-465, Pt. 5

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2015 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2410

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2015 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               ----------                              

                       MARCH 11; APRIL 1, 8, 2014


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Printed for the use of the Committee on Armed Services
         
         
         
         
         
         


                                                 S. Hrg. 113-465, Pt. 5

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2015 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2410

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2015 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               __________

                       MARCH 11; APRIL 1, 8, 2014

                               __________

         Printed for the use of the Committee on Armed Services

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.fdsys.gov/
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

91-190 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing
   Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  


                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
BILL NELSON, Florida                 JOHN McCAIN, Arizona
CLAIRE McCASKILL, Missouri           JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 SAXBY CHAMBLISS, Georgia
KAY R. HAGAN, North Carolina         ROGER F. WICKER, Mississippi
JOE MANCHIN III, West Virginia       KELLY AYOTTE, New Hampshire
JEANNE SHAHEEN, New Hampshire        DEB FISCHER, Nebraska
KIRSTEN E. GILLIBRAND, New York      LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      DAVID VITTER, Louisiana
JOE DONNELLY, Indiana                ROY BLUNT, Missouri
MAZIE K. HIRONO, Hawaii              MIKE LEE, Utah
TIM KAINE, Virginia                  TED CRUZ, Texas
ANGUS KING, Maine

                    Peter K. Levine, Staff Director

                John A. Bonsell, Minority Staff Director

                                 ______

           Subcommittee on Emerging Threats And Capabilities

                KAY R. HAGAN, North Carolina, Chairwoman

JACK REED, Rhode Island              DEB FISCHER, Nebraska
BILL NELSON, Florida                 JOHN McCAIN, Arizona
MARK UDALL, Colorado                 ROGER F. WICKER, Mississippi
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
JEANNE SHAHEEN, New Hampshire        DAVID VITTER, Louisiana
KIRSTEN E. GILLIBRAND, New York      TED CRUZ, Texas

                                  (ii)















                            C O N T E N T S

                              ----------                              

                             March 11, 2014

                                                                   Page

U.S. Special Operations Command..................................     1

Lumpkin, Hon. Michael D., Assistant Secretary of Defense for 
  Special Operations/Low-Intensity Conflict......................     3
McRaven, ADM William H., USN, Commander, U.S. Special Operations 
  Command........................................................     8
Questions for the Record.........................................    34

                             April 1, 2014

Proliferation Programs at the Department of Energy and at the 
  Department of Defense..........................................    41

Harrington, Hon. Anne M., Deputy Administrator for Defense 
  Nuclear Nonproliferation, National Nuclear Security 
  Administration, Department of Energy...........................    45
Hersman, Rebecca, K.C., Deputy Assistant Secretary of Defense for 
  Countering Weapons of Mass Destruction, Department of Defense..    48
Myers, Kenneth A., III, Director of the Defense Threat Reduction 
  Agency, Department of Defense, and Director of the U.S. 
  Strategic Command Center for Combating Weapons of Mass 
  Destruction, Department of Defense.............................    57
Questions for the Record.........................................    75

                             April 8, 2014

The Role of the Department of Defense Science and Technology 
  Enterprise for Innovation and Affordability....................    85

Shaffer, Alan R., Acting Assistant Secretary of Defense for 
  Research and Engineering.......................................    86
Miller, Mary J., Deputy Assistant Secretary of the Army for 
  Research and Technology........................................   103
Lacey, Mary E., Deputy Assistant Secretary of the Navy for 
  Research, Development, Test, and Evaluation....................   117
Gooder, Kevin, Program Integration Division Chief of the Office 
  of the Deputy Assistant Secretary of the Air Force for Science, 
  Technology, and Engineering....................................   122
Prabhakar, Dr. Arati, Director, Defense Advanced Research 
  Projects Agency................................................   136
Questions for the Record.........................................   174

                                 (iii)

 
 DEPARTMENT OF DEFENSE AUTHORIZATION OF APPROPRIATIONS FOR FISCAL YEAR 
               2015 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        TUESDAY, MARCH 11, 2014

                           U.S. Senate,    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

                    U.S. SPECIAL OPERATIONS COMMAND

    The subcommittee met, pursuant to notice, at 2:14 p.m. in 
room SR-222, Russell Senate Office Building, Senator Kay R. 
Hagan (chairwoman of the subcommittee) presiding.
    Committee members present: Senators Hagan, Reed, Nelson, 
Manchin, Kaine, Fischer, and Graham.

     OPENING STATEMENT OF SENATOR KAY R. HAGAN, CHAIRWOMAN

    Senator Hagan. Good afternoon. Today, the subcommittee 
welcomes the Assistant Secretary of Defense for Special 
Operations and Low-Intensity Conflict (ASD(SO/LIC)) the 
Honorable Michael D. Lumpkin, and the Commander of U.S. Special 
Operations Command (SOCOM), Admiral William H. McRaven, USN, to 
receive testimony on the posture of U.S. Special Operations 
Forces (SOF) and Department of Defense (DOD) programs, 
policies, and operations with respect to countering emerging 
terrorism threats, in preparation for the subcommittee's markup 
of the National Defense Authorization Act (NDAA) for Fiscal 
Year 2015. We look forward to your testimony.
    Time permitting, today's hearing will have both an open 
session and a closed session. At the conclusion of this open 
portion, it is our intention to reconvene in room SVC-217 in 
the Capitol Visitor Center for the closed portion.
    The Quadrennial Defense Review (QDR) released last week 
describes the continuing threat posed by al Qaeda and the 
associated groups this way, and let me quote: ``Although core 
al Qaeda has been severely degraded, instability in the Middle 
East and civil war in Syria have enabled al Qaeda to expand its 
global reach and operate in new areas.''
    The QDR also highlights the role of SOF in addressing these 
challenges. While DOD protects SOCOM from some of the deeper 
cuts required by Congress in its fiscal year 2015 budget 
request, SOF are not immune from budget pressures. 
Specifically, I understand the growth of SOF will now level off 
at 69,700 personnel, rather than the approximately 72,000 
personnel that had been called for by previous QDRs.
    Additionally, SOF rely heavily on enabling capabilities 
provided by the Services, including intelligence, logistics, 
and other support, that may be impacted by cuts to their 
respective budgets.
    Lastly, I am concerned about the lack of a plan by DOD to 
transition appropriate funding for SOCOM from the Overseas 
Contingency Operations (OCO) budget to the base budget in 
future years to protect the enduring SOF capabilities built 
over the last 12 years. Admiral McRaven, you recently testified 
that, ``SOCOM relies heavily on OCO funding today, with the 
National Mission Force in particular funded with 67 percent of 
OCO.'' The subcommittee looks forward to hearing both of your 
perspectives on these issues and the level of risk you believe 
DOD is assuming under the current budget pressures.
    Of course, the ability of SOCOM to carry out the full range 
of missions it has been assigned does not solely rely on the 
size of its budget, but also on the authorities available to 
SOF. Last year, the office of the ASD(SO/LIC) completed a 
report which raised a number of concerns about the ``patchwork 
of authorities used by SOF to engage with partner nation 
security forces.'' With Secretary Lumpkin here, I hope we can 
hear your assessment of these authorities and what, if any, 
changes we should consider as we prepare for the NDAA for 
Fiscal Year 2015.
    I also plan to ask for your assessment of recent changes to 
the human rights vetting requirements, the so-called Leahy 
vetting, and the impact of those changes on DOD security 
assistance programs carried out by SOF. The subcommittee is 
particularly interested in hearing about the process for 
remediating foreign forces once they have been flagged under 
the Leahy vetting.
    A particular area of focus for this subcommittee this year 
is the intelligence, surveillance, and reconnaissance (ISR) 
assets, given DOD's decision to reduce its planned capacity for 
around-the-clock unmanned combat air patrols. This decision, 
when coupled with our combatant commanders' comments about the 
small percentage of their ISR requirement that is currently 
being supported, is concerning and I think we will all be eager 
to hear your assessments.
    Admiral McRaven, let me take this opportunity to applaud 
you for the Preservation of the Force and Families Initiative 
and I also look forward to hearing your thoughts on what the 
subcommittee can do to better support SOCOM in this regard.
    Senator Fischer.
    Senator Fischer. Thank you, Madam Chairwoman, and I join 
you in welcoming our witnesses and thank them and the men and 
women of the Special Operations community for their continued 
service to our Nation. Their testimony today will play an 
important role in informing the development of the NDAA for 
Fiscal Year 2015.
    As instability and violence spreads across the Middle East 
and North Africa, terrorist groups like al Qaeda are taking 
advantage of that chaos. Today, al Qaeda and other terrorist 
organizations now operate in more countries and control more 
territory than ever before. At the forefront of our efforts to 
combat global terrorism are the men and women of SOCOM. As 
noted by Admiral McRaven in his prepared remarks, our special 
operators are engaged in more than 70 countries at any given 
time and are often our first line of defense against an 
evolving and increasingly dangerous terrorist threat.
    However, demand for these elite troops continues to far 
exceed supply, placing enormous strain on the readiness of the 
force. Further, budgetary constraints are placing added 
pressure on our SOF and the enablers they depend on to 
accomplish their missions.
    I look to our witnesses to update the subcommittee on the 
status of these forces, as well as outline efforts to ensure 
that these forces maintain the readiness and capabilities 
required to operate in an increasingly complex and challenging 
global security environment.
    Thank you, Madam Chairwoman.
    Senator Hagan. Thank you, Senator Fischer.
    I am going to ask both of you to keep your opening 
statements 3 to 5 minutes. We do have copies of your prepared 
statements. So, Secretary Lumpkin, if you will begin, please.

 STATEMENT OF HON. MICHAEL D. LUMPKIN, ASSISTANT SECRETARY OF 
     DEFENSE FOR SPECIAL OPERATIONS/LOW-INTENSITY CONFLICT

    Mr. Lumpkin. Chairwoman Hagan, Ranking Member Fischer, 
distinguished members of the subcommittee: Thank you for your 
steadfast support to our special operators in the SOCOM. The 
authorities and appropriations Congress has provided DOD have 
allowed us to prosecute the current fight and ensure we are 
prepared to confront emerging threats and to protect the 
Homeland. I am pleased to testify with Admiral Bill McRaven, 
who has expertly led SOCOM for the past 3 years.
    The threat we face, especially from al Qaeda, is continuing 
to change. Although the scale of the threat to the Homeland has 
diminished, threats to our interests overseas are increasing. 
With their leadership depleting, al Qaeda still retains 
sanctuaries in remote areas of Afghanistan, Pakistan, Yemen, 
and Somalia. Terrorist organizations are also expanding in 
Syria, North Africa, and the Sahel. The threat continues to 
evolve. We must maintain our pressure on terrorist 
organizations to protect the Homeland.
    We are in a time of transition. We face a yet undetermined 
drawdown in Afghanistan and new fiscal realities. It may be 
more difficult to maintain pressure on al Qaeda in the 
traditional safe havens. I closely monitor how the cuts to the 
Services impact the readiness of SOCOM. We are assessing the 
impact on the critical enablers. For example, we are ensuring 
the cuts to the ISR fleet will not erode our ability and 
capability to find, fix, and finish targets. As we transition 
in Afghanistan and redistribute SOF to other theaters, we need 
to ensure our operations and maintenance (O&M) accounts are 
resourced to support operations.
    In accordance with the NDAA for Fiscal Year 2014, ASD(SO/
LIC) and the Under Secretary of Defense for Acquisition, 
Technology, and Logistics are strengthening our roles in the 
oversight of SOCOM to maximize efficiencies and maintain 
oversight responsibilities of Major Force Program 11. These 
include routine interactions between my staff and SOCOM and 
frequent dialogue between me and Admiral McRaven. We owe the 
President the best strategic options to accomplish our national 
strategic objectives.
    This is conducted in close coordination and honest 
discussion with Congress as you exercise your oversight, 
authorization, and appropriations responsibilities. We are 
moving from a state of perpetual war to perpetual engagement, 
engaging with partners to build their capacity, engaging 
problems before they become too big to fix, and engaging in 
direct and indirect action to disrupt and destroy our enemies.
    As we move towards a globally networked perpetual 
engagement, our efforts are grounded in the experiences that 
demonstrate the success of this approach. Colombia and the 
Philippines are case studies in how a small investment of SOF, 
resourced for an enduring time frame, can have positive 
results. In the Philippines, a task force of about 500 special 
operators and supporting general purpose forces helped degrade 
a serious transnational terrorist threat from Abu Sayyaf and 
Jemaah Islamiyah. In Colombia, we provided counterinsurgency 
training and humanitarian assistance to prevent 
narcotraffickers from developing sanctuaries. This effort in 
Colombia not only resulted in a far more secure and prosperous 
nation now, it has emerged as an exporter of regional security.
    We have the same opportunities in Africa and the Middle 
East. Our support to the French in the Sahel has been critical 
in stemming the tide of extremism in Mali. Modest support to 
African Union Mission to Somalia (AMISOM) in the Horn of Africa 
has helped to reverse the trajectory of Al Shabaab. These 
discrete activities and operations constitute the global SOF 
networks required for perpetual vigilance.
    I am proud to represent the soldiers, sailors, airmen, 
marines, and civilians of SOCOM. Their sacrifices in this war 
are immense. Since October 2001, 385 special operators have 
been killed in action and another 2,160 have been wounded. I am 
committed to doing everything I can to ensure these warriors 
have the best training, equipment, and support we can provide. 
Working closely with Congress, we will surely have the right 
strategies and policies in place to employ them effectively.
    Thank you for your continuing support. I look forward to 
your questions. Thank you.
    [The prepared statement of Mr. Lumpkin follows:]
             Prepared Statement by Hon. Michael D. Lumpkin
                              introduction
    Chairwoman Hagan, Ranking Member Fischer, and distinguished members 
of the subcommittee, thank you for allowing me to join you today, and 
for all your steadfast support for our Special Operators and the U.S. 
Special Operations Command (SOCOM). I am very pleased to be before you 
with Admiral Bill McRaven, who has expertly led SOCOM over the past 3 
years. I say without reservation that Admiral McRaven has made a strong 
command even better. He's been a visionary leader for decades. The 
programs and initiatives he's put in place to provide premier special 
operations capabilities to our geographic combatant commands, to 
oversee and synchronize global counterterrorism operations, and to take 
care of our special operators and their families, will serve the Nation 
for years to come.
                            evolving threats
    The nature of the threat that we are facing, especially regarding 
al Qaeda, is changing. Pressure from the United States and our allies 
has altered al Qaeda's campaign plan. Al Qaeda has been forced to 
relinquish control over its affiliates, which allows threats from these 
groups to develop more quickly. Although the scale of threat to the 
U.S. Homeland has diminished, threats to U.S. persons and interests 
overseas are increasing. We're also seeing an increase in the use of 
technology, perhaps a function of a younger generation of terrorists 
who are more adept with smart phones and social media services.
    Although their leadership cadre has been depleted, al Qaeda and its 
affiliates retain sanctuaries in the Afghanistan-Pakistan border region 
and in remote areas of Yemen and Somalia. It is also working to co-opt 
insurgent movements and violent extremists in Syria, North Africa, and 
the Sahel. From these regions, the threat of al Qaeda attacks against 
U.S. interests and personnel overseas has grown. Al Qaeda is a 
resilient organization that has become adept at exploiting lapses in 
security during and following political transitions, civil wars, and 
periods of unrest. This is particularly true across the Middle East and 
in Africa. The threat posed by al Qaeda and like-minded groups will 
continue to evolve and it is essential that we remain vigilant, 
prepared and resourced the meet the threat. We must maintain pressure 
on al Qaeda and its affiliates to ensure they cannot reconstitute a 
capability to attack the homeland.
    The threats we face are not limited to al Qaeda and terrorist 
organizations. North Korea continues to present a threat by 
proliferating weapons of mass destruction. As we have seen play out 
over the past few months in the Central African Republic and South 
Sudan, political instability exacerbated by ethnic and or religious 
differences can escalate into violence requiring international 
intervention. We are also called upon to support regional issues, such 
as the effort to eradicate the Lord's Resistance Army from Central 
Africa. These demands will continue and we must be prepared to conduct 
a wide range of operations, often with little notice.
                           time of transition
    The Department of Defense is in a time of transition. We are ending 
the longest prolonged period of war in our Nation's history. The future 
of Afghanistan--as we go through negotiations on the Bilateral Security 
Agreement--is yet to be determined. If we are unable to achieve an 
acceptable agreement and withdraw our forces, it will be much more 
difficult to maintain pressure on al Qaeda in Kunar and Nuristan, which 
are the traditional al Qaeda safe havens. Secretary Hagel has told us 
to plan for all contingences and the department is doing just that.
    We are at the end of a long period of historic growth in military 
budgets and manpower, and must increase our effort to make the most 
efficient and effective use of the taxpayer dollar without diminishing 
America's safety. The President's budget submission for fiscal year 
2015 levels SOF growth at 69,700 servicemembers. Admiral McRaven and 
SOCOM have done an excellent job finding efficiencies within the 
Headquarters and realigning billets and capabilities to support the 
seven Theater Special Operations Commands that are under the combatant 
command of SOCOM, but operate in direct support of the geographic 
combatant commanders.
    As Assistant Secretary of Defense for Special Operations/Low-
Intensity Conflict (ASD(SO/LIC), I watch very closely how cuts to the 
Services impact the readiness of SOCOM. As the Department continues to 
review and make adjustments to size the force correctly, we are closely 
monitoring and assessing the availability of critical enablers. For 
example, we are working with the Services to ensure that cuts to the 
current ISR fleet will not erode our core capability to find, fix, and 
finish targets. At the same time, we are continuing to balance our 
organic enabler capabilities to allow SOF to deploy with speed, 
precision, and lethality to a broad range of contingencies anywhere in 
the world.
    After some very tough decisions during this year's budget review, 
SOCOM's base budget request for fiscal year 2015 is less than the 
levels projected in the 5-year budget plan submitted by the President 
last year but greater than the amount enacted for fiscal year 2014. As 
we transition operations in Afghanistan and redistribute SOF into other 
theaters, we will need to ensure that our operations and maintenance 
(O&M) accounts are sufficiently resourced to support these deployments.
    We will also watch our Investment accounts carefully. We must 
maintain the ability to recapitalize and update current platforms such 
as the efforts underway with both the MC-130J and MC-130P tanker 
fleets, and to develop and procure SOF specific platforms and systems 
for both ground and maritime mobility. We must also ensure we invest in 
the future. Investment in research and development is much like 
investment in education; the benefits are most often seen a decade down 
the road. A critical element in the research and development enterprise 
for special operations is the Combating Terrorism Technical Support 
Office (CTTSO) which is part of SO/LIC. CTTSO brings together, SOF, the 
interagency, industry and the Services to find the best solutions to 
existing and future requirements. Their efforts complement and enhance 
those of SOCOM's Special Operations Research, Development and 
Acquisition Center.
                        improving our oversight
    It is imperative from an oversight perspective that SO/LIC look 
across the department and find material, acquisition and manpower 
options that ensure our Special Operations Forces are trained, ready, 
and postured to meet the rapidly evolving threat.
    We have reinforced our supervisory capabilities by leveraging the 
subject matter expertise of the Joint Staff and the Office of the 
Secretary of Defense (OSD) Staff to include the offices of AT&L, P&R, 
Comptroller, OUDI and Cost Assessment and Program Evaluation. This 
effort reflects the National Defense Authorization Act for Fiscal Year 
2014 which calls on ASD(SO/LIC) and the Under Secretary of Defense for 
Acquisition, Technology, and Logistics to strengthen their defined 
roles in the oversight of SOCOM.
    We have a number of established processes that bring SOCOM, the 
Joint Staff, and the OSD Staff together to ensure we maintain proper 
oversight of SOCOM strategy and policy initiatives and maintain 
oversight responsibilities of Major Force Program 11 (MFP-11) funds. 
These include, but are not limited to routine interaction between my 
staff and the SOCOM Washington Office, daily coordination with the 
Joint Staff on operations--ongoing and planned, senior level SO/LIC 
attendance at the monthly SOCOM Commander's Decision Round Table, and 
frequent dialogue between myself and Admiral McRaven.
    The oversight responsibilities of my office take on added 
importance in an environment of fiscal constraint and technological 
growth. By partnering with OSD(AT&L) through a SOF acquisition senior 
level forum, we are enabling the Department to share technology 
information with the Services, resolve issues, and provide 
opportunities to leverage technology and resources for SOF.
                           strategic options
    In times of uncertainty, we owe the President and the Secretary of 
Defense the best strategic options to accomplish our national security 
objectives. This is conducted in close coordination and honest 
discussion with Congress as you exercise your oversight, authorization 
and appropriation responsibilities. In the best case, we develop 
options in advance of crisis, but we must also maintain the ability to 
quickly react to and support national defense objectives during the 
heat of crisis.
    We must develop options that allow SOF to operate forward in this 
increasingly population-centric fight that centers not on terrain, but 
within the human domain. We are moving from a state of ``perpetual 
war'' to ``perpetual engagement''--engaging with partners to build 
their capacity; engaging with problems before they become too big to 
fix without breaking the budget--and, yes, engaging in action, direct 
or indirect, whenever necessary to keep our enemies off-balance or 
eliminate continuing/imminent threats.
    We must build upon our existing network of bilateral alliances and 
partnerships and seek opportunities to develop additional partnerships. 
We must address the sources of potential conflict before they create 
larger problems. This new network approach involves interagency support 
to foster bilateral ties.
    This work--which focuses on security cooperation, building partner 
capacity, and a keen awareness of local conditions--relies heavily on 
the capabilities of our Special Operations Forces. The ability of SOF 
to operate with a small footprint in the human domain and in contested 
environments will only become more important in a future of globally 
dispersed and irregular threats.
    As we build networks with our willing partner nations, SOF is very 
reliant upon congressionally authorized and properly appropriated 
programs. I want to thank Congress for continued support for Section 
1208 and 1206 authorities. Section 1208 is a critical tool that extends 
the reach of our forces by allowing them to work more closely with 
foreign forces, irregular forces, groups or individuals supporting U.S 
Special Operations to combat terrorism. The demand for programs under 
these authorities from the geographic combatant commanders is high and 
we are approaching the $50 million annual authorization cap. With the 
challenges and limitations of U.S. unilateral direct action operations, 
we believe the need for 1208 authority--as a complementary force 
multiplier--will extend past its' current expiration at the end of 
fiscal year 2015.
    Section 1206 authority allows the Secretary of Defense to build the 
capacity of foreign military forces to conduct counterterrorism or 
stability operations. Section 1206 has had notable successes in 
Afghanistan as we prepared our NATO partners for combat operations. The 
challenge before us now is to attain the same level of success we have 
enjoyed through this authority in Afghanistan in other parts of the 
globe. Programs under this same authority are now focused on the 
terrorist hot spots of Yemen, East Africa and North Africa.
    Programs under both of these authorities are examples of our 
continued close cooperation with the Department of State. Programs 
under 1208 must have concurrence from the relevant Chief of Mission and 
1206 must have concurrence from the Secretary of State. We have already 
notified Congress for the first two tranches of 1206 authority programs 
for this fiscal year.
    The Global Security Contingency Fund (GSCF), a pilot authority 
entering its third year, was established as a joint Department of 
Defense and Department of State administered program. The fiscal year 
2014 Appropriations Act provided $30 million for GSCF, the first time 
money was appropriated for the authority. We appreciate your support 
for this, as it will greatly improve our ability to execute GCSF 
programs. Along with the Department of State, we are committed to 
identifying high priority programs for GSCF.
                  past operations and future successes
    As we move towards a state of globally-networked perpetual 
engagement, increased reliance on partner nations, and reduced 
footprint operations, our efforts are grounded in experiences that 
demonstrate the success of this approach. Colombia and the Philippines 
are case studies in how a small investment of SOF, resourced for an 
enduring timeframe, can have positive results.
    In the Philippines, with a task force of about 500 SOF and general-
purpose force enablers, we helped degrade what was once considered to 
be a serious transnational terrorist threat from Abu Sayyaf and Jamaah 
Islamiyah. Our efforts helped deny al Qaeda a strong regional presence 
in Southeast Asia, and made if harder for terrorists to carry out high 
profile attacks such as the 2002 Bali bombing.
    In Colombia, we provided significant military aid, 
counterinsurgency training, and humanitarian assistance in a broad-
based initiative to prevent narcotics traffickers from developing 
sanctuaries in that country. Plan Colombia was a sustained commitment 
to building the capacity of an important partner. It involved long-term 
efforts to help Colombia build a more professional, more accountable, 
more capable military--giving that nation the ability to solve its own 
security challenges, and to take ownership of the vital process of 
eliminating terrorist and insurgent sanctuaries within its own borders. 
Plan Colombia was an interagency effort to assist the Colombians in 
eradicating narcotics and building stronger financial institutions.
    This work has paid off. Colombia is not only a far more secure and 
prosperous nation now; it has emerged as an exporter of regional 
security.
    We have the same opportunities before us now in Africa and parts of 
the Middle East. As we did in Colombia and the Philippines we must be 
willing to accept the risk of placing small numbers of specially 
trained forces forward to develop the trust of our partner forces and 
enable them over the long term to adequately deal with violent 
extremists and terrorists that threaten our mutual security goals. 
These relatively small investments come in many forms and can be 
tailored to support U.S. security objectives. Our logistical, 
intelligence and, when required, operational support to the French and 
African partners in the Sahel has been critical in stemming the tide of 
violent extremism in Mali. Modest investments supporting AMISOM troops 
in the Horn of Africa have helped to reverse the trajectory of al-
Shabaab. In Yemen, we have had successes but require a more robust and 
sustained effort to turn the tide of al Qaeda in the Arabian 
Peninsula's expansion.
    These discrete activities and operations, in support of geographic 
combatant commanders, in close concert and with the concurrence of 
Ambassadors and country teams, anchored through liaison with the 
interagency and in partnership with willing allies is what comprises a 
global SOF network. What we do in Yemen has effects across the Gulf of 
Aden in Somalia. Our activities in the Sahel to support regional armed 
forces efforts to interdict smuggling and resupply lines have effects 
in Mali and Libya. We do not always have to take unilateral direct 
action, but the nature of the threat does require that we must always 
be engaged.
                               conclusion
    Within SOF, we have five axioms that we call the SOF Truths. The 
first of which is, ``Humans are more important than hardware.'' The SOF 
operator is our primary weapon system, and it is my goal and the goal 
of all in SO/LIC to ensure they are resourced and prepared for today's 
fight and the battles we will face in the future. The same can be said 
of taking care of our families. SOCOM's Preservation of the Force and 
Family program, takes a whole-person approach to the mental, physical, 
spiritual and psychological welfare of the force. With the great 
demands we place on our SOF operators, the pro-active nature of this 
program builds resilience and strength both for the SOF operator and 
for our families.
    As ASD(SO/LIC), I am proud to represent the soldiers, sailors, 
airman, marines, and civilians that are assigned to SOCOM. Their 
sacrifices in this war are immense--since October 2001, 385 Special 
Operators have been killed in action, and another 2,160 have been 
wounded. We have asked a lot of the men and women assigned to our SOF 
formations since September 11, and we will continue to ask much of them 
in the future. I am committed to doing everything I can to ensure these 
brave warriors have the best training, equipment, and overall support 
we can possibly provide and to work closely with Congress and my senior 
policy colleagues across the government to ensure we have the right 
strategies and policies in place to employ them effectively.
    I thank Congress for your continuing support to our men and women 
in uniform and look forward to your questions.

    Senator Hagan. Thank you, Secretary Lumpkin.
    Admiral McRaven.

   STATEMENT OF ADM WILLIAM H. McRAVEN, USN, COMMANDER, U.S. 
                   SPECIAL OPERATIONS COMMAND

    Admiral McRaven. Thank you. Madam Chairwoman, Ranking 
Member Fischer, distinguished members of the subcommittee: 
Thank you again for giving me the opportunity to address you. 
This is the third hearing I have been to with this subcommittee 
in my time as the Commander of SOCOM.
    I would also like to recognize my friend and colleague, 
Assistant Secretary Michael Lumpkin. We have a great 
partnership and I value ASD(SO/LIC)'s oversight and support of 
SOF.
    Madam Chairwoman, I am pleased to say that since my last 
hearing, SOCOM has made some great strides in dealing with the 
current conflicts, preparing for the future conflicts, and, 
most importantly, taking care of our people. SOCOM continues to 
provide the world's finest warriors to the fight in 
Afghanistan. As we approach the end of 2014, your SOF will be 
ready to adjust to whatever decisions are made regarding our 
future employment in that country. Globally, we are developing 
plans to better serve the geographic combatant commanders, who, 
owing to the past 12 years of engagement in Iraq and 
Afghanistan, have gone underresourced with SOF.
    SOCOM, as the DOD synchronizer for the war against 
terrorism, is also working hard to better coordinate our 
activities locally, regionally, and globally with both the 
geographic combatant commanders and the U.S. Ambassadors. I 
believe the future of special operations will be in helping to 
build partner capacity with those willing nations who share our 
interests. This will mean strengthening our existing allied 
relationships and building new ones. No nation alone can stem 
the rise of extremism and we need our friends and allies more 
now than ever before.
    Our future SOF are also inextricably linked to the general 
purpose force and the interagency. The past 12 years have shown 
us that a whole-of-government effort is required to be 
successful against extremism, and in SOF we have always relied 
heavily on our fellow soldiers, sailors, airmen, and marines 
for support around the globe.
    Finally, we have gone to great lengths to take care of our 
most precious resource, our people. The Preservation of the 
Force and Families (POTFF) Initiative has already seen a marked 
improvement in the morale and the wellbeing of those who serve 
in SOF. While we still suffer from the tragedy of high suicide 
rates, I believe we have laid the foundation for keeping our 
force and their families strong and resilient into the future.
    Once again, thank you for your interest and your unwavering 
support for the men and women in special operations. I look 
forward to your questions.
    [The prepared statement of Admiral McRaven follows:]
           Prepared Statement by ADM William H. McRaven, USN
    Madam Chairwoman and distinguished members of the subcommittee, 
thank you for this opportunity to address you, the third in my tenure 
as the 9th commander of U.S. Special Operations Command (SOCOM).
    SOCOM is one of nine Unified Combatant Commands, yet distinct in 
its numerous Service, military department, and defense agency-like 
responsibilities. Under title 10, U.S.C., sections 164 and 167, it is 
my legal responsibility, as SOCOM Commander, to organize, train and 
equip my force. This includes building a strategy that supports the 
goals and objectives of the Defense Strategic Guidance and providing 
combat ready forces to the President and the Secretary of Defense. Our 
mission remains to provide trained, equipped, ready, and regionally 
aligned Special Operations Forces (SOF) in support of geographic 
combatant commanders (GCCs), and through unified action, conduct 
sustained special operations to eliminate threats to U.S. interests and 
protect the American people. I am greatly appreciative of the continued 
support from Congress and this committee in particular. We welcome the 
opportunity to update the members of the Senate with our current 
posture.
    As it stands today, my force is comprised of 66,000 men and women. 
On any given day, our SOF are deployed in over 75 countries, in many 
cases working side-by-side with multiple interagency and international 
partners. Our unique contribution to national security emanates from 
our superb SOF warriors, who time and time again demonstrate their 
dedication to duty, tenacity, and unwavering commitment to the security 
of our Nation. Since September 11, our operations, ranging from 
peacetime engagement and building partner capacity, to direct action 
raids and irregular warfare, have contributed significantly to not only 
our own national security, but global stability at large. As their 
commander, I will forever be grateful for the contributions of these 
fine men and women and their families who support them.
                         generational conflict
    Our Nation and its allies are engaged in a generational conflict. 
Our most extreme adversaries largely consist of individuals and 
organizations that are irreconcilable to a non-violent ideology. 
Terrorism and extremism are problems that we will have to deal with for 
some time to come. We face unprecedented challenges from an 
increasingly complex operating environment filled with agile, rapidly 
adapting belligerents--adversaries that we expect to be even more 
innovative and asymmetric in their approach to conflict in the years 
ahead.
    Complicating the global situation are some key trends shaping the 
strategic security environment: the redistribution and diffusion of 
global power; the rising role of non-state actors; the easy access to 
advanced technology--especially information technology; shifting 
demographics--specifically the rapid growth and expansion of the urban 
environment; and the improving, yet still fragile economic health of 
the United States and its partners. Modern interconnectivity ensures 
that instability and conflict will not often be constrained by 
geographic boundaries. There is no such thing as a local problem. Local 
issues quickly become regional, and regional issues inevitably have 
global influence.
    Afghanistan is a prominent example of this. Their security 
infrastructure is still fragile, and under constant threat from 
multiple groups. Although the Afghan Army is leading operations there, 
and the Afghan Local Police have grown in size and capability to foster 
stability in dispersed villages, there is more work to be done.
    In Yemen, al Qaeda in the Arabian Peninsula continues to find 
ungoverned spaces from which to operate and from which to stage attacks 
and promote their violent ideology. In Northwest Africa, al Qaeda in 
the Islamic Maghreb, al-Murabitun, al-Shabaab, Boko Haram, and other 
violent extremist groups are fighting to expand their influence, 
destabilize communities, and discredit weak governments.
    In the Levant, the flow of foreign fighters into Syria is 
unprecedented, even compared to what we saw in Iraq. The experience 
they gain will threaten future regional stability and feed violent 
extremist organizations as they flow back out of that civil war and 
threaten our allies and partners in the Middle East, Europe, and 
beyond. In the Pacific, growing tensions between regional powers raise 
the risk of miscalculation.
    In the Western Hemisphere, alliances between transnational criminal 
organizations, violent extremist organizations, and state leaders 
create corruption and threaten governments' stability. Growing 
relationships between terrorist organizations and human smuggling 
networks present new opportunities to move terrorists and contraband 
around the world undetected via smuggling routes. The challenges the 
United States and its allies face from transnational violent extremist 
organizations require a global approach and a global perspective to 
counter a global threat.
                         persistent engagement
    Active, forward engagement is the foundation of this global Special 
Operations approach, and represents the comprehensive, layered defense 
required to isolate violent extremist networks and prevent adversaries 
from conducting successful operations against the homeland, U.S. 
interests, and our allies. In accordance with Presidential and 
Secretary of Defense guidance and in coordination with the Department 
of State, we continue to forge relationships with partner nations, 
where augmenting the capability of local forces equates to perhaps the 
most cost-effective way of deterring adversaries worldwide and 
protecting American citizens abroad. While doing so, we remain 
committed to human rights vetting and the safeguarding of civil 
liberties throughout these military and strategic alliances.
    Our SOF engagement takes place in the Human Domain--the totality of 
the physical, cultural, and social environments that influence human 
behavior in a population-centric conflict. The Human Domain is about 
developing an understanding of, and nurturing influence among, critical 
populaces. SOF is uniquely suited for operations that win population-
centric conflicts, oftentimes, and preferably, before they start.
    Chairman Dempsey has said that successfully confronting tomorrow's 
national security challenges requires ``building a stronger network to 
defeat the networks that confront us.'' Networks are rooted in 
relationships, and building global relationships requires trust. At its 
foundation, relationships can only be achieved by persistently engaging 
with willing partners. Increased understanding, trust, and influence 
are vital to preventing miscalculations and protracted conflicts. 
Proactive, relationship-based approaches grow through effective, 
enduring partnerships and globally-agile, forward-deployed or forward-
based SOF. SOF can achieve these strategic ends with a small footprint, 
while not constituting an irreversible foreign policy decision.
    However, no matter how much we engage regionally and globally and 
seek peaceful paths to stability, we will inevitably find ourselves 
facing irreconcilables, bent on organizing and executing operations 
against our Homeland, interests, and allies. Defeating organizations 
like al Qaeda, its affiliates and adherents, requires persistent 
pressure against their critical requirements, capabilities, and 
resources. It requires the removal of key leaders, denying/disrupting 
safe havens, severing connectivity between extremist nodes, challenging 
violent ideology, and offering alternatives to potential recruits. When 
we remove pressure, we see them metastasize, regionally and globally. 
To that end, we must maintain the world's premier capability to conduct 
global, full-spectrum direct action--unilaterally if required. Our 
ability to proactively apply pressure and, when required, respond 
quickly with decisive action requires access; and access requires 
active forward engagement by the interagency team.
                         organized for success
    In order to have persistent engagement, we need to be organized for 
success. Our organization must be prepared to employ the guidance we 
receive from the President, the Secretary of Defense, and the Chairman. 
In his May 2013 speech on U.S. Counterterrorism policy, the President 
said, in part:

          ``Beyond Afghanistan, we must define our effort not as a 
        boundless global war on terror, but rather as a series of 
        persistent, targeted efforts to dismantle networks of violent 
        extremists that threaten America.''

    Our strategy is further informed by the current Defense Strategic 
Guidance, which directs the Joint Force of the future to be agile, 
flexible, ready, and use innovative, low-cost, and small footprint 
approaches. The Secretary and the Chairman also issued guidance for 
SOCOM to develop a campaign plan to achieve strategic end states and 
persistently align SOF capability and provide SOF support to GCC 
requirements.
    Additionally, the ``Forces For'' Unified Commands Memorandum (which 
assigns forces to U.S. commands across the globe), signed by the 
Secretary of Defense in 2013, gives SOCOM Combatant Command authority 
over the Theater Special Operations Commands (TSOCs)--units assigned to 
each of the seven combatant commands (e.g., U.S. European Command, U.S. 
Pacific Command). SOCOM's management of the TSOCs establishes the 
global agility necessary to support the GCCs with the correct mix of 
SOF capabilities at the right time and place. It is with this national-
level guidance that we have sought to strengthen our global SOF network 
of allies and partners.
    In September 2013, SOCOM hosted a Global Synchronization 
Conference. The GCCs gathered in our headquarters to review and discuss 
SOCOM's plan to align capability and support their steady-state 
requirements and national objectives; the visiting commanders' feedback 
was overwhelmingly positive. Our plan aims to protect the American 
homeland through an active, layered defense by sustaining special 
operations forces forward to engage partners and proactively deter, 
prevent, and when necessary, defeat threats to the United States.
    In order to meet these objectives, we are taking four specific 
actions. First, as we draw down from Afghanistan, we are redistributing 
those forces across the combatant commands to better meet the needs of 
the regional military commanders. Second, we are in the process of 
realigning our CONUS-based forces to focus more closely on regional 
problem sets, ensuring that our personnel are true experts in the 
terrain, languages, and cultures in their respective areas of 
responsibility. Third, we are establishing subordinate task elements 
who have a high-end counterterrorism capability under each Theater 
Special Operations Command. Finally, to tie it all together, we have 
implemented a daily coordination system of enterprise-wide video 
teleconferences to share information across the global network and 
synchronize effects. The network is now truly beginning to perform to 
its potential. As the global synchronizer for the planning of global 
operations against borderless terrorist networks, SOCOM can provide a 
sustained level of effort regionally and link those efforts to create 
global effects.
    None of this can be accomplished without resources, and we are 
pleased that the recent passage of the Bipartisan Budget Act (BBA) 
safeguards both Command readiness levels and SOF's current 
capabilities; we thank you for this stability. After a rigorous Program 
Budget Review, SOCOM's budget is not expected to reach the levels 
projected in the 5 year budget plan submitted by the President last 
year. But, despite current fiscal austerity and force drawdown, the 
Office of the Secretary of Defense has recommended that SOF grow to 
69,700 personnel from roughly 66,000 today. These numbers reflect 
Congress' and the Department of Defense's (DOD) intent to rebalance the 
Nation's defense, which began with the 2006 Defense Quadrennial Review.
    In order to maintain a global SOF network compatible with Defense 
Strategic Guidance, SOCOM's programmed manpower plan is essential. 
Preserving our current level of resource flexibility within investment 
accounts cannot be overstated. SOCOM relies heavily on Overseas 
Contingency Operations (OCO) funding today, with the National Mission 
Force, in particular, funded with 67 percent of OCO. In addition, we 
remain reliant on the Services for logistics, installations services, 
combat service support in forward deployed locations, and institutional 
training and education. We look forward to working with Congress to 
maintain a sustainable long-term funding stream.
    We are engaging with the conventional forces as they adapt to 
strategic guidance in their own ways. We are coordinating with the 
Army's effort to regionally align their forces, the Navy's push to 
revitalize the maritime proficiency of their SOF after over a decade of 
land-centric operations, and the Air Force's focus on development of 
Intelligence, Surveillance, and Reconnaissance (ISR) capabilities. We 
are collaborating with the Chief of Naval Operations and the Commandant 
of the Marine Corps to provide special operations forces liaison 
elements to deploying Marine Expeditionary Units/Amphibious Readiness 
Groups. These teams will provide enhanced capabilities to the GCCs by 
leveraging our enduring partnership with the U.S. Marine Corps.
    We continue to strengthen our relationships with our interagency 
partners, whose collective support is absolutely essential to our 
operations. Special Operations are but one part of a tremendous team of 
interagency partners, including the Departments of State, Justice, 
Homeland Security, Treasury, the Federal Bureau of Investigation, the 
Intelligence Community, and many others that are keeping our Nation 
safe. One of our most significant partners is the National Security 
Agency (NSA). We could not perform our counterterrorism mission without 
the NSA--period! The work these incredible professionals do every day 
in defense of this Nation is inspiring. I could not be more proud to be 
associated with these great Americans. In order to ensure SOCOM's 
actions are fully coordinated with this interagency team, we maintain a 
robust network of special operations support teams with many of our 
partners, as well as maintaining liaison officers from those agencies 
at our headquarters in Tampa.
    Our ability to organize for success would be impossible without my 
unique authority, by law, to equip my force with SOF-unique 
capabilities through my Acquisition Executive and Special Operations 
Research, Development, and Acquisition Center. SOCOM is developing 
several acquisition programs needed to carry out the strategic guidance 
we have been given. Our priorities in fiscal year 2014 will include 
equipping SOF operators as a system; recapitalizing and procuring new 
air, ground, and maritime platforms; and ensuring we have the 
communications infrastructure and equipment to sustain operations.
    SOCOM will build upon our ability to provide 24/7 ISR throughout 
the full spectrum of operations. We continue to modify our wide variety 
of manned aircraft with the latest in sensor technologies. For unmanned 
systems, to meet current and emerging threats, SOCOM will rely on 
longer endurance platforms which include a fleet of extended range MQ-9 
Reapers. We will use our rapid acquisition capabilities to ensure they 
are responsive to the needs on the battlefield.
    We are recapitalizing our venerable C-130 fleet. The AC-130J 
program, which will eventually give the entire fixed-wing gunship fleet 
the latest in close-air support capabilities, started flight test. In 
2013, the multi-mission MC-130J program delivered nineteen aircraft and 
is on track to replace our aging MC-130H penetrator and MC-130P tanker 
fleets.
    Also, to ensure the SOF operator has the required agility for 
future security environments, we have initiated the procurement of a 
new Ground Mobility Vehicle. This vehicle can negotiate challenging 
terrain and, importantly, is internally transportable via our SOF 
rotary-wing aircraft. We are fielding a new fleet of surface maritime 
mobility craft, including the continued deliveries of the Combat Craft 
Assault platforms, and the down select to the final Combatant Craft 
Medium platform. Additionally, we continue the development of new 
subsurface maritime craft through the Shallow Water Combat Submersible 
and Dry Combat Submersible efforts.
    Enterprise-wide, we recognize a need to expand communications 
infrastructure, especially with respect to ISR data. Spurred by 
conflict over the last 13 years in the U.S. Central Command area of 
responsibility, the United States has invested heavily in a robust 
terrestrial network of fiber optic cables and other equipment that 
transports massive amounts of information to and from Southwest Asia. 
As we draw down in Afghanistan, SOF Airborne ISR assets will likely 
shift to areas lacking that robust terrestrial network. In response, we 
continue to pursue a DOD-wide, joint airborne ISR data transport 
enterprise that is both cost efficient and capable of supporting any 
ISR asset, independent of platform or sensor.
    SOCOM also continues to pursue game-changing technologies, 
utilizing a process that allows better synchronization of SOF-related 
technology initiatives with government agencies and other technology 
developers. For fiscal year 2014, SOCOM is focusing on strategic, long-
term technology development efforts in order to enhance protection and 
survivability for our operators through advanced materials and methods. 
This includes hardware that augments human physical and sensory 
capabilities, improves the precision and lethality of existing weapon 
systems, and improves situational awareness.
    For instance, the Tactical Assault Light Operator Suit (TALOS 
project--referred to by some as the ``Iron Man Suit'') represents our 
Nation's outstanding efforts to leverage emerging technology to ensure 
that our SOF operators are protected to the maximum extent possible. 
Equally important, the project has the potential to drive improvements 
in how we do acquisitions by fostering new collaborative development 
models within industry. By teaming with a wide range of corporations, 
government agencies, universities and national laboratories, the TALOS 
project is leveraging the expertise of leading minds throughout the 
country to redefine the state of the art in survivability and operator 
capability. SOCOM continues to streamline its acquisition processes to 
achieve maximum outputs at lowest acquisition cost, while maintaining 
its reputation as the DOD's premier rapid acquisition organization. We 
appreciate Congress' support for these programs so we can accomplish 
the strategic goals the President has set for us.
                  people--our most important resource
    We will never be able to organize for success if we don't take 
great care to preserve our force. Perhaps our most enduring and 
important SOF truth is that ``humans are more important than 
hardware.'' While the high-tech gear is critical to our success, we are 
also masters of the low-tech--the operator who can be cold, wet, 
miserable, and in harm's way, but persevere to accomplish the mission. 
Everything we do as a command is entirely dependent on those highly-
skilled people that make up the Special Operations community, and those 
highly-skilled people rely on strong family support in order to operate 
forward in complex environments.
    Preservation of the force and families, commonly known as POTFF, is 
therefore our number one priority here at home! The welfare of these 
brave servicemembers and their families is critical to our command's 
readiness and our ability to accomplish the mission. It is also a moral 
imperative. We demand the best from our people and in return have an 
obligation to provide the best care, education, equipment, and training 
to them. We are grateful to Congress for passing into law section 554 
of the National Defense Authorization Act for Fiscal Year 2014, which 
authorizes us to support family programs by finding innovative 
solutions to meet their unique needs.
    Over the past year, SOCOM has made tremendous strides in developing 
an integrated series of capabilities to build and preserve the fighting 
strength of the SOF warrior and assure the well-being of their 
families. We are approaching this endeavor via multiple lanes, 
combining mental, physical, social, and spiritual aspects into a 
holistic approach. Building and preserving the resilience of our 
warriors and their families ensures SOF mission readiness and 
functional capability.
    Looking to leverage innovative ways to not only care for our 
warriors, but improve their performance, we have expanded our evidence-
based Human Performance Program (HPP) to the entire force. This is not 
a separate medical system--far from it. We continue to get outstanding 
medical support from our Service partners.
    The HPP is designed to meet the unique physical needs of SOF 
operators, who operate in a variety of austere environments with harsh 
terrain and carry specialized equipment that requires peak physical 
conditioning. Our SEALs and special boat operators may parachute into 
the ocean and conduct an over-the-horizon swim in 60 degree water 
temperatures while dragging heavy equipment one day, then patrol 
several miles through dense jungle to conduct a reconnaissance mission 
the next. Our Green Berets may be called on to infiltrate independently 
into a denied area and traverse rugged terrain at altitudes of over 
8,000 feet with over 100 pounds of gear on their backs in order to link 
up with an indigenous force. Our special mission units often conduct 
high-altitude low-opening parachute jumps from over 18,000 feet, with 
oxygen, and then assemble and conduct a ground movement to the target 
area. These unique, varied activities tax the human body in 
extraordinary ways and require tailored physical conditioning, before, 
during, and after their operations.
    This conditioning is accomplished in part through a comprehensive 
``pre-habilitative'' physical training program, developed and led by 
certified professionals. It involves focused strength and conditioning, 
performance nutrition, and physical therapy. The idea is to provide a 
``tunable'' program that can deliver specific, enhanced areas of 
performance to individual SOF units. Where it previously existed as a 
conceptual model, it is now available to all SOF operators. We continue 
to develop best practices and metrics to support the validity and 
effectiveness of the program. The net result is improved readiness and 
reduced healthcare costs through early intervention, rapid 
rehabilitation, and injury reduction. This program is vital to the 
readiness and resiliency of our force and ensuring mission success in 
the most demanding environments.
    The Command's Psychological Performance Program has also developed 
substantially over the past year. We have embedded behavioral 
healthcare professionals throughout the SOF enterprise and this 
proximate presence has made a tremendous difference to the 
servicemembers and their families. Commanders have related how the 
skill and accessibility of these professionals has saved lives and they 
now view these care providers as integral members of the command's 
staff. The constant, embedded presence of the behavioral health staff 
is also breaking the stigma associated with seeking care.
    We need these specialists more than ever because suicides continue 
to be a challenge. While the Department saw a marked decline in 
suicides this past year, the SOF community's rate remained tragically 
steady. Accordingly, we are redoubling our efforts to ensure that our 
leaders are fully engaged with their personnel. As such, we are working 
with DOD and academia to provide additional training and resources to 
arm leadership, providers, and chaplains with the knowledge and 
understanding they need to help prevent further loss of life. Full 
application of the POTFF initiative will build within our operators the 
resilience they require to deal with the stress we put upon our force.
    In addition to our focus on psychological, physical, and mental 
health, we are striving to provide the GCCs the most educated SOF 
operators possible to support their objectives. Our operators require 
the ability to rapidly think, assess, and respond at the tactical level 
while always considering strategic implications. In addition, they 
require advanced cognitive skills that enable them to interpret 
regional activities in the context of a complex world.
    These skills are developed through advanced education, in concert 
with language training and regional proficiency, providing the SOF 
operator with comprehension and reasoning abilities that enable true 
regional expertise. We continue to work with our Service partners to 
ensure these education efforts are not duplicative, but are ``SOF 
specific.'' One way in which we achieve this is through Joint Special 
Operations University, which last year taught over 8,000 students, to 
include SOF and non-SOF, military and civilian, international partners 
and U.S. members alike, through both resident and distance learning SOF 
education programs.
    Lastly, we are in the process of implementing the Secretary of 
Defense's guidance to integrate women in all combat military 
operational specialties no later than January 2016. We have had women 
attached to our combat units for several years, serving with Cultural 
Support Teams, Civil Affairs, Military Information Support Teams, 
Intel, and a host of other occupational specialties and they have 
performed magnificently. While we are still assessing the feasibility 
of including women in certain combat specialties, we have already begun 
to fully integrate them into our SOF aviation career field.
                          we can't do it alone
    Even as we produce and develop a force that is organized for 
success, capable of persistent engagement, and prepared for enduring 
conflict, we can't do it alone. While we must maintain unilateral 
capabilities, a partnered approach with local civilian and military 
forces will always be the most effective bulwark against global, 
borderless threats. To that end, we are working to engage with the 
right partners, with the right training, connected and enabled in the 
right way.
    We are expanding our network of foreign liaison officers to create 
a sense of community with the interagency, allies, and partner nations. 
Currently, ten partner nations are integrated into the SOCOM 
headquarters and are working side-by-side with our staff on global SOF 
network matters. These officers serve as the ``connective tissue'' to 
our allied counterparts. Our ability to collaborate with partners must 
be supported by a robust communications infrastructure, and we need to 
seek opportunities and approvals to expand tactical intelligence 
sharing with those partners willing to pursue like-minded objectives.
    In 2013, joint exercises with Kenyan and Ugandan forces led to 
increased counterterrorism capabilities in their fight against al-
Shabaab. Similarly, SOF assistance to Jordan and Lebanon lessened the 
impact of Syrian refugees on host communities. In Latin America, SOF 
contributed to efforts to counter transnational criminal organizations 
in Colombia and El Salvador.
    Additionally, Section 1208 authority has been absolutely critical 
to our current and future efforts against al Qaeda and organizations of 
their ilk. It provides us the ability to apply a modest portion of our 
annual budget to deliver critical enablers to select irregular forces, 
groups or individuals, directly involved in the terrorism fight. This 
authority uniquely provides SOCOM with access and skill sets in 
locations where we may not otherwise be able to operate, subject to the 
Secretary of Defense granting specific operational authority. This 
authority uniquely provides SOCOM with access and skill sets in 
locations where we may not otherwise be able to operate, subject to the 
Secretary of Defense granting specific operational authority. The 
strategic value of enabling and leveraging such forces to carry out 
tactical operations alongside, or even in-lieu of, U.S. forces cannot 
be overstated. We are appreciative of Congress' support for this 
authority since 2005, and are hopeful for continued support.
    In summary, I believe we are involved in a generational conflict, 
one which requires persistent forward engagement to provide a layered 
defense and the ability to respond rapidly if a regional crisis occurs. 
To be successful in our fight against extremism and other threats to 
the United States, we must be organized for success, we must partner 
with those allies and friends who have mutual interests, and above all 
we must take care of our people--now and in the future.
    I thank you for your continued support of our entire SOCOM family--
individuals committed to the safety and security of our great Nation. 
These proud warriors and their families rely on your support to 
accomplish the great things they do each and every day to ensure our 
Nation's security and way of life.

    Senator Hagan. Thank you to both individuals. Thank you so 
much for your statements and what you do for our country.
    I do want to go ahead and begin the questions and we will 
have 6-minute rounds.
    While efforts were made to protect the SOF capabilities in 
the fiscal year 2015 budget, I understand SOCOM did sustain 
significant cuts in relation to what it had planned prior to 
the Budget Control Act and the Bipartisan Budget Agreement, 
possibly most notably in your opening testimony the leveling 
off of the SOCOM growth from currently 69,700 personnel, almost 
3,000 fewer than had been previously planned.
    Admiral McRaven, what is the impact of these cuts to the 
SOF capabilities, particularly with regard to the organic 
enabling capabilities like combat support and combat service 
support? Under the Opportunity, Growth, and Security 
Initiative, DOD has proposed $26 billion above the fiscal year 
2015 budget request for various readiness, acquisition, and 
installation support activities pending the availability of 
additional funds. So in conjunction with both of those, how 
much of that $26 billion would be for SOCOM versus other 
purposes?
    Admiral McRaven. Yes, ma'am. The leveling off at 69,700 
will mean that we are going to have to prioritize our efforts 
globally. We had built a plan based on 72,000, so now it is 
just a function of making sure we can continue to meet the 
priority demands globally. I think we can do that with the 
current level of effort of 69,700.
    The initiative you were referring to as the passback, we 
will get approximately $400 million for SOCOM and most of that 
money I will place back into readiness. So it is important for 
us to make sure we are maintaining our readiness as we continue 
to project forces around the world. As was mentioned earlier, I 
think this week we are actually in 84 countries around the 
world. We have approximately 7,000 people deployed globally 
right now, and we think that, and possibly more, is going to be 
an enduring requirement.
    I will add one more thing, ma'am. The cuts to us or the 
leveling, if you will, to 69,700 is important and again I think 
we can prioritize our efforts. Where I am concerned is the cuts 
to the broader services. As you pointed out in your opening 
comments, ma'am, we get our enablers, most of our enablers, 
from the Services. We get a lot of our readiness support from 
the Services as well, so they will provide us F-18s for our 
joint tactical air controllers to work, they will provide us 
our ship steaming hours for our SEALs to go underway. So the 
cuts to the Services absolutely affect SOCOM.
    Senator Hagan. Thank you.
    Over the past 12 years, DOD has built and sustained a 
number of enduring capabilities using OCO. Without a transfer 
of funding from OCO to the base budget in the coming years, 
much of these capabilities could be lost. The problem is 
especially acute for the SOF. Admiral McRaven, you testified 
that SOCOM relies heavily on OCO funding today with the 
National Mission Force, in particular funded with 67 percent 
from OCO.
    To both of you, given the downward pressures on the base 
budget, how does DOD plan to transition funding for SOCOM's 
enduring requirements from the OCO budget to the base budget in 
future years?
    Mr. Lumpkin. Ma'am, I work regularly with the Comptroller 
and the leadership in DOD to make sure not only that they, one, 
understand the reliance of SOCOM on the OCO funding, but to do 
whatever possible we can to transition OCO moneys to base 
moneys to support long-term operations. So we are working 
through the issue. It is quite complicated, as you are aware, 
but it has everybody's attention. We are doing what we can to 
make it.
    Senator Hagan. Can you put that in dollars to me versus the 
percent? How much money are we talking about?
    Mr. Lumpkin. Do you know, Admiral?
    Admiral McRaven. I do, yes, ma'am. We have about $2.4 
billion of OCO that goes on top of our about $7.8 billion in 
base.
    Senator Hagan. That's 2.4 billion?
    Admiral McRaven. $2.4 billion is what we get in terms of 
OCO that goes into our total budget. So, yes, ma'am, that does 
become a concern when that money is not available. As you 
pointed out, the majority of that--I will qualify that. The 
National Mission Force, about 60-plus percent of their 
readiness, their O&M money, comes from that OCO.
    Senator Hagan. Admiral McRaven, in your opening comments 
you talked about POTFF. You have focused a great deal on that 
effort, which I appreciate, and I am sure it certainly has made 
a difference to the stress on our special operators and their 
families. I am proud that in fiscal year 2014 we authorized $5 
million for up to three pilot programs to assess the 
feasibility and benefits of SOCOM by directly providing this 
family support services.
    Do you believe the families of the special operators face 
specific SOF challenges when compared to other military 
families?
    Admiral McRaven. Ma'am, I would say the challenges that the 
SOF families face are very similar to the Services' families. I 
wouldn't distinguish between the two. But what we have looked 
at is, we are partnered with the Services in all of our family 
programs, so we work very closely to make sure that if a 
Service has a family readiness program or a family resiliency 
program in the area we will absolutely send our members there.
    However, what we are finding is, because of the increase 
and the sustained rate of deployment for our SOF 
servicemembers, their families, I think, over time will face 
additional stresses as their servicemembers continue to be 
deployed for the foreseeable future.
    Senator Hagan. Of the pilot programs, how are they working? 
Do you have any examples?
    Admiral McRaven. Ma'am, we have not started those yet. We 
will start those now. This year we are beginning to take a look 
at the pilot programs. Now, we have a number of resiliency 
programs with other organizations. We are tapping into some of 
the resiliency programs within the Services. So with this money 
we are building the programs and we are beginning to implement 
them this year.
    Senator Hagan. Thank you. I do think that OCO funding is 
going to be a huge issue.
    Senator Fischer.
    Senator Fischer. Thank you, Madam Chairwoman. If I could, I 
would like to follow up on a number of the points that you 
brought up.
    Admiral, when we talk about the size of the force from the 
projected 72,000 to the 69,000, where do you accept the 
greatest risk when you're looking at not meeting that original 
number?
    Admiral McRaven. Yes, ma'am. Over the course of the last 
few years we, SOCOM, have been working with the geographic 
combatant commanders and recognizing that the war in Iraq was 
over and that we were drawing down in Afghanistan, we have 
worked with them to develop a plan to reapportion the forces 
that are coming back from Iraq and Afghanistan to support their 
needs.
    So, as we look at the areas where we are centering most of 
our effort, we will continue to be heavily focused in the U.S. 
Central Command (CENTCOM) region. We are probably putting more 
effort now into Africa than we have in the past. We are 
reinforcing our efforts in Latin America and in Europe. Then, 
of course, we are continuing to pivot as best we can to Asia.
    What I am having to do, of course, is to prioritize our 
resources. What I would tell you, though, is that 
prioritization is sometimes dependent upon the host nation's 
desire to accept available force. So, I will have the available 
force, I think, even with the 69,000. The challenge is going to 
be whether or not the host nation wants to have an SOF 
footprint in their country. That, of course, is all about the 
geographic combatant commanders and the Chiefs of Mission and 
how they are able to work with the partner nations to make that 
happen.
    But I will have an available force of about 12,000 to 
13,000 that we can deploy globally for 365 days a year, and 
that is the force that has been built up really since 2001. We 
have been fortunate that as we have doubled the size of the 
force from 33,000 now to coming up on 69,000, so there is 
available capacity out there.
    We will still have to prioritize. I do not want to mislead 
you.
    Senator Fischer. But you are talking about how you are 
going to prioritize. When you look at the other Services and 
the proposals there to sacrifice manpower--you folks are very 
dependent on the other forces. You alluded to that in your 
earlier comments about the planes. We need the guys with the 
planes, we need the guys with the bases. When we look at the 
other Services that are going to be cutting manpower, how does 
that affect you guys and the added risk that your forces are 
going to face because of the enablers?
    Admiral McRaven. Yes, ma'am. Great question. To be honest 
with you, I am not sure we know just yet. I think we will have 
to see how the Services take their cuts and how those cuts 
influence support to SOCOM. Intuitively, we recognize that as 
the Services begin to draw down there will be less of some 
specific military operational specialties (MOS) that we think 
we will need. I have a tremendous partnership with the Service 
Chiefs and with the geographic combatant commanders. So as they 
draw down and the geographic combatant commanders make their 
demands known for SOF and for the conventional forces, we are 
all partnered together to make sure that we are shaping the 
force as best we can to meet the demands of the geographic 
combatant commanders.
    Senator Fischer. You are continuing to coordinate with the 
other Services as well?
    Admiral McRaven. Yes, ma'am, absolutely. Almost daily.
    Senator Fischer. When they're looking at their future 
plans, they are tying in your prioritization as well?
    Admiral McRaven. Yes, ma'am.
    Senator Fischer. So that you can still meet the mission 
that you have?
    Admiral McRaven. Yes, ma'am. To clarify, though, my 
priorities are really based on the priorities from the 
geographic combatant commanders. So I do not prioritize the 
force. What I do is I request input from the geographic 
combatant commanders. My job as the supporting commander is to 
provide them forces.
    Now, there does come a time when I run out of forces, and 
so I have to work with the geographic combatant commanders and 
the Services to do the best we can. But the priority is from 
the geographic combatant commanders.
    Senator Fischer. Do you look at those guys and do you 
discuss with them what that level is that they need to have in 
order for you to perform your mission?
    Admiral McRaven. Yes, ma'am, absolutely.
    Senator Fischer. You feel confident that the numbers that 
are being put forward now, that those missions can still be 
performed?
    Admiral McRaven. Yes, ma'am. I am confident right now that 
with the 69,000 we will be able to meet the majority of those 
missions. Now, again, it depends----
    Senator Fischer. But also with the other Services?
    Admiral McRaven. With the Services. Yes, ma'am.
    Senator Fischer. With their cuts in manpower are you going 
to be able to meet this?
    Admiral McRaven. I think it is unknown at this point in 
time. Again, I would tell you that intuitively I would say we 
are going to be strained on some of the key enablers, but 
empirically I am not sure I can give you an answer just yet 
until we see how those cuts manifest themselves.
    Senator Fischer. If you are constrained that is going to 
determine then where your forces are going to be deployed. You 
mentioned not just the Middle East, but also Africa and the 
pivot to the Far East as well.
    Admiral McRaven. Yes, ma'am.
    Senator Fischer. So, that will affect your mission.
    Admiral McRaven. Yes, it will, yes, ma'am.
    Now, what we are doing is we are partnering very closely 
with the respective Service components in a region. For 
example, I have a Theater Special Operations Command in Africa 
who is partnering with Army Africa to make sure that we are 
able to give General Rodriguez the very best capability that he 
needs. So we are exchanging things. I may not have enough 
special operations helicopters, but Army Africa has a combat 
aviation brigade that has helicopters that will do the job. So 
again, we are partnering in those areas where we have a delta 
and they have a surplus, to get the best package available.
    Senator Fischer. Thank you, sir.
    Thank you, Madam Chairwoman.
    Senator Hagan. Senator Nelson.
    Senator Nelson. Thank you, Madam Chairwoman.
    Gentlemen, thank you for your service to our country.
    Following up on Senator Fischer's comments, take for 
example the Air Force's plan of 55 steady-state drone patrols. 
Is that going to be enough for you for your ISR needs?
    Mr. Lumpkin. If my understanding is correct, the SOCOM 
requirement is 44 what they call Combat Air Patrols (CAP). 
These are the orbits. The reduction is going to have an effect, 
the Air Force reduction, on support of SOCOM. They can source 
15 CAPs organically, SOCOM, based on reprioritization of 
aircraft and movement. But that puts a significant burden on 
the Air Force, and their downsizing will have an impact.
    We are still looking through what that will look like and 
the scope and regionally where it will be. One of the 
challenges we see as the threat disperses globally and takes on 
farther reaches, it makes it harder to get places. Basing for 
those remotely piloted aircrafts (RPA) becomes more difficult 
as you spread them across the globe. Your orbits do not always 
have the same impact as they do in a more concentrated area.
    Anything you'd like to add, Admiral?
    Admiral McRaven. No, thank you.
    Senator Nelson. When we pull out of Afghanistan, do you 
feel confident that you can keep enough SOF in the area so that 
if, for example, something happened that we had to go back in, 
that we can do it on a quick turnaround and get back in?
    Mr. Lumpkin. Thank you, Senator. From a policy perspective, 
as we look at the absence of a Bilateral Security Agreement 
(BSA), is what I am understanding you are asking the question 
about, the absence of one will make things significantly more 
difficult to conduct the counterterrorism operations that SOCOM 
and CENTCOM work in conjunction with the interagency.
    Options are being looked at on what that would look like. 
But it becomes significantly more problematic on how we would 
do business and to meet the threats to this Nation without a 
BSA.
    Senator Nelson. With the new demands that you have spoken 
of with regard to Africa, Latin American, and so forth, how can 
you take the reduction from some 70,000 down to 69,000? How can 
you deploy those forces in a way that you're meeting these 
expanding threats?
    Admiral McRaven. Yes, sir. Again, it comes to 
prioritization and access. These are the real two issues. So if 
a geographic combatant commander has a priority and I have the 
available force, which at 69,000 I will have the available 
force, then I can obviously prioritize it to him. One of the 
areas where again it becomes a little bit of an unknown for us 
is the access that we may be granted by a particular nation. 
The great thing about SOF is we are a small footprint, we are 
low cost. You can put a small Special Forces detachment in 
there or a SEAL platoon in there that I think gives you great 
return on your investment. If the policymakers decide that they 
do not like the direction we are heading, it's pretty easy to 
reverse the decision and pull them out.
    So that is fungible across the globe. Having said that, 
there are a lot of nations where we are prepared to provide 
forces to that may or may not be willing to accept them. The 
plan we have developed makes the assumption that a lot of these 
nations will be willing to work with us and partner with us, 
and that is how we have built our plan for the future.
    If that turns out to be a bad assumption in some cases, 
then we may have more or less depending upon what the demand 
signal is of SOF.
    Senator Nelson. Have some of the rough patches of several 
years ago between SOF and the Central Intelligence Agency (CIA) 
being in various locations around the world where the question 
was a conflict and how all of that relates to the Chief of 
Mission, has that been smoothed out in the last 2 or 3 years?
    Mr. Lumpkin. From my personal experience, to see where we 
were when I was in uniform in 2001 to where we are today, the 
relationship has grown significantly and we are in lockstep, 
especially when you get outside the Beltway. Things get better. 
When you are forward in the operational areas, the relationship 
is good. There is natural tension here in the Beltway, but our 
relationship with CIA leadership is good. I see more things 
playing out in the press than the tensions I feel working with 
the leadership here in the city.
    Senator Nelson. Thank you.
    Admiral McRaven. Sir, I would even go so far as to say our 
relationship with the CIA is fabulous. I have been on the 
ground with the Agency continuously for the last 10 or 12 years 
and I will tell you they have magnificent intelligence 
officers. We are partnered not only at the Chief of Station 
level, but at the Chief of Mission level, in many of the 
nations we talked about. We have personal and professional 
relationships that were brought together under fire. I have 
never seen them this good and I have a great personal and 
professional relationship with Director John Brennan.
    So it is the best I have ever seen in my 37 years of doing 
this business, sir.
    Senator Nelson. Thank you.
    Senator Hagan. Senator Graham.
    Senator Graham. Thank you both.
    If we went to the zero option in Afghanistan for whatever 
reason, Admiral McRaven, what do you think would happen?
    Admiral McRaven. Sir, I am not really in the business of 
speculating, but if we go to a zero option I am concerned that 
we will have a rise of al Qaeda. So I think we need to be 
clear-eyed about the fact that al Qaeda still operates, 
admittedly in a much less virulent strain, in the Federally 
Administered Tribal Areas. Of course, we see some al Qaeda 
pockets up in the northern provinces of Kunar and Nuristan.
    I think we are doing a pretty good job right now, both the 
military and the interagency, of keeping them at bay, keeping 
their heads down. I think that requires continuous pressure. I 
would be concerned that if we went to a zero option, as 
Secretary Lumpkin said, it would make that a lot more 
challenging. Does it mean that we could not do it? No, sir. I 
think we would find a way to keep the pressure on. But it would 
make it significantly more challenging.
    Senator Graham. I agree with President Obama when he says 
that we cannot leave any troops behind without a BSA. That is 
just a terrible spot to put our folks in. So I hope we can get 
a BSA.
    If we don't have a significant capacity for at least a 
while in Afghanistan, I could see this thing turning pretty 
badly against us, and I hope we can avoid that.
    Secretary Lumpkin, do we have the authority legally under 
the Authorization for Use of Military Force (AUMF) or other 
authorities to deal with al Qaeda threats that are emerging 
throughout Africa and in Syria?
    Mr. Lumpkin. If it is, again, one of those al Qaeda 
affiliates, then the AUMF gives us the authority to act, as 
necessary.
    Senator Graham. Are we locked in by their organizational 
structure? Can the enemy use their organizational structure and 
naming to deny us the capabilities to protect the country? Do 
you know where I am coming from?
    Mr. Lumpkin. I think that if there is an affiliate, an 
associate, and it's been recognized, regardless of what they 
call themselves in the relationship, I think that--of course, 
we would go to the lawyers' group, but my sense is that we 
would probably be in a good place to use the AUMF.
    Senator Graham. Does Congress need to do anything from your 
point of view to enhance your legal standing?
    Mr. Lumpkin. The AUMF has served us very well and gives DOD 
the ability to do what's necessary. However, at some point we 
need to relook at the AUMF to make sure it serves us the best 
way. I look forward to working with Congress if the decision is 
made to go down that road.
    Senator Graham. From a general perspective, Admiral McRaven 
and Secretary Lumpkin, is al Qaeda diminished, about the same, 
or on the rise?
    Mr. Lumpkin. I think that if we were to change the way we 
look at it maybe, is that it is much broader. It is spreading. 
So it is expanding. However, as it is doing that, as it fills 
security vacuums globally, it takes a while for it to take hold 
and to have the ability to organize and to attack the Homeland.
    So to answer your question, I would say currently, today, 
it is spreading globally, but its ability to attack the 
Homeland is diminished.
    Senator Graham. Are you sure about that?
    Mr. Lumpkin. I believe that to be true.
    Senator Graham. Libya is an example of it spreading and 
being lethal to those in Libya who served our country.
    Director of National Intelligence Clapper said that the 
26,000 al Qaeda affiliate members, whatever you want to call 
these folks, in Syria are beginning to present a direct threat 
to the Homeland. Do you agree with that?
    Mr. Lumpkin. Let me take one step back, if I may. When I 
mentioned specifically the Homeland, as it being a threat, its 
ability to attack the Homeland is diminished.
    Senator Graham. Right.
    Mr. Lumpkin. It remains a regional threat.
    Senator Graham. He said they were engaging in plans to 
eventually attack the Homeland, that these are Europeans and 
people from all over the world that are going to Syria to get 
the experience, and they will go back to Europe, some may come 
back to America; that he thought that the al Qaeda presence in 
Syria represented a threat to the Homeland. Does that make 
sense to you?
    Mr. Lumpkin. The threat of the number of foreign fighters 
in Syria--if we get into specifics, I would rather shift it to 
the closed session.
    Senator Graham. Sure.
    Mr. Lumpkin. But it does make significant challenges and 
increase the threat to Europe and the Homeland.
    Senator Graham. Admiral McRaven, you have been at this for 
a very long time and our country owes you, and people like you, 
really the best among us, a great debt. If you could, could you 
give us a sense of where the world is headed in terms of danger 
and threats to the United States? I cannot imagine that 
sequestration is a good thing, but we all imposed it upon 
ourselves and many of us would like to fix it. Is the world 
more dangerous in terms of the threats that we face as a 
Nation?
    SOF are just super men and women, but you do have your 
limits. What worries you the most at night about the threats we 
face?
    Admiral McRaven. Sir, I am concerned about the second- and 
third-order effects of terrorism as much as I am about the 
first-order effects. The first-order effects obviously are 
tragic and another strike on the Homeland is something that we 
need to expend a lot of resources to ensure it does not happen.
    But you raised the issue a few moments ago about the 
Islamic State of Iraq and the Levant, about al Qaeda in Iraq 
and Syria, and Al-Nusra and some of the bad actors that are in 
Syria. My concern there is that Syria is becoming an area where 
people are coming to get their jihad and, more importantly than 
that, it is creating pressure on the Levant in ways that we 
have never seen before. So the number of refugees that are 
flowing into Lebanon, the number of refugees that are flowing 
into Jordan, a lot of this has created second- and third-order 
effects by the al Qaeda and al Qaeda affiliates that are in 
Syria.
    I think it is easier to explain of someone like al Qaeda in 
the Arabean Peninsula (AQAP). We know that AQAP is probably the 
number one threat to the Homeland in terms of plots that we may 
see generating from there. But I think we also have to be very 
cautious and concerned about what the extremists can do to 
create regional effects that have global dynamics and global 
effects related to them.
    Senator Graham. Thank you.
    Senator Hagan. Senator Manchin.
    Senator Manchin. Thank you very much, and thank both of you 
for your service. I am going to go preside on the floor, so I 
will be very quick.
    Admiral McRaven, I am concerned about the Special Forces 
within the National Guard, the 19th and 20th Groups. I know 
there was a movement, let us say, a few years back to eliminate 
those groups.
    Admiral McRaven. Not on my watch, sir.
    Senator Manchin. How are they performing?
    Admiral McRaven. Sir, they perform magnificently. I tell 
the story, on one of my very first trips to Afghanistan I got 
on a helicopter in Bagram, went down to Kandahar, picked up a 
couple of soldiers, spent most of that evening talking with a 
Special Forces soldier. He had a Special Forces tab on. We got 
chatting. It was not until the end of the evening that I 
realized he was a 20th Special Forces Group guy.
    The work that they did for us in Afghanistan was 
tremendous. No, sir, there is certainly no move afoot on my 
end.
    Senator Manchin. I am sorry, I did not refer to your end. 
There has been a move afoot before.
    Admiral McRaven. Sir, they bring great value to what we do.
    Senator Manchin. That is all. We needed to get that on 
record. Thank you.
    Let me just talk about and ask questions briefly about the 
bitcoins in cyberspace, what is going on, the ability to use 
this new form of currency, if you will, to support terrorists, 
arms sales, things of that sort. Are you following that pretty 
closely? Do you have concern about that?
    Mr. Lumpkin. Yes, we do track that. The counter-threat 
finance program is a tremendous return on investment for the 
small amount of money we can put to follow the money of 
terrorist organizations. We have cells that focus on this. Each 
of the geographic combatant commanders have this and there is 
one at SOCOM, and it is a very tight-knit group that works 
together to address issues.
    Senator Manchin. The digital currency like Bitcoin, does 
that cause you concern about how this money, how this currency 
moves?
    Mr. Lumpkin. How any currency moves between terrorist 
organizations, those who want to do us harm, causes us concern.
    Senator Manchin. But Bitcoin seems to be the hottest thing 
right now.
    Mr. Lumpkin. It is, it is the trend, absolutely.
    Senator Manchin. I have been very outspoken on this. I am 
very concerned. I serve also on the Senate Banking Committee 
and I am very concerned about what we see and a lack of 
oversight, if you will, and also the volatility of this and the 
ability to be able to use it for--the unscrupulous people using 
it for the wrong reasons. I would say that would be a great 
concern for our security.
    Mr. Lumpkin. Absolutely. Thank you, sir.
    Senator Manchin. I am going to have to run, but I thank you 
so much. I am sorry to leave.
    Senator Hagan. Senator Reed.
    Senator Reed. Thank you, Madam Chairwoman.
    Admiral McRaven, can you just give us a response to how you 
are adapting SOCOM to a battlefield that is increasingly 
dominated by cyber operationally, in terms of interfering with 
equipment that you have a huge superiority in, the whole 
spectrum? Can you give us a sense of that?
    Admiral McRaven. Yes, sir. Our approach really has been to 
stay closely partnered with the National Security Agency (NSA) 
and now U.S. Cyber Command (CYBERCOM) as we look at our cyber 
requirements. The NSA and CYBERCOM have done a great job for 
the last 12 years that I have spent time intimately with the 
cyber support teams that come from CYBERCOM, that come from NSA 
in supporting us.
    What we do is we provide our demands. So if we are looking 
for a particular individual, then we will make sure that we are 
linked with the NSA. They will through their technical means 
figure out how to identify that person. So instead of us in 
SOCOM building an additional capability to conduct cyber 
operations, we use the experts at CYBERCOM and at NSA to do 
that.
    What we do have is we have a small element at all of the 
combatant commands now that help us with the planning and the 
access to NSA and the CYBERCOM.
    Senator Reed. You have, I think, emphasized the defensive 
aspects of CYBERCOM. Can you comment on any planning or 
consideration of offensive operations that would involve SOCOM 
and cyber threats?
    Admiral McRaven. Sir, I would prefer to hold that to a 
closed meeting, if I could.
    Senator Reed. That is more than fair.
    The other issue is that we are at a transition point in 
many places. One transition point might be shifting from active 
preemption activities that SOCOM undertakes against threats 
either to our forces or to the Homeland, to more training of 
indigenous forces so that they can be capable of that. Can you 
comment upon how you are trying to navigate that transition 
point?
    Admiral McRaven. Absolutely, sir, and I appreciate the 
question. As we look forward for SOCOM and what we are trying 
to provide the geographic combatant commanders, we are looking 
for how we balance the two. Our thrust, if you will, is 
building partner capacity so that the host nation can take care 
of its own security problems. But we should never forget that 
if we need to, we need to be postured to conduct unilateral or 
partnered operations that only we and potentially our partners 
have the capability to do.
    At the end of the day, my feeling is we need to continue to 
keep pressure on al Qaeda and the associated movements, on the 
extremists that are out there. We do that by partnering with 
the host nations where there is an extremist problem or where 
they are bordering on an extremist problem and being postured 
to conduct direct action if authorized to do so by the 
President.
    Senator Reed. This also raises a question that Senator 
Fischer and others have raised, which is the resources that you 
need from the non-SOCOM commanders to do that, the training, 
running ranges, all those things that would help you train 
local forces and also train your own forces. Again, you've 
commented on that, but do you see that as a particular concern 
in terms of your mission to train local forces?
    Admiral McRaven. Sir, most of the training that we will do 
with the host nation will be in their own country. So when we 
go down we use their range facilities. If they don't have range 
facilities, through various authorities, 1206, 1207, or 1208, 
we help build those. It is a modest military construction 
(MILCON), minor MILCON approach. The bulk of our training is 
done in-country. So we don't have a conflict with the big 
Services in terms of ranges for training the locals.
    Senator Reed. Let me ask you a question that was a concern 
of Senator Graham, too, and he asked me to mention it. You 
might want to take this one for the record but it might require 
a more extensive answer. That is, if you or your forces detain 
an individual in Afghanistan there's a pretty clear pathway to 
get that person through our system and ultimately into the 
Afghan system. Outside of that area of operations, can you 
comment on the policy or the obstacles to successfully 
detaining someone who is a threat?
    Admiral McRaven. Sir, I am going to take your advice and 
take that one for the record.
    [The information referred to follows:]

    As a general matter, Department of Defense (DOD) policy (DODD 
2311.01E) requires that members of the DOD components comply with the 
law of war during all armed conflicts, however such conflicts are 
characterized, and in all other military operations. Therefore, 
regardless of the location, detention of individuals pursuant to a 
military operation must remain in compliance with the law of war (law 
of armed conflict). In terms of detention of civilians, considerations 
include compliance with domestic law and customary international law as 
well as treaty obligations (EX: Geneva Conventions of 1949).
    Special Operations Forces generally operate under the operational 
control of the geographic combatant commander and would thus follow the 
policy direction of the geographic combatant commander for detention 
operations. The geographic combatant commander policy would necessarily 
comply with DOD policy.
    The current DOD policy on detainees (2310.01E) states that all 
detainees shall be treated humanely and in accordance with U.S. law, 
the law of war, and applicable U.S. policy.
    Further, DOD personnel shall observe the requirements of the law of 
war, and shall apply, without regard to a detainee's legal status, at a 
minimum the standards articulated in Common Article 3 to the Geneva 
Conventions of 1949, as construed and applied by U.S. law in the 
treatment of all detainees, until their final release, transfer out of 
DOD control, or repatriation.
    Whether detention of an individual is appropriate in a given 
operation would most likely be a top down case-by-case decision and 
would depend greatly on the context of the mission (Authorization for 
Use of Military Force, self-defense, U.N. Security Council Resolution, 
bilateral security operations, law enforcement support), the 
characterization of the conflict, the threat presented at the time, et 
cetera.
    Potential obstacles to successfully detaining someone who is a 
threat include access to the area in question, physical location of 
planned detention, host nation support, length of detention, 
repatriation concerns, decisions on prosecutorial merit as determined 
by the interagency, et cetera.

    Senator Reed. Thank you. That is a thoughtful response.
    Let me ask a question that is very narrowly focused. Joint 
Improvised Explosive Device Defeat Organization (JIEDDO), which 
we are all familiar with, has been a critical institution in 
terms of protecting our forces against improvised explosive 
devices (IED). They are being reformulated. In your role 
particularly, not only protecting your forces in the field, but 
training and protecting forces as this threat evolves, and 
unfortunately it's going to evolve, what do you see the 
relationship with JIEDDO? Could you take that into your 
command? I know there have been several posed. It is an Office 
of the Secretary of Defense (OSD) office, so it could just go 
away, or it could get distributed. Do you have any views on 
that, because I think you would be, no pun, the point of the 
spear when it comes to these weapons.
    Admiral McRaven. Yes, sir. We have not done any looking 
into bringing JIEDDO into SOCOM, so I am not prepared to answer 
that just yet in terms of an organizational change. Having said 
that, we work daily with JIEDDO. I have liaison officers up 
there, they have liaison officers with us. They are embedded 
with all of our forces in Afghanistan. They have done a 
tremendous service for this Nation over the last decade-plus.
    What they ended up doing, of course, with the same 
methodology that they used to find IEDs, a network analysis 
methodology, is very helpful as we look at bad actors and other 
networks around the globe. So as they have, rightfully so, I 
think, begun to shift their focus--they continue to focus on 
IEDs, but they also have this ability to look at networks. We 
are tapping into the great expertise they have to make sure we 
understand what the problem on the ground looks like. They are 
a very valued partner.
    Senator Reed. Just a final comment. Given the fact that 
your forces are the most forward deployed of any forces we have 
and will be more so in the future, you're probably the first to 
see different developments in IEDs, different developments in 
network behavior, disguising networks, et cetera. So you will, 
I assume, have a feedback loop wherever JIEDDO ends up or if it 
ends up anyplace.
    Admiral McRaven. Yes, sir, I expect, sir.
    Senator Reed. Thank you.
    Senator Hagan. Senator Kaine.
    Senator Kaine. Thank you, Madam Chairwoman, and thanks to 
our witnesses.
    Just a report back from the field. Senator King and I 
participated in a Congressional Delegation recently to Israel, 
Lebanon, and Egypt, and heard a lot of real positives about the 
work of Special Forces, especially in the training mission that 
you have described. For purposes of a massive budget, even a 
massive defense budget, I think the training that we do with 
other nations might be one of the best investments we make, not 
only in the short-term, building capacity, but in long-term 
relationship-building. The folks we train end up being defense 
ministers and prime ministers and presidents. That is an 
investment that really works. So I wanted to praise you on 
that.
    Secretary Lumpkin, I just wanted to look at page 3 of your 
testimony. You had a statement that caught my eye: ``We are 
ending the longest prolonged period of war in our Nation's 
history.'' Is that your personal opinion or is that the 
administration's position, or both?
    Mr. Lumpkin. When I look at just the number of years that 
we have been engaged in conflicts, direct conflicts, since 2001 
until today, if you are looking at those long periods, I used 
that as an absolute from my perspective.
    Senator Kaine. The word I was interested in was ``ending.'' 
I know it is the case that administration witnesses before this 
committee--and I am not sure if it was you or not, but we had a 
hearing on the AUMF in May where we were asking how long will 
this war go on that was initiated September 14, 2001, through 
that authorization. There was some testimony that it would go 
for a decade more. There was some testimony that it might go 
for another 25 or 30 years.
    But the way I read this testimony, it sounds like there is 
a suggestion that at the end of our 2014 activities in 
Afghanistan, as we move to the next level, that the war is 
ending. Is that how the administration now sees the end of the 
Afghanistan theater of operations, that the war is ending?
    Mr. Lumpkin. The President has given very clear guidance 
that he sees us coming off of a wartime footing, that we are 
moving forward. The threats will be there, but direct conflict 
in the sense of a traditional war, we see that coming to an 
end.
    Senator Kaine. Just wrestling with what Congress should do, 
if the war is ending at the end of our 2014 activities in 
Afghanistan, then should the authorization expire?
    Mr. Lumpkin. Again, as I mentioned to Senator Graham 
earlier, I think we are at a point where, while the AUMF has 
supported the needs of DOD in order to execute the missions at 
hand in order to protect the Homeland and American interests, I 
think we are at an inflection point that it may be a time to 
look at the AUMF to see if it does need adjustment to better 
serve this country.
    Senator Kaine. Whether there might be a need to consider a 
chapter two version?
    Mr. Lumpkin. Potentially, and I look forward to working 
with Congress as they consider and shape these issues.
    Senator Kaine. It was interesting, this morning we had a 
hearing about a nominee, a very qualified nominee, I am proud 
to support him, Admiral Rogers to be head of Cyber Command and 
the NSA. It was an interesting hearing because he is the 
nominee, not the acting. But we were running into a lot of 
terminological questions that I think revolve ultimately around 
this question of what are we in? Is it a war or is it a 
counterinsurgency?
    For example, he testified that Edward Snowden, his 
activities were clearly wrong, violated the law, had cost 
American lives, but he was not sure whether he would label him 
a traitor. Senator Graham asked him a question about whether we 
were at war and he originally said we are in an engagement, not 
sure it is a war. But then he clarified: we are not in a cyber 
war right now.
    When pressed about what cyber activity has to do with 
whether we are at war, he initially testified that if cyber 
activity led to the need for armed conflict, then that would be 
a war. But then when I asked him, what about a cyber activity 
that would knock out our power grid and disrupt our economy and 
then we do the same thing to the other side, with no armed 
conflict, is that not a war, he acknowledged these are pretty 
big, important questions that we don't have a current 
definition of.
    My chair and ranking member and Senator Graham and I have 
talked a lot about these issues. I am very troubled that the 
AUMF of September 14, 2001, has no temporal limitation, no 
geographic scope or limitation. I think it is being used in 
ways that I think might be appropriate for the Nation's 
defense, but I think were clearly beyond the contemplation of 
the Members of Congress who voted for it at that time.
    I think the end of U.S. operations in 2014 in Afghanistan, 
hoping that there will be a second chapter because of the 
successful negotiation of a BSA, I think that is an excellent 
time to try to devise a chapter two, because I think continuing 
to leave an AUMF that is just completely open-ended, I think it 
poses real significant challenges for our oversight. If members 
who are qualified to do great jobs have a hard time with the 
terminology about what it is we are doing, I think it creates 
challenge on the battlefield. I think it creates significant 
challenges for our citizens to try to understand what we are 
in.
    I think some of the controversies about programs like NSA 
are less about the four corners of the NSA program than they 
are about what is it, in fact, that this particular program is 
supporting, is it a war, is it a half-war engagement, is it 
counterterrorism, is it something else. I think the SOF side of 
our military are going to be probably uniquely necessary to be 
at the table to try to determine what, in fact, this chapter 
two is.
    One last question, if I might, Madam Chairwoman. I know my 
time is almost up. But if the AUMF were to expire, obviously 
the President would still have significant powers, the 
traditional powers, the Commander in Chief powers, to defend 
the Nation, the powers created by international law. There are 
separate statutes that deal with counterterrorism activities. 
Has there been work done, to the extent of either of your 
knowledge, to determine, in the absence of the current AUMF, 
would the DOD, more broadly our defense establishment, have the 
tools necessary to wage the battle against terrorism that is 
needed circa 2014?
    Mr. Lumpkin. Clearly, the President does have 
constitutional authorities as the Commander in Chief. Al Qaeda 
prior to September 11 has been engaged in the past, so it can 
be done.
    I think that we are at a natural inflexion point. I think 
it is a good time to sit back and look and see where we are at, 
look at the threat in the future, and make sure we clearly 
craft something that has left and right flanks, that has a 
program time to relook to make sure it serves our interests, 
and gives us the ability to engage the threats that face us not 
only today, but also tomorrow.
    Senator Kaine. Admiral McRaven, would you have any 
additional thoughts on that?
    Admiral McRaven. No, thank you.
    Senator Kaine. Thank you very much for that.
    Thank you, Madam Chairwoman.
    Senator Hagan. Thank you.
    We are going to do one more quick round of 6 minutes and 
then if necessary, we will proceed to the closed session.
    I wanted to ask about section 1208. Admiral McRaven, you 
pointed out that 1208 authority has been an enabler for our 
military operations against foreign terrorist organizations. 
Why is this authority so important to the counterterrorism 
operations and do you believe that an increase of the authority 
above the $50 million is necessary, and if so, why?
    Admiral McRaven. Yes, ma'am. I can tell you that wherever 
we are training forces to conduct counterterrorism operations, 
host nation forces, surrogate forces, to do that, we are using 
the 1208 authority. It is just an authority, of course, so it 
is an authority right now for me to use up to $50 million to be 
able to provide training, equipping, minor MILCON, important 
things, as we build this surrogate force.
    I will defer to Assistant Secretary Lumpkin. I know that 
ASD(SO/LIC) is requesting an increase in that authority for all 
the reasons you just laid out. We are finding that our 
execution rate in that authority already this year is closing 
in on $50 million because the demand signal out there for this 
kind of training and support is so great. Frankly, I think as 
we move forward and we find that we need to continue to put 
pressure on extremist groups that are out there, we will need 
more training and probably more authority. But I will defer.
    Senator Hagan. Secretary Lumpkin, let me ask you, as part 
of that. How do you differentiate support provided to the 
partners under section 1208 versus other support provided under 
more traditional security force assistance authorities?
    Mr. Lumpkin. Thank you very much. Let me go back to the 
1208 first and then I will come back to that. As you are 
probably aware, I am not only the ASD, but I am also performing 
the duties of Under Secretary of Defense for Policy. So I have 
the ability to look across the entire policy enterprise, just 
beyond this SO/LIC world and domain. When you have that kind of 
view, you truly see the benefits of the 1208 program and what 
it does to create operational forces in support of U.S. 
interests. It is a tremendous capability.
    We do have other authorities, and this goes back to the 
comment in your opening statement about the patchwork. We also 
have section 1206, which does the global train-and-equip in 
support of counterterrorism operations and things of that 
nature. We have counternarcotics authorities. We have section 
1004, which gives us the ability to help U.S. law enforcement 
in support of their operations in counternarcotics operations, 
which is this real nexus between narcoterrorism and even al 
Qaeda and how they merge the fungible moneys and how it passes 
across the different bodies.
    We have the global security contingency fund, which is a 
new fund that we have available that we are working. It is dual 
key authority with the Department of State (DOS). We are in the 
nascent stages and we are working through it.
    But one of my jobs is to grab these different authorities 
and to make sure we are leveraging them to the best of our 
ability to support U.S. interests. That is truly no small 
endeavor, to make sure we are getting the best bang from the 
buck and the best return on investment for the American people.
    Senator Hagan. You mentioned the global security 
contingency fund. Do you think that Ukrainian assistance will 
come under that area to help build the capacity of the security 
forces?
    Mr. Lumpkin. Because this is a dual key authority in 
conjunction with DOS, I personally have not engaged with folks 
at DOS on this issue. But I am more than willing to do so, 
absolutely.
    Senator Hagan. In the fiscal year 2014 Defense 
Appropriations Act, it included an expanded human rights, or 
Leahy, vetting requirement for the DOD training, equipping, and 
assistance programs. To both of you: Do you agree with the 
intent of the Leahy vetting requirements, and will the changes 
that have taken place impact training and other engagement 
activities conducted by the combatant commanders?
    Mr. Lumpkin. At DOD, we fully support both the letter of 
the law and the intent of the Leahy legislation. Most of our 
programs involve a training component as well as an equipping 
component. The equipment addition for the most recent 
legislation is not going to have a significant impact on what 
we are doing.
    Just for a scope, I was just briefed that DOS does about 
170,000 Leahy vetting line items per year. So it is a massive 
undertaking. I have had some initial discussions with them to 
make sure they can accept this additional----
    Senator Hagan. How many more additional do you think it 
might involve?
    Mr. Lumpkin. I am trying to quantify that now, but from DOD 
and within SO/LIC, I do not think it is going to be that 
significant, to be honest with you as we go forward, because 
again most of our pieces already have a training component. So 
the equipping component usually comes along with it.
    Senator Hagan. In my opening remarks, I mentioned something 
about the remediation process. Do you have any recommendations 
for improving the vetting process or for a remediation process, 
and what do the other partnering nations actually do for 
remediation?
    Admiral McRaven. Yes, ma'am. The remediation process is an 
area where we have an interagency working group that is getting 
together to see how we can improve the process. As Secretary 
Lumpkin said, I am fully supportive of the Leahy human rights 
vetting, always have been. My concern has always been in the 
process and how expeditious the process is for us to get to a 
solution whether or not a particular unit has, in fact, 
committed gross human rights violations or has not and 
therefore we can either continue on with training or not.
    That process, I think, needs improving between DOS and DOD 
and actually Capitol Hill. We are working with all three of 
those in an effort to figure out how do we adhere to the letter 
of the law and the spirit of the law, but do so in a manner 
that allows us to get back into a training venue as rapidly as 
possible if we can confirm that no gross human rights 
violations have occurred. So I think there is a good faith 
effort going on amongst the interagency to get to that point.
    Senator Hagan. Of the 170,000, do you have any idea a 
percent or number that people don't make the vetting? Then, you 
mentioned gross human rights violations. Is domestic violence 
included in any of these?
    Mr. Lumpkin. If I may, my understanding is that 2 percent 
do not pass the vetting requirement of the 170,000. I do not 
have the answer on the domestic violence piece, but I can take 
that one for the record.
    [The information referred to follows:]

    Although the term ``gross violation of human rights'' is not 
defined in the Department of Defense Leahy law, the definition in 
section 502B(D) of the Foreign Assistance Act has been used as the 
accepted working standard in the Department of State Leahy vetting 
process. It states: ``the term `gross violations of internationally 
recognized human rights' includes torture or cruel, inhuman, or 
degrading treatment or punishment, prolonged detention without charges 
and trial, causing the disappearance of persons by the abduction and 
clandestine detention of those persons, and other flagrant denial of 
the right to life, liberty, or the security of person.'' Although 
domestic violence is not a specifically enumerated category, cases of 
domestic violence are sometimes highlighted for review by State 
Department regional bureaus and embassy teams. As a matter of policy, 
we could withhold DOD assistance in such a case.

    Senator Hagan. Thank you.
    Senator Fischer.
    Senator Fischer. Thank you, Madam Chairwoman.
    Admiral, you used the term ``irreconcilable'' to 
characterize the most extreme elements of our adversaries, the 
terrorists. How do you separate those who you believe are 
reconcilable with those who are irreconcilable? What is the 
difference here?
    Admiral McRaven. Yes, ma'am. I think it requires thorough 
analysis. We do not take any steps to go after anyone unless we 
know for a fact that they are on the irreconcilable number on 
the counterterrorism part of direct action. I am not sure I can 
give you a great example, but I know who we think is 
irreconcilable. Whether or not they are irreconcilable, I 
think, remains to be seen.
    But we do look at a body of people--AQAP, some of the most 
virulent members of AQAP, core al Qaeda, al Qaeda in the 
Islamic Lands of the Maghreb. We know that the leadership there 
I would contend is irreconcilable, that no amount of 
negotiations, no amount of placation, is going to put them in a 
position where they are prepared to support universal values as 
we know them.
    So as we look at all of the threats out there, I know a 
determination is made as we go through the process of 
determining whether or not an individual needs to have action 
against them. That is, again, a very well-defined, thorough 
process to get to that point. But there are a lot of 
irreconcilables out there.
    Senator Fischer. Thank you.
    Mr. Secretary, do you have anything to add to that?
    Mr. Lumpkin. No, ma'am, I do not.
    Senator Fischer. Last week, I discussed the growth of 
extremists in Syria who want to attack us here in the United 
States with General Austin at a hearing. His response was, and 
I quote here: ``They've grown at an exponential rate and unless 
we do something to retard that rate a bit and prepare ourselves 
to counter this threat going forward, then I think we are going 
to have a significant issue.''
    To both of you: Do you agree with his assessment?
    Mr. Lumpkin. I do. Left unchecked, the problem is only 
going to get worse.
    Senator Fischer. Admiral?
    Admiral McRaven. Yes, ma'am, I do.
    Senator Fischer. At what point do you see these extremists 
in Syria becoming a threat to the United States, to the 
Homeland?
    Mr. Lumpkin. I think that the threat is already bleeding 
over beyond the borders of Syria, as we are having a spillage 
into the surrounding nations, which increases, as Admiral 
McRaven mentioned earlier, the pressure in the Levant. So I 
cannot give you a definitive date when the Homeland is in 
direct threat, but it is not in the too distant future.
    Senator Fischer. Admiral?
    Admiral McRaven. Yes, ma'am, I would agree with Secretary 
Lumpkin. Again, my concern about the threat and Syria, while we 
can talk about some of the threats in the closed session, I do 
think one of the greater threats is the pressure that they are 
putting on the Levant and the pressure on Lebanon and the 
pressure on Jordan and how that will have a cascading effect 
across that area, which will have a cascading effect across 
both North Africa and Southern Europe and eventually the United 
States.
    Senator Fischer. Can you speak in open session about how we 
are preparing for those threats?
    Mr. Lumpkin. I cannot. I am sorry, ma'am.
    Senator Fischer. Thank you.
    Also, General Rodriguez last week described eastern Libya 
as the fastest-growing area of extremism, and also stated that 
his biggest intelligence gap was from northern Mali to eastern 
Libya. Can you describe the extremist threat that we are seeing 
now in eastern Libya, either of you gentlemen?
    How does that compare to other regions? Where does that 
fall on a scale there?
    Mr. Lumpkin. I think that is the important part, is where 
does it fall on the scale. My sense is that Libya is not where 
Syria is today, but again, left unchecked, left without the 
proper engagement and building the partnership capacity with 
the nascent Libyan forces, that we could end up in a situation 
where it is not too dissimilar if no attention is paid to it.
    Admiral McRaven. Yes, ma'am, I would agree with the 
Secretary.
    Senator Fischer. Where do you see, I guess, our gaps in 
this region? Can you speak about that in open session?
    Mr. Lumpkin. Again, I would prefer to do that in closed 
session.
    Senator Fischer. Thank you very much.
    Thank you, Madam Chairwoman.
    Senator Hagan. All right. I had about one or two more quick 
questions.
    Senator Fischer. You can have my time.
    Senator Hagan. I do not need to take your time. You can 
have time, too, but I did want to just mention, going back to 
the Leahy vetting, this is an area that I know that Chairman 
Levin is interested in, looking at the remediation process. So 
I hope that SOCOM is going to continue this conversation with 
us.
    One question on the rapid acquisition authorities. Admiral 
McRaven, SOCOM is unique among the combatant commands in that 
it not only generates requirements, but also performs 
acquisitions to provide solutions to these multiple needs and 
problems. For urgent requirements, I understand the 
Capabilities and Developments System-Urgent, can be used when 
the SOF units identify a time-sensitive capability gap or 
requirement related to the possible loss of life or mission 
failure. Do you believe it would be advantageous for SOCOM to 
have additional or more flexible rapid acquisition authorities, 
and if so, what would you suggest?
    Admiral McRaven. Yes, ma'am. The combat mission needs 
statement is what a soldier downrange will submit through the 
process if he has a requirement that is, again, very urgent, 
loss of life, or it puts us in a position to have a comparative 
advantage over the enemy. As soon as that combat mission needs 
statement comes in, we convene a group at SOCOM and we take a 
very quick look at this. We turn this within about 24 hours to 
determine whether or not we can meet the needs of the soldier 
downrange.
    The only issue we have with the combat mission needs 
statement right now is it is procurement money. So we can go 
out and procure a system for him. We do not have any research, 
development, test, and evaluation (RDT&E) authority within the 
combat mission needs statement. So if there was something that 
really required some development and it may mean we couldn't 
get it to him on the battlefield in the shortest period of 
time, but we might be able to get him a better product if we 
had a little bit of RDT&E money that we could apply towards 
that authority of the combat mission needs statement, do the 
RDT&E, figure out what the development is, and then get it 
downrange to him. So that is the only thing I would add there.
    Senator Hagan. But you are saying that still from a 
timeliness factor?
    Admiral McRaven. I am sorry, ma'am?
    Senator Hagan. It is still a timeliness factor?
    Admiral McRaven. Yes, ma'am, it is, absolutely.
    Mr. Lumpkin. Ma'am, if I may, we work with SOCOM within 
OSD. We have the Counterterrorism Technical Support Office, and 
what we do is we have the ability and we do have research and 
development dollars in order to support when we can, where we 
can. We also support the interagency as well on requirements, 
as well as State and local law enforcement, and there is also 
an international component to it as well where we work with our 
partners and allies to develop technologies.
    We can help, but there are limitations still.
    Senator Hagan. Let me ask one quick question on Syria. Do 
you agree that, absent a change in the balance of power on the 
battlefield in Syria, that the Assad regime will not come to 
the negotiating table in a good faith manner? In your view, are 
there a sufficient number of moderate and vetted elements of 
the Syrian opposition to change the balance of power on the 
battlefield? Do you believe that we are in a position to 
conduct a large enough train-and-equip program for the vetted 
moderate elements of the Syrian opposition force to have a type 
of impact if we chose to do so?
    Mr. Lumpkin. A lot of questions there.
    Senator Hagan. I know. I can go back to them. The question 
is training the moderate and vetted elements of the opposition 
force.
    Mr. Lumpkin. I would prefer to talk about that in a closed 
session, to be honest with you.
    Admiral McRaven. Senator, I can tell you that I have the 
capacity to do that. If a decision is made to train moderate 
Syrians, we in the special operations arena have the capacity 
to do that.
    Senator Hagan. Okay. A final question, on attacking the 
financial network of the Haqqani network. A major support for 
the insurgency in Afghanistan is the Haqqani network, based out 
of the sanctuaries in Pakistan. They provide support both in 
terms of conducting cross-border attacks against the United 
States, against the coalition and Afghan forces, and terms of 
providing financial support and equipment to the insurgency.
    The Haqqanis have a widespread financial network that 
supports their numerous licit and illicit activities in the 
region. To both of you: In your view, do we have an in-depth 
understanding of the banking and business relationships, both 
illicit and licit, that finance the Haqqani network?
    Mr. Lumpkin. I would submit it is a work in progress. So I 
would say we are working to get that, because it changes and it 
adapts. So we are working that.
    Senator Hagan. How are we doing to track this financial 
network and then go after their business interests that support 
the network? What are these businesses?
    Mr. Lumpkin. I think that is a closed session item, to be 
honest with you, ma'am, if possible.
    Admiral McRaven. Ma'am, I can tell you we do work with the 
Federal Bureau of Investigation and we work with Treasury and 
we have, a little bit like in the counterthreat finance piece, 
we do have folks that are looking at how the Haqqani network 
functions. I think we understand the basic structure of it. The 
hard part is I am not sure we understand the exact mechanisms 
that if we interdicted would really make a difference.
    I think also a lot of people don't fully appreciate that it 
does not cost a whole lot to train-and-equip a Haqqani fighter 
to move from Pakistan into Afghanistan. So you would have to 
undercut a very large portion of their funding, I think, in 
order to have a significant impact on the fighters that we see 
in the P2K area in Afghanistan.
    Senator Hagan. Thank you.
    No other questions?
    Senator Fischer. No.
    Senator Hagan. Senator Kaine, you said no, too. Then we are 
going to adjourn. Do you want to go to closed session?
    Senator Fischer. Yes, please.
    Senator Hagan. We will adjourn and we will very quickly 
proceed to SVC-217 in the Capitol. This session is adjourned. 
Thank you.
    [Whereupon, at 3:27 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Jack Reed
                             cyber threats
    1. Senator Reed. Admiral McRaven, can you comment on any planning 
or consideration of offensive operations that will involve U.S. Special 
Operations Command (SOCOM) and cyber threats?
    Admiral McRaven. SOCOM's offensive cyberspace capabilities are 
wholly dependent on our partnership with the National Security Agency 
(NSA) and U.S. Cyberspace Command (CYBERCOM)--Cyber Mission Forces 
provided in support of the Department of Defense (DOD), which will be 
leveraged to support Special Operations Forces (SOF) operations. SOCOM 
will continue to partner closely with NSA and CYBERCOM to identify, 
request and coordinate offensive actions against cyber threats outside 
the DOD Information Networks (DODIN) to defend SOF operations and the 
SOF Information Environment (SIE), as well as, support global SOF 
military objectives. Additionally, as DOD and the U.S. Government 
continue to develop a common understanding of operations related to the 
cyberspace domain, SOCOM and future SOF operations may provide a level 
of access and placement to CYBERCOM forces that they may not otherwise 
operate in.
    Per Joint Publication for Cyberspace Operations (JP 3-12), every 
Joint Force Commander must identify critical cyberspace infrastructure 
and key resources, respond to adversary actions, protect that 
infrastructure (communications circuits, data links, and 
electromagnetic spectrum) in order to sustain military readiness and 
warfighting capability. SOCOM owns its own critical IT networks, the 
SIE; detects, classifies, and identifies external threats to the SIE 
regardless of origination (other nation states, transnational actors, 
criminal organizations, or other groups and individuals) and takes 
internal defensive measures every day. As the CYBERCOM Cyber Mission 
Forces continue to develop, SOCOM fully anticipates additional SOF 
planning efforts that may leverage CYBERCOM Defensive Cyberspace 
Operation Response Actions capabilities (offensive effects outside of 
DODIN) when authorized to do so, in defense of the SIE and the Nation.
    Regarding Overseas Contingency Operations (OCO) in support of SOCOM 
and SOF operations, CYBERCOM is also fielding offensive forces now that 
will conduct operational level planning, target development and 
integrated cyberspace attack in conjunction with SOF operations. These 
activities will create new options for geographic combatant command 
approved targets with cyber-fires where applicable and desired by that 
geographic combatant command commander. CYBERCOM's non-lethal fires 
will be employed through Theater Special Operations Commands (TSOC) to 
create effects that deny, degrade, disrupt, destroy, or manipulate our 
adversaries in cyberspace. TSOC commanders will establish mission 
priorities that support SOF objectives within each geographic combatant 
command-supported campaign, and the cyberspace elements of each plan 
will be integrated no differently than any other warfare domain or 
weapons system.

                            detainee policy
    2. Senator Reed. Admiral McRaven, if your forces detain an 
individual in Afghanistan, there's a pretty clear pathway to get that 
person through our system and ultimately into the Afghan system. 
Outside of that area of operations, can you comment on the policy and 
where the obstacles are to successfully detaining someone who is a 
threat?
    Admiral McRaven. As a general matter, DOD policy (DODD 2311.01E) 
requires that members of the DOD components comply with the law of war 
during all armed conflicts, however such conflicts are characterized, 
and in all other military operations. Therefore, regardless of the 
location, detention of individuals pursuant to a military operation 
must remain in compliance with the law of war (law of armed conflict). 
In terms of detention of civilians, considerations include compliance 
with domestic law and customary international law as well as treaty 
obligations (EX: Geneva Conventions of 1949).
    SOF generally operate under the operational control of the 
geographic combatant commander and would thus follow the policy 
direction of the geographic combatant command for detention operations. 
The geographic combatant command policy would necessarily comply with 
DOD policy.
    The current DOD policy on detainees (2310.01E) states that all 
detainees shall be treated humanely and in accordance with U.S. law, 
the law of war, and applicable U.S. policy.
    Further, DOD personnel shall observe the requirements of the law of 
war, and shall apply, without regard to a detainee's legal status, at a 
minimum the standards articulated in Common Article 3 to the Geneva 
Conventions of 1949, as construed and applied by U.S. law in the 
treatment of all detainees, until their final release, transfer out of 
DOD control, or repatriation.
    Whether detention of an individual is appropriate in a given 
operation would most likely be a top down case-by-case decision and 
would depend greatly on the context of the mission (Authorization for 
Use of Military Force, self-defense, U.N. Security Council Resolution, 
bilateral security operations, law enforcement support), the 
characterization of the conflict, the threat presented at the time, et 
cetera.
    Potential obstacles to successfully detaining someone who is a 
threat include access to the area in question, physical location of 
planned detention, host nation support, length of detention, 
repatriation concerns, decisions on prosecutorial merit as determined 
by the interagency, et cetera.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
                     craft challenges and solutions
    3. Senator Shaheen. Admiral McRaven, one of the persistent 
challenges for special operations craft is balancing high-speed, open-
ocean capability with large shock and vibration experienced by 
operators under those conditions. Repeated exposure can lead to 
discomfort, injury, and performance degradation. Can you describe SOCOM 
efforts to develop or support commercially available platforms that 
could address this issue?
    Admiral McRaven. SOCOM is committed to understanding these impacts 
on the warfighter, and has undergone several initiatives to alleviate 
the effects of repetitive, high-impact shock on both Special Warfare 
Combatant-Craft Crewman and SEALS.
    As SOCOM develops the technical specifications for our next 
generation combatant craft, we are including specific requirements 
which address reduced shock on the operator and incorporate lessons we 
have learned over the years. Our Special Operations Research, 
Development, and Acquisition Center recently awarded a contract for our 
Combatant Craft Medium (CCM) Mark (Mk) 1, which included specific 
requirements addressing reduced craft accelerations and shock exposure 
on the crew and passengers.
    The first lot of CCM Mk1 production craft will incorporate 
commercially available state-of-the-art shock mitigating seats that 
will reduce the effect of repeated shock exposures. The currently 
fielded Combatant Craft Heavy--Sealion also incorporates commercially 
available shock mitigating seats to protect crew and passengers.
    During our March 2014 Maritime Technical Experiment 14-1, several 
venders demonstrated technologies including active ride control 
(automated system which counteracts the wave-induced roll and pitch 
motions), hull form shaping (optimizing hull design for best 
performance and smoothest ride), and shock mitigating seats. SOCOM is 
continuing to evaluate these types of new technologies to mitigate the 
effects of repetitive shock and vibration on our warfighters.

    4. Senator Shaheen. Admiral McRaven, is SOCOM working with the 
Office of Naval Research or other DOD research, testing, development, 
and evaluation (RDT&E) programs on a solution to that challenge?
    Admiral McRaven. SOCOM is working with NAVSEA Naval Surface Warfare 
Center (NSWC) Panama City and NSWC Carderock Combatant Craft Division 
to address shock mitigation. Program Executive Office--Maritime 
chartered a Shock Exposure Study working group to develop the 
measureable and testable shock specification. This working group 
resulted in the development of the SED8 metric.
    SED8 is often referred to as the ``Spine Exposure Dose (SED), over 
an 8-hour period.'' A daily equivalent static compression stress 
``SED'' is then normalized to an 8-hour daily exposure duration, 
leading to the SED8 metric. The actual process of collecting and 
recording these observations are incorporated into an International 
Standards Organization (ISO) described in ISO 2631, Part 5. The metric 
is relatively new but has undergone the scrutiny of published research 
and peer reviews for 10 years now. All three of our newest combatant 
craft currently fielded or in production are required to meet SED8 
requirements.
    We are currently partnering with the United Kingdom, Canada, and 
Australia on shock mitigation technologies and common evaluation 
metrics. Existing memorandums of agreement with each country allow for 
the exchange of information and execution of joint projects aimed at 
research to better understand repetitive shock impact on the human 
body, health monitoring of the joint SOF combatant craft operator, and 
establishing a collective body of research for this unique and extreme 
operational environment.
                                 ______
                                 
          Questions Submitted by Senator Kirsten E. Gillibrand
                        socom combat integration
    5. Senator Gillibrand. Admiral McRaven, in January 2013, former 
Secretary of Defense Leon E. Panetta and the Chairman of the Joint 
Chiefs of Staff General Martin E. Dempsey, USA, rescinded the ground 
combat exclusion policy of 1994. Panetta stated, ``the Department's 
goal in rescinding the rule is to ensure that the mission is met with 
the best-qualified and most-capable people, regardless of gender.'' I 
understand that the Services are approaching this with phases of 
implementation. In what phase of implementation is SOCOM?
    Admiral McRaven. We are currently in the assessment phase of our 
implementation plan. As Major General Sacolick, SOCOM, testified before 
the House Armed Services Committee Military Personnel Subcommittee, the 
assessment phase consists of finishing third-party studies on 
standards, cohesion, and team effectiveness.

    6. Senator Gillibrand. Admiral McRaven, according to the SOCOM 
Implementation Plan for Elimination of Direct Combat Assignment Rule 
from March 22, 2013, your stated the deadlines for completing the 
SOCOM-wide Doctrine, Organization, Training, Materiel, Leadership and 
Education, Personnel, Facilities, and Policy analysis; the Special 
Operations Studies and Research in our Joint Special Operations 
University analysis; and the RAND study are July 2014. Are you on track 
to complete those studies?
    Admiral McRaven. We are on track to complete our Doctrine, 
Organization, Training, Materiel, Leadership and Education, Personnel, 
Facilities, and Policy analysis and the research conducted by the 
Center for Special Operations Study and Research of Joint Special 
Operations University by July 2014. The conclusion of the RAND study on 
unit cohesion may be delayed by weeks pending analysis of the survey of 
SOF personnel.

    7. Senator Gillibrand. Admiral McRaven, upon completion of these 
studies, SOCOM's Implementation Timeline indicates that the next steps 
are ``unit training'' and ``develop cadre.'' Could you please explain 
what these follow-on steps include?
    Admiral McRaven. The Chairman provided guidance to the Services 
that included both unit training and developing cadre as mandatory 
steps in opening positions and specialties to women. SOCOM incorporated 
this guidance into its plan. Unit training includes preparing all SOF 
personnel for a successful implementation of the Secretary of Defense's 
final decision and consists of both education and information sharing 
to ensure that all SOF personnel understand the actions being taken and 
the expectations for their support. Unit training and assigning a cadre 
support the same goal of ensuring success within any position or 
specialty opened to women as part of the DOD process.

    8. Senator Gillibrand. Admiral McRaven, what percentage of SOCOM 
Military Occupational Specialties (MOS) were closed to women under the 
combat exclusion policy?
    Admiral McRaven. Of the 19 SOCOM specialties MOS, 9 are closed to 
women (47 percent).

    9. Senator Gillibrand. Admiral McRaven, how many positions exist 
within these closed MOS?
    Admiral McRaven. There are 18,604 billets within the 9 closed SOCOM 
MOS.

    10. Senator Gillibrand. Admiral McRaven, the Army has notified 
Congress that it is opening some of its closed MOS to women. Insofar as 
some of these same MOS exist in SOCOM, what is preventing you from 
opening these MOS as well?
    Admiral McRaven. SOCOM is working closely with the Army to make 
recommendations regarding opening these positions.

    11. Senator Gillibrand. Admiral McRaven, the Army has notified 
Congress that it is opening some of its previously closed positions in 
MOS already open to women, such as enablers. Insofar as some of these 
same positions exist in SOCOM, what is preventing you from opening 
these positions as well?
    Admiral McRaven. SOCOM is working closely with the Army to make 
recommendations regarding opening these positions.

    12. Senator Gillibrand. Admiral McRaven, will SOCOM meet the 
deadline to open positions to women by January 2016?
    Admiral McRaven. SOCOM will adhere to all Secretary of Defense and 
Chairman of the Joint Chiefs of Staff (CJCS) guidelines and deadlines 
and is on pace to meet the deadline of January 1, 2016.

    13. Senator Gillibrand. Admiral McRaven, are there things that you 
are waiting on from the Services before you begin opening Special 
Operations Forces (SOF) positions to women?
    Admiral McRaven. SOCOM is working closely with the Services because 
there are specific SOCOM MOS that are intertwined with those of the 
Services and that have implications across the force. It is imperative 
SOCOM maintain close lines of communication with the Services in order 
to synchronize efforts and ensure a smooth transition.

    14. Senator Gillibrand. Admiral McRaven, how closely is SOCOM 
monitoring the Services' reviews of MOS available to women?
    Admiral McRaven. The working group at Headquarters, SOCOM is 
working closely with the Services and participating in monthly Office 
of Secretary of Defense Women in the Services working group meetings. 
This open line of communication allows us to share information freely 
with the Services. The SOCOM Service components (U.S. Army Special 
Operations Command, Naval Special Warfare Command, Air Force Special 
Operations Command, U.S. Marine Corps Forces Special Operations 
Command) coordinate with their respective Services on a regular, 
frequent basis.

    15. Senator Gillibrand. Admiral McRaven, how closely is SOCOM 
monitoring the ways the Services are training for MOS available to 
women?
    Admiral McRaven. SOCOM is working closely with the Services. While 
training for Special Operations Forces MOS is typically different from 
Service training, we are in constant communication with the Services to 
discover best practices and lessons learned from integrating women into 
Service occupations.

    16. Senator Gillibrand. Admiral McRaven, what actions will continue 
to take place after 2016 to ensure that women are being assessed, 
selected, and trained for these positions?
    Admiral McRaven. Women will be assessed, selected, and trained for 
all approved, opened positions via the same methods as their male 
counterparts. Consistent with the mandate to SOCOM to provide fully 
capable SOF, we will continue to monitor force health and readiness, 
promptly addressing specific needs that may arise to ensure successful 
integration.

    17. Senator Gillibrand. Admiral McRaven, your plan is to implement 
gender neutral physical standards for all SOCOM specialties. Assuming 
these standards are determined objectively and implemented fairly, why 
would it be necessary to request an exception?
    Admiral McRaven. The Chairman of the Joint Chiefs of Staff January 
9, 2013 memo states that if, ``the assignment of women to a specific 
position or occupational specialty is in conflict with our stated 
principles, we will request an exception to policy.'' The driving 
principles as stated in the Chairman of the Joint Chiefs of Staff memo 
are: to preserve unit readiness, cohesion, and morale, ensure all 
service men and women are given the opportunity to succeed and are set 
up for success with viable career paths, retaining the trust and 
confidence of the American people by promoting policies that maintain 
the best quality and most qualified people, upholding valid 
occupational performance mental and physical standards, and ensuring a 
cadre is in place at the point of introduction. SOCOM is committed to 
upholding the guiding principles stated in the Secretary of Defense 
memo. If, and only if, SOCOM finds through thorough analysis that one 
or more of these principles cannot be upheld, then SOCOM will ask for 
an exception to policy.

    18. Senator Gillibrand. Admiral McRaven, is your goal to open 100 
percent of SOCOM positions to the most qualified candidate regardless 
of gender?
    Admiral McRaven. I fully support the decision to eliminate the 
Direct Ground Combat Definition and Assignment Rule and SOCOM's goal is 
to eliminate gender-based restrictions to the fullest extent possible 
in accordance with Secretary of Defense and Chairman of the Joint 
Chiefs of Staff guidelines and deadlines. SOF is and will continue to 
be committed to selecting the best and most qualified candidates to 
meet the SOF mission.

    19. Senator Gillibrand. Admiral McRaven, women have been active in 
Air Force SOCOM since 1994. Have you consulted female operators already 
resident in SOCOM as you develop SOCOM's combat integration plan?
    Admiral McRaven. Yes, the women who currently work within SOF 
formations have valuable knowledge and experiences that we are 
leveraging to ensure we have all available information to successfully 
complete this task.

    20. Senator Gillibrand. Admiral McRaven, what role will female 
operators already resident in SOCOM play in the ongoing implementation 
of SOCOM's combat integration process?
    Admiral McRaven. Women who currently serve within SOF formations 
are providing invaluable information at every level of the Women in the 
Services policy implementation. These women are playing key roles as 
members of working groups, in the implementation of surveys, analysis, 
and research and they will continue to be a great resource through the 
implementation of this policy change.

    21. Senator Gillibrand. Admiral McRaven, will you develop 
mentorship programs linking senior women in Air Force SOCOM with women 
who will be entering previously closed positions across SOF?
    Admiral McRaven. The Secretary of Defense's January 9, 2013, memo 
outlines guiding principles for the Women in the Service Implementation 
Plan. One of these principles is to ensure ``a sufficient cadre of 
midgrade/senior women enlisted and officers are assigned to commands at 
the point of introduction to ensure success in the long run.'' SOCOM is 
committed to adhering to each of the Secretary of Defense's guiding 
principles.
                                 ______
                                 
                Question Submitted by Senator Tim Kaine
                           end of war timing
    22. Senator Kaine. Assistant Secretary Lumpkin, in your written 
testimony you wrote, ``We are ending the longest prolonged period of 
war in our Nation's history.'' Your verbal testimony affirmed your view 
that the United States is coming off of a war-footing, though 
existential threats to the country will remain. On May 17, 2013, 
Michael Sheehan, the previous Assistant Secretary of Defense for 
Special Operations/Low-Intensity Conflict, testified the war on 
terrorism will last ``at least 10 to 20 years.'' Is it now the official 
position of the administration that the war is ending in 2014 with a 
conclusion of combat operations in Afghanistan?
    Mr. Lumpkin. The combat mission in Afghanistan is concluding at the 
end of 2014 with International Security Assistance Forces, including 
U.S. forces, significantly drawing down. Although al Qaeda's leadership 
cadre has been depleted by U.S. counterterrorism operations in the 
Afghanistan-Pakistan border region, al Qaeda's global affiliates 
continue to present credible threats to U.S. personnel and interests 
overseas. DOD must remain postured and prepared to take lawful action 
against terrorists who pose a continuing and imminent threat to the 
American people, while continuing to engage with foreign partners to 
develop their counterterrorism capacity and capabilities to effectively 
address the threat.


 DEPARTMENT OF DEFENSE AUTHORIZATION OF APPROPRIATIONS FOR FISCAL YEAR 
               2015 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         TUESDAY, APRIL 1, 2014

                           U.S. Senate,    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

 PROLIFERATION PREVENTION PROGRAMS AT THE DEPARTMENT OF ENERGY AND AT 
                       THE DEPARTMENT OF DEFENSE

    The subcommittee met, pursuant to notice, at 2:15 p.m. in 
room SR-222, Russell Senate Office Building, Senator Kay R. 
Hagan (chairwoman of the subcommittee) presiding.
    Committee members present: Senators Hagan, Fischer, and 
Graham.

     OPENING STATEMENT OF SENATOR KAY R. HAGAN, CHAIRWOMAN

    Senator Hagan. We're going to go ahead and start because we 
do have several votes and we'll probably take turns with 
Senator Fischer chairing while I go vote, et cetera.
    The Emerging Threats and Capabilities Subcommittee meets 
today to review the President's fiscal year 2015 request for 
proliferation prevention programs at the Department of Defense 
(DOD) and at the Department of Energy (DOE). We plan to end 
this open session at 3 p.m. so that we can adjourn to the 
Office of Senate Security in the Capitol Visitor Center for a 
closed session with today's witnesses, and that session will 
start at 3:15 p.m.
    In the interest of time, I want to ask that each witness to 
please give a very brief, 1- to 2-minute opening statement. 
We're joined today by three expert witnesses to help us 
understand these programs. Anne M. Harrington is the Deputy 
Administrator for Defense Nuclear Nonproliferation at the 
National Nuclear Security Administration (NNSA) of DOE. Welcome 
back to the subcommittee, Ms. Harrington.
    Rebecca K.C. Hersman is the Deputy Assistant Secretary of 
Defense for Countering Weapons of Mass Destruction (WMD) within 
the Office of the Under Secretary of Defense for Policy. I 
understand this is your first time before the subcommittee, so 
let me issue you a warm welcome.
    Kenneth A. Myers III is the Director of the Defense Threat 
Reduction Agency (DTRA) at DOD, which is focused on reducing 
the threats from WMD. DTRA is responsible for executing the 
Cooperative Threat Reduction (CTR) program. Mr. Myers is also 
the Director of the U.S. Strategic Command Center for Combating 
WMD at DOD. Welcome back, Mr. Myers.
    Thanks for all of your service and thanks for joining us 
today.
    For fiscal year 2015, DOD and DOE propose to spend roughly 
$1.9 billion for nonproliferation activities to help stem the 
flow of WMD. I would note that this is a 21 percent reduction 
from the $2.4 billion appropriated to both programs in fiscal 
year 2014. As I understand it, the lower funding levels are 
related to the termination of the CTR umbrella agreement with 
Russia, the planned completion of Syrian chemical weapons 
destruction, a proposed cold standby of the mixed oxide (MOX) 
fuel facility in South Carolina, and various other program 
milestone completions.
    Although Congress has mandated tight budget constraints, 
the President recently completed his third international summit 
meeting on securing loose nuclear materials, and it is not 
clear that the lower budget request will fully support the aims 
of that meeting and other important nonproliferation goals. In 
my opinion, there is no shortage of work to be done in this 
area, since even the smallest quantities of WMD would pose a 
significant threat to the United States and our allies. We must 
not forget what just a few grams of anthrax released from two 
envelopes did to this Senate complex in 2001. We will review 
the budget request against these needs.
    Among other missions, the CTR program is implementing DOD's 
role in helping to destroy Syria's chemical weapons program. 
The committee provided legislative authority last year to allow 
DOD to move quickly to address this rapidly developing 
requirement. We would be interested to know the status of this 
critical mission and its prospects for success.
    I would also note that the program recently completed the 
successful destruction of Libya's chemical weapons, which was a 
remarkable accomplishment in that country.
    Ms. Hersman, you are charged with developing DOD's policy 
for countering WMD, including the CTR program. The largest 
share of CTR funding is for the Cooperative Biological 
Engagement program, operating in numerous countries to reduce 
biological threats of concern to DOD. We are interested to know 
how this program responds to such biological threats and how it 
is coordinated with other U.S. international public health 
programs.
    Ms. Harrington, your Defense Nuclear Nonproliferation 
program funding decreased by 20 percent in the fiscal year 2015 
budget request. This subcommittee needs to understand the large 
decrease, and I understand 60 percent of that amount is tied to 
a proposal to put the MOX fuel program in cold standby. We 
obviously want to know what you mean by cold standby and 
whether you have an alternative disposal path to justify 
putting the program in cold standby.
    Mr. Myers, DTRA implements the CTR program and led the 
remarkable effort to outfit the Merchant Marine vessel Cape Ray 
to destroy the most dangerous Syrian chemical weapons agents 
and precursors. We will want you to explain to the subcommittee 
the interagency process involved in outfitting the ship, how 
the chemical weapons destruction process will work, and where 
the waste will go afterwards.
    Again, let me thank all three of you for testifying today, 
and before asking our witnesses to summarize their testimony, 
briefly I want to turn to my colleague and ranking member, 
Senator Fischer, for any other comments.
    Senator Fischer. Thank you, Madam Chairwoman, and I thank 
the witnesses for appearing before us today to discuss 
proliferation prevention programs at DOE and DOD.
    First, I would like to commend DOE for doing difficult but 
necessary prioritization in its budget submission. By bringing 
completed programs to a close and applying prior year balances 
to offset reductions, critical work is sustained while less is 
asked of the American taxpayers.
    I join the chair today in emphasizing the importance of 
these programs. Proliferation prevention is intimately linked 
to many of the biggest challenges facing our Nation today. 
Media attention on events in Iran and Syria often focuses on 
the elegant diplomatic meetings and weighs the prospects for a 
deal against the odds of military action, but comparatively 
little attention is paid to the significant nonproliferation 
issues at stake.
    Similarly, with respect to Russia, world leaders are quick 
to point out that its annexation of Crimea violates 
international law, but the harm done to the nonproliferation 
agenda receives only limited acknowledgment. I look forward to 
hearing more from the witnesses today on this subject, as well 
as the other issues they face and how this budget request 
supports their mission.
    I thank the chair and the witnesses for their service.
    Senator Hagan. Thank you, Senator Fischer. I know we have 
votes during this hearing, so we will try to tag team on this.
    At this point in the hearing, I would ask that the opening 
remarks of my friend and colleague, Senator Edward Markey, be 
included as part of the record.
    [The prepared statement of Senator Markey follows:]
Prepared Statement by Hon. Edward J. Markey, Senator from the State of 
                             Massachusetts
    Chairwoman Hagan, Ranking Member Fischer:
    I thank you for calling today's hearing and for allowing me to 
submit testimony. I think we can all agree that preventing the spread 
of weapons of mass destruction (WMD)--especially nuclear weapons--is 
one of the highest priorities for our national security. Terrorist 
groups remain committed to acquiring nuclear weapons and the materials 
and expertise needed to make them.\1\
---------------------------------------------------------------------------
    \1\ Tobey, William H. and Zolotarev, Pavel, ``The Nuclear Terrorism 
Threat'' (Pattaya, Thailand: Presentation, Meeting of the 2014 Nuclear 
security summit Sherpas, Hosted by the Thai Ministry of Foreign 
Affairs, January 13, 2014).
---------------------------------------------------------------------------
    President Obama's 2009 speech in Prague set an ambitious agenda to 
secure the world's nuclear material that is at risk of falling into the 
wrong hands. This material includes the essential building blocks of 
nuclear weapons, highly enriched uraniuni, and separated plutonium. 
Securing these materials is the foundation of preventing nuclear 
terrorism.
    The programs responsible for this important work include the Global 
Threat Reduction Initiative (GTRI), the International Materials 
Protection and Cooperation (IMPC), and the Cooperative Threat Reduction 
(CTR) program. GTRI is responsible for the securing, removal, or 
disposal of civil material that could be used for nuclear weapons, 
while IMPC works to upgrade security at military sites that house 
weapons or weapons-usable material, and CTR secures and dismantles WMD 
in former states of the Soviet Union.
    Through programs like these, the administration has made 
significant progress in securing nuclear material since 2009. All of 
the locations in non-nuclear-weapon states where a single site 
contained enough highly enriched uranium to produce a simple nuclear 
bomb were either eliminated or experienced major security improvements. 
Thirteen countries, including Ukraine, have completely eliminated all 
of their highly enriched uranium and separated plutonium. The United 
States has added additional physical security to 32 buildings storing 
weapons-usable nuclear material.\2\ Radiation detection systems have 
been installed in 260 sites and ports and 15 countries have deployed 
mobile radiation detection vans.
---------------------------------------------------------------------------
    \2\ Bunn, Matthew, Malin, Martin B., Roth, Nickolas, and Tobey, 
William H. ``Advancing Nuclear Security: Evaluating Progress and 
Setting New Goals,'' Cambridge, Mass.: Report for Project on Managing 
the Atom, Belfer Center for Science and International Affairs. Harvard 
Kennedy School. March 18, 2014, page 25.
---------------------------------------------------------------------------
    Despite this progress, there are still hundreds of sites spread 
across 30 countries that have weapons-usable nuclear material, some of 
which is not sufficiently secured to protect against all realistic 
threats.\3\ This is why I was concerned to see the administration 
propose reductions to the budgets of these important nuclear security 
programs. The fiscal year 2015 budget proposal calls for a 27 percent 
cut to the budget of CTR relative to the previous year. In addition, 
the fiscal year 2015 budget calls for reductions to GTRI and IMPC by 
more than 20 percent from the previous year, which would be more than a 
40 percent decrease in funding request from fiscal year 2011 levels.\4\
---------------------------------------------------------------------------
    \3\ Bunn, Matthew, Malin, Martin B., Roth, Nickolas, and Tobey, 
William H. ``Advancing Nuclear Security: Evaluating Progress and 
Setting New Goals,'' Cambridge, Mass.: Report for Project on Managing 
the Atom, Belfer Center for Science and International Affairs. Harvard 
Kennedy School. March 18, 2014, page 31.
    \4\ Roth, Nickolas, ``U.S. Budget Request Shows Eroding Focus on 
Nuclear Security.'' Nuclear Security Matters, March 24, 2014.
---------------------------------------------------------------------------
    These funding levels would add years to GTRI's goal of converting 
or shutting down 200 research reactors fueled with highly enriched 
uranium. In addition, the fiscal year 2015 National Nuclear Security 
Administration (NNSA) budget request states that other work in the 
removal of nuclear material will be ``deferred to future years.'' This 
budgetary reduction for nuclear and radiological protection is 
justified on the grounds that it ``is consistent with broader budget 
austerity goals and prioritization within NNSA.''
    Meanwhile, nuclear weapons programs are prospering, largely 
escaping the effects of austerity. The fiscal year 2015 budget request 
for nuclear weapons sustainment and modernization programs received an 
increase of nearly 7 percent above the previous year, representing a 30 
percent increase from the fiscal year 2010 enacted levels.\5\ This 
includes a 20 percent increase to the already over budget B61 life 
extension program and a 26 percent increase to the NNSA's Naval Reactor 
program.
---------------------------------------------------------------------------
    \5\ Reif, Kingston, ``New Obama Budget Slashes Nonproliferation.'' 
The Center for Arms Control and Nonproliferation, March 6, 2014.
---------------------------------------------------------------------------
    These increases in the nuclear weapons budget do not reflect the 
security requirements of the 21st century. We are no longer living in a 
world of nuclear arms races. As the President recently stated,\6\ the 
security concern that keeps him up at night is the threat of loose 
nukes. As a result, we should prioritize funding for programs that 
secure nuclear material, while at the same time, ensure that our 
spending on nuclear weapons modernization reflects our stated 
commitments to reducing our weapons stockpile.
---------------------------------------------------------------------------
    \6\ Thys, Fred, ``Obama Looks To Boston Fortunes To Boost 
Democrats.'' WBUR.org, March 6, 2014.
---------------------------------------------------------------------------
    In order to right-size our nuclear weapons and delivery systems 
budget for the 21st century, I recently introduced the Smarter Approach 
to Nuclear Expenditures (SANE) Act (S. 2070). This bill will save 
approximately $100 billion over the next decade through targeted 
reductions to the U.S. nuclear weapons budget. Specifically, my 
legislation calls for:

        <bullet> Reducing deployed strategic submarines from 14 to 8 
        and decreasing the purchase of replacement submarines from 12 
        to 8--saving $16 billion.
        <bullet> Cutting warhead life extension programs and deferring 
        the development of new intercontinental ballistic missiles 
        (ICBM)--saving $15 billion.
        <bullet> Removing the nuclear mission from F-35s and delaying 
        the new long-range bomber--saving over $32 billion.
        <bullet> Canceling nuclear bombmaking facilities and missile 
        defense programs--saving $37 billion.

    By focusing our resources on the real threats of this century, we 
can bolster both our economic and national security. America is long 
past due for modernizing our nuclear strategy to meet today's threats--
not the threats we faced decades ago.
    I thank the subcommittee once again for holding this important 
hearing and look forward to working with you to ensure our national 
security needs are met.

    Senator Hagan. Let's see. Ms. Harrington, your opening 
statement.

STATEMENT OF HON. ANNE M. HARRINGTON, DEPUTY ADMINISTRATOR FOR 
  DEFENSE NUCLEAR NONPROLIFERATION, NATIONAL NUCLEAR SECURITY 
              ADMINISTRATION, DEPARTMENT OF ENERGY

    Ms. Harrington. Thank you very much. Madam Chairwoman, 
Ranking Member Fischer, and Senator Graham: I am here to 
discuss the President's fiscal year 2015 budget request for the 
DOE's NNSA Office of Defense Nuclear Nonproliferation. I am 
very pleased to appear today with my colleagues from DOD. We 
share a strong commitment to the security of the Nation and to 
finding ways for our programs to work together to that end.
    Last week, as you noted, I did attend the third Nuclear 
Security Summit in The Hague, where the President gathered with 
world leaders to reaffirm the high priority they placed on 
nuclear security. The Office of Defense Nuclear 
Nonproliferation plays the central role in implementing U.S. 
summit commitments and to advancing global nuclear and 
radiological security. I will not give the highlights in the 
interest of time, but would be happy to come back to those 
later.
    The President's 2015 request of $1.55 billion provides the 
funding necessary to build on these successes. To meet the 
dynamic range of security challenges that we face, Defense 
Nuclear Nonproliferation draws on its core competencies, which 
are to remove, eliminate, and minimize the use of 
proliferation-sensitive materials, safeguard and secure 
materials, technologies, facilities, and expertise, detect and 
prevent the illicit trafficking of materials, technology, and 
expertise, provide research and development (R&D) technology 
solutions to nuclear security and nonproliferation efforts, and 
provide policy solutions to reduce nuclear and radiological 
dangers.
    In the area of material elimination, the administration 
remains firmly committed to disposing of 34 metric tons of 
surplus weapons-grade plutonium and to the Plutonium Management 
and Disposition Agreement. While we further study more 
efficient options for plutonium disposition in an effort to 
decrease costs, the MOX fuel fabrication will be placed in cold 
standby. With your support, the Office of Defense Nuclear 
Nonproliferation will continue to pursue a multi-layered 
approach to protect and account for materials at their sources, 
remove, downblend, or eliminate materials when possible, 
detect, deter, and reduce the risk of additional states 
acquiring nuclear weapons, and support the development of new 
technologies to detect nuclear trafficking and proliferation, 
as well as verify compliance with arms control treaties.
    Thank you for your attention and I would be happy to answer 
any questions.
    [The prepared statement of Ms. Harrington follows:]
               Prepared Statement by Ms. Anne Harrington
                              introduction
    Madam Chairwoman, Ranking Member Fischer, and distinguished members 
of the Subcommittee, thank you for allowing me to present the 
President's fiscal year 2015 budget request for the Department of 
Energy National Nuclear Security Administration's (NNSA) Office of 
Defense Nuclear Nonproliferation. The request of $1.6 billion provides 
the funding necessary to implement the President's nuclear security and 
nonproliferation priorities. I am particularly pleased to appear today 
with my colleagues from the Department of Defense. We share a strong 
commitment to the security of the nation and to finding ways for our 
programs to work together to that end. Ours is a global mission and 
more than 20 years after the collapse of the Soviet Union, many of our 
programs are now working on new security challenges across of the 
world. Recent actions, however, highlight that we must continue and 
complete important nuclear threat reduction work in Russia and the 
surrounding countries in Eurasia.
    One of our most important missions has been to support the 
administration's commitment to secure the most vulnerable nuclear 
material across the globe, commonly referred to as the 4 year effort. I 
am pleased to report by the end of 2013 and in close coordination with 
interagency and international partners, we completed and exceeded our 
original targets. Examples of what NNSA has accomplished since 2009 
include: removed or confirmed the disposition of 2,990 kilograms of 
highly-enriched uranium (HEU) and separated plutonium including 
removing all HEU from 11 countries and Taiwan; completed material 
protection, control, and accounting (MPC&A) upgrades at 32 buildings 
containing metric tons of weapons-usable material in Russia; installed 
1,585 radiation portal monitors at border crossings, airports, and 
seaports, many of which have already transitioned to full 
sustainability by the partner country; deployed 54 mobile detection 
systems to partner countries; and supported the down blending of 4,900 
kilograms of non-weapons HEU to low-enriched uranium (LEU) in Russia, 
among other activities. The work accomplished in the past 4 years has 
made it significantly more difficult to acquire and traffic the 
materials required to make an improvised nuclear device.
    These U.S. achievements, as well as the announcement by the U.S and 
Japan to eliminate hundreds of kilograms of sensitive nuclear material 
by removing all HEU and plutonium from the Japan Atomic Energy Agency's 
Fast Critical Assembly, were highlighted last week by President Obama 
and Secretary Moniz at the third Nuclear Security Summit in The Hague. 
There world leaders reaffirmed the high priority that they give to 
nuclear security and demonstrated measurable progress in securing 
vulnerable nuclear and radiological material worldwide to prevent 
nuclear terrorism. However, I have to stress that much remains to be 
done. The President offered to host a fourth Summit in the United 
States in 2016 in order to maintain this positive momentum, and, as we 
have been since the Summit process began in 2010, NNSA's Defense 
Nuclear Nonproliferation programs will be key to executing U.S. 
commitments.
                 meeting current and future challenges
    The President's request for funding the Defense Nuclear 
Nonproliferation account addresses current priorities, but also looks 
forward at the future threat environment. We have accordingly aligned 
our work to be prepared for those challenges. As we have seen recently, 
the global security environment is dynamic, characterized by the 
persistence and escalation of regional conflicts, continued diffusion 
of dual-use technology and information through the expansion of civil 
nuclear energy programs, remaining challenges associated with nuclear 
and radiological materials, increased sophistication of trafficking 
networks, and the growth of cyber threats to nuclear safeguards and 
security. State-level proliferation also continues to strain 
nonproliferation regimes, while vulnerable and excess nuclear and 
radiological materials are at risk of non-state actor acquisition, 
including the insider threat.
    To meet this range of challenges, Defense Nuclear Nonproliferation 
draws on its core competencies to:

        <bullet> Remove, eliminate, and minimize the use of 
        proliferation-sensitive materials.
        <bullet> Safeguard and secure materials, technologies, and 
        facilities.
        <bullet> Detect and prevent the illicit trafficking of nuclear/
        radiological materials, technology, information and expertise.
        <bullet> Provide research and development (R&D) technology 
        solutions for treaty monitoring, minimizing the use of 
        proliferation-sensitive materials, and the application of 
        safeguards and security.
        <bullet> Provide unique technical/policy solutions and develop 
        programs/strategies to reduce nuclear/radiological dangers.

    Our programs are recognized within the interagency and the 
international community as leading the fight against nuclear 
proliferation and preventing nuclear terrorism through denying an 
adversary access to nuclear and radiological materials. In carrying out 
this role, we look for every opportunity to team with our colleagues in 
other U.S. Government Departments, as well as with countries and 
international organizations that share a commitment to nuclear 
nonproliferation. Since we were authorized in 2005 to receive 
international funds, 8 countries have partnered with us in project 
implementation, not only with financial resources, but with technical 
expertise, political support and other forms of participation. This is 
in addition to funding their own nuclear security and nonproliferation 
programs, as well as contributions to international organizations for 
nuclear security and nonproliferation efforts. Maintaining our 
programmatic capabilities and leadership is key to sustaining U.S. 
leadership in global nonproliferation efforts, and we look forward to 
building on these partnerships and expanding this important cooperation 
in fiscal year 2015 and beyond.
                            program requests
    The Global Threat Reduction Initiative (GTRI) has attracted much 
attention over the past years for its successful work securing and 
removing dangerous nuclear and radiological material from around the 
world and for its radiological security work domestically. The fiscal 
year 2015 budget requests $333 million to continue GTRI's important 
work. While this is a decrease in funding compared to prior years, this 
budget reflects the successful completion of aggressive removal goals 
under the 4 year effort, which allowed us to accelerate some of our 
most important work. The fiscal year 2015 budget request will allow us 
to continue to reduce threats to U.S. national security by funding the 
removal of an additional 125 kilograms of material; continuing to 
reduce the civilian use of HEU by converting four more HEU-fueled 
research reactors to LEU fuel, and completing domestic and 
international security upgrades for an additional 105 buildings that 
host high-priority radiological sources.
    The fiscal year 2015 budget provides $305 million for another 
important element of the President's nuclear security agenda--the 
International Material Protection and Cooperation (IMPC) Program, which 
has two major components. In the material protection, control and 
accounting work, the fiscal year 2015 IMPC budget reflects the 
completion of a number of major initiatives including completing the 
consolidation of all Category I and II material into a new high 
security zone at a nuclear site in Russia. The fiscal year 2015 budget 
also funds perimeter upgrades at several sites that store and process 
weapons-usable nuclear material.
    The Second Line of Defense (SLD) program element of the fiscal year 
2015 IMPC request includes $118 million to provide fixed radiation 
detection deployments at 15 sites and ports, deploy 20 mobile radiation 
detection systems to 6 new partner countries, and connect sites to 
national communication systems in three countries to help counter the 
threat of illicit trafficking of special nuclear material. SLD will 
also provide sustainability support for over 150 sites, including 
training, maintenance support, workshops and exercises. These efforts 
reflect the thorough strategic review process the program undertook in 
2012.
    Another important element of the DNN suite of programs is the 
Nonproliferation and International Security (NIS) program, for which we 
are requesting $141. This will allow the program to focus on efforts to 
safeguard nuclear fuel cycle facilities, control illicit trafficking of 
nuclear-related technology and expertise, verify compliance with 
international arms control and nonproliferation treaties, as well as 
develop and implement policies to reduce nuclear dangers.
    Another key element of our nuclear security and nonproliferation 
strategy is the development of technical capabilities to monitor 
nuclear treaties, weapons development activities, and nuclear 
detonations worldwide. The fiscal year 2015 request includes $361 
million for the Defense Nuclear Nonproliferation Research and 
Development Program to address these core goals including producing 
nuclear detection satellite payloads. I want to point out that we have 
a very close working relationship with the Department of Defense, 
particularly the Defense Threat Reduction Agency in many of our R&D 
programs.
    The fiscal year 2015 budget request of $311 million for the Fissile 
Materials Disposition Program reflects the decision to place the Mixed 
Oxide Fuel Fabrication Facility in cold standby while we further study 
more efficient options for plutonium disposition due to cost increases. 
We owe it to the American people to continually reevaluate our work and 
make strategic decisions for the future and this is what we are doing.
    We have been working closely with the MOX project contractor and 
others for a year to determine if there are opportunities to make the 
current MOX fuel approach for plutonium disposition more efficient. It 
has become clear during this time that this approach will be 
significantly more expensive than anticipated, even with potential 
contract restructuring and other improvements that have been made to 
the MOX project. In parallel, we have begun analyzing alternatives to 
accomplish the plutonium disposition mission. With a lifecycle cost of 
approximately $30 billion, the MOX project, as currently structured, is 
no longer a viable path for plutonium disposition. As a result, the MOX 
project will be placed in cold standby so that we can minimize costs to 
the greatest extent and preserve the taxpayer investment while we 
independently validate a more efficient path forward to dispose of 
excess weapons plutonium. I must underline, however, the administration 
remains firmly committed to disposing of 34 metric tons of surplus 
weapon-grade plutonium and the PMDA.
                               conclusion
    Our efforts on nonproliferation and nuclear security measures to 
reduce the risk of nuclear terrorism are vital, but in this current 
fiscal environment difficult decisions are inevitable. Although the 
fiscal year 2015 budget request is an overall decrease in funding, we 
will still be able to carry out a robust set of activities. The threat 
of nuclear terrorism remains and nuclear and radiological materials, 
weapons of mass destruction (WMD) technology and expertise continue to 
be at risk of falling into the wrong hands; the detonation of a nuclear 
device anywhere in the world could lead to significant loss of life, 
and extraordinary economic, political, and psychological consequences; 
and materials of concern, such as plutonium, are still being produced. 
In these challenging budget times, we must not lose sight of the 
critical role played by NNSA's nonproliferation programs and the 
protections they provide by reducing the risk of nuclear terrorism and 
WMD proliferation. One measure we are taking to ensure that we are 
prepared to meet these dynamic challenges is our participation in a 
Secretary of Energy Advisory Board review to assess our current 
capabilities and to better hone our ability to meet future threats.
    With your support, the Office of Defense Nuclear Nonproliferation 
will continue to pursue a multi-layered approach to protect and account 
for material at its source; remove, down-blend or eliminate material 
when possible; detect, deter and reduce the risk of additional states 
acquiring nuclear weapons; and support the development of new 
technologies to detect nuclear trafficking and proliferation, as well 
as verify compliance with arms control treaties.
    Thank you for your attention and I will be happy to respond to your 
questions.

    Senator Hagan. Thank you.
    Ms. Hersman.

STATEMENT OF REBECCA K. C. HERSMAN, DEPUTY ASSISTANT SECRETARY 
    OF DEFENSE FOR COUNTERING WEAPONS OF MASS DESTRUCTION, 
                     DEPARTMENT OF DEFENSE

    Ms. Hersman. Chairwoman Hagan, Ranking Member Fischer, and 
Senator Graham: I'm pleased to testify today with my colleagues 
from DTRA and NNSA about our efforts to counter WMD.
    Today, WMD threats can proliferate at the speed of an 
airliner, a missile, or even the Internet. Countering such 
complex and dynamic threats requires flexible, innovative, and 
agile responses, as well as whole of department, whole of 
government, and indeed even whole of international community 
solutions.
    The international effort to deal with serious chemical 
weapons, unprecedented in scale, speed, and complexity, is a 
vivid example. Today, thanks to the efforts of many 
contributors and the support of Congress, Syria's chemical 
weapons program is on the path to elimination. The centerpiece 
of the U.S. contribution, the Motor Vessel Cape Ray, outfitted 
with DOD's recently developed Field Deployable Hydrolysis 
System and funded predominantly through DOD's CTR program, is 
ready to neutralize the most dangerous chemicals in the Syrian 
arsenal, and to do so in a safe, secure, and environmentally 
sound fashion. This type of creative, collaborative approach to 
a WMD challenge can't be the exception; it must be the rule.
    Another case in point is the January announcement of the 
complete destruction of the chemical weapons munitions that 
Libya declared in 2011 and 2012. This success was possible only 
through CTR's resources and expertise, coupled with cooperation 
from the Organization for the Prohibition of Chemical Weapons 
(OPCW) and the Libyan Government, and with contributions from 
the Government of Germany.
    Looking ahead, we must address future challenges, not only 
chemical, but nuclear and biological as well, in similar 
fashion, bringing CTR and the rest of the countering WMD 
toolkit to bear.
    I thank you for your support for our fiscal year 2015 
budget request.
    [The prepared statement of Ms. Hersman follows:]
             Prepared Statement by Ms. Rebecca K.C. Hersman
                              introduction
    Chairwoman Hagan, Ranking Member Fischer, and members of the 
subcommittee, I am pleased to testify today about several of our 
ongoing efforts to counter the threats posed by weapons of mass 
destruction (WMD). The pursuit of WMD and potential use by actors of 
concern pose a grave threat to the security of the United States as 
well as our allies and partners around the world. Throughout the 
Department of Defense (DOD), and in concert with our interagency and 
international partners, we are continuously innovating to counter new 
and evolving threats with military and civilian solutions to ensure 
that we are neither attacked nor coerced by actors with WMD.
    As the Deputy Assistant Secretary of Defense for Countering Weapons 
of Mass Destruction, I am responsible for establishing policies and 
guidance to protect U.S. and Allied Armed Forces against a chemical, 
biological, radiological, or nuclear (CBRN) attack from a State actor 
or terrorist. I also represent the Department's interests on 
counterproliferation and non-proliferation policy issues, including the 
Biological Weapons Convention (BWC), Chemical Weapons Convention (CWC), 
and Nuclear Nonproliferation Treaty (NPT), the Proliferation Security 
Initiative (PSI), as well as the DOD Cooperative Threat Reduction (CTR) 
program.
    In this role, my office develops policy and guidance for DOD CTR 
programs and activities which are implemented by the Defense Threat 
Reduction Agency (DTRA), under the direction of Mr. Myers. We also work 
in close coordination with the National Nuclear Security 
Administration's (NNSA) Deputy Administrator for Defense Nuclear 
Nonproliferation, Ms. Anne Harrington, on a number of nuclear security 
and nonproliferation projects around the globe. I am pleased to be here 
today with these colleagues, both of whom are integral to countering 
the threats that I will be addressing.
            combating weapons of mass destruction challenges
    A number of State and non-State actors continue to pursue WMD, 
posing a persistent threat to the security of the United States, as 
well as our allies and partners. In addition, the constant evolution of 
weapons, materials, tactics and technologies will continue to challenge 
our ability to dissuade, detect, deter, and defend against these 
threats. Finally, the interconnectedness of global communities means 
that WMD threats can proliferate at the speed of an airliner, a 
missile, or even the internet. Countering such complex and dynamic 
threats requires flexible, innovative, and agile responses. Twentieth 
century solutions are not sufficient to meet the WMD challenges of the 
21st century.
    Our warfighters play a large part in countering WMD, but we must 
consistently look beyond military solutions and take maximum advantage 
of diplomatic and non-kinetic tools available.
    Countering the proliferation or use of WMD requires flexible and 
agile responses, capable partners, as well as ``whole-of-department,'' 
``whole-of-government,'' and even ``whole-of-international-community'' 
solutions. In these times of fiscal austerity, we must make full use of 
partnerships, contributing where we can and avoiding unnecessary 
duplication. Cooperation is a force multiplier, enabling swift and 
comprehensive action to respond to existing and emerging WMD threats.
    The extraordinary effort to deal with Syria's chemical weapons (CW) 
program in the face of instability, civil war, humanitarian disaster, 
and an influx of terrorist elements is a great example of how each of 
these communities has banded together to employ these principles and 
address an emergent threat rapidly.
    As the crisis unfolded, we sought to reassure close partners and 
reduce the risk of cross-border proliferation of CW assets. We also 
started to work with several of Syria's neighbors to enhance their 
ability to mitigate the risk to their populations of possible CW use 
near their borders. More specifically, in addition to the prudent 
planning that is part of DOD's genetic coding, the authority granted by 
the Secretary of Defense, with concurrence of the Secretary of State, 
to expand our work into the Middle East, enabled growing work with 
Iraq, Jordan, Turkey, and even Lebanon and facilitated new partnerships 
and collaboration across DOD's communities to support both civilian and 
military requirements to reduce CW proliferation risks. Anticipating 
the potential need for eliminating Syria's CW program led to the rapid 
development and acquisition of key capabilities, particularly with 
respect to transportable neutralization of bulk chemical agents.
    After the August 21, 2013, use of chemical weapons by the Syrian 
regime against its population led to the threat of military 
intervention, the United States and Russia forged the September 14, 
2013, Geneva framework, which--together with United Nations Security 
Council Resolution 2118 and decisions by the Executive Council of the 
Organization for the Prohibition of Chemical Weapons (OPCW)--launched 
the international effort to eliminate Syria's CW program. This effort 
is unprecedented in scale, speed, and complexity. Although much remains 
to be done, it is extraordinary how much has already been accomplished 
through DOD, interagency and international partnerships.
    Today, thanks to the tremendous efforts of so many contributors, 
Syria's CW program is on the path to elimination, albeit slower than 
desired. The international coalition to remove and destroy Syria's 
chemical weapons program is prepared and in place. The maritime task 
force spear-headed by our Danish and Norwegian colleagues and supported 
by the United Kingdom, Finland, Russia, and China has enabled the 
removal from Syria of almost half of the chemicals associated with the 
Syrian CW program. The centerpiece of the U.S. contribution, the motor 
vessel (M/V) Cape Ray, is ready to neutralize the most dangerous 
chemicals in the Syrian arsenal. This maritime Ready Reserve Force 
vessel is outfitted with DOD's recently-developed Field Deployable 
Hydrolysis Systems and manned by the finest experts from our 
operational and technical communities. This unprecedented international 
effort demonstrates the ability of DOD, other U.S. departments and 
agencies, and our international partners to develop innovative 
solutions to complex problems.
    This type of creative, collaborative approach to a WMD challenge 
shouldn't be the exception--it must become the rule. As we look to two 
other high priority counter-WMD issues--countering biological threats 
and enhancing global nuclear security--we are seeing the payoffs from 
such national and international-level collaborations.
                           biological threats
    Biological threats pose a serious risk to the United States due to 
the emergence and spread of new pathogens; the globalization of travel 
and the food supply; the rise of drug-resistant pathogens; the 
advancement of biological science capabilities; and the risk of 
unsecured pathogens of concern. These developments could create 
dangerous opportunities for State and non-State actors that seek to do 
us harm--with the potential for truly catastrophic consequences and 
strategic impacts.
    These concerns are reflected in our recently-released 2014 
Quadrennial Defense Review (QDR), which specifically notes the 
confounding challenge of advancing biotechnology and the potential for 
use of agents that evade detection and countermeasures. This is a 
complex, global problem that can threaten our forces anytime, anywhere. 
The QDR acknowledges this challenge, directing us to pursue global 
prevention, detection, and response efforts.
    DOD is executing a strategy to prevent and dissuade the malicious 
use of biological agents by working with partners to secure and 
consolidate collections of pathogens of security concern, establish 
biosafety measures to prevent accidental release, inculcate norms of 
responsible behavior to identify security breaches and potential 
internal threats, and institute force health protection measures such 
as vaccinations. Should prevention fail, we understand that we must be 
prepared to respond and mitigate threats from the use of biological 
agents quickly. This requires proactive development and fielding of 
novel therapeutics; biosurveillance systems that integrate health, 
environmental, and intelligence data; and detection and diagnostic 
systems that leverage advancing technology to detect and identify not 
only traditional threats, but also novel, emerging, and potentially 
engineered agents.
    To succeed against the biological threat, in which prevention, 
detection, and response rely heavily on public health infrastructure, 
we have had to forge new relationships with health partners, academia, 
and industry. Holistic approaches that leverage interagency 
partnerships and international collaborations are the most efficient 
and pragmatic way to address the biological threats we face today.
                            nuclear threats
    Nuclear threats also remain a prominent concern. Unless arrested 
and reversed, the nuclear ambitions of countries like North Korea and 
Iran can imperil interests of the United States and our allies and 
partners around the world, create instability, and increase the 
likelihood that other nations will seek to become nuclear-armed states. 
In addition, the significant number of nuclear-armed States increases 
the chances that terrorists may acquire nuclear materials, or even 
weapons.
    Moreover, despite two dozen countries having completed the 
elimination of their weapons-useable nuclear material in the last 
couple of decades--half of them doing so since the President's 2009 
speech in Prague--the remaining availability of such material provides 
additional opportunities for terrorists to obtain material to produce a 
nuclear weapon. Continued reports of nuclear material trafficking and 
insufficient security standards at nuclear sites demonstrate that 
threats are still present; this combination of vulnerable nuclear 
materials and non-state actors seeking to acquire WMD capabilities 
presents a grave threat to U.S. security and that of our allies and 
partners.
    The ongoing spread of nuclear knowledge, fuel cycle technologies, 
and improved weaponization and delivery capabilities also could 
contribute to new types of challenges, especially when coupled with 
long-range ballistic missile capabilities. Unlike biological threats, 
however, preventing access to essential materials and technology 
significantly inhibits the ability of state and non-state actors to 
acquire nuclear capabilities. This underscores the importance of 
reducing the availability and accessibility of weapons-usable nuclear 
materials worldwide, along with the technologies required to produce 
them, promoting a culture of security, and sustaining robust 
interdiction efforts, to ensure that the nuclear weapon ambitions of 
state and non-state actors will remain difficult to realize.
    DOD is taking action to reduce nuclear threats by working with 
partner countries, in close coordination with NNSA and the Department 
of State, to secure nuclear weapons and vulnerable nuclear materials 
and equipment, contributing to the Nuclear Security Summit process, and 
by promoting global best practices in nuclear security. DOD will 
continue to build on its partnerships with other U.S. Government 
agencies, support critical international organizations such as the 
International Atomic Energy Agency, and collaborate with countries that 
can contribute resources and expertise--all to help build a more 
robust, comprehensive global nuclear security system.
    Finally, even as we focus on the highest priority nuclear threats, 
we must remain mindful of the potential for radiological dispersal and 
exposure devices that may become increasingly attractive to actors of 
concern. Although these devices do not generate the same destructive 
effects associated with nuclear weapons, they can produce significant 
health, psychological, and economic effects and increase the cost of 
addressing them due to the wide areas they may affect.
                      cooperative threat reduction
    Founded in 1992 to mitigate the WMD proliferation threats emanating 
from the breakup of the Soviet Union, the DOD CTR program has been at 
the forefront of our efforts to meet these challenges. Over the last 
year, the Program has continued to lead our response to the dramatic 
changes in the international security environment, proving its ability 
to be a flexible, adaptable tool for cooperating with a range of 
partners to implement solutions that mitigate WMD threats.
    The DOD CTR program's contributions to the international effort to 
eliminate Syria's chemical weapons program is a case in point, as the 
DOD CTR program became the primary means through which the U.S. 
Government could provide funding, expertise, and resources to shape and 
implement the CW destruction plan spearheaded by the OPCW. Without 
question, much of our effort would not have been possible without the 
active support of Congress. DOD's CTR program has worked hard in recent 
years to become more agile and able to respond rapidly to shifting 
requirements and threats worldwide. Syria represents the best example 
of these efforts, and congressional support has played a significant 
role in enabling its success.
    The DOD CTR program's success is due largely to congressional 
authorization of 3-year funding and the ability to realign money 
internally when necessary. To date, the DOD CTR program has notified 
Congress that it has allocated approximately $160 million to support 
the Syria elimination effort, including by providing equipment to the 
United Nations/OPCW Joint Mission that is necessary to remove the 
chemicals from Syria, as well as to support the vast majority of the 
effort to prepare, use, and then decommission the M/V Cape Ray for the 
mission to neutralize Syria's most dangerous chemicals. I want to thank 
Congress for their support suspending the cap on funds for fiscal years 
2014 and 2015 which will enable the DOD CTR program to spend the 
necessary funds to support this effort. Congressional support for the 
DOD CTR program's ability to accept contributions from foreign partners 
has enabled us to allow international partners to share the financial 
burden for these considerable efforts. In fact, in 2013 and 2014, the 
DOD CTR program has received more than $19 million in combined 
contributions from Germany, the United Kingdom, and Canada to assist in 
our threat reduction efforts in Syria, Libya, Jordan, Iraq, and 
Georgia, and we will seek additional contributions this year from our 
international partners for these efforts.
    Beyond rolling back the Syrian chemical weapons program itself, we 
continue to advance our efforts to mitigate proliferation threats 
within the greater Middle East. The DOD CTR program's Proliferation 
Prevention Program (PPP) has led this effort, which has focused on 
enhancing detection and interdiction capacity in Jordan, Iraq, and 
Turkey, all of which share a border with Syria. This support has drawn 
on expertise from across the Department to provide both training and 
equipment. A cornerstone of these efforts is the Jordan Border Security 
Program (JBSP), which builds on a prior DOD effort along Jordan's 
north-western border with Syria, and will be an approximately $90 
million effort to enhance Jordan's command and control over its borders 
with Syria and Iraq, and to prevent proliferation through enhanced 
awareness, coordination, and training.
    Another successful effort spearheaded by the DOD CTR program is the 
destruction of the chemical weapons stockpile that Libya's new 
government discovered after the ouster of Moamar Qaddafi. Following 
nearly 2 years of close cooperation with the Libyan Ministry of Foreign 
Affairs, which was responsible for fulfilling Libya's commitments under 
the CWC, Libya announced in January of this year that it had completed 
destruction of the CW munitions it declared in 2011 and 2012. This 
success was due in large part to the DOD CTR program's provision of $52 
million for training, security upgrades, advice, equipment, and 
destruction support in concert with the Government of Germany, which 
used our external contributions authority to assist with this effort.
    These efforts are critical not just in responding to today's 
crisis, but to prepare to respond to future threats. Success in the 
destruction of the Libyan and Syrian CW stockpiles will not eliminate 
the WMD proliferation risks in the Middle East. We must continue to 
leverage the capabilities and partnerships we have both established and 
are now building to respond more effectively to the next challenges 
that emerge.
    It is important to recognize that many of these requirements were 
not, and could not have been, predicted in advance, but rather were 
addressed rapidly as they emerged. Internally reprogramming money and 
support to the Syria effort would have been much more difficult in any 
previous year, and may not have been possible if the requirement had 
not coincided fortunately with a decreasing requirement in Russia.
    Following the June 2013 expiration of the Umbrella Agreement with 
Russia, fiscal year 2013 activities in Russia such as intercontinental 
ballistic missile (ICBM), submarine-launched ballistic missile and ICBM 
launcher elimination came to a halt. Support to nuclear weapons 
transport and technical support for chemical weapons destruction also 
were stopped. Russia and the United States agreed to continue two 
already agreed upon projects: to dismantle a Delta III strategic 
submarine and to fund transport of highly enriched uranium (HEU) 
submarine spent fuel from less secure to much more secure locations in 
Russia. Even as the traditional DOD CTR program of assistance that has 
operated in Russia for the last 20 years draws to a natural conclusion, 
the United States and Russia agreed to continue a number of important 
efforts on a collaborative basis through the Framework Agreement and 
Protocol on a Multilateral Nuclear Environmental Programme in the 
Russian Federation, on which we partner with NNSA. Of course, given the 
unfolding events in Ukraine and the Crimea, we are carefully evaluating 
our activities in the region to ensure consistency with Presidential 
guidance. We are mindful, however, that the DOD CTR program has a 
history of continued cooperation on vital threat reduction matters even 
through difficult periods in U.S./Russian relations. We hope that this 
will continue to be the case.
    Meanwhile, the Middle East is not the only area in which the DOD 
CTR program is expanding. The PPP started by working to build land and 
maritime capacity in non-Russia former Soviet Union countries to 
detect, interdict, and report on the smuggling of WMD and related 
materials. In December 2011, the Secretary of Defense determined, with 
the concurrence of the Secretary of State, that PPP funds were 
authorized for use in Southeast Asia. This transition from the former 
Soviet Union to Southeast Asia was accompanied by a shift from its 
traditional emphasis on land borders to maritime surveillance. Our new 
focus in Southeast Asia is to enhance our partners' maritime domain 
awareness capabilities by providing to them the ability to detect 
illicit transfers of WMD materials and strategic delivery systems. In 
the coming months, we will be engaging with the Philippines to assist 
in the development of a fully operational National Coast Watch System 
and with Vietnam to improve logistics and maintenance as well as 
provide infrastructure and equipment and to develop a training center 
to enable the Vietnamese Coast Guard to thwart illegal smuggling of WMD 
and related equipment.
    In addition to legacy partnerships with several countries of the 
former Soviet Union, the Cooperative Biological Engagement Program 
(CBEP) now includes active engagements in Africa, South and Southeast 
Asia, and the Middle East to address the diverse and rapidly changing 
global biological threat.
    Although the potential for State-based biological threats remains, 
the DOD CTR program is now primarily concerned with terrorist 
organizations that are seeking to acquire pathogens of security concern 
for use in biological attacks. CBEP is, therefore, focused on enhancing 
partner countries' capability to identify, consolidate, and secure 
collections of pathogens of security concern as well as strengthening 
their capability to survey, detect, diagnose, and report rapidly and 
accurately biological terrorism and outbreaks of diseases caused by 
pathogens of security concern. As an example of the holistic, whole-of-
government approaches that CBEP is utilizing, the Program will partner 
with the Malaysian Government, the Federal Bureau of Investigation 
(FBI), the Center s for Disease Control and Prevention (CDC), and U.S. 
academic partners this spring to conduct one of a series of 
intersectoral workshops on building a robust bio-risk management system 
for the country of Malaysia. Malaysia, as a leader in supporting the 
BWC, plans to invite participants from other countries in the region.
    Consistent with other proactive steps we are taking to reduce WMD 
threats, we cannot wait for an act of nuclear terrorism before working 
together to improve our collective nuclear security culture, share our 
best practices, and raise our standards for nuclear security. Through 
its Global Nuclear Security (GNS) program, the DOD CTR program is the 
Department of Defense's primary mechanism to support all three 
approaches of our strategy to support and implement President Obama's 
objectives for nuclear security, at a: site-level, country-level, and 
global-level. The GNS program conducts projects and activities to 
increase the nuclear security of partner nations. The program also 
works to decrease the vulnerability of nuclear weapons-usable material 
based upon the latest threat assessments.
    The DOD CTR program is partnering with NNSA to establish nuclear 
security Centers of Excellence in key locations around the globe to 
exchange nuclear security best practices and contribute to national and 
regional training programs. Our joint work with China is a case in 
point.
    With Russia funding its own nuclear security and CW destruction, 
most of the Category 1 weaponized CW stockpile in Libya that caused a 
security concern destroyed, and funding in place to meet the current 
requirements to destroy Syria's CW, the DOD CTR program has requested a 
smaller but sufficient budget for fiscal year 2015. The DOD CTR 
program's fiscal year 2015 request for $365.1 million includes $256.8 
million to secure biological pathogens of security concern and 
facilitate sustainable capabilities for countries to diagnose 
accurately and report rapidly disease outbreaks caused by pathogens of 
security concern. These efforts are for projects and activities in 
Southeast Asia, Africa, and the Middle East. The funds also continue 
efforts in Armenia, Azerbaijan, Georgia, Kazakhstan, and Uzbekistan. 
The fiscal year 2015 request also includes $40.7 million for PPP 
efforts that are focused on working with countries in key areas of the 
world to be able to detect and interdict WMD on the move. The Program 
is building sea-lane surveillance and interdiction capabilities in the 
South China Sea. These funds also complete border detection efforts in 
Armenia, Moldova, and countries bordering Syria. Finally, the fiscal 
year 2015 budget requests $20.7 million for GNS in order to continue to 
expand their nuclear security activities outside of Russia and the FSU 
by providing support to the China Nuclear Security Center of 
Excellence, the Kazakhstan Nuclear Security Training Center, and Indian 
Global Centre for Nuclear Energy Partnership, while maintaining the 
flexibility to meet new challenges should they arise.
    With the DOD CTR program, we have seen an enormous transformation 
at an unprecedented rate. We have established strategic guidance and a 
mechanism for assessing and establishing appropriate legal or political 
frameworks for conducting DOD CTR program activities based on the scope 
of the Program and dynamics of the partner, and are looking towards 
``right-sized'' solutions to future threats. The DOD CTR program will 
remain one of DOD's most prominent efforts to achieve comprehensive, 
coordinated, collaborative, and rapid reduction of WMD threats, and we 
want to ensure that it continues to be able to flex to meet the needs.
    As mentioned earlier, countering the proliferation and use of 
weapons of mass destruction is not just a DOD or even a U.S. Government 
responsibility. It is a global responsibility to be shared across the 
international community, especially as we live in a period of fiscal 
austerity. U.S. efforts to reduce and eliminate these threats must 
harness the power of international partnership and collaboration, and 
the President's approach does just that through the Nuclear Security 
Summit process, the Global Health Security Agenda and sustained support 
for PSI.
                        nuclear security summit
    World leaders have now gathered for three Nuclear Security Summits 
to collaborate on preventing nuclear terrorism by strengthening nuclear 
security. The broad goals of the Nuclear
    Security Summit process are for participating countries and 
international organizations to come to a common understanding of the 
threat posed by nuclear terrorism, to agree to effective measures to 
secure nuclear material, and to prevent nuclear smuggling and 
terrorism. The Departments of State, Defense, and Energy work closely 
together to support the White House's objectives for U.S. Government 
engagement in the Nuclear Security Summit process. Although Department 
of Energy (DOE)/NNSA plays a significant role in the implementation of 
many of the Summit commitments, DOD also plays an important role. For 
example, at the 2012 Nuclear Security Summit in Seoul, Republic of 
Korea, President Obama announced that, through an unprecedented 
partnership with Russia and Kazakhstan and with support from DOE's Los 
Alamos National Laboratory, the DOD CTR program secured more than a 
dozen weapons worth of nuclear material at the former Soviet 
Semipalatinsk Test Site in Kazakhstan. The DOD CTR program has 
collaborated and continues to collaborate with partner governments on 
projects like this to account for, secure, and safeguard WMD and WMD-
related material. DOD actively supported President Obama's 
participation at the March 24-25, 2014 Summit in The Hague, 
Netherlands, and will now work with our interagency partners to follow 
through on commitments made during last week's event.
    Since the 2012 Nuclear Security Summit, DOD has participated in at 
least seven domestic exercises to increase nuclear preparedness, 
response, recovery, and resilience. We intend to continue to conduct 
safe and secure shipments of spent nuclear fuel containing highly 
enriched uranium for disposition and storage, as well as modify casks 
to use to transport the fuel from submarines with unique reactor 
designs.
                         global health security
    Harnessing the power of the international community to reduce 
biological risks can only be done by building bridges between the 
security and public health sectors. In June of last year, the 
interagency agreed upon and the administration released a Global Health 
Security (GHS) Agenda, outlining nine priority objectives for U.S. 
Government departments and agencies, with the goal of working with 
international partners to accelerate progress in improving capacity to 
prevent, detect, and respond to outbreaks of infectious disease 
threats, no matter the source. In addition, the Obama administration 
hosted an international launch event this February to bring together 
like-minded nations to discuss their commitments to achieving global 
health security.
    As I noted earlier, DOD recognizes that addressing biological 
threats requires global prevention, detection, and response, which 
aligns directly with the administration's GHS Agenda. The Department of 
Health and Human Services is the U.S. interagency lead for this Agenda 
and DOD supports the GHS Agenda through existing missions and 
activities, such as force health protection, threat reduction, and 
biodefense. These activities, resourced and conducted to meet DOD's 
military objectives, provide benefit toward the achievement of GHS 
Agenda objectives while we continue to prioritize capabilities that 
counter operationally significant risks to our forces.
    One example of a program that supports the GHS Agenda is DOD CBEP, 
which I described to you previously. The capability of this program to 
enhance biosecurity and detection not only directly supports our threat 
reduction mission, but also contributes to the achievement of Agenda 
objectives. Indeed, CBEP capabilities will be leveraged to support 
DTRA's fiscal year 2014 collaboration with the CDC in 12 countries. 
This collaboration is an innovative whole-of-government solution that 
leverages our relationships, access, and resources in areas where we 
have shared objectives.
    On the force health protection side, the Armed Forces Health 
Surveillance Center/Global Emerging Infections Surveillance and 
Response System Division also benefits the GHS Agenda by conducting 
worldwide infectious disease surveillance and providing biosurveillance 
systems and laboratory training to partners. Our Defense Medical 
Research and Development Programs conduct infectious diseases research 
and development encompassing diagnostics and therapies for 
antimicrobial resistant infections and protection of forces from 
insect-borne diseases.
    Finally, the Chemical and Biological Defense Program develops and 
fields diagnostic devices that benefit both U.S. forces and GHS 
partners in improving detection of and response to infectious disease 
outbreaks. Additionally, it is developing several medical 
countermeasures and improved electronic surveillance tools that will 
enable better protection against, detection of, and situational 
awareness of infectious disease outbreaks, which support key objectives 
of the GHS Agenda.
                   proliferation security initiative
    The third national-level effort to highlight is the Proliferation 
Security Initiative, which continues to be an innovative way to build 
global, whole-of-government resolve and capacity in the face of vexing 
proliferation challenges. PSI is among our enduring efforts, just 
reaching its 10th anniversary last May, and remains a vital part of the 
international tapestry of countering WMD programs that enhance global 
security. Interdiction is a tool that can only have a strategic effect 
if states around the world cooperate, and that is why PSI's growth from 
11 states upon its founding to 102 endorsing states today is so 
significant.
    In 2003, when the Initiative was first established, revelations of 
a secret North Korean nuclear program had come to light, the A.Q. Khan 
network had enabled significant nuclear proliferation, and fears of 
``loose nukes'' from the former Soviet Union continued to persist. 
Meanwhile, the attacks of September 11 had highlighted the massive 
disruptive power of a few individuals. With the combination of WMD-
related technologies becoming increasingly available and increasing 
exploitation of global shipping, the circumstances for the relatively 
easy acquisition of WMD seemed at hand. Yet even in the face of an 
increasingly clear threat, most nations' resolve to act was unclear.
    In the 11 years since PSI began, it has had a real, practical, and 
significant impact on interdiction. From the beginning, DOD has played 
an important role by serving as the U.S. Government lead to the 
Operational Experts Group (OEG); supporting PSI-related exercises and 
other engagements; and providing technical advice and assistance to 
endorsing nations as appropriate. Since its inception, PSI has convened 
56 exercises and 34 experts and political-level consultations, 
demonstrating the enormous amount of energy and commitment resident 
within the Initiative. PSI exercises demonstrate the will of the PSI 
community to take action to prevent and, if necessary, to stop illicit 
shipments. The operational aspects of these exercises, with ships 
maneuvering at sea and aircraft above, are the most visible portions 
and have strong signaling and deterrence value.
    In addition to operational-level collaboration, PSI has had a 
significant impact on international cooperation and norms in this area. 
PSI created the conditions for new international legal instruments, 
from U.N. Security Council Resolutions to Ship Boarding Agreements, and 
their operational implementation.
    In his 2009 Prague speech, the President called for PSI to become a 
more ``durable international'' effort. DOD, working closely with the 
State Department and other interagency counterparts, has since worked 
to implement efforts to strengthen the Initiative, including through 
building consensus for and establishing a new annual PSI exercise 
hosting rotation among key PSI partners in the Asia Pacific. Since the 
beginning of PSI, our partners in this region have demonstrated their 
commitment to the Initiative and to regional cooperation by hosting 
many activities. The new annual exercise rotation among New Zealand, 
Australia, Singapore, Japan, South Korea, and the United States 
demonstrates PSI nations' long-term commitment to countering 
proliferation, makes planning and budgeting for exercises more 
efficient, and sends a consistent deterrence signal to proliferators. 
It is also an ideal burden-sharing construct. In August 2014, the 
United States will host the first exercise in this rotation, Fortune 
Guard 14 at U.S. Pacific Command, which has made the new Asia Pacific 
Exercise Rotation its foremost tool for building counterproliferation 
capacity in the Asia Pacific.
    Because the urgency of the proliferation threat not only remains 
but is evolving, cooperation through PSI is more relevant than ever. As 
States assess their own capacities to counter proliferators' 
increasingly sophisticated techniques, the OEG within PSI has created a 
more systematic means of increasing partners' ability to act. This is 
another way the United States is working with international partners to 
make PSI a more durable effort, and it was exactly what was needed as 
the predominant question transitions from being whether to take action 
to how to take action. The Critical Capabilities and Practices effort 
brings important, tangible tools to bear, and PSI partners' willingness 
to create, evaluate, and offer tools is yet another measure of the 
dynamism of the Initiative.
    Agencies from across the U.S. Government work with partners every 
day to foster a PSI that continues to be innovative and adaptive in the 
context of evolving threats. Continued success in promoting broad U.S. 
nonproliferation objectives hinges on the U.S. Government's ability to 
support foreign partners in all phases of an interdiction case--not 
just the inspective and seizure phase, but also storage and ultimate 
disposal of the seized cargo. A persistent challenge in interdiction 
involves states' capacities to take post-interdiction actions, 
including disposition of controlled commodities. assistant Secretary of 
Defense for Global Strategic Affairs Madelyn Creedon announced at the 
PSI's 10th anniversary meetings in Warsaw last year that in order to 
help address some of the complexities associated with the disposition 
of interdicted WMD-related cargo, the DOD CTR program now has the 
authority to assist foreign partners by providing, where possible, 
technical advice in the safe handling and disposition of interdicted 
WMD-related materials. This announcement not only demonstrated DOD's 
ability to look holistically across its tools to develop solutions that 
meet the evolving nature of WMD-related threats, and challenges, but 
also illustrated yet another way in which the DOD CTR program has 
proven its agility as a countering WMD tool. The United States believes 
that it is vitally important to work through, and help resolve, these 
disposition challenges together with states acting in accordance with 
their PSI commitments. DOD is pleased that it now has a means to help 
do so.
                             future threats
    Despite progress over the last year, much work remains to ensure 
our continued security. Syria and other recent events have given us 
great insight into how we may have to look at problems differently, 
enabling us to prepare for and tackle these and other threats more 
effectively as they emerge. But at the same time, we must recognize 
that the Syrian WMD program represents only a fraction of the risk 
directly posed by the Democratic People's Republic of Korea (DPRK) WMD 
program. The DPRK's pursuit of nuclear weapons and long-range ballistic 
missiles poses one of the most critical security challenges for the 
United States and our allies and partners. We will continue to manage 
the risks through close coordination and consultation with the 
international community and remain steadfast in our commitments to 
allies in the region, including the security provided by extended 
deterrence commitments through the nuclear umbrella and conventional 
forces.
    Although an initial first step towards a comprehensive deal has 
been struck with Iran, the threat has not been eliminated and we must 
remain prepared for the possibility that a long-term, comprehensive 
agreement is not reached. Diplomacy remains the preferred means to 
resolve international concerns regarding Iran's nuclear program, but as 
the President has consistently reaffirmed, all options remain on the 
table in order to prevent Iran from acquiring a nuclear weapon.
    In the increasingly interconnected global environment, the threat 
from WMD extends well beyond State actors and we cannot take our eye 
off the terrorism threat. Although the threat to the Homeland from core 
al Qaeda has been degraded in recent years, there has been an increase 
in threats by networks of like-minded extremists. The battlefield in 
Syria is generating new extremists who could eventually turn their 
glare elsewhere. As the diffusion of threats continues, the challenges 
we face will only increase, and terrorist networks continue to 
demonstrate interest in obtaining WMD. We must continue our vigilant 
efforts to prevent the proliferation of WMD, including by expanding 
adherence to international agreements and norms, dismantling State 
programs where possible, and interdicting transfers when necessary.
    With our countering WMD efforts, it all comes back to preparing and 
posturing to address future challenges that may emerge and escalate 
quickly. We must bring these programs I have described and other 
solutions to bear as new challenges surface, leveraging partnerships 
and lessons learned to respond quickly and decisively. I thank you for 
your support for our fiscal year 2015 budget request and look forward 
to our continued partnership.

    Senator Hagan. Thank you.
    Mr. Myers.

  STATEMENT OF KENNETH A. MYERS III, DIRECTOR OF THE DEFENSE 
THREAT REDUCTION AGENCY, DEPARTMENT OF DEFENSE, AND DIRECTOR OF 
THE U.S. STRATEGIC COMMAND CENTER FOR COMBATING WEAPONS OF MASS 
               DESTRUCTION, DEPARTMENT OF DEFENSE

    Mr. Myers. Madam Chairwoman, Ranking Member Fischer, 
Senator Graham, it is an honor to be here today to discuss the 
work being done to counter the threats posed by the 
proliferation and use of WMD. I would like to use my testimony 
today to highlight three of our recent activities.
    One of the best examples of the capabilities that Defense 
Threat Reduction Agency-Strategic Command Center (DTRA-SCC) can 
provide and the missions we take on is related to our work in 
Syria. We had the expertise to evaluate a serious WMD threat, 
we developed the needed technologies, and we provided planning 
support to all aspects of the operation. Now, the Cape Ray, the 
ship that houses the two Field-Deployable Hydrolysis Systems, 
stands ready to begin destruction once all the chemical 
materials are out of Syria.
    Another mission-critical area for us is the intersection of 
terrorism and the acquisition of WMD materials, particularly 
biological threats. This is an emerging and evolving threat and 
we are expanding our areas of cooperation to stay one step 
ahead. We work closely with the Centers for Disease Control 
(CDC) and we often pursue global health security projects 
together internationally. The CDC handles public health issues, 
but they are not equipped to address the security threats posed 
by deadly pathogens. We are.
    I am proud to announce that earlier this year we signed a 
Memorandum of Understanding and a strategy for joint work with 
the CDC. These documents will maximize our effectiveness 
related to biological threats around the world and ensure that 
there is no duplication of efforts.
    Finally, DTRA-SCC recently completed the destruction of 
weaponized mustard agent in Libya. We destroyed 517 mustard-
filled artillery rounds, 8 500-pound aerial bombs, and 45 
insert tubes.
    I am proud of what our team has achieved and believe that 
we have served as good stewards of the taxpayers' dollar. As we 
look to fiscal year 2015, I am confident that we are prepared 
to address future WMD threats around the world.
    Thank you again for the opportunity to be here today and I 
would be pleased to respond to your questions.
    [The prepared statement of Mr. Myers follows:]
             Prepared Statement by Mr. Kenneth A. Myers III
    Madam Chairwoman, Ranking Member Fischer, and members of the 
subcommittee, it is an honor to be here today to share with you the 
work being done to counter the threats posed by the proliferation and 
use of weapons of mass destruction (WMD). There are three entities co-
located at our facilities at Fort Belvoir: the Defense Threat Reduction 
Agency (DTRA), the U.S. Strategic Command Center for Combating Weapons 
of Mass Destruction (SCC-WMD) and the U.S. Strategic Command Standing 
Joint Force Headquarters for Elimination. Each one of these entities 
has different mission areas, authorities, requirements, and funding, 
but they are all located together and intertwined in order to leverage 
expertise from each other and coordinate efforts. These three entities, 
as one Team, are engaged in nonproliferation, counterproliferation and 
consequence management missions throughout the world--addressing the 
full spectrum of WMD threats.
                        why we exist--the threat
    Our combating weapons of mass destruction (CWMD) efforts are driven 
by the threats we face today. A terrorist attack utilizing WMD can 
result in enormous loss of life, negatively impact economies, constrain 
national budgets, create political unbalance in geographic regions, and 
most certainly promote additional proliferation and terrorist activity 
around the world.
    Our mission is further complicated given the complex nature of 
countering weapons of mass destruction. During the Cold War, most of 
our focus was on nation states. We were worried about huge stockpiles 
of nuclear, chemical, and biological materials. While there is no 
question that these stockpiles are still a threat today--and some of my 
testimony will describe our efforts in these areas--the more difficult 
area for us to track and address is terrorist acquisition of WMD 
materials that can be modified, grown, or enhanced for use as a weapon. 
The footprint is smaller in these cases, harder to track and thus 
harder to find and disrupt. We are not talking about huge factories or 
facilities in most of these cases; sometimes it is a small laboratory 
that could fit inside a bathroom. Given this reality, no region of the 
world is impervious to potential chemical, biological, radiological or 
nuclear threats.
    Our focus is to keep WMD out of the hands of terrorists and other 
enemies by locking down, monitoring, and destroying weapons and weapons 
related materials. We also assist combatant commanders with their plans 
and responses to WMD events and develop and deliver cutting-edge 
technologies to assist with all of these endeavors.
                               who we are
    There is no other country or government that is focused on CWMD 24-
hours-a-day, 7-days-a-week. Every day, 2,000 people from our 
organization come to work in locations around the United States and 
around the world focused on one thing, and that's safeguarding the 
American people against these threats. Our success is determined by 
what didn't happen--what we prevented, what we helped to interdict, 
what we eliminated, what we mitigated, and how prepared we are to 
respond. That is the basis of the shield that we can provide across the 
full threat spectrum--chemical, biological, radiological, nuclear and 
high yield explosives (CBRNE).
    Regardless of the time or day, our building is buzzing with 
activity and with a diverse and remarkable collection of talented 
workers. As you enter our building and walk through the hallways, you 
encounter personnel with highly advanced technical degrees and skills 
related to physics, chemistry, microbiology, and nuclear engineering. 
They are working right alongside those with expansive experience with 
program management, logistics, planning, special operations, targeting 
and military operations. Our operation is often described as unique in 
this way, and it is true.
    The reason why is simple. Subject Matter Experts in the WMD field 
are highly specialized and hard to find. There simply are not enough 
experts to adequately staff the Services and Commands. Even if you did, 
you would not have the right type of coordination and synchronization 
which is critical for WMD planning. The most effective way to utilize 
this expertise is to locate it in one place and provide efficient 
communication channels for collaboration.
    One of the reasons we are successful is because of the breadth of 
services that we can provide. We combine our operational side of the 
house with our research and development side focusing all our assets on 
the issue at hand. Let me give you an example, when a Command or other 
customer calls into our Operations Center a watch officer takes the 
call. This officer represents the whole team, the operations side, 
planning, and the research and development side of the house. The watch 
officer's job is to stay abreast of what is taking place throughout the 
Agency/Center and be able to quickly leverage the diverse expertise on 
our staff. If the watch officer recognizes that there's some technical 
complexity to the question, they will go straight to our Technical 
Reachback personnel. The whole process literally takes seconds. 
Throughout the response process, operational and technical subject 
matter experts are engaged. This set-up allows us to fully answer 
questions from all aspects of a WMD problem, anticipate the needs of 
the various commands and special customers, and properly prepare in 
case there is any follow-up. Timing is critical when dealing with WMD 
and our Operations Center is organized for collaboration and time 
sensitive requests. Last year we responded to 947 Technical Reachback 
requests from our customers.
                         how we are structured
    As a Combat Support Agency, we are available 24-hours-a-day, 7-
days-a-week, to support the combatant commanders and Services in 
responding to any WMD threat. This requires us to not only address 
current needs but also to anticipate future threats to our warfighters. 
In our Defense Agency role, we manage a research and development 
portfolio to develop tools and capabilities. In fact, DTRA provides the 
Special Operations Command with all of their counter proliferation 
science and technology (S&T). As a STRATCOM Center, we support 
STRATCOM's synchronization of Department of Defense (DOD) planning 
efforts to counter weapons of mass destruction. The complementary 
Standing Joint Force Headquarters for Elimination provides both steady 
state CWMD planning support and can be deployed to provide direct 
operational support for U.S. Military task forces in hostile 
environments.
    While I am pleased to walk through individual programs with the 
committee members and their staff, I would like to use my testimony 
today to highlight four real-world examples of our activities and the 
roles that different parts of our Team played in these challenges.
                                 syria
    Beginning in 2011, we began looking at ways to address the CWMD 
challenges in Syria. The U.S. Government and international community 
were alarmed by the continuing civil war in Syria and particularly 
concerned about the threats of chemical weapon use and proliferation. 
DTRA's CWMD planners and intelligence officers worked closely with U.S. 
Central Command (CENTCOM) to evaluate the WMD threats and options for 
the destruction of these weapons and materials. This analysis was 
coordinated with DTRA's research and development directorate who began 
the process of evaluating technologies to destroy these materials. Our 
Technical Reachback personnel provided modeling and analysis of the 
potential threats we faced. We were even able to utilize our expertise 
and knowledge of treaty implications to help shape and steer the 
Department's actions to respond. Our team led the synchronization 
effort within DOD and across the interagency to bring the right 
expertise to the technology review. This was truly a Team effort that 
allowed us to utilize our capabilities and expertise.
    The conclusion that we came to was that we simply did not have a 
good way to get rid of bulk chemical agents in a foreign land, in 
particular hostile environments where we did not have a cooperative 
relationship. After reviewing a number of options, we were the first 
organization to invest in a prototype Field Deployable Hydrolysis 
System (FDHS), a capability that is suitable for the destruction of 
industrial quantities of bulk chemical agent. The FDHS was developed in 
fewer than 6 months and was designed to be transportable for rapid 
deployment in a variety of environments.
    The Syrian chemical attacks on 21 August 2013 were a turning point 
for the international community. DTRA planners provided technical 
expertise to Department of State and White House-led diplomatic efforts 
at every step, including the seminal meetings between Secretary Kerry 
and Russian Foreign Minister Lavrov in Geneva. After the U.S.-Russia 
Framework and Syria's accession to the Chemical Weapons Convention, 
DTRA's Nunn-Lugar program was prepared to support the extremely rapid 
effort to destroy Syria's declared chemical materials. The Nunn-Lugar 
program provided the Joint (UN/OPCW) Mission with the majority of the 
logistics equipment to move chemicals out of Syria.
    When the international community failed to identify a nation 
willing to host destruction operations for the most dangerous 
chemicals, a full court press was employed to develop a ship-based 
destruction option with only 60 days from the word ``go''. With full 
cooperation across the interagency and Commands, we were able to 
deliver a sea-based destruction capability. I am proud to say that the 
Motor Vessel Cape Ray, the ship that houses the two field-deployable 
hydrolysis systems, stands ready to begin destruction of a large 
portion of these chemicals once the materials are taken out of Syria.
                       building partner capacity
    I would also like to share with the committee our efforts to build 
partnership capacity in the countries surrounding Syria. It was clear 
in 2012 that the countries neighboring Syria both wanted and needed 
improvements to their military and civilian response sectors to counter 
the possible illicit WMD-related trafficking coming from Syria. 
Beginning in 2012, DTRA started working with CENTCOM and the whole of 
the U.S. Government to build the CWMD capacity of the Governments of 
Jordan, Turkey, Iraq, and Lebanon. In these countries, to varying 
degrees we train, equip, and exercise with the military and civilian 
sectors so they can address non-proliferation, counter-proliferation 
and consequence management issues.
    One of our biggest projects is in Jordan which has hundreds of 
thousands of refugees from Syria. The Jordanians are concerned about 
Syrian WMD coming across its borders along with the refugees. Working 
with CENTCOM and our interagency partners, DTRA's Nunn-Lugar program is 
building a 247 mile long security system that runs along the northern 
and eastern border. To put this in perspective, 247 miles is the 
distance from Washington, DC to Raleigh, NC. We are building the system 
in 29 months and should be at full operation by August 2015. The system 
is designed to detect a person from 5 miles away and provides the 
Jordanians with a capability to safely detect, inspect, and apprehend 
someone suspected of smuggling WMD.
    We also trained and equipped the Jordanian military and civilian 
first responders, approximately 1,000 key personnel, to operate in a 
CBRNE environment. We have helped the Jordanians develop a National 
Response Plan for potential chemical attacks. We have conducted 
exercises to synchronize their efforts, reinforce and improve the 
operational implementation of their newly acquired capabilities.
    DTRA's Nunn-Lugar program was the only DOD solution that had the 
right expertise, authorities, and funding to respond to this emerging 
requirement in a timely manner. Our subject matter experts have decades 
of experience training international partners in border security and 
nonproliferation techniques. Through the Middle East Determination in 
October 2012, the Secretary of Defense and the Secretary of State were 
able to quickly approve and re-notify funding toward this urgent end.
    The Nunn-Lugar effort was enhanced by DTRA's CBRN Preparedness 
Program (CP2) and their ongoing engagements with CENTCOM in the region. 
However, the CP2 work was limited in authorities under Title 10. 
Fortunately, last year Congress granted relief by authorizing the 
Secretary of Defense, with the concurrence of the Secretary of State, 
to provide assistance to the military and civilian first responder 
organizations of countries that share a border with Syria. This was a 
significant step because not all nations have their response 
capabilities resident within their military organizations. With 
Congress' continued support, we plan to immediately use this authority 
and work within the Department to expand the authority to provide such 
assistance to other countries. This year, using both this new authority 
and our existing Title 10 authority, we will build CBRN preparedness 
and response capacity in approximately 34 countries--thus creating 
stronger partners for a safer world.
               centers for disease control and prevention
    Building partnership capacity is a good transition into discussing 
our cooperative relationship with the Centers for Disease Control and 
Prevention (CDC). The missions of DTRA/SCC-WMD and CDC touch in many 
places, and we often pursue global health security projects together 
internationally.
    DTRA is well known for its successful projects in the former Soviet 
Union. But what may not be well known is that these types of projects 
are now being tracked alongside smaller, yet equally critical 
biological material projects in sub-Saharan Africa, the Middle East, 
and Southeast Asia. Why? The threat has changed. Because of our success 
in eliminating access to materials in the former Soviet Union, groups 
and states seeking WMD have shifted their attention to other geographic 
areas and potential WMD sources. We are evolving to address these 
threats and expanding our areas of cooperation to stay one step ahead.
    In most cases, our new partners have no WMD aspirations. But, 
pathogens for endemic diseases can be weaponized and are not 
constrained by geographic or political boundaries. Pathogens for deadly 
diseases like Ebola, Marburg, and Anthrax that have been used to make 
biological weapons are being safely secured as part of the Cooperative 
Biological Engagement Program, now the largest activity within the 
Nunn-Lugar Program. For a relatively small investment, the program is 
reducing access to biological materials and expanding international 
partnerships to better counter natural and man-made biological events.
    We are working closely with these countries to improve awareness, 
improve security, to train them in biological safety, consolidate 
dangerous pathogen collections into fewer facilities with better 
security, better safety standards, and better diagnostic equipment so 
we can get early warning of disease outbreaks--regardless if it is a 
result of a naturally occurring or a deliberate attack. Not only is 
this important for nonproliferation efforts but also for force 
protection and public health.
    This is where our partnership with the CDC comes in. The CDC 
handles public health issues, but they are not tasked to address the 
security threats posed by deadly pathogens. This is a different mission 
altogether. The CDC has great experience and networks operating in 
Africa and Southeast Asia where many of these biological agents can be 
found. We can leverage their expertise by bringing the DOD security 
culture together with CDC's public health work. This allows us to see a 
pandemic problem from both sides.
    As a result, we have worked very closely with the CDC over the last 
several years. However, we also realized that there was still a good 
amount of duplicative work being done by our two agencies. I am proud 
to announce that earlier this year, DTRA and the CDC's Center for 
Global Health signed two documents: (1) a memorandum of understanding; 
and (2) a strategy for joint work. The memorandum of understanding 
formalizes DTRA/SCC-WMD's relationship with the CDC and establishes a 
joint steering committee that will review and advise on future work the 
agencies pursue together. The Strategy document outlines the types of 
work that DTRA/SCC-WMD and the CDC will pursue together. The two 
agencies will work together on three broad biosecurity/global health 
goals: (1) Prevent, (2) Detect, and (3) Respond. Working on these three 
goals together, DTRA and CDC hope to (A) improve and expand a global 
network of international partners that can provide accurate and timely 
awareness of biological threats; and (B) build a reliable and 
sustainable capacity to detect, prevent, attribute, report, respond, 
and recover from CBRNE threats, as early as possible, for the United 
States and international partners.
    This joint effort matters because timing is everything with 
biodefense. We have American military personnel, foreign service 
personnel, and other government personnel operating in every corner of 
the world right now. Improved biosecurity, safety, and surveillance is 
essential for their safety and the performance of their missions. The 
better we can address a problem away from our shores, the safer our 
country will be. Our continued strong relationship with the CDC 
improves our odds of success, and sits at the center of the United 
States's contribution to the Global Health Security agenda, launched in 
February with 28 international partners.
                                 libya
    Finally, I would like to share with the committee that we are on 
the verge of another milestone in Libya.
    In response to Operation Odyssey Dawn, DTRA/SCC-WMD deployed 
experts to Stuttgart, Germany to support U.S. Africa Command. The 
deployed personnel provided key planning and liaison support to U.S. 
and NATO operations in Libya. We made sure that any plans for action 
considered the consequences associated with chemical weapons. We also 
worked to make sure that the chemical weapons stored in the desert 
remained secure.
    Subsequently, we played an integral role in the interagency effort 
to develop courses of action for security and destruction of the 
chemical weapons (CW) stockpile. Beginning in January 2012, the Nunn-
Lugar team joined the interagency dialogue on action in Libya, and 
began discussions with the Government of Libya regarding security 
improvements at the storage site and technical options for CW 
destruction. Fast forward to today, weaponized mustard agent 
destruction is complete. Working with the Libyans, wedestroyed 517 
mustard-filled 130mm artillery rounds; 8 500 lb. mustard-filled aerial 
bombs; and 45 mustard-filled tubes we believe were to be used in other 
bomb types as mustard filled inserts into the bomb casings. To put this 
into context, just one of the 500 lb. mustard-filled aerial bombs, 
detonated in an urban setting, could cause significant damage. The 
mustard agent would likely be dispersed as an aerosol, which could have 
a devastating impact depending on the environment and location. Now all 
of the declared Libyan chemical weapons have been destroyed and the 
team is helping Libya to rapidly eliminate the residual mustard agent.
Fiscal Year 2015 Defense Threat Reduction Agency Budget Request 
        Overview
    Our budget request for fiscal year 2015 is $1.27 billion and 
comprises Defense-wide Research, Development, Test and Evaluation; 
Operations and Maintenance; Procurement; and Nunn-Lugar Cooperative 
Threat Reduction (CTR) appropriation accounts. In addition, DTRA 
executes the $407.3 million S&T portion of the DOD Chemical and 
Biological Defense Program (CBDP) and serves as the funds manager for 
the remainder of that program's funding, $980 million. Therefore, the 
total DTRA resource portfolio is approximately $2.66 billion. Details 
and highlights for these requests follow.
    Operations and Maintenance Funding
    O&M funding directly supports the warfighters and national missions 
as it pays for planning, training, exercises, and other means for 
collaboration across DOD and the U.S. Government, and with 
international partners. O&M funding is the fuel that enables us to 
reach out to our components and personnel, the warfighters, and 
international partners across the globe.
    The requested O&M funding would be applied as follows:

        <bullet> Nonproliferation Activities ($58.8 million) for arms 
        control activities including the conduct of U.S. Government 
        inspections of foreign facilities, territories, or events; 
        coordination and conduct of the escort of inspection teams for 
        inspections or continuous monitoring activities in the United 
        States and at U.S. facilities overseas; and the acquisition and 
        fielding of technology capabilities required to implement, 
        comply with, and allow full exercise of U.S. rights and 
        prerogatives under existing and projected arms control treaties 
        and agreements.
        <bullet> WMD Combat Support and Operations ($176.4 million) for 
        a wide range of combat and warfighter support to the Joint 
        Chiefs of Staff, the Combatant Commanders, and military forces 
        as they engage the WMD threat and challenges posed to the 
        United States, its forces and allies. DTRA supports the 
        essential WMD response capabilities, functions, activities, and 
        tasks necessary to sustain all elements of operating forces 
        within their area of responsibility at all levels of war.
        <bullet> U.S. Strategic Command Center for Combating WMD ($11.3 
        million) for DTRA direct support to the SCC-WMD including 
        providing strategic and contingency planning, policy, and 
        analytical support; developing interagency relationships; and 
        working closely with STRATCOM partners to establish the means 
        for assessing and exercising capabilities to combat WMD.
        <bullet> Core Mission Sustainment ($167.9 million) for a wide 
        range of enabling capabilities which include information 
        management; resource management; security and asset protection; 
        acquisition and logistics management; strategic planning; 
        leadership and professional development; and provide the 
        safety, security, and efficiency necessary for mission success.
    Nunn-Lugar Cooperative Threat Reduction
    The request of $365.1 million for this important program would be 
used as follows:

        <bullet> Strategic Offensive Arms Elimination ($1.0 million) 
        for elimination activities of ICBMs, SLBMs, and land-based 
        launchers to the Russian Federation in 2014. Elimination of 
        ballistic missile submarines will continue under the recently 
        signed bilateral protocol to the Multilateral Nuclear 
        Environmental Programme in the Russian Federation. DOD will 
        fully transition remaining responsibility for elimination 
        activities to the Russian Federation in 2014.
        <bullet> Chemical Weapons Destruction ($15.7 million) for 
        technical expertise and resources to support the U.N. OPCW 
        joint mission to remove CW from Syria. It is also providing 
        support for CW destruction of materials removed from Syria and 
        providing technical advice and assistance in other Regions.
        <bullet> Global Nuclear Security ($20.7 million) for improving 
        nuclear material security, including security for nuclear 
        warheads and weapons-usable nuclear material. This program also 
        assists in the secure transport of nuclear warheads and other 
        qualifying nuclear material to dismantlement facilities, secure 
        storage areas, or processing facilities for disposition.
        <bullet> Cooperative Biological Engagement ($256.8 million) for 
        combating the threat of state and non-state actors acquiring 
        biological materials and expertise that could be used to 
        develop or deploy biological materials and weapons. This 
        program destroys or secures biological agents of security 
        concern at their source, and works in partnerships to ensure a 
        secure disease surveillance system. This program works closely 
        with other U.S. Government departments and agencies, 
        international partners and the private sector.
        <bullet> Proliferation Prevention ($40.7 million) to enhance 
        the capability of non-Russian, Former Soviet Union (FSU) states 
        and other partner countries to deter, detects, report, and 
        interdict illicit WMD trafficking across international borders. 
        Beginning in fiscal year 2013, the Proliferation Prevention 
        Program began expansion outside of the FSU to Southeast Asia 
        and the Middle East.
        <bullet> Threat Reduction Engagement ($2.4 million) to develop 
        active and positive relationships between the defense, 
        military, and security establishments of the United States and 
        the states of Eurasia and Central Asia. This program engages 
        military and defense officials in activities that promote 
        regional stability, counter-proliferation, and defense reform; 
        build security cooperation with the partner states; and promote 
        exchanges that enhance interoperability with U.S. and North 
        Atlantic Treaty Organization (NATO) forces for multinational 
        operations.
        <bullet> Other Assessments/Administrative Support ($27.8 
        million) to ensure that DOD-provided equipment, services, and 
        related training are fully accounted for and used effectively 
        and efficiently for their intended purposes. This account also 
        funds Nunn-Lugar program travel, logistics, translator/
        interpreter support, and other agency support.
    Research, Development, Test, and Evaluation
    DTRA Research, Development, Test, and Evaluation (RDT&E) programs 
respond to the most pressing CWMD challenges including stand-off 
detection, tracking, and interdiction of WMD; modeling and simulation 
to support weapons effects and hazard predictions; classified support 
to Special Operations Forces; defeat of WMD agents and underground 
facilities; and protection of people, systems, and infrastructure 
against WMD effects.
    DTRA RDT&E is unique in being focused solely on CBRNE; tied closely 
with the agency's Combat Support responsibilities; has a top-notch in-
house field test capability; relies upon competitive bids, the national 
labs, industry, and academia rather than an in-house laboratory 
infrastructure, allowing for a ``best-of-breed'' approach to performer 
selection; and is nimble and responsive to urgent needs.
    The agency has a comprehensive, balanced CBRNE S&T portfolio that 
supports DOD goals and is well connected with DOD customers, as well as 
interagency and international partners. Our RDT&E approach balances the 
need for near-term pay-off with the need for long-term technology and 
capability development, knowledge and expertise, and is centered upon 
the following programs: Basic Research (6.1), Applied Research (6.2), 
Advanced Research (6.3), and System Development and Demonstration 
(6.5). The requested RDT&E funding includes $37.8 million in Basic 
Research to provide for the discovery and development of fundamental 
knowledge and understanding by researchers primarily in academia and 
world-class research institutes in government and industry. The DTRA 
fiscal year 2015 request also includes $151.7 million for WMD Defeat 
Technologies Applied Research, which is used to translate fundamental 
knowledge into useful materials, technologies, and concepts that 
address recognized CWMD needs. Our $283.7 million budget request for 
Proliferation Prevention and Defeat Advanced Research funds development 
of systems, subsystems, and component integration to build, field and 
test prototypes to assess utility and feasibility of technology 
solutions to well-defined CWMD requirements. Finally, $6.9 for WMD 
Defeat Capabilities System Development and Demonstration funds 
development, operational testing, and initial deployment of mature 
technologies and systems.
    Chemical and Biological Defense Program S&T
    The Department's CBDP S&T programs support DOD-wide efforts to 
research, develop, and acquire capabilities for a layered, integrated 
defense against CBRNE agents; better understand potential threats; 
secure and reduce dangerous materials whenever possible; and prevent 
potential attacks. Although funding for the CBDP is not part of the 
DTRA budget request, the agency executes the S&T portion of this 
program, for which the Department has requested approximately $407.3 
million in fiscal year 2015. The agency also manages funding execution 
in support of CBDP advanced development and procurement.
                               conclusion
    I would like to thank the committee for this opportunity to share 
some of our recent efforts and accomplishments. What I hope has become 
clear is that how we are structured, the breadth of services we 
provide, the mix of authorities which we can utilize, and the depth of 
our subject matter expertise is just as important as the strong funding 
allocated by Congress. We are not just a set of programs, agreements, 
or funding streams--we are much more than that. We are a problem-
solving tool, a unique capability. Former Senator Richard Lugar 
describes us as a national security engine that can be utilized around 
the world.
    We hope that we will continue to earn the committee's trust and 
support in meeting these threats and ensuring our security. Thank you, 
again, for the opportunity to be here today. I would be pleased to 
respond to your questions.
    Senator Hagan. Thank you, Mr. Myers. As I said earlier, it 
is a job well done in Libya.
    We will have 7-minute questions and I will start. Ms. 
Hersman and Ms. Harrington, our understanding is that the CTR 
umbrella agreement has terminated with Russia, but continues in 
some form through DOE. Ms. Hersman, can you explain the status 
of the activities that were ongoing with Russia and whether or 
not they have been terminated or are on hold? Ms. Harrington, 
can you please explain with what framework the DOE is 
continuing this relationship with Russia and the status of the 
project?
    Ms Hersman. Thank you. Even as the traditional DOD CTR 
program of assistance that had operated in Russia for the last 
20 years draws to a natural conclusion, the United States and 
Russia have agreed to continue in a number of important efforts 
on a collaborative basis through the Framework Agreement and 
Protocol on Multilateral Nuclear Environmental Program in the 
Russian Federation (MNEPR) on which we partner with the NNSA.
    Russia and the United States plan to proceed through the 
DOD CTR program with two already-agreed projects: to dismantle 
a Delta 3 strategic submarine and to fund transportation of 
highly enriched uranium submarine spent fuel from a less secure 
to a much more secure location in Russia. We believe these 
continue to be priority threat reduction activities and 
important to the U.S. national security interest.
    Of course, given the unfolding situation in Ukraine and 
Crimea, we are carefully evaluating our activities in the 
region to ensure full consistency with the President's 
guidance. We're mindful, however, that the DOD CTR program has 
a history of continued cooperation on vital threat reduction 
matters even through difficult periods of the U.S.-Russia 
relationship and we hope this will continue to be the case.
    Ms. Harrington. I'm glad that Ms. Hersman went first 
because a lot of her answer applies to ours. We also have had a 
history with Russia where even during times of high politician 
tension both sides have recognized the importance of the work, 
certainly from our perspective, the work we do there to secure 
nuclear warheads, weapons-capable material, and other 
activities are vital to U.S. national interests.
    We do work under the same MNEPR protocol and under that our 
teams continue to work with Russian counterparts to improve the 
security of Russian nuclear and radiological material at fixed 
sites and in transit and to develop strong and sustainable 
national-level nuclear security infrastructure, including 
strengthening regulatory requirements related to the security 
of nuclear and radiological material in Russia.
    The cooperation remains an essential element to the global 
effort to address the threat posed by nuclear terrorism and 
therefore supports key interests of both the United States and 
the international community.
    Senator Hagan. Thank you.
    Ms. Hersman, if you can frame where the CTR program is with 
respect to Syria and removal of the chemical weapons, in 
addition to destroying them outside of Syria.
    Ms Hersman. Thank you. The CTR program has taken on two 
major elements of support to the Syrian elimination program. On 
the one hand, we've provided more than $15 million worth of 
support for the removal activities, to include equipment and 
logistics support to the joint mission and to the OPCW to 
facilitate inspections and consolidation and removal and 
transit, so that those items can be removed for destruction 
externally.
    In addition, the CTR program has provided and is providing 
the bulk of the funding to support the outfitting and 
operations, as well as the follow-on activities associated with 
the Cape Ray, which will then through neutralization destroy 
the rest of those chemicals.
    Senator Hagan. Can you explain the approach that the CTR 
program is taking with respect to the rest of the Middle East 
and North Africa?
    Ms Hersman. In the rest of the Middle East, we continue to 
focus on our proliferation prevention efforts. We ramped those 
up substantially in fiscal year 2013 and fiscal year 2014, with 
the most significant efforts being in Jordan, where we embarked 
on the Jordan border security project to help shore up border 
security between Syria and Jordan, but also began efforts in 
Iraq, Turkey, and some nascent efforts in Lebanon as well.
    We don't have the same level of funding into fiscal year 
2015. The environment's still a little uncertain about what 
will be necessary, but we recognize that there will certainly 
be residual proliferation risks in the aftermath even of the 
removal of the bulk of Syria's chemicals, and this will remain 
a big priority for us.
    Senator Hagan. Speaking of that, 70 percent of the CTR 
program is devoted to the cooperative biological engagement 
program. Can you explain what threat you are addressing and how 
it differs from the efforts of the other agencies, such as the 
CDC, and how do you work together?
    Ms Hersman. The Cooperative Biological Engagement Program 
(CBEP) starts with a fundamental premise, and that is where 
dangerous pathogens, hostile actors, endemic disease, and weak 
government controls and capacities exist, a lot of bad things 
could happen, especially when we have hostile actors in 
proximity, whether those are lone wolf actors, terrorists, non-
state actors, or insider threats.
    The CBEP looks to try to reduce those risks by focusing on 
security, enhanced security measures, securing pathogens, as 
well as improving our ability to surveil disease threats, to 
detect them better, and to provide better strategic warning. We 
see this as really the unique niche of the CBEP, something not 
done with the same focus elsewhere across our interagency 
partners. But we do collaborate very closely both with the 
Department of State (DOS) and their diplomatic outreach and all 
of the expertise resident in the CDC, where they also have in 
some areas access and opportunity that we can build on.
    Senator Hagan. Thank you.
    My next question is on the MOX fuel. I know Senator Graham 
also will be asking about that. But, Ms. Harrington, I really 
want to know is what is the definition of cold standby?
    Ms. Harrington. All right. The definition of cold standby 
means that we will cease construction activities in order to 
control and minimize costs, while working with the contractor 
to develop a cold standby execution plan. Currently, we go 
through about $1.1 million per day at the construction site, 
and looking forward into the future that amount of money 
accumulates very rapidly.
    Any construction work that is performed would only be in 
support of placing the MOX fuel facility and equipment in a 
safe and secure state, and most importantly, going to Senator 
Fischer's point, a recoverable state. We have very much the 
interest of U.S. taxpayers in mind here, and the option of 
moving forward with this project is not off the table. That is 
part of what is under consideration right now.
    Senator Hagan. I'm sure we will go over that a little bit 
more, too.
    Senator Fischer. Thank you, Madam Chairwoman.
    I know that Senator Graham has another commitment and so I 
would suggest that you recognize him Madam Chairwoman.
    Senator Hagan. Certainly. Senator Graham.
    Senator Graham. Thank you, Senator Fischer. Thank you both, 
Madam Chairwoman.
    Let's just get right to it. Last year in the budget we 
appropriated $430 million, Congress did, for construction of 
the MOX facility; is that correct?
    Ms. Harrington. I would have to recheck that, but I believe 
it is, yes, sir.
    Senator Graham. Are you doing with the money what Congress 
told you to do?
    Ms. Harrington. We have proceeded with a plan according to 
the scope of work that we had established initially.
    Senator Graham. We gave you $430 million to complete 
construction on a facility that's 60 percent complete. From 
what you just told Senator Hagan, it's my understanding you've 
stopped construction; is that correct?
    Ms. Harrington. The order to stop construction has not yet 
been given.
    Senator Graham. That's the plan.
    Ms. Harrington. We expect it to be.
    Senator Graham. How can you do that?
    Ms. Harrington. The issue of appropriate use of 2014 
appropriations is currently an issue of a lawsuit and therefore 
it would be inappropriate for me to comment further on that 
matter, as it currently is before the courts.
    Senator Graham. There is an agreement between us and the 
Russians and that's what the MOX program is all about. It's 34 
metric tons of weapons-grade plutonium determined to be in 
excess of both nations' defense needs, that could be used to 
create thousands of nuclear warheads. The MOX program in 2011 
was designated by the United States as the disposition path 
that we would pursue; is that correct?
    Ms. Harrington. That is correct.
    Senator Graham. Have you talked with the Russians about 
this idea of changing course?
    Ms. Harrington. We have had some consultations with the 
Russians, yes.
    Senator Graham. What did they say? Who did you talk to and 
when?
    Ms. Harrington. I would have to look at that in detail. The 
Secretary has had a brief conversation with the Russian 
Ambassador.
    Senator Graham. Okay. Please tell me when and who had the 
conversation and provide me information about what they said, 
please?
    Ms. Harrington. We will take that back.
    [The information referred to follows:]

    On April 5, 2013, officials from the Department of Energy/National 
Nuclear Security Administration (DOE/NNSA) and the Department of State 
(DOS) briefly discussed with the Russians the fiscal year 2014 budget 
request and the beginning of the U.S. analysis of plutonium disposition 
options. (Note: In these and all subsequent exchanges, the U.S. 
commitment to its obligations under the Plutonium Management and 
Disposition Agreement (PMDA) has been underlined and not been 
questioned.)
    On April 25, 2014, officials from DOE/NNSA and DOS discussed with 
Russian officials the nature of the U.S. analysis of its plutonium 
disposition options in light of the fiscal year 2014 budget request, 
the implications for the U.S. mixed oxide project, and the implications 
of possible options with respect to the PMDA.
    On December 18, 2013, officials from DOE/NNSA and DOS updated 
Russian officials on the status of the U.S. analysis and the plutonium 
disposition options under consideration, along with their implications 
with respect to the PMDA noted above.
    On March 11, 2014, officials from DOE/NNSA and DOS briefly 
discussed with Russian officials the implications of the fiscal year 
2015 budget request for plutonium disposition and updated status of the 
DOE analysis of disposition options.

    Senator Graham. Okay. Now, how much plutonium is in South 
Carolina as a result of the agreement by the State of South 
Carolina years ago to take this material as a result of the MOX 
program? How much is in South Carolina?
    Ms. Harrington. About 13 metric tons.
    Senator Graham. How much of that is MOX-able?
    Ms. Harrington. About 8.
    Senator Graham. Where's the rest of the plutonium?
    Ms. Harrington. The rest of the 34 metric tons?
    Senator Graham. Yes.
    Ms. Harrington. It's still in pit form.
    Senator Graham. When is it supposed to be sent to South 
Carolina?
    Ms. Harrington. At this point, we are not sending further 
shipments of plutonium to South Carolina.
    Senator Graham. How much does it cost to guard or manage 
that stockpile per year?
    Ms. Harrington. That is a stockpile at the Pantex facility 
that is incorporated into annual costs there.
    Senator Graham. There is a cost to be borne by watching 
this material, I would hope?
    Ms. Harrington. Yes, yes.
    Senator Graham. In the President's budget does he lay out a 
disposition alternative other than MOX?
    Ms. Harrington. No, the disposition alternative is not yet 
identified.
    Senator Graham. Even though Congress told you to keep 
constructing the facility, you decided not to. You're going to 
put it in cold standby and you don't have an alternative to 
move forward. Also, you have an agreement with the Russians 
where we signed in 2011 saying this would be our exclusive path 
of disposition. Is all that correct?
    Ms. Harrington. That is correct.
    Senator Graham. When it comes to 50 U.S.C. 2566--are you 
familiar with that statute?
    It's the requirement to meet disposition goals or pay $100 
million a year fine for 5 years.
    Ms. Harrington. Yes, I am very familiar with it.
    Senator Graham. The statute was written by myself and 
Senator Thurmond to protect South Carolina in case something 
happened with us receiving this plutonium. Is there any way 
you're going to meet, if you put this in cold storage, the 
obligations under the statute to have one metric ton processed 
by 2016?
    Ms. Harrington. We believe that there are options, but 
again, that is going to be an element of what we study.
    Senator Graham. I don't want to get this thing overly 
nasty, but I have been dealing with this forever. There is no 
option. There is no viable option to MOX that would be cheaper 
and meet the target dates of disposition. That's just a 
complete, absolute absurd concept, and I know that to be the 
fact.
    This program has had cost overruns. I want to work with you 
to deal with that. But you're taking an agreement with the 
Russians, the State of South Carolina, you're breaking the 
direction given to you by Congress, without any viable 
alternative. This is incredibly irresponsible. It's going to 
cost us more money. It's going to create problems with weapons-
grade plutonium in the hands of the Russians at a time we need 
no more problems with the Russians.
    I just promise you this will not go away and it will not be 
allowed to stand, because it is so, so irresponsible.
    How much will it cost to terminate the MOX program?
    Ms. Harrington. We do not yet have a projection for what it 
would cost to terminate, because that's not part of the plan.
    Senator Graham. I've been told at least $1 billion. Is that 
correct? Would that be true? The taxpayers would be on the hook 
for $1 billion in costs if we terminated the program?
    Ms. Harrington. I do not believe that there is a detailed 
cost estimate.
    Senator Graham. I'm going to give you a series of questions 
for the record, as I don't have time right now. I would 
appreciate a prompt response. Particularly, I will be talking 
to the Russians myself. I have talked to DOE. They very much 
hope we don't lay off the workforce until we can find a way 
forward.
    Ms. Harrington, I will work with you and others to try to 
make this program more cost efficient. I don't think that's an 
unreasonable request. What you have decided to do, this 
administration has decided to do, in the budget is 
irresponsible financially. I think it's reckless in terms of 
trying to take material that would present a proliferation 
threat. I think it makes no business sense, and we will 
continue to have this discussion.
    So, thank you very much.
    Ms. Harrington. Thank you, Senator, and thank you for all 
of the efforts you've put into this, and we would look forward 
to working with you.
    Senator Graham [presiding]. Yes, ma'am, we will.
    We'll be in recess until after the vote. Thank you.
    [Recess.]
    Senator Hagan [presiding]. We're going to bring the meeting 
back to order.
    Ms. Harrington, I'm sorry I missed all the other discussion 
on this issue. In the fiscal year 2015 budget submission, it 
has a $114 million reduction for the Second Line of Defense 
(SLD) program, reducing it to $305 million. Overall, this is 
the second year of a decrease, from a fiscal year 2013 amount 
of $527 million. This is an important program to help stem the 
flow of illicit nuclear material across the borders.
    Will you please explain why these reductions continue?
    Ms. Harrington. Yes, thank you, Senator. First of all, the 
fiscal year 2013 $527 million number is a bit of an accounting 
anomaly because the 2013 CR [Continuing Resolution] was based 
on 2012, where we had a quite high level for that particular 
program, so it bumped that number up a little bit.
    Senator Hagan. The high level was based on what?
    Ms. Harrington. A scope of work that we had underway at the 
time.
    The $527 million was actually the target of some of our 
reprogramming, which we thank you and our other oversight 
committees for allowing to move forward at the end of 2013, 
early 2014. The reduction that's being referenced is actually 
the reduction for the entire international material protection 
cooperation budget. The SLD budget itself in 2014 was $190 
million and in 2015 is $117 million. Of the $190 million in 
fiscal year 2014, a piece of that is from the reprogramming. 
That allows us to front load some of the activities in fiscal 
year 2014 and absorb a reduction in the fiscal year 2015 
budget.
    We only just received at the end of February of this year 
that reprogrammed money. That is now being carried into the 
remainder of 2014. We feel that in calendar year 2014 SLD will 
be able to accelerate important work that's laid out in its 
strategic plan and forward fund a number of activities to 
prepare for a slight reduction next year.
    Senator Hagan. Thank you.
    In your opening remarks, I think you wanted to talk a 
little bit about the summit that was just completed. I'd like 
to ask you about the summit in the Netherlands last week. Can 
you explain the principal actions of the summit and how they're 
reflected in the fiscal year 2015 budget?
    Then, I'm also concerned why Russia, China, India, and 
Pakistan did not sign up to these actions along with the other 
35 nations.
    Ms. Harrington. Let me clarify that last point first. That 
was on a particular group action to strengthen nuclear 
security. It's what we call in summit parlance a gift basket, 
when a group of countries band together and basically make a 
common commitment. China, India, other countries, all countries 
participating, fully supported the communique. This was a 
separate action and there were a number, probably about a 
dozen, of these so-called gift baskets offered up by different 
states. It just was some countries like this particular format, 
a voluntary format of banding together and offering to do 
something. Other countries simply do not.
    I would not gauge their interest or commitment to nuclear 
security on whether or not they signed up to this particular 
gift basket.
    Senator Hagan. I'm not sure I understand what the gift 
basket was that these countries didn't agree with.
    Ms. Harrington. It was a commitment to essentially try to 
go above and beyond what is expected of our nuclear security 
behavior, to explore ways of being transparent with each other, 
of offering assurances that our security is adequate, and so 
forth, things that are not currently required under 
international guidelines.
    As for the accomplishments at the summit, I think the 
highlight of the summit certainly was the joint U.S.-Japan 
announcement to eliminate hundreds of kilograms of highly 
enriched uranium and plutonium from the Japanese Atomic Energy 
Agency's Fast Critical Assembly. We had been working with Japan 
for some time on this. It's a very important accomplishment for 
both countries and something that we will now energize.
    We also announced the successful removal of quantities of 
highly enriched uranium from both Italy and Belgium. We 
announced the completion of the President's 4-year effort to 
secure the most vulnerable material across the globe, and that 
included removing or confirming the disposition of almost 3,000 
kilos of highly enriched uranium and separated plutonium, 
including removing all highly enriched uranium from 11 
countries and Taiwan, enhancing the security of 32 buildings 
containing metric tons of weapons-useable material, and 
installing almost 1,600 radiation portal monitors at border 
crossings, airports, seaports, among other activities.
    Those were some of the U.S. highlights, but many other 
countries came bringing their accomplishments as well. If 
you're interested in a more detailed accounting of all of the 
things that were announced at the summit, we certainly can get 
that for you.
    Senator Hagan. Thank you.
    Mr. Myers, thank you for your patience. On the Syrian 
chemical weapons, DTRA is implementing the CTR program, 
including the Syrian chemical weapons destruction effort. 
Please explain the interagency effort to outfit the Cape Ray 
and the technologies you're employing to destroy the chemicals 
and their precursors?
    Mr. Myers. Yes, Senator, thank you. First and foremost, the 
efforts with regard to eliminating the Syrian chemical weapons 
stockpile is truly an interagency effort. From the very 
beginning, strong cooperation between DOS and DOD in terms of 
the activities, discussion, negotiations with Russia, with 
Syria, through the OPCW, and a number of other international 
forums. That carried through through a number of different 
efforts and layers that brought us to the Cape Ray, to 
outfitting the Cape Ray.
    It is a very complicated, very difficult process, but it 
could not have been possible without the Department of 
Transportation, who oversee the Maritime Administration, which 
in turn maintains the National Defense Reserve Fleet, which is 
where the Cape Ray came from, a fleet of ships on standby, 
ready to respond in short order. The cooperation between the 
Department of Transportation and the Maritime Administration to 
get the Cape Ray to the right spot for us to do our work was 
absolutely critical.
    In addition to that, the cooperation of the Coast Guard, 
again just a Herculean effort to make sure that everything that 
we were doing on the Cape Ray in terms of installing the field-
deployable hydrolysis systems, storing all the different 
chemicals and reagents that we would need, locking down various 
generators and berthing modules for the crew to stay in during 
the destruction effort, all required--all had to meet 
international shipping standards, and the Coast Guard was 
absolutely critical in that, as were a number of other entities 
both in the public and private sector, for which we are very 
thankful for their cooperation.
    This truly was an interagency effort and, quite frankly, 
even within DOD, the number of different entities that were 
involved--obviously, Ms. Hersman's office, OSD Policy, DTRA, 
multiple elements in the chemical and biological defense 
program; my boss, Frank Kendall, Under Secretary of Defense for 
Acquisition, Technology, and Logistics, was critical in leading 
senior groups together to come behind and gain consensus behind 
paths forward. This truly was a tremendous effort.
    In addition to that, you asked about the technology that 
we're using. We're using the field-deployable hydrolysis 
system. From the very beginning, we've had a close relationship 
with the chem-bio defense program, our R&D arm at DTRA. We have 
had seed money, if you will, with the chem-bio defense program 
to begin building this capability. Within a 20-week turnaround, 
design and development were completed. This was because a lot 
of early work and a quite Herculean effort by our friends up at 
Aberdeen, MD, at the Edgewood Chemical and Biological Command, 
so hats off to them. They did a phenomenal job.
    The neutralization really comes through chemical reaction 
involving a number of reagents, which are mixed with the 
chemical material and then heated. In effect, we basically turn 
it into sludge. The sludge in turn will be incinerated at 
commercial incinerators in Europe and elsewhere.
    Obviously, this is a big undertaking, something that we've 
done on land on a number of occasions here in the United States 
and around the world. This will be the first time we've done it 
on a ship. All of this time since the launch of the Cape Ray 
back in January until today, they are exercising. They are 
preparing for the day when the materials are delivered to the 
Cape Ray and they are able to start work.
    They're learning a lot of important lessons and we're 
learning from those lessons, providing them with additional 
materials, additional tools, they may need on board to ensure 
that we do it in the most safe and secure way possible and we 
do it in a way that completely eliminates the Syrian chemical 
weapons stockpile.
    Senator Hagan. They are waiting right now for the delivery; 
is that correct?
    Mr. Myers. That's correct.
    Senator Hagan. All right.
    I'm going to go ahead and ask one more question and then 
see if somebody else comes. Then we might actually convene to 
the closed briefing.
    I wanted to ask, Mr. Myers, on the nuclear inspections. One 
high profile activity that's made the news lately is the 
nuclear surety inspections at the intercontinental ballistic 
missile bases. My understanding is the Navy conducts separate 
inspections for their fleet of our nuclear-armed ballistic 
missile submarines. Do you think it would make sense to develop 
common inspection procedures where possible between the two 
Services, and can you elaborate on that?
    Mr. Myers. Yes, thank you. We do, in fact, have a common 
inspection procedure that DTRA implements, and the two 
Services. This was put forward by an instruction from the 
Chairman of the Joint Chiefs of Staff back in 2013, and the 
instruction identifies common guidance for both the Services 
and DTRA to conduct nuclear weapon technical inspections.
    In addition to that, the Services have also identified 
additional items that they want to inspect. In other words, 
they broadened the scope of the inspection beyond the 
Chairman's instruction. They've each added some individual or 
independent elements that are applicable to their Service. 
Those are in addition to the aspects of the nuclear weapons 
inspections DTRA carries out under the mandate from the 
Chairman of the Joint Chiefs of Staff.
    Senator Hagan. Do you have any comments on some of the 
actions that were taken that were in violation of security 
measures?
    Mr. Myers. No, ma'am. We have had a long history of 
carrying out those inspections. We try to do it in the most 
deliberate, transparent way possible. I think we do a very good 
job at it and I think it's done in a manner that provides the 
highest amount of confidence that the results are accurate and 
carried forth in a very straightforward manner. [Pause.]
    Senator Hagan. These votes really do complicate having a 
hearing. I'm going to recess. Senator Fischer is on her way 
back. She will pick up with her questions for maybe 5 to 7 
minutes, and then we'll recess this. Then I will meet you over 
at the closed briefing.
    Thank you.
    [Recess.]
    Senator Fischer [presiding]. I'll catch my breath, because 
we're running back and forth here. What I'd like to do is just 
take 5 minutes to ask a few questions, and then we'll head over 
to the Capitol to have a further discussion in a closed 
session, if that's okay.
    Ms. Hersman, what effect does Russia's violation of the 
1994 Budapest Memorandum have on proliferation? Do you think 
some of these nations and some that are aspiring to become 
nuclear powers will see this as diminishing the value of 
security guarantees and increasing the value of nuclear 
weapons?
    Ms Hersman. I think the value of pursuing a policy of 
nonproliferation and the rejection of nuclear weapons by 
countries like Ukraine will continue to be the best path 
forward for them.
    Senator Fischer. Do you believe that's the best path 
forward?
    Ms Hersman. I do. I think that it won't really change their 
policy or the approach, despite some of these concerns from 
Russia.
    Senator Fischer. Mr. Myers, do you agree with that?
    Mr. Myers. Senator, we play a number of different roles at 
DTRA-SCC and one of them is in support of U.S. Strategic 
Command. We play a lot of roles in terms of eliminating threats 
of nuclear weapons as well as supporting the U.S. nuclear 
stockpile. I will defer on the specific matter on the arms 
control issue you raised to Deputy Assistant Secretary of 
Defense Hersman on the policy side.
    Senator Fischer. Thank you.
    I'd have to say, Ms. Hersman, I disagree with you. Ukraine 
was the third power with regards to nuclear weapons. They 
signed an agreement with Russia and the United States that I 
understand basically says give up your nukes and we'll take 
care of you forever. Is forever now 20 years? Is that the mark 
that we're going to go by? Do you think other nations are going 
to look at that and think we can give up our weapons as well 
and be protected?
    We see Russia move into Crimea. I guess how would you 
respond to my concerns and what I believe would be concerns 
with any other nation sitting back and watching our lack of 
action in honoring that agreement?
    Ms Hersman. What I'd like to do is perhaps take that 
question back. I think that, again, they remain very committed, 
but I'd like to pursue the more specific question about that 
agreement perhaps in a written answer for you.
    [The information referred to follows:]

    Senator Fischer, we understand and share some of your concerns. We 
continue to condemn Russia's annexation of Crimea and military 
intimidation of Ukraine. Ukraine's courageous decision to reject 
nuclear weapons and join the Nuclear Nonproliferation Treaty (NPT) was 
the right choice in 1994, and it remains so today. By joining the NPT, 
Ukraine also joined the global community that respects international 
norms, composed of states that are now coming to Ukraine's defense. 
Ukraine's decision established Ukraine as an international leader on 
nonproliferation, facilitated the peaceful transition from the Soviet 
Union, and supported economic and political integration from which 
Ukraine benefited greatly.
    The U.S. Government continues to fulfill its obligations under the 
1994 Budapest Memorandum, and our resolve to support and defend our 
partners remains strong. The NPT regime continues to help deter 
proliferation and to create a strategic environment in which we have 
seen that progress can be made toward nuclear disarmament. Commitments 
to renounce nuclear weapons and join the NPT will continue to be the 
right choice, not just for Ukraine, but also for the security of our 
nation and for the peace of the world.

    Senator Fischer. We will follow up then. Thank you.
    When we talk, Ms. Harrington, about the recent nuclear 
security summit in The Hague, can you tell me if there were any 
new commitments that were made at that summit?
    Ms. Harrington. In fact, there were a number of new 
commitments made at that summit. I don't have the entire list 
with me, but the highlight was our joint announcement with 
Japan that we are going to remove hundreds of kilos of highly 
enriched uranium and plutonium from their Fast Critical 
Assembly that belongs to the Japan Atomic Energy Agency. This 
is a huge step forward in a number of regards and reflects the 
close working relationship we have with Japan.
    There are a number of new commitments that came out of the 
summit and we'd be happy to get a complete list of those back 
to the subcommittee if that would be of interest.
    [The information referred to follows:]

    The 2014 Nuclear Security Summit, which took place on March 24-25 
in The Hague, the Netherlands, saw 53 countries and 4 observers (the 
International Atomic Energy Agency (IAEA), the United Nations, 
INTERPOL, and the European Union as represented by the European Council 
and the European Commission) reaffirm their political commitments to 
take tangible actions to reduce the threat of nuclear terrorism and to 
make progress towards strengthened international norms and standards 
for nuclear security. The Hague Summit saw several notable achievements 
and major announcements for further actions, including:

        <bullet> A joint U.S.-Japan agreement to remove to the United 
        States hundreds of kilograms of weapons-usable nuclear material 
        from Japan's Fast Critical Assembly facility;
        <bullet> The shipment to the United States of surplus highly 
        enriched uranium and separated plutonium from Belgium and 
        Italy, continuing progress in minimizing such materials;
        <bullet> A statement by 35 countries expressing their intent to 
        further strengthen nuclear security by meeting or exceeding the 
        objectives recommended in specific IAEA nuclear security 
        documents and to consider additional actions that would further 
        ensure continuous improvement in nuclear security, including 
        initiatives to work together to share experiences, lessons 
        learned, and assist other countries in raising their nuclear 
        security capabilities;
        <bullet> A statement by 23 Summit countries expressing their 
        intent to securing their highest-risk radioactive sources, 
        consistent with guidance in the IAEA Code of Conduct on the 
        Safety and Security of Radioactive Sources and with 
        consideration of other IAEA nuclear security documents by 2016;
        <bullet> A statement by 13 Summit countries expressing their 
        intent to combat illicit nuclear material trafficking by 
        seeking enhanced measures to remove nuclear and radiological 
        materials not under regulatory control from the global maritime 
        supply chain and worldwide; and
        <bullet> The recognition that other international and 
        multilateral mechanisms, such as the IAEA, should be prepared 
        (and strengthened) to assume the many positive aspects of the 
        Nuclear Security Summit process after the 2016 Summit to be 
        hosted in the United States.

    As was the case in the 2010 and 2012 Summits, Department of Energy 
(DOE)/National Nuclear Security Administration (NNSA) programs will 
have a leading role both in assisting other Summit countries in 
achieving their 2014 Summit objectives, as well as in contributing to 
the U.S. efforts to meet these objectives. For example:

        <bullet> DOE/NNSA will be responsible for removing the nuclear 
        materials identified in the U.S.-Japan Fast Critical Assembly 
        Agreement;
        <bullet> DOE/NNSA will also assist Summit countries, as well as 
        facilities in the United States, to secure their remaining 
        highest-risk radioactive sources, in order to support efforts 
        to secure all such sources by 2016;
        <bullet> DOE/NNSA will assist other Summit countries in 
        supporting the goals of the Summit's joint statements on 
        combatting illicit nuclear material trafficking and in removing 
        materials not under regulatory control from the global maritime 
        supply chain; and
        <bullet> Several DOE/NNSA offices, particularly the Defense 
        Nuclear Nonproliferation's Office of Nonproliferation and 
        International Security, as well as DOE/NNSA programs in 
        counterproliferation/counterterrorism, emergency incident 
        response, and U.S. domestic nuclear security, will fulfill the 
        U.S. leadership role in the 2014 Summit's statement regarding 
        meeting or exceeding the intent of internationally-accepted 
        levels of nuclear security.

    Senator Fischer. That would be great.
    Can you tell me if Russia, China, India, and Pakistan 
joined in on that statement?
    Ms. Harrington. They did certainly join in on the summit 
communique. I was trying to explain to Senator Hagan the 
complicated system of different documents that come out of the 
summit process. When a group of countries join together around 
a certain principle, whether it's radiological security, 
whether it's maritime security, it's called a gift basket in 
summit language.
    Senator Fischer. Did we get a good gift basket from Russia 
and China and India and Pakistan? It seems to me those are the 
countries that I would have the most concern with, rather than 
Japan.
    Ms. Harrington. Right. They are not very fond of the 
concept, but Russia certainly did sign up on the statement on 
combating nuclear terrorism under the global initiative, and 
Pakistan and China have made a number of other of their own 
unilateral commitments to do other things.
    Senator Fischer. These are voluntary standards, is my 
understanding. These four countries that I mentioned, wouldn't 
even sign onto voluntary standards?
    Ms. Harrington. I would say neither did perhaps another 20 
participants in the summit.
    Senator Fischer. Was it a success?
    Ms. Harrington. The summit? Absolutely. We may have our 
issues with Russia right now, but one of the reasons that we 
were successful going into this summit was the removal of all 
highly enriched uranium in partnership with Russia from a 
number of countries, for example like the Czech Republic, 
Hungary, where the material was of Russian origin. We continue 
to be able to execute under that kind of partnership.
    Different countries express their commitment to nuclear 
security in different ways.
    Senator Fischer. Thank you.
    My time is up. With that, I will end this hearing. We'll 
move to the Capitol Visitor Center for a closed hearing. Thank 
you all for your participation here today. This subcommittee 
open hearing is now adjourned.
    [Whereupon, at 3:10 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Kay R. Hagan
                   global threat reduction initiative
    1. Senator Hagan. Ms. Harrington, the fiscal year 2015 request 
reduces funding for the Global Threat Reduction Initiative (GTRI) by 
roughly 25 percent relative to last year's appropriation. Within GTRI, 
the request delays the goal to convert or shut down 200 research 
reactors that still use highly enriched uranium (HEU) by an additional 
5 years to 2035. Other planned HEU reactor conversion and related work 
for fiscal year 2015 is apparently deferred to future years, though 
there are no specific details about what exactly is being deferred. The 
request for nuclear and radiological material removal also states that 
some planned follow-on work is deferred to future years, but again what 
exactly is being deferred is opaque. Finally, the reduction in the 
request for nuclear and radiological protection is justified on the 
grounds that it is consistent with broader budget austerity goals and 
prioritization within the National Nuclear Security Administration 
(NNSA). The previous end date to secure 8,500 buildings with 
radioactive material by 2044, which itself is a delay of nearly 2 
decades relative to the goal in 2012, is now to be determined pending a 
review of GTRI's protect program examining current inventory, scoping, 
budgeting, and project planning processes that will maximize resources 
and decrease the program's completion timeline. Would you provide 
specific examples of critical security work that is being deferred due 
to budget cuts?
    Ms. Harrington. The administration and the Department of Energy 
(DOE)/NNSA remain committed to our nuclear nonproliferation and 
security objectives, consistent with the President's vision of reducing 
nuclear dangers and our reliance on nuclear weapons. In the current 
budget environment, difficult choices are inevitable and this budget 
balances the activities on a priority basis within the available 
budgetary resources. With the budget proposed and by working together 
with our international partners, NNSA expects to be able to continue 
its strong support for priority programs.
    For the GTRI, the impact of the reduction in funding from fiscal 
year 2014 to fiscal year 2015 will result in delay in the completion of 
security upgrades at 15 domestic and international buildings that 
contain high-priority radiological material and in the completion of 
Russian research reactor conversions. The reduction also results in the 
deferral of funding for nuclear material removals from South Africa. 
Though existing political obstacles to that work limit the impact of 
this reduction, it eliminates the possibility of accelerating other key 
shipments planned for later years, such as from Kazakhstan.

    2. Senator Hagan. Ms. Harrington, what additional work could be 
done in fiscal year 2015 with additional funding?
    Ms. Harrington. With additional funding, the GTRI could secure an 
additional 50 buildings containing high-priority radiological material 
($20 million), and accelerate the removal of HEU from Kazakhstan and/
or other high-priority countries ($15 million).
    No reactors scheduled for conversion in fiscal year 2016 or beyond 
could be accelerated into fiscal year 2015, as conversions are multi-
year projects, and fuel fabrication timelines and technology 
development cannot typically be accelerated at the final stage of the 
conversion project.

    3. Senator Hagan. Ms. Harrington, what percentage of the GTRI 
budget funds activities in Russia?
    Ms. Harrington. The total request for the GTRI in fiscal year 2015 
is $333.5 million. Of that, $25.6 million (7.7 percent) supports GTRI 
activities in Russia. In addition to GTRI's activities in Russia, GTRI 
partners with Russia to support nuclear material removal in third party 
countries. In fiscal year 2015, for GTRI's Russian-origin nuclear 
material removal efforts, including key removals in Kazakhstan and 
Uzbekistan, will require $46.2 million in funding (13.9 percent). These 
efforts do not include providing equipment or other forms of assistance 
to Russia, but do include funds for Russian services, including 
transportation and packaging, material handling and storage, and other 
requirements that facilitate GTRI's material removal efforts. The 
majority of the value of the funding remains in third-party country in 
the form of facility upgrades, reactor modifications, and the provision 
of replacement low-enriched uranium (LEU) fuel.

    4. Senator Hagan. Ms. Harrington, the fiscal year 2015 request 
reduces funding for the Cooperative Threat Reduction (CTR) program by 
roughly 27 percent relative to last year's appropriation. Can you 
please explain the rationale for such a drastic budget cut?
    Ms. Harrington. The fiscal year 2015 budget for the Office of 
International Material Protection and Cooperation (IMPC) will decrease 
by approximately 27 percent from 2014 due to reduction of the work 
scope in Russia. For example, Material Protection, Control, and 
Accounting (MPC&A) cooperative work will not continue at sites under 
the jurisdiction of the Russian Ministry of Defense, and MPC&A work at 
two Rosatom nuclear sites will be completed in 2014.

    5. Senator Hagan. Ms. Harrington, are there priorities and/or goals 
that are being deferred or scrapped because of the budget cuts?
    Ms. Harrington. In the current budget environment difficult choices 
are inevitable, but we believe that at this funding level, we will 
still be able to fully support the President's nonproliferation 
priorities as well as have the flexibility to take advantage of new 
priorities and opportunities. The administration and DOE/NNSA remain 
committed to our nuclear nonproliferation and nuclear modernization 
objectives, consistent with the President's vision of reducing nuclear 
dangers and our reliance on nuclear weapons. As a demonstration of our 
continued commitment to nuclear security as a priority, the fiscal year 
2015 budget request provides funding to continue remaining high-
priority nuclear and radiological threat reduction efforts, following 
the accelerated 4-year effort activities. With the budget proposed and 
by working together with our international partners, NNSA expects to be 
able to continue its strong support for priority programs.
                                 ______
                                 
               Questions Submitted by Senator Deb Fischer
          impact of russia's action on nonproliferation norms
    6. Senator Fischer. Ms. Hersman and Ms. Harrington, last month, 
U.N. Secretary General Ban Ki-moon stated that Russia's action in 
Ukraine has ``profound implications for the integrity of the nuclear 
non-proliferation regime,'' apparently based on concern that potential 
aspiring nuclear powers would interpret recent events as confirming the 
need for nuclear weapons. Do you agree with his statement?
    Ms. Hersman. Despite the gloomy predictions regarding the damage to 
the Nuclear Nonproliferation Treaty (NPT) from the current crisis in 
Ukraine, Ukraine leaders such as Minister of Foreign Affairs Deshchitsa 
have recently reaffirmed Ukraine's commitment to the NPT. I believe 
that we should take heart in Ukraine's reaffirmation of its 
nonproliferation obligations, even in the face of the current crisis. 
Non-nuclear-weapon states have far more to lose than they have to gain 
by developing or acquiring nuclear weapons. The process of developing 
or otherwise obtaining nuclear weapons is tremendously expensive and 
destabilizing, and undoubtedly such actions would undermine the very 
security that the states were seeking to achieve. By remaining united 
against Russia's aggressive actions, the international community will 
continue to send a strong message to non-nuclear-weapons states that 
obtaining nuclear weapons is not necessary for their security.
    Ms. Harrington. I agree that Russia's recent actions have impacted 
the international security environment. However, recent events do not 
diminish the many political and security benefits that states enjoy as 
states parties to the treaty on the NPT. Ukraine has reaffirmed its 
commitment to uphold its nuclear non-proliferation commitments, 
including its obligations under the NPT as a non-nuclear-weapon state. 
Non-nuclear-weapon states parties to the NPT have an obligation under 
the Treaty not to manufacture or otherwise acquire nuclear weapons or 
other nuclear explosive devices. States value the NPT for its 
contribution to international peace, stability, and security throughout 
the world for over four decades. I do not believe that Russia's actions 
will lead non-nuclear-weapon states parties to the NPT to reconsider 
the merits of nuclear disarmament, nonproliferation, and security. The 
acquisition of nuclear weapons by NPT non-nuclear weapon states would 
not increase their security; rather, it would detract from their 
security and lead to international condemnation and isolation.

    7. Senator Fischer. Ms. Hersman and Ms. Harrington, are you 
concerned that potential aspiring nuclear powers will conclude that 
Russia's actions demonstrate the security value of nuclear weapons and 
diminish the importance of security guarantees?
    Ms. Hersman. Russia's actions do not demonstrate the security value 
of nuclear weapons, and we continue to condemn Russia's annexation of 
Crimea and military intimidation of Ukraine. The U.S. Government stands 
with the Government of Ukraine in this crisis; Ukraine's courageous 
decision to reject nuclear weapons and join the NPT was the right 
choice in 1994, and it remains so today. By joining the NPT, Ukraine 
also joined the global community that respects international norms, 
composed of states that are now coming to Ukraine's defense. Ukraine's 
decision established Ukraine as an international leader on 
nonproliferation, facilitated the peaceful transition from the Soviet 
Union, and supported economic and political integration from which 
Ukraine benefited greatly. The U.S. Government is fulfilling its 
obligations under the 1994 Budapest Memorandum, and our resolve to 
support and defend our partners remains strong.
    Ms. Harrington. We condemn Russia's failure to abide by its 
international obligations and commitments, including the commitments 
made under the 1994 Budapest Memorandum. However, recent events do not 
diminish the many political and security benefits that states enjoy as 
NPT parties. Ukraine has reaffirmed its commitment to uphold its 
nuclear non-proliferation commitments, including its obligations under 
the NPT as a non-nuclear-weapon state.

    8. Senator Fischer. Ms. Hersman and Ms. Harrington, the 2010 
Nuclear Posture Review states that U.S. disarmament and reducing the 
role of U.S. nuclear weapons ``can make a major contribution to our 
goal of preventing nuclear proliferation and nuclear terrorism.'' Do 
you believe Russian aggression exerts greater influence on potential 
aspiring nuclear powers than recent U.S. arms control efforts and 
pronouncements about the role of U.S. nuclear weapons?
    Ms. Hersman. Non-nuclear-weapon states that are parties to the NPT 
value the NPT for its contribution to international peace and 
stability, and understand that their commitment under the NPT to not 
develop or acquire nuclear weapons is an important element to promoting 
global security. By standing united against Russia's aggressive 
actions, the international community is sending a strong message that 
non-nuclear-weapon states need not reconsider the merits of nuclear 
disarmament, nonproliferation, and security-based on Russia's actions. 
The U.S. commitment to address these issues through practical steps and 
international collaboration will maintain our credibility on all of 
these issues despite Russia's actions.
    Ms. Harrington. U.S. arms control and disarmament efforts, as well 
as other means of reducing the role of nuclear weapons and moving 
toward a world without them, continue to make a major contribution to 
our goal of preventing nuclear proliferation and nuclear terrorism. By 
demonstrating that we take seriously our NPT obligation to pursue 
nuclear disarmament, we strengthen our ability to mobilize broad 
international support for the measures needed to reinforce the non-
proliferation regime and secure nuclear materials worldwide. I do not 
believe that Russia's actions will lead non-nuclear-weapon states 
parties to the NPT to reconsider the merits of nuclear disarmament, 
nonproliferation, and security.

                    fiscal year 2015 budget request
    9. Senator Fischer. Ms. Hersman, Ms. Harrington, and Mr. Myers, 
does the 2015 budget allow you to continue your highest priority work?
    Ms. Hersman. I support the President's fiscal year 2015 budget 
request. It is sufficient for the requirements that the Department of 
Defense (DOD) CTR program has identified, to date. We will be able to 
continue the highest priority work currently underway. However, we 
cannot anticipate all of the threat reduction requirements that may 
emerge. For example, we do not have available funds to respond to 
another emerging threat of the same magnitude as Syria.
    Ms. Harrington. The administration and DOE/NNSA remain committed to 
our nuclear nonproliferation and nuclear modernization objectives, 
consistent with the President's vision of reducing nuclear dangers and 
our reliance on nuclear weapons. As a demonstration of our continued 
commitment to nuclear security as a priority, the fiscal year 2015 
budget request provides funding to continue remaining high-priority 
nuclear and radiological threat reduction efforts, following completion 
of the accelerated 4-year effort activities. For example, we plan to 
remove an additional 125 kilograms of HEU and plutonium from high 
priority countries; protect an additional 105 buildings with high-
activity radioactive sources; and initiate some important new 
activities in the Middle East.
    Mr. Myers. The fiscal year 2015 budget allows the Defense Threat 
Reduction Agency (DTRA) to maintain appropriate funding in our highest 
priority combating weapons of mass destruction (CWMD) research, 
development, test, and evaluation (RDT&E) research categories and is 
sufficient for DTRA to meet its support responsibilities to DOD, the 
Joint Staff, and the Services.

                   libya chemical weapons destruction
    10. Senator Fischer. Ms. Hersman and Mr. Myers, on February 5, 
2014, Libya declared that all of its chemical weapons were destroyed. 
Reportedly, the last 2 tons of mustard agent were destroyed about 400 
miles south of Tripoli. According to the New York Times, $45 million of 
CTR funds were used to safeguard, rebuild, and help finish destruction 
at the remote site. The paper also reported that, ``the effort also 
helped inspire the use of the technology in the much bigger disposal 
plan in Syria.'' Obviously, the amount of chemical agents in Libya are 
much less than those in Syria, but what are the lessons learned from 
destroying Libyan chemical weapons that apply to Syria?
    Ms. Hersman. DOD learned the importance of having flexible 
solutions available to deal with an emergent, austere situation in 
which a stockpile of chemical materials needs to be destroyed in an 
expedient, environmentally friendly fashion. In Libya, we moved from 
thinking about chemical weapons destruction as a problem requiring 
large, fixed infrastructure to one that can sometimes best be addressed 
with transportable technologies to enable rapid elimination, a concept 
that has proven its importance in the Syria chemical weapons 
destruction mission.
    In the end, our experts at DTRA were able to help the Libyans 
eliminate their chemical munitions stockpile in about a year, which is 
a testament to the expertise and flexibility of our experts and 
contracted support.
    Additionally, the support from and partnership with the German 
Government also reaffirmed the importance of the CTR program's external 
contributions authority and the importance of finding like-minded 
partners so the United States does not shoulder the entire financial 
burden of these major efforts alone.
    Mr. Myers. DTRA's work in Libya helped us to understand the 
importance of contingency planning in an early phase and coordination 
with key members of the U.S. Government chemical weapons 
demilitarization community. The lessons learned in Libya have been 
applied to our work related to Syria.

                  syrian chemical weapons destruction
    11. Senator Fischer. Ms. Hersman and Mr. Myers, as of December 31, 
2013, Assad missed the deadline for removal of the most toxic chemical 
agents (Priority 1) from Syria, reportedly due to poor security 
conditions on transit routes. As of March 19, the Organization for the 
Prohibition of Chemical Weapons (OPCW) reported 49.3 percent of 
chemicals had been removed: 34.8 percent of Priority 1 chemicals and 
82.6 percent of Priority 2 chemicals. Have you seen a slowdown that is 
related to events in Crimea and do you perceive that the Russians are 
cooperating? In your opinion, what seems to motivate the Syrians to 
make shipments of chemical agents to Latakia?
    Ms. Hersman. Thus far, we have seen no indications that Russia is 
trying to link the Syria chemical weapons elimination efforts to the 
situation in Ukraine. Having made a public commitment to accomplish the 
destruction of Syria's chemical weapons stockpile, Russia continues to 
demonstrate its interest in the successful completion of the 
elimination mission.
    It is the Syrian Government's responsibility to transport the 
chemicals to Latakia safely, securely, and efficiently to ensure a 
rapid and successful hand-off. We observe that Syrian removal efforts 
accelerate when international pressure and attention are high, and 
efforts slow when attention drifts elsewhere. Meetings of the 
Organization for the OPCW and the U.N. Security Council where Syrian 
performance in fulfilling its obligations is reviewed tend to serve as 
a forcing function that prompts the Syrian Government to increase the 
pace of removal.
    Mr. Myers. DTRA-SCC assess that the pace of removal of chemicals 
from Syria is not related to events in Crimea. Before and after the 
situation in Ukraine began, the Syrians would stipulate that equipment 
malfunctions and security concerns required extensions of the removal 
timeline.

    12. Senator Fischer. Ms. Hersman and Mr. Myers, the United States 
is providing key enablers for the Syrian chemical weapons destruction 
plan being overseen by the OPCW-U.N. Joint Mission. How much U.S. 
funding is going towards destruction of chemical weapons, through what 
funding mechanism, and for what specific lines of effort?
    Ms. Hersman. The DOD CTR program has allocated approximately $165 
million through fiscal year 2014 for the removal and destruction of 
Syria's chemical materials. DOD has already spent approximately $15.5 
million on logistics and equipment to support the OPCW-U.N. Joint 
Mission efforts to inspect, transport, and remove the Syrian chemicals 
from the country. The joint mission will ensure that all equipment is 
consumed, expended, removed, or destroyed upon completion of the 
mission, so that Syria is not left more capable than when this effort 
began. The balance of the funding is for preparing the Cape Ray and the 
Field Deployable Hydrolysis System (FDHS) for the neutralization 
operation, projected transit and operating costs, security and 
demobilization, and recapitalization. The Canadian Government 
contributed approximately $4.5 million through the CTR program's 
external contributions authority to support the destruction operations. 
The U.S. Navy will fund some security requirements for the Cape Ray via 
its operation and maintenance account.
    The Department of State (DOS) also provided approximately $6 
million in financial and in-kind assistance to the OPCW-U.N. Joint 
Mission's inspection team, including armored vehicles, training, 
protective equipment, and medical countermeasures.
    Mr. Myers. The DOD Nunn-Lugar CTR program has allocated 
approximately $165 million toward the destruction of Syria's chemical 
materials. This includes $160 million in U.S. contributions and $4.5 
million contributed by the Canadian Government through the CTR 
program's external contributions authority. CTR funding has been used 
to supply the OPCW-U.N. Joint Mission with logistics equipment for the 
safe decanting, packaging, and transporting of the Syrian chemicals to 
the Port of Latakia. It has also been used to fund the modifications to 
outfit the Cape Ray for neutralization operations. CTR will also fund 
all operational costs for the destruction of sulfur mustard and the 
sarin precursor difluoro on the Cape Ray.

    13. Senator Fischer. Ms. Hersman and Mr. Myers, how much do you 
expect it will cost overall and how much of the overall funding 
required is from the United States?
    Ms. Hersman. It is unclear how much the entire operation to 
eliminate Syria's chemical weapons will cost once all of the 
requirements from inspecting the sites, to manning and protecting the 
chemical agent transport ships, to the actual neutralization operation, 
to verifying the complete elimination of the Syrian chemical weapons 
program, are taken into account. Nevertheless, the international 
community has banded together to share the burdens of this operation.
    Broadly, the OPCW expects to receive approximately $70 million from 
a number of partners for its trust fund to cover costs associated with 
the destruction of Syrian chemical weapons in commercial facilities 
outside of Syria, and the United Nations received about $8 million from 
several partners to address the logistics requirements of the operation 
inside Syria.
    More specifically, the international community is poised and ready 
to destroy Syria's chemical materials as soon as the Syrians complete 
their movements to the port of Latakia for removal. Danish and 
Norwegian ships (with Finnish support) continue to load the bulk agent 
for removal from Syria. Russia and China are providing security for the 
marine loading operation in Syrian territorial waters. The United 
Kingdom is providing additional security for the vessels outside of 
Syrian territorial waters. The Italian Government has agreed to allow 
transloading operations from the Danish ship to the Cape Ray, the U.S. 
vessel being used for the neutralization operation, in one of Italy's 
ports. The United Kingdom and Germany have agreed to fund and destroy a 
portion of the precursor chemicals and hydrolysis effluent at 
facilities in their countries. The Spanish Government is allowing the 
Cape Ray port access while awaiting the removal of chemicals from 
Syria. The Portuguese Government has agreed to allow port access to the 
Cape Ray for refueling, personnel transfers, or other logistical 
support requirements, as required. Finally, the U.S. European Command 
is currently working with a number of partners to finalize a plan to 
supplement the U.S.-provided security for the Cape Ray while it 
conducts neutralization operations.
    The United States is also a major contributor to this effort, with 
a preponderance of funding from the DOD CTR program. The DOD CTR 
program has allocated approximately $165 million for the U.S. operation 
to destroy the majority of Syria's Priority 1 chemicals. The Canadian 
Government has also contributed directly to the U.S. portion of the 
destruction effort, providing $4.5 million under the DOD CTR program's 
external contributions authority.
    Mr. Myers. The United States, through the Nunn-Lugar CTR program, 
will fund approximately $165 million toward the removal of all 
chemicals from Syria and the neutralization of sulfer mustard and 
difluoro. This includes $160 million in U.S. contributions and $4.5 
million contributed by the Canadian Government through the CTR 
program's external contributions authority. The cost of CTR operations 
will vary based on the Syrian removal timeline, weather in the 
Mediterranean Sea during operations, and the amount of equipment that 
can be returned to vendors or resold after demobilization and 
decontamination.

    14. Senator Fischer. Ms. Hersman and Mr. Myers, will any assistance 
remain with the Syrian Government including equipment or money after 
destruction is complete?
    Ms. Hersman. No assistance from the United States will remain with 
the Syrian Government. DOD spent approximately $15.5 million on 
logistics and equipment to support the OPCW-U.N. Joint Mission efforts 
to inspect, transport, and remove declared chemicals from the country, 
and destroy the remaining chemicals and other parts of the Syrian 
program within the country. This support included, for example, trucks, 
packing and handling equipment, shipping containers, cranes, and fork-
lifts. The OPCW-U.N. Joint Mission accepted all equipment, and will 
ensure that it is consumed, expended, removed from Syria, or destroyed 
upon completion of the mission.
    Mr. Myers. No DOD-provided equipment will remain in Syria following 
the removal of the Syrian chemical weapons. All U.S.-supplied equipment 
which was provided to the OPCW-U.N. Joint Mission will be verified in 
writing by the Joint Mission to the United States as either consumed, 
expended, removed, or destroyed.

    15. Senator Fischer. Ms. Hersman and Mr. Myers, what, if anything, 
hasn't been declared by Syria related to their chemical weapons and 
what is the plan for any undeclared materials or facilities?
    Ms. Hersman. [Deleted.]
    Mr. Myers. Issues related to policy decisions on undeclared Syrian 
materials or facilities will be made by DOS and/or OSD Policy. I 
respectfully defer to their office for the appropriate response to your 
question.

    16. Senator Fischer. Ms. Hersman and Mr. Myers, what is the status 
of chemical weapons production facilities that have yet to be 
destroyed, and what is the plan to destroy them?
    Ms. Hersman. Syria failed to meet the March 15, 2014, destruction 
date established by the OPCW Executive Council in November 2013 for the 
destruction of 12 chemical weapons production facilities. The U.S. 
Government position remains that Syria's facilities must be physically 
destroyed so they cannot be used in the future to reconstitute a 
chemical weapons program. At the March 28, 2014, OPCW Executive Council 
meeting, the Syrian delegation submitted a revised destruction plan for 
these facilities, based on recommendations received from the OPCW 
Technical Secretariat. Although the new Syrian plan is an improvement 
over its previous destruction by inactivation approach, the plan does 
not go far enough to ensure these facilities are physically destroyed, 
as required by the Chemical Weapons Convention (CWC) and U.N. Security 
Council Resolution (UNSCR) 2118. The U.S. Government remains committed 
to ensuring that the Syrian regime physically destroys each of these 12 
chemical weapons production facilities, consistent with the CWC and 
past practices under the CWC.
    Mr. Myers. The OPCW is still negotiating with the Syrian Government 
on plans for destruction of chemical weapons production facilities.

    17. Senator Fischer. Ms. Hersman and Mr. Myers, if the next 
deadline is missed, what are the potential leverage points to get Assad 
to move forward and what is the U.S. Government's plan?
    Ms. Hersman. We expect the Syrian Government to comply fully with 
its responsibilities under UNSCR 2118 and the relevant decisions of the 
OPCW Executive Council. We also expect Russia, as the co-designer of 
the framework and the timelines for Syrian chemical weapons 
elimination, to press Syria to comply with the requirements of UNSCR 
2118 immediately and to accelerate Syria's most recent removal plan. 
UNSCR 2118 allows for regular review of Syria's progress, or lack 
thereof, and provides for referral of cases of non-compliance with OPCW 
decisions or UNSCR 2118 to the U.N. Security Council to consider 
imposition of measures under Chapter VII of the U.N. Charter. We 
continue to monitor Syria's progress closely.
    Mr. Myers. Issues related to policy decisions on Syrian deadlines 
will be made by DOS and/or OSD Policy. I respectfully defer to their 
office for the appropriate response to your question.

               cooperative biological engagement program
    18. Senator Fischer. Ms. Hersman and Mr. Myers, we have pressing 
problems of nuclear proliferation in North Korea and Iran, and a 
serious chemical weapons proliferation threat in the Middle East. 
However, in fiscal year 2014 we spent more than half of the CTR budget 
on biological engagement and in fiscal year 2015 the President's budget 
proposes increasing that to 70 percent of the budget. Please explain 
why 70 percent of the CTR budget will go toward biological 
proliferation prevention instead of nuclear or chemical weapons 
proliferation prevention?
    Ms. Hersman. A number of factors led to the emphasis on the DOD CTR 
program's Cooperative Biological Engagement Program (CBEP) in the CTR 
program's fiscal year 2015 budget.
    First, rapid decline in certain budgetary categories that were 
associated with our cooperation with Russia, including global nuclear 
security and chemical weapons destruction, meant that the CTR program 
had resources available that it could resource against other 
priorities.
    Second, the CTR program's chemical weapons destruction account 
funding is projected to be much lower in fiscal year 2015 than in 
recent years because the Libya chemical weapons elimination effort will 
have concluded in fiscal year 2014, and the Syria chemical weapons 
elimination effort is projected only to require residual funding in 
fiscal year 2015. There are no other major chemical weapons-destruction 
efforts projected at this point that would require a high level of 
funding.
    Finally, with these shifts in resources, the requirements 
identified for biological security-related efforts were both changing 
and expanding. Broadly, we see biological security as a major challenge 
that requires additional attention. The CBEP has an important role to 
play in advancing the U.S. Government's efforts to prevent the theft, 
misuse, or the release of biological agents of security concern, in 
coordination with other interagency partners. Our efforts continue to 
adapt with the expansion of our authorities and the evolving threats. 
For example, as the CTR program moves into the completion phase of 
fairly large CBEP construction efforts in Georgia and Kazakhstan, we 
are expanding opportunities in other priority regions, such as 
Southeast Asia.
    At the same time, the CTR program continually works to ensure that 
our resources are used to confront the threats that DOD is best 
positioned to address. DOD is part of an interagency team that covers 
the spectrum of chemical, biological, radiological, and nuclear 
threats. Our biological security-related efforts are coordinated very 
closely with DOS, relying on its diplomatic outreach and expertise, and 
the Centers for Disease Control (CDC), since we recognize that we can 
provide a very important security component to the public health 
mandate of the CDC. By working together, we can leverage expertise and 
access, as well as prevent inappropriate duplication of effort.
    We mirror this close cooperation with DOE/NNSA on countering 
nuclear threats. DOE/NNSA has a robust budget for securing nuclear 
material worldwide, and we cooperate with them to help augment specific 
projects and areas in which DOD can offer its expertise.
    Finally, given the flexibility of the CTR program's authorities, we 
are continually reevaluating the CTR program's overall requirements and 
funding allocated against them, and can use our budgetary 
renotification processes for adjustments, as needed.
    Mr. Myers. Our CWMD efforts are guided by the threats that we are 
facing. Pathogens of security concern are endemic in many countries, 
i.e., B. anthracis and Y. pestis and the emergence of new microbes and 
drug-resistant pathogens is on the rise. Geopolitical instability and 
the relatively small infrastructure foot print for terrorist 
acquisition, development, and use of biological agents of security 
concern, combined with weak biosafety, biosecurity, and biosurveillance 
capacity in many countries make the biological threat the most likely 
we are going to face in the coming years. The acceleration of 
biological science capabilities and inherent dual-use potential of 
laboratory facilities and related equipment necessitate focus on 
ethical codes of conduct, transparency, and enhanced biosafety and 
biosecurity protocols. The risk of the spread of infectious diseases 
through increased global trade and travel requires a continued and 
concerted international effort.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                       mixed oxide fuel facility
    19. Senator Graham. Ms. Harrington, how much plutonium is currently 
at the Savannah River Site (SRS)?
    Ms. Harrington. About 13 metric tons.

    20. Senator Graham. Ms. Harrington, how much of this plutonium can 
be converted into mixed oxide (MOX) fuel?
    Ms. Harrington. About 8 metric tons.

    21. Senator Graham. Ms. Harrington, where is the rest of the 34 
metric tons of plutonium that is designated for conversion?
    Ms. Harrington. The majority of the remaining plutonium is stored 
at Pantex in pit form.

    22. Senator Graham. Ms. Harrington, what is the current disposition 
path for this plutonium?
    Ms. Harrington. The current program of record is the MOX fuel 
approach. However, it has become clear that the MOX fuel approach will 
be significantly more expensive than anticipated. Given a total 
lifecycle cost estimate for the program of more than $30 billion, we 
are looking at our options. It makes sense to look at the list of 
options again, given the increased cost estimates for MOX, and given 
improved technologies with the passage of time since the original 
National Academies studies.

    23. Senator Graham. Ms. Harrington, how much does DOE spend each 
year storing and monitoring this material?
    Ms. Harrington. The Fissile Materials Disposition budget is $5 
million for storage and surveillance of the surplus pits at Pantex. 
This is incremental funding on top of what Pantex already spends to 
provide storage and surveillance of all pits stored there.

    24. Senator Graham. Ms. Harrington, the President's fiscal year 
2014 budget request asked for money for construction of the MOX 
facility. Congress authorized and appropriated funds in fiscal year 
2014 for this purpose. However, DOE now plans to use the money to put 
MOX in cold standby. Can you explain the legal authority you are using 
to spend money in this manner?
    Ms. Harrington. DOE has determined and communicated to the 
contractor, MOX Services, that we will continue with construction 
activities through 2014, retaining the key nuclear engineers and other 
highly-skilled workers that will be needed regardless of the path 
forward. NNSA intends to work with the contractor on a plan for placing 
the project in cold standby during fiscal year 2015, and we are 
continuing our ongoing discussions with Congress as they review and 
evaluate the fiscal year 2015 budget request.

    25. Senator Graham. Ms. Harrington, what is the Secretary of 
Energy's preferred method to dispose of surplus weapons grade 
plutonium?
    Ms. Harrington. DOE is conducting an ongoing options analysis to 
identify more efficient options for plutonium disposition. This 
analysis includes the MOX fuel approach.

    26. Senator Graham. Ms. Harrington, who made the decision to place 
MOX in cold standby?
    Ms. Harrington. The MOX project will not be placed in cold standby 
in fiscal year 2014.

    27. Senator Graham. Ms. Harrington, the President's budget states 
that the administration ``is committed to the U.S-Russia Plutonium 
Management and Disposition Agreement (PMDA),'' yet it puts the only 
disposition path for plutonium in ``cold standby.'' These statements 
seem to conflict. How do you reconcile them?
    Ms. Harrington. The administration recognizes the importance of the 
U.S.-Russia PMDA, whereby each side committed to dispose of at least 34 
metric tons of weapon-grade plutonium. The United States remains 
committed to working with Russia to dispose of surplus weapon-grade 
plutonium per the terms of the PMDA.

    28. Senator Graham. Ms. Harrington, will the budget request require 
the United States to renegotiate that agreement with Russia?
    Ms. Harrington. Under the PMDA, disposition ``shall be by 
irradiation . . . or any other methods that may be agreed by the 
Parties in writing.'' Since the PMDA already gives the Parties the 
right to agree on other disposition methods, incorporation of a non-
irradiation disposition method would not require amendment of the PMDA. 
We will continue to work with Russia and consider what arrangements, if 
any, need to be made regarding disposition.

    29. Senator Graham. Ms. Harrington, how will DOE comply with the 
terms of 50 U.S.C. 2566 which mandate a metric ton of plutonium leave 
South Carolina by January 2016?
    Ms. Harrington. We understand our commitments under the current 
legislation, and we will look to ensure compliance with the law.

    30. Senator Graham. Ms. Harrington, on March 30, 2014, the New York 
Times reported that the administration is seeking to bring over 700 
pounds of weapons grade plutonium from Japan to the United States for 
disposition. Where does the United States plan to store this material?
    Ms. Harrington. NNSA continuously looks to identify additional 
proliferation sensitive materials that should be removed to eliminate 
the risk that they could fall into the hands of terrorists. In all 
cases, NNSA works with its foreign partners to identify the best 
disposition pathway to eliminate material, and anticipates removing or 
dispositioning approximately 1,100 kg of additional HEU and plutonium 
through 2022.
    DOE has yet to make final determination as to where the material 
from Japan will be received and stored. When a final determination is 
made, DOE will follow all requirements of the National Environmental 
Policy Act.

    31. Senator Graham. Ms. Harrington, what is the disposition path 
for this material?
    Ms. Harrington. DOE has yet to make final determination as to where 
the material from Japan will be received and stored.

    32. Senator Graham. Ms. Harrington, under 50 U.S.C. 2566, can you 
send this material to the SRS?
    Ms. Harrington. 50 U.S.C. 2566 applies only to defense plutonium 
and defense plutonium materials to be processed by the MOX facility. 
The material from Japan has not been designated to be processed by the 
MOX facility.

    33. Senator Graham. Ms. Harrington, how much would it cost 
taxpayers to terminate the MOX program?
    Ms. Harrington. The MOX project has not been terminated.

    34. Senator Graham. Ms. Harrington, what is the value of purchased 
material awaiting installation?
    Ms. Harrington. The total value of purchased equipment, 
commodities, and construction support items (tools, measurement and 
test equipment, et cetera) is approximately $1.2 billion of which 
approximately $200 million of equipment/commodities has been installed 
in the MOX Fuel Fabrication Facility. Therefore, there is about $1 
billion of materials/equipment that has been purchased but yet to be 
installed.

    35. Senator Graham. Ms. Harrington, what will you do with all of 
that material if MOX is placed in cold standby?
    Ms. Harrington. This material would be stored in conditions to 
protect its usefulness and value. Appropriate analyses would be 
conducted to determine if other uses, consistent with applicable law 
and regulation on the disposition/use of government property, can be 
identified that are cost effective for taxpayers. Those uses could 
include storage until a decision is made on the path forward for the 
MOX project or use by other projects/programs, in which case the 
purchase of new materials would be required if it is later decided to 
complete the MOX project.

    36. Senator Graham. Ms. Harrington, I am concerned that a $30 
billion lifecycle cost figure is being circulated. This number is 
strenuously disputed by the contractors. Will you release the detailed 
cost estimate?
    Ms. Harrington. The $30 billion lifecycle cost is included in the 
options analysis, which has been released. In addition, GAO is 
conducting further analysis on the lifecycle costs of the plutonium 
disposition program and DOE has provided the same data to the GAO, 
using updated data from DOE which includes the most recent estimates 
for the MOX facility, assumes an optimal funding profile for fiscal 
year 2013 and the out-years (which has not been achieved), and includes 
other cost increases in the program.

    37. Senator Graham. Ms. Harrington, would you please provide both 
the U.S. and the Russian names, dates, and what was said during all 
meetings/discussions between DOE/NNSA and their Russian counterparts 
regarding changes to the plutonium disposition plan as outlined in the 
PMDA?
    Ms. Harrington. The administration engaged in eight consultations 
that took place in April 2013, December 2013, and March 2014.
    The discussions covered the fiscal year 2014 and fiscal year 2015 
budget requests as they related to the plutonium disposition program. 
The evolving analysis of U.S. disposition options was also discussed.


 DEPARTMENT OF DEFENSE AUTHORIZATION OF APPROPRIATIONS FOR FISCAL YEAR 
               2015 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         TUESDAY, APRIL 8, 2014

                           U.S. Senate,    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

THE ROLE OF THE DEPARTMENT OF DEFENSE SCIENCE AND TECHNOLOGY ENTERPRISE 
                    FOR INNOVATION AND AFFORDABILITY

    The subcommittee met, pursuant to notice, at 2:14 p.m. in 
room SR-222, Russell Senate Office Building, Senator Kay R. 
Hagan (chairwoman of the subcommittee) presiding.
    Committee members present: Senators Hagan and Fischer.

     OPENING STATEMENT OF SENATOR KAY R. HAGAN, CHAIRWOMAN

    Senator Hagan. Good afternoon, everybody. The Emerging 
Threats and Capabilities Subcommittee meets today to continue 
our review of the Department of Defense's (DOD) fiscal year 
2015 budget request. Today's hearing will focus on a small but 
incredibly important piece of the defense budget, namely its 
science and technology (S&T) programs. I am pleased that we 
have the DOD's S&T leadership team with us here today, led by 
Mr. Alan R. Shaffer, the Acting Assistant Secretary of Defense 
for Research and Engineering. Along with him are the 
distinguished executives who are charged with leading these 
programs, namely: Ms. Mary J. Miller from the Army, Ms. Mary E. 
Lacey from the Navy, Mr. Kevin Gooder from the Air Force, 
standing in for Dr. David Walker, who was unable to attend 
today's hearing, and Dr. Arati Prabhakar from the Defense 
Advanced Research Projects Agency (DARPA). We welcome all of 
you and we look forward to your testimony.
    Our defense S&T enterprise plays many important roles 
within DOD. For example, ensuring that today's and tomorrow's 
warfighters are equipped with the best systems possible, from 
the most advanced spacecraft to protective gear to defend 
troops against chemical attacks, to cyber security defenses 
that protect our networks against hackers; rapidly solving the 
real problems of our deployed forces, for example, moving 
quickly to develop new body armor or defenses against roadside 
bombs during the operations in Iraq and Afghanistan.
    So we know that in some cases our currently deployed 
systems will not be good enough and more S&T development needs 
to be done. Delivering capabilities that most warfighters 
didn't realize they needed or were even possible, things like 
the Global Positioning System or unmanned aircraft; delivering 
solutions that are reducing costs. One of the highest 
priorities these days is the development of energy efficient 
engines or low-cost manufacturing techniques; and maintaining 
our technical workforce in universities and industry; and 
helping create the pipeline of new talent into that workforce.
    The enterprise has developed systems that have found their 
way out of DOD and into the commercial world and general 
public, growing the economy and changing the way we live, 
things as small as the computer mouse and as large as the 
Internet.
    This subcommittee has been briefed by Under Secretary 
Kendall on the changes to our military's technological 
superiority by our competitors. So we know that in some cases 
our currently deployed systems will not be good enough and more 
S&T development needs to be done. Additionally, global 
commercial industry and foreign research programs are sometimes 
developing new technologies quicker than we can field new 
capabilities to our military forces. We need to be better and 
faster.
    Given the importance of these programs, it's surprising to 
note that the budget request reduces funding for S&T programs 
by $500 million relative to the fiscal year 2014 
appropriations. I want to understand what the impacts of these 
types of reductions will have on the system.
    Beyond the budget reductions, this subcommittee will also 
look for ways to streamline processes or reduce red tape, to 
enhance our ability to innovate and deliver new capabilities to 
our military and to the Nation. I'm interested in hearing your 
recommendations in this area as well.
    Ranking Member Fischer will be here later and we can pause 
then for her opening remarks.
    I do now want to recognize our witnesses. Please give less 
than 5 minutes of testimony before we move on to questions. 
With that, we will start with Mr. Shaffer. Thank you.

  STATEMENT OF ALAN R. SHAFFER, ACTING ASSISTANT SECRETARY OF 
              DEFENSE FOR RESEARCH AND ENGINEERING

    Mr. Shaffer. Thank you, Chairwoman Hagan. I am pleased to 
come before you today to testify about the state of DOD's S&T 
program and ask that all the members on the panel's statements 
be placed into the record.
    Senator Hagan. Without objection.
    Mr. Shaffer. I am proud to be here today to represent the 
roughly 100,000 scientists and engineers in the science and 
engineering workforce, a workforce with remarkable 
achievements, but one that has now shown the earlier stages of 
stress due to downsizing and combined sequester, furlough, and 
government shutdown challenges of the last year. These events 
affected the health of our workforce and the programs they 
execute in ways we are just beginning to understand. We have 
begun to address these challenges, but they remain a concern 
for us.
    The 2015 budget request is down about 5 percent, as you 
said, to $11.5 billion compared to last year's $12 billion 
appropriation. While the DOD tries to balance our overall 
program, there are factors that led Secretary Hagel to conclude 
in his February 2014 budget rollout that we are entering an era 
where American dominance on the seas, in the skies, and in 
space can no longer be taken for granted.
    DOD is in the third year of a protracted budget drawdown. 
As highlighted by Secretary of Defense Hagel, there are three 
major investment areas that comprise DOD's budget: force size, 
readiness, and modernization. The curbed DOD budget is driving 
the force size reduction, but this reduction will take several 
years to yield significant savings. Therefore, in the fiscal 
year 2016 budget, readiness and/or modernization will pay a 
larger percentage of the bill.
    To address the challenges, we need to examine the strategy 
we are using to focus the S&T investment on high-priority 
areas. From that emergent strategy comes investments. DOD 
invests in S&T first to mitigate new and emerging threat 
capabilities. We see significant needs in electronic warfare, 
cyber, weapons of mass destruction (WMD), and preserving space 
capabilities.
    The second reason is to affordably enable new or extended 
capabilities in existing military systems and future military 
systems. We see significant need in advanced system 
engineering, modeling and simulation, and prototyping.
    The third reason we invest in S&T is to develop technology 
surprise. We see significant opportunity in autonomy, human 
systems, quantum sensing, and big data.
    While there are challenges, DOD continues to perform. I 
would like to highlight some recent successes in some very 
diverse areas. Advances in understanding the treating of 
traumatic brain injury (TBI) and in understanding the brain 
writ large. In addition to the DARPA brain initiative, DOD has 
developed some successful technologies in this area. The 
combination of DARPA's small blast gauge to measure blast 
overpressures and acceleration in the head, coupled with the 
Defense Health Program's advanced therapeutics and photonic 
medicine, provides promise to allow us to treat TBI more 
quickly and effectively.
    Photonics advancements show real potential. Growing out of 
photonic medicine, researchers discovered that intense light 
outside the skull prevents brain tissue decay after induced by 
TBIs. This treatment is now in clinical trials.
    The second example: The Air Force X-51 Waverider Hypersonic 
Demonstration, which occurred last year. This was the second 
successful demonstration of powered scramjet technology, 
demonstrating that we are getting close to developing a full 
hypersonic system. No one else in the world has done this even 
one time.
    The Navy is making dramatic progress on High Energy Laser 
(HEL) systems and the Electromagnetic Rail Gun. In fact, the 
Navy has been testing and will demonstrate a 32-megajoule 
multi-shot electromagnetic rail gun in 2015. This promises to 
bring a whole new capability to both indirect fires and missile 
defense.
    Finally, the Army is forging the next generation of 
military helicopters with their Joint Multi-Role Technology 
Demonstrator, a program currently in the design phase with four 
vendors, leading to the next generation of military-relevant 
helicopters.
    These successes highlight that, in spite of the difficult 
year, the DOD S&T program continues to produce and will 
continue to produce capabilities for our future force. With 
your continued support, I am confident we will continue to do 
so in the future.
    Thank you.
    [The prepared statement of Mr. Shaffer follows:]
               Prepared Statement by Mr. Alan R. Shaffer
    Madam Chairwoman Hagan, Ranking Member Fischer, members of the 
committee, I am pleased to come before you today to testify about the 
state of the Department of Defense's science and technology (S&T) 
program. I am proud to be here representing the roughly 100,000 
scientists and engineers in the science and engineering (S&E) 
workforce, a workforce that has had remarkable achievements in the 
past, but is now a workforce showing the early stages of stress due to 
downsizing and the budget challenges of the last year. This past year 
has been unlike previous years in our community; the collective impact 
of the sequester-forced civilian furlough and program curtailment, the 
October 2013 government shutdown, and the indirect impacts of the 
sequester, such as restrictions on our young scientists and engineers 
attending technical conferences, has impacted the health of our 
workforce and the programs they execute in ways that we are just 
beginning to understand. We have begun to address these challenges but 
they remain a concern for us.
                              introduction
    The fiscal year 2015 budget request for S&T \1\ is relatively 
stable, when compared to the overall DOD top line \2\ and modernization 
accounts. The DOD fiscal year 2015 S&T request is $11.51 billion, 
compared to an fiscal year 2014 appropriation of $12.01 billion. This 
request represents a 4.1 percent decrease (5.8 percent in real buying 
power) in the Department's S&T compared to Research, Development, Test 
and Evaluation (RDT&E) account that was virtually unchanged. While we 
continue to execute a balanced program overall, there are factors that 
led Secretary Hagel to conclude in his February 24, 2014 fiscal year 
2015 budget rollout that ``we are entering an era where American 
dominance on the seas, in the skies, and in space can no longer be 
taken for granted''.\3\
---------------------------------------------------------------------------
    \1\ Science and Technology is defined as program 6, budget 
activities 1, 2, and 3; frequently called 6.1, 6.2, and 6.3 (basic 
research, applied research, and advanced technology development); 
Research and Engineering adds Advanced Capability Development and 
Prototyping (6.4).
    \2\ Top line refers to the total funds appropriated by Congress to 
include ``supplemental'' or Oversees Contingency Operations funds
    \3\ Remarks by Secretary Hagel on the fiscal year 2015 budget 
preview in the Pentagon Briefing Room on 24 February 2014.
---------------------------------------------------------------------------
    Simultaneous with the challenges of balancing a reduced budget and 
continuing to engage the total defense workforce in meaningful research 
and engineering (R&E), the capability challenges to our R&E program are 
also increasing. This is attributable to changes in the global S&T 
landscape and the acceleration globally of development of advanced 
military capabilities that could impact the superiority of U.S. 
systems. The convergence of declining budgets, in real terms, and 
increased risk is not a comfortable place to be. However, as I will 
highlight in the latter sections of my statement, the Department has 
begun to reshape the focus of our technical programs to address some of 
our new challenges. We are also beginning to shift our programs to 
better position the Department to meet our national security 
challenges. Finally, we have some areas where we need your help in 
order to be successful executing our fiscal year 2015 budget. I will 
cover these areas at the end of my statement.
              fiscal year 2015 president's budget request
    The current fiscal environment presents significant challenges to 
the DOD budget. The Department is in the third year of a protracted 
overall topline and RDT&E budget drawdown. As highlighted by Secretary 
Hagel, there are three major areas that comprise the Department's 
budget: force size, readiness, and modernization. The current budget is 
driving a force reduction, but this reduction will take several years 
to yield significant savings. In the fiscal year 2015 budget, readiness 
and/or modernization will pay a larger percentage of the ``bill''. As a 
former airman who entered service in the 1970s, I am very well aware of 
what happens when savings are gleaned from readiness--the hollow force 
is not acceptable. Over the next several years of the budget we expect 
modernization accounts (Procurement and RDT&E) to pay a large portion 
of the Department's fiscal reduction bill. At the same time, Secretary 
Hagel's strategy is to protect advanced technologies and capabilities. 
The fiscal year 2015 budget must balance all of these drivers; we 
believe we have done well, but do acknowledge there is increased risk.
    The last several budgets have been characterized by instability and 
rapid decline of the modernization accounts. The fiscal year 2013 
sequestration reduced all accounts by 8.7 percent; for S&T, this 
amounted to a loss of about $1 billion. The December 2013 Bipartisan 
Budget Act increased the discretionary caps in fiscal year 2014 and 
fiscal year 2015 to provide some relief, but less in fiscal year 2015 
than fiscal year 2014. From fiscal year 2013 to 2015, the S&T program 
operated with reductions of $1.4 billion compared to what had been 
planned in the fiscal year 2013 budget.
    One of the key points for S&T of the fiscal year 2015 budget is a 
shift in focus at the macro scale from basic research to advanced 
technology development and a shift from the Services to DARPA to 
develop advanced capabilities. In fiscal year 2015, we funded DARPA at 
the same level, after inflation, as was planned in fiscal year 2014 
PBR. These numbers are shown in Tables 1 and 2.
      
    
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
            research and development is not a variable cost
    Over the past decade, the research and development (R&D) accounts 
have been quite variable, but this counters one of the key tenets of 
R&D investment made by the Honorable Frank Kendall in discussing the 
fiscal year 2015 budget. There has been a tendency in the past to 
reduce R&D more or less proportionately to other budget reductions. 
This tendency, if acted upon, can be detrimental because R&D costs are 
not directly related to the size of our force or the size of the 
inventory we intend to support. The cost of developing a new weapons 
system is the same no matter how many units are produced. In a recent 
speech, Secretary Kendall explained the invariant nature of R&D this 
way:

          R&D is not a variable cost. R&D drives our rate of 
        modernization. It has nothing to do with the size of the force 
        structure. So, when you cut R&D, you are cutting your ability 
        to modernize on a certain time scale, period--no matter how big 
        your force structure is.\4\
---------------------------------------------------------------------------
    \4\ Honorable Frank Kendall presentation to McAleese/Credit Suisse 
Fiscal Year 2015 Defense Programs Conference on 25 February 2014.

    If we don't do the R&D for a new system than the number of systems 
of that type we will have is zero. It is not variable.
    Secretary Kendall said it this way:
    [T]he investments we're making now in technology are going to give 
us the forces that we're going to have in the future. The forces we 
have now came out of investments that were made, to some extent, in the 
1980s and 1990s . . . if you give up the time it takes for lead time to 
get . . . a capability, you are not going to get that back.'' \5\
---------------------------------------------------------------------------
    \5\ Kendall, 25 February 2014.
---------------------------------------------------------------------------
    There is another trend impacting the Department's ability to 
deliver advanced capabilities. Recent data from the Nation Science 
Foundation shows an upward trend in industry R&D spending compared to a 
downward trend in Federal Government R&D spending (Figure 1). Industry 
in the United States performs roughly 70 percent of the Nation's R&D 
with the Federal Government and academia making up the remaining 30 
percent. Figure 1 also shows the dependence of academic researchers on 
Federal Government funding, as noted by the National Science Board:
    Most of U.S. basic research is conducted at universities and 
colleges and funded by the Federal Government. However, the largest 
share of U.S. total R&D is development, which is largely performed by 
the business sector. The business sector also performs the majority of 
applied research.\6\
---------------------------------------------------------------------------
    \6\ National Science Board. 2014. Science and Engineering 
Indicators 2014. Arlington VA: National Science Foundation (NSB 14-01).
---------------------------------------------------------------------------
    This implies that DOD needs to be more cognizant of industry R&D as 
part of our overall capability development and remain sensitive to the 
importance of federally funded academic research. We continue to push 
in these areas through our continued support of the university research 
portfolio and our recent emphasis on Independent Research and 
Development (IR&D).
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
         Figure 1--Changes in U.S. GDP and R&D by Performer \7\
---------------------------------------------------------------------------

    \7\ Science magazine, 13 January 2014, Retrieved from http://
news.sciencemag.org.
---------------------------------------------------------------------------
                   science and engineering workforce
    The Department's scientist and engineering (S&E) workforce consists 
of in-house labs, engineering centers, test ranges, acquisition program 
offices and so forth, and is augmented by our partners in the federally 
funded research and development centers (FFRDCs) and University 
Affiliated Research Centers (UARCs). The talented scientists and 
engineers working within these organizations form the foundation of the 
Department's technology base and are responsible for conceiving and 
executing programs from basic research through demilitarization of 
weapon systems. The technical health of this workforce is a priority 
for me and the Department.
    Our in-house labs have been designated by Congress as Science & 
Technology Reinvention Laboratories (STRL) providing the directors of 
these facilities special authorities to manage their workforce via pay-
for-performance personnel systems. Each director is granted flexibility 
to create workforce policies unique to his/her lab with new personnel 
initiatives being transferable to other STRLs if proven to be effective 
in the hiring, retention and training of S&Es. Each year my office 
works with the Services and their labs to ensure they have the 
authorities our lab directors need. Recent accomplishments include 
direct hiring authority for bachelors, masters and doctoral level 
graduates, increase in the number of technical senior executive 
billets, and authority for lab directors to manage their workforce 
based upon available budgets.
    Data from the Strategic Human Capital Workforce Plan published in 
September 2013 indicates that our lab workforce is getting older. From 
2011 to 2013, the average age of our scientists and engineers in our 
labs has grown from 45.6 years to 45.7 years for scientists and from 
43.2 years to 43.9 years for our engineers. Although the change seems 
minimal over the past 2 years, it reverses the trend over the past 
decade when we had been driving the average age down. Data from the 
Science and Technology Functional Community indicate that the 
combination of fewer new hires and retirement-eligible employees 
working longer both contribute to the increase in average age. In 2013, 
there were only 731 new hires in the S&T Functional Community, whereas 
in 2010 there were 1,884. In 2010, retiring workers were retirement-
eligible for an average of only 4.1 years. From 2011-2013, that average 
grew to 4.5 years. The trend indicates that we may not be replacing our 
seasoned employees with enough young scientists and engineers who will 
shape our future. This could be an indicator of older employees working 
longer because of a down economy or it could be an indicator that we 
are not hiring or retaining enough young scientists and engineers.
    Although anecdotal, we are seeing a trend in why younger workers 
may be leaving. We saw a number of young scientists and engineers leave 
in 2013, early in their career. In conducting exit interviews, our 
laboratory directors reported that these young workers consistently 
cited travel and conference restrictions, as well as perceived 
instability of a long-term career as motivating factors for their 
departure. This information, although anecdotal, is of concern; 
consequently, we are attempting to gather data to see if we can discern 
a definite signal.
    Another area of significant Department and national interest is 
building a robust science and engineering workforce through various 
Science, Technology, Engineering, and Mathematics (STEM) initiatives. 
My office recently created the STEM Executive Board who has the 
authority and continues to provide strategic leadership for the 
Department's STEM initiatives.
    Significant change to the Federal portfolio of STEM programs has 
occurred over the past year. In response to the requirements of the 
America Competes Reauthorization Act of 2010, Federal STEM-education 
programs were reorganized with the goals of greater coherence, 
efficiency, ease of evaluation, and focus on the highest priorities. 
This resulted in the Federal STEM Education 5-Year Strategic Plan 
designating the Smithsonian, Department of Education and National 
Science Foundation as lead agencies in implementing this plan. The DOD 
STEM Strategic plan is aligned with the Federal plan to achieve Federal 
and Departmental STEM education goals.
    We are also developing department-wide guidance on STEM program 
evaluation, coordinating within the Department and across the Federal 
Government to improve effectiveness and efficiencies in these 
investments in future workforce needs. A DOD STEM Annual Report, 
expected to be delivered in fiscal year 2015 based on fiscal year 2014 
data, will communicate the activities and results in achieving 
Departmental goals.
    In summary, budget constraints, furloughs, and conference and 
travel restrictions have contributed to a drain on our most valuable 
resource--people. To replace our losses and rebuild our workforce for 
the future, we are working on bringing stability back to our S&E 
programs, give our people challenging while enriching environments in 
which to work.
           challenges to maintaining technological superority
    The United States has relied on a DOD that has had technological 
superiority for the better part of the post-World War II era. There are 
factors that are converging such that the DOD maintaining technological 
superiority is now being challenged. These challenges come from both 
changes in the way technology matures and in advanced capabilities 
being developed in the rest of the world. The Department is emerging 
from over a decade of focusing on countering terrorism and insurgency. 
While the challenges of counter terrorism remain, new national security 
challenges are emerging. Other nations are developing advanced 
capabilities in areas such as: cyber operations, advanced electronic 
warfare, proliferation of ballistic missiles for strategic and tactical 
intent, contested space, networked integrated air defenses, and a host 
of other capabilities stressing the Department's capability advantages. 
The Department's S&T program is being re-vectored to meet these new 
challenges. In addition, the Department is shifting to a focus on the 
Asia-Pacific region, a region with unique and challenging geographic 
and cultural features. Most notably, the geographic extent of the Asia 
Pacific region adds new challenges in terms of fuel efficiency and 
logistics.
    In short, the Department and Nation are at a strategic crossroads--
the funds available to the Department (and national security 
infrastructure in general) are decreasing, while the complexity and 
depth of the national security challenges are growing. The world we 
live in is an uncertain place. Secretary Hagel said it best in his 
recent roll out of the fiscal year 2015 budget:

          ``The development and proliferation of more advanced military 
        technologies by other nations that means that we are entering 
        an era where American dominance on the seas, in the skies, and 
        in space can no longer be taken for granted.'' \8\
---------------------------------------------------------------------------
    \8\ Remarks by Secretary Hagel on the fiscal year 2015 budget 
preview in the Pentagon Briefing Room on 24 February 2014.

---------------------------------------------------------------------------
    Secretary Hagel went on to say:

          ``To fulfill this strategy DOD will continue to shift its 
        operational focus and forces to the Asia-Pacific, sustain 
        commitments to key allies and partners in the Middle East and 
        Europe, maintain engagement in other regions, and continue to 
        aggressively pursue global terrorist networks.'' \9\
---------------------------------------------------------------------------
    \9\ Hagel, 24 February 2014.
---------------------------------------------------------------------------
Global Changes in S&T Impact Technology Development
    The nature of the international technology landscape is much 
different than it was even 20 years ago in two fundamental ways:

    (1)  Many technologies of importance to the Department's capability 
developments are driven by the commercial sector, and have become a 
global commodity.
    (2)  The pace of maturation of technology is accelerating; that is, 
technology maturation occurs on a more rapid scale than in the past.

    Our DOD S&T community needs to identify areas where technology has 
become a global commodity and not expend resources working to develop 
the same capability. We must track global technology developments, 
harness them and apply the technology to our needs. This year, we have 
initiated a project at the Defense Technical Information Center to 
improve our ability understand global technology development, and are 
in pilot phase to use automated tools to assess technology advances.
    We already know that industry drives most microelectronics and 
semiconductors development; older infrared focal planes, routine 
communications, computers. The technology coming from these sectors is 
sufficient to meet most DOD capability needs. The DOD should be an 
adopter, not a leader in these areas while addressing the unique 
security concerns of these technologies used in our military, cyber and 
IT systems. The DOD should focus our research in technology integration 
or in developing technologies into products at performance levels 
beyond those commercially available or planned. Examples would include 
electronic travelling wave tubes (led by Naval Research Lab), which 
provide higher frequency and higher power output than is needed in 
commercial applications; and infra-red (IR) ``super lattice'' 
semiconductors (led by the Army's Night Vision Laboratory), which give 
high enough resolution in IR to make ``movies'' out of simple data and 
images. The DOD should monitor and apply these technologies to meet our 
needs.
    At the same time, we know that the time to mature many technologies 
is decreasing. We have seen the time from invention to market 
penetration decrease by a factor of two over the past half century. 
Consequently, I would like to cite comments made by Mr. Frank Kendall, 
Under Secretary of Defense for Acquisition, Technology, and Logistics, 
who states that one of the key factors to maintaining technological 
superiority is to maintain a steady investment in technology.
    ``The effects of time (lost) cannot be reversed. It is well 
understood in the R&D community, and most particularly in the S&T 
community, that the investments we make today may not result in 
capability for a generation. It takes upwards of 5, 10, even 20 years 
to develop a new system, test it, and put it into production. By taking 
higher risks and accepting inefficiencies and higher costs we can 
reduce the ``time to market'' of new weapon systems; in fact, we have 
reduced this time . . . with reforms put in place in recent years.''
    Even during World War II we fought with the systems that had been 
in development for years before the war began. We can shorten, but not 
eliminate the time required to field new cutting edge weapons systems. 
But one thing is for sure, if we do not make R&D investments today, we 
will not have the capability in the future.
Capability Changes to DOD Technology Superiority
    More significant than the changes in how technology is developed 
and delivered globally are changes in military capabilities being 
developed by other nations.
    I will cite just one example; there are many more. The convergence 
of advanced digital signals and computer processing has given rise to 
proliferation of a new class of system--the digital radio frequency 
memory (DRFM) jammer. DRFM jammers are fairly inexpensive electronic 
systems that ingest the radar (or communications) signal, analyze the 
digital waveform, and then generate random signals, with the same 
waveform, back to the transmitting radar receiver. The result is the 
radar system sees a large number of ``electronic'' targets. If the 
United States employed conventional weapons systems using the 
traditional methods, we could shoot at or chase a lot of false targets. 
The consequence is that the United States needs to develop a counter to 
DRFM jammers.
    The convergence of computer processing, digital signal processing, 
digital electronics, optical fibers, and precise timekeeping are giving 
rise to inexpensive enablers that can improve the ability to counter 
conventional weapons platforms. We are starting to see other nations 
advance technologies to counter U.S. overmatch by combining the 
components listed above to enhance capabilities in electronic warfare, 
longer range air-to-air missiles, radars operating in non-conventional 
bandwidths, counter-space capabilities, longer range and more accurate 
ballistic and cruise missiles, improved undersea warfare capabilities, 
as well as cyber and information operations. We see these types of new 
capabilities emerging from many countries; to include China, Iran, 
Russia and North Korea. This has led to a situation where, in the next 
5 to 10 years, U.S. superiority in many warfare domains will be at 
risk. Accordingly, the following section highlights some of the areas 
where we are watching.
Proliferation of Weapons of Mass Destruction
    The 2013 National Security Interests published by the Chairman of 
the Joint Chiefs of Staff lists as the top priority interest ``Survival 
of the Homeland''. The one existential threat to the United States 
comes from Weapons of Mass Destruction (WMD). Traditionally, WMD has 
included nuclear, chemical and biological weapons and their delivery 
systems. The emergence of new countries with nuclear ambitions, such as 
North Korea and Iran, make today's world much more dangerous. Chemical 
and biological weapons, used in both World Wars, have been resurgent in 
the past 2 decades. Perhaps the gravest danger for the United States 
and the rest of the world is the possibility of WMD falling into the 
hands of terrorist groups and other groups in the midst of instability. 
We must continue our vigilance in this area and continue to develop 
ways to deal with their use.
    The United States is currently rebalancing to the Asia Pacific 
region. As we do so, the Department is faced with a host of new 
challenges. I will discuss some of the challenges over the next several 
paragraphs.
Vulnerability of the U.S. Surface Fleet and Forward Bases in the 
        Western Pacific
    U.S. Navy ships and Western Pacific bases are vulnerable to missile 
strikes from ballistic and cruise missiles already in the inventory. 
China has prioritized land-based ballistic and cruise missile programs 
to extend their strike warfare capabilities further from its borders. 
Chinese military analysts have concluded that logistics and power 
projection are potential vulnerabilities in modern warfare, given the 
requirements for precision in coordinating transportation, 
communications, and logistics networks. China is fielding an array of 
conventionally armed ballistic missiles, ground- and air-launched land-
attack cruise missiles, special operations forces, and cyber-warfare 
capabilities to hold targets at risk throughout the region. The most 
mature theater missiles are the DF-21 C/D, which both have 1,500 km 
radius. They are also developing a longer range missile that would be 
able to strike as far as Guam. These ballistic missiles are coupled 
with advanced cruise missiles that could threaten any surface warfare 
fleet by 2020.
    The People's Liberation Army (PLA) Navy has the largest force of 
major combatants, submarines, and amphibious warfare ships in Asia. 
China's naval forces include some 79 principal surface combatants,\10\ 
more than 55 submarines, 55 medium and large amphibious ships, and 
roughly 85 missile-equipped small combatants. The first Chinese-built 
carrier will likely be operational sometime in the second half of this 
decade. In the next decade, China will likely construct the Type 095 
guided-missile attack submarine (SSGN), which may enable a submarine-
based land-attack capability. In addition to likely incorporating 
better quieting technologies, the Type 095 will likely fulfill 
traditional anti-ship roles with the incorporation of torpedoes and 
anti-ship cruise missiles (ASCMs). Since 2008, the PLA Navy has also 
embarked on a robust surface combatant construction program of various 
classes of ships, including guided missile destroyers (DDG) and guided 
missile frigates in addition to more modern diesel powered attack 
submarines.
---------------------------------------------------------------------------
    \10\ As of 2013.
---------------------------------------------------------------------------
    U.S. Air Dominance. We see the same trend--development of systems 
to push U.S. freedom of movement further from the Asia mainland. China 
is developing an integrated air defense system that could challenge 
U.S. air dominance and in some regions, air superiority is challenged 
by 2020. The challenge to our air dominance comes primarily through the 
aggregation of capabilities starting with an extensive integrated air 
defense system (IADS), moving to development of advanced combat 
aircraft, to enabling technologies, primarily electronic warfare 
capabilities. China is demonstrating a systems approach through 
advanced aircraft design of fifth generation fighters, advanced combat 
systems, and advanced dense long range, networked air defense systems. 
It should be noted that others (such as Iran, Syria, and North Korea) 
are developing well integrated air defense systems. The PLA Air Force 
is continuing a modernization effort to improve its capability to 
conduct offensive and defensive off-shore operations such as strike, 
air and missile defense, strategic mobility, and early warning and 
reconnaissance missions. China continues its development of stealth 
aircraft technology, with the appearance of a second stealth fighter 
following on the heels of the maiden flight of the J-20 in January 
2011, a fifth generation fighter scheduled to enter the operational 
inventory in 2018.
Vulnerability of U.S. Satellites in Space
    China has been rapidly expanding both the number, and quality of 
space capabilities; expanding its space-based intelligence, 
surveillance, reconnaissance, navigation, meteorological, and 
communications satellite constellations. In parallel, China is 
developing a multi-dimensional program to rapidly improve its 
capabilities to limit or prevent the use of space-based assets by 
others during times of crisis or conflict.
    China continues to develop the Long March 5 (LM-5) rocket, intended 
to lift heavy payloads into space, doubling the size of the Low Earth 
Orbit (LEO) and Geosynchronous Orbit (GEO) payloads China can place 
into orbit. During 2012, China launched six Beidou navigation 
satellites completing a regional network and the in-orbit validation 
phase for the global network, expected to be completed by 2020. From 
2012-2013 China launched 15 new remote sensing satellites, which can 
perform both civil and military applications. China will likely 
continue to increase its on-orbit constellation with the planned launch 
of 100 satellites through 2015. These launches include imaging, remote 
sensing, navigation, communication, and scientific satellites, as well 
as manned spacecraft.
                   research and engineering strategy
    To address the challenges of an accelerating, globalized research 
and development environment coupled with pressurized DOD budgets and 
the rapid growth of capabilities in other nations, we needed to examine 
the strategy we are using to focus the DOD investment on high priority 
areas.\11\ To develop the research and engineering strategy, we had to 
go back to first principals. Why does the Department conduct research 
and engineering? What does the Department expect the DOD R&E program to 
deliver? After examination, we contend the Department conducts research 
and engineering for three reasons, in priority order:
---------------------------------------------------------------------------
    \11\ While the priorities listed below capture the cross-DOD 
priorities, there are still individual Service priorities they must 
address. These priorities do not address naval responsibilities for the 
Ocean, Army responsibilities for the ground or Air Force for the Air. 
Rather, they comprise a set of areas that must be addressed across 
component. It is interesting to note the large efforts in the Services 
and DARPA largely align with the strategy.

        (1)  Mitigate new and emerging threat capabilities--the 
        Department must defend the homeland and overseas forces and 
        national interests against threats that exist today, and 
        threats that are still in development.
        (2)  Affordably enable new or extended capabilities in existing 
        military systems--Coincident with a tighter budget, and the 
        fact that time is not recoverable, the DOD R&E program should 
        focus on controlling costs, both in existing and future weapons 
        systems.
        (3)  Develop technology surprise--Finally, throughout the past 
        century, the Nation and the Department have looked to the 
        Department's R&E program to continually develop and mature new 
        capabilities that surprise potential adversaries.
   priority 1: mitigating or eliminating new and emerging threats to 
                           national security
    The Department must be prepared to meet its current and future 
national security missions, which include defending the Homeland, 
securing freedom of navigation, and being able to project power. The 
research and engineering priorities inherent in this principal also 
include protecting the Nation against nuclear, chemical, and biological 
weapons, from both state and non-state actors. This principal also 
includes protecting the Nation against new threats, such as cyber 
operations and the proliferation of cruise missiles and UAVs. The final 
emerging vector in this area is to find solutions to the new 
capabilities that would prevent the U.S. Armed Forces from fulfilling 
our global mission, such as electronic warfare and maintaining space 
capabilities.
Countering Weapons of Mass Destruction
    The Department's investment in countering weapons of mass 
destruction (C-WMD) is made primarily by the Defense Threat Reduction 
Agency and the Chemical Biological Defense Program, as well as the 
Army. All totaled, the Department's investment in C-WMD is about $800 
million per year. C-WMD poses some unique challenges because of the 
urgency and immediacy of the threats, the fact that threats present low 
probability but high consequence events, and that there is a need for 
on-call, comprehensive expertise. The Defense Threat Reduction Agency 
emphasis for fiscal year 2015 include kinetic and non-kinetic means to 
counter and defeat WMD in non-permissive environments, low visibility 
search (and identification) for all threats (nuclear and chemical/
biological), global situational awareness through mining large, diverse 
datasets, application of autonomy to reduce risk to the human, 
persistent intelligence, surveillance and reconnaissance (ISR) for WMD, 
WMD modelling and simulation, and operating in a high electromagnetic 
pulse environment. To date, we have not identified the ``silver 
bullet'' solution, so a sizable portion of the C-WMD program involves 
international and interagency partnership.
    Emerging trends over the last year includes the need to counter 
threats as far ``upstream'' or left of event as possible. Therefore, 
the entire C-WMD community is strengthening their program to interdict/
render safe WMD before they are used.
Missile Defense
    In fiscal year 2015, the investment in missile defense S&T dropped 
from roughly $350 million in fiscal year 2014 to $176 million in fiscal 
year 2015. Yet, missile defense remains a priority. The reduction in 
missile defense is more than offset the Navy and by the Office of the 
Secretary of Defense efforts in electromagnetic rail gun technology; a 
nearly $200 million investment in fiscal year 2015. This push in rail 
gun is being made to determine if the technology is mature enough to 
field an inexpensive, kinetic kill system to intercept theater 
ballistic missiles in terminal and mid-course. The current investment 
supports demonstration of an advanced rail gun against a missile 
surrogate in 2015.
    Although not a capability that will be fielded soon, the Missile 
Defense Agency continues to look at Directed Energy for missile 
defense. They are the primary investor in both hybrid (diode pumped 
alkaline laser) and fiber lasers. Significant demonstrations for both 
of these directed energy capabilities will occur in 2015 to 2016.
    A strategy based on only kinetic defense which requires a high-end 
U.S. missile intercept against this proliferation of missiles is cost-
imposing on the United States. Our research and engineering program is 
also working on developing non-kinetic capabilities and less expensive 
kinetic capability to reduce the effectiveness of potential 
adversaries' missiles; we are making strides in this area.
Cyber and Information Operations
    The Department's investment in Cyber S&T in fiscal year 2015 is 
$510 million. With the growing reliance of modern military forces on 
information technology, cyber operations will play an increasingly 
important role in ensuring continuity of missions in the physical 
domains. Having effective technologies to support those cyber 
operations makes cyber security research an essential element in our 
long-term abilities to defend the Nation.
    This year, the Department rebuilt the cyber S&T investment around 
warfighting capability requirements. We have then built a strong 
integrated technical foundation across the Cyber research and 
engineering enterprise through our Cyber Community of Interest, a group 
made up of Senior Executive Service representatives from the Services, 
NSA, and my organization. Our cyber S&T investments are guided by an 
S&T Capabilities Framework that captures new and emerging mission 
requirements including improved situation awareness and course of 
action analysis. The framework has been developed with participation of 
all the Services as well as the Intelligence Community, National 
Laboratories, and our federally Funded Research and Development 
Centers. We are placing emphasis on broadening the research beyond 
standard computing systems to include defending against cyber threats 
to tactical and embedded systems. Our cyber research includes 
investments in providing a testing and evaluation environment for the 
experimentation and testing of cyber technology across the full 
spectrum of capabilities to help validate and accelerate research. 
Additionally, and very importantly, it is a priority for the DOD to be 
an early adopter of emerging technologies in cyber defense and to 
ensure the transition of those products to our warfighters and the 
programs supporting them.
    Though challenges remain in all areas, Cyber S&T is making progress 
and having significant impacts. Over the past few years, our cyber 
investments, from fundamental research through advanced technology 
demonstrations have resulted in many successes that directly benefit 
our warfighters and the broader defense enterprise. Some highlights 
are:

        <bullet> Securing our telecommunications infrastructure through 
        vulnerability assessment, tool development, and best practice 
        dissemination;
        <bullet> Developing technologies to accurately geo-locate 
        illicit commercial wireless devices to protect our networks;
        <bullet> Producing a gamechanging approach to signature-free 
        malware detection capable of defending against zero-day 
        attacks;
        <bullet> Designing a flexible, mission-based interoperability 
        framework enabling rapid, low-cost capability integration for 
        our cyber operation forces; and
        <bullet> Developing tools and techniques that assure the secure 
        operation of microprocessors within our weapons platforms and 
        systems.

    This year, in concert with White House Priorities,\12\ we created 
the Cyber Transition to Practice (CTP) Initiative. The goal of this 
initiative is to mature and ultimately transition S&T products to 
operational use. The development of cyber tools frequently happens on a 
time scale much less than the traditional acquisition process. The CTP 
initiative is intended to accelerate fielding of cyber tools.
---------------------------------------------------------------------------
    \12\ This is in direct response to the NSS Cybersecurity fiscal 
year 2014 Budget Priority of September 11, 2012 (section 4.a of the 
annex).
---------------------------------------------------------------------------
Loss of Assured Space
    Other nations have developed both kinetic and non-kinetic means to 
degrade or deny the U.S. space layer. Consequently, the DOD S&T program 
is working on developing the space capabilities our forces rely on 
whether or not the space layer exists. The capability may be degraded, 
but will also not be vulnerable. Other nations are seeking to 
asymmetrically disrupt our military capabilities that depend upon 
assured satellite communications; global systems for positioning, 
navigation, and timing; and on-demand ISR, even in denied areas. The 
United States will respond to these actions through increasing the 
resilience of our space assets so they are free from interference as 
well as develop alternative means to deliver the capabilities we 
currently obtain from our space assets.
    Current technologies in development include, but are not limited to 
the following: improving our space situational awareness capabilities 
employing improved ground- and space-based systems (such as the Air 
Force Research Lab's 2006 demonstration of on-orbit, localized Space 
Situational Awareness), enhanced terrestrial and airborne 
communications or jam resistant communications (such as laser 
communications); novel timing devices decoupled from continuous access 
to global positioning system (GPS) (like the Tactical Grade Atomic 
Clock, projected for transition to the acquisition community in 2017); 
high performance Inertial Measurement Units (like DARPA's High Dynamic 
Range Atom Sensor (HiDRA), projected for 2016, and small-form-factor 
anti-jam GPS antennas); and alternative ISR capabilities (which may 
incorporate advanced electro-optic coatings and thermal protections 
measures under development at the Air Force Research Lab). Finally, we 
have several Joint Capability Technology Demonstrations (JCTDs) to 
determine the viability of capabilities delivered from very small 
satellites. Kestrel Eye and Vector JCTDs will demonstrate the viability 
of small satellite tactical communications and ISR by 2016.
Electronic Warfare (Both Attack and Protection)
    The Department's investment in electronic warfare (EW) S&T is about 
$500 million per year. This is an area that is evolving rapidly because 
of technology advances. The two key parameters in EW are the frequency 
the system operates and how complex is the signal. The concept behind 
electronic warfare is simple--the goal is to control your electronic 
signature or confuse an opponent's system if you are defending and to 
simplify the overall situation (reject false targets and clutter) if 
you are attempting to use your own electronic systems (radar, 
communications and radio frequency).
    Electronic warfare is becoming important and more critical because 
the enabling technologies underlying frequency and complexity are 
progressing very rapidly. To address the underlying technologies, the 
components have coalesced around a concept called Advanced Components 
for EW (ACE), which is focusing on Integrated Photonic Circuits, 
Millimeter Wave, Electro-Optical and Infrared (EO/IR), and 
Reconfigurable and Adaptive RF electronics. As a whole, these 
technologies should improve simultaneous transmit and receive; expand 
instantaneous bandwidth, and allow a huge leap ahead in complexity. ACE 
kicked off in fiscal year 2013, with the components continuing to 
develop components.
    In addition to the underlying technology, the Services are involved 
in building advanced electronic systems. We will cover two of them. The 
Navy's Integrated Topside program is just completing attempting to use 
multifunction transmitters on the top of a ship. This will reduce the 
number of individual systems with a unique electronic signature, and 
improve ship survivability.
    The Home on GPS-Jam (HOG-J) is a small munition that will identify 
foreign GPS jammers and vector the munition into the jammer. HOG-J has 
had some preliminary successful tests, and could be ready to enter the 
inventory in 2-3 years. There are other EW systems that could be 
covered at the appropriate security level.
 priority 2: affordably enabling new or extending military capabilities
    The cost of Defense acquisition systems continues to be a challenge 
for the Department. Over the past 3 years, the Department introduced 
``Better Buying Power'' initiatives to improve the cost effectiveness 
of the Defense acquisition system. Cost effectiveness and affordability 
of defense systems starts before the acquisition enterprise kicks in. 
There are two vectors to increasing affordability; technology to lower 
cost and extend life cycle, and research and engineering processes to 
address costs early in system development.
Systems Engineering
    The Department's systems engineering capability and capacity are 
critical to enabling affordability across the system life cycle of an 
acquisition program. The Department's systems engineers drive 
affordable designs, develop technical plans and specifications to 
support cost-effective procurement, and conduct trade-off analyses to 
meet program cost, schedule, and performance requirements. Systems 
engineers are enabling strategies to identify opportunities to reduce 
life-cycle costs. My organization has taken a lead role in improving 
the Department's ability to achieve affordable programs through strong 
SE policy, guidance, dissemination of best practices, execution 
oversight and support for a healthy, qualified engineering workforce.
    Through an emphasis on affordability in recently updated policy and 
guidance, the Department has established a clear role for systems 
engineers in defining, establishing, and achieving affordability goals 
and processes throughout the life cycle. Through required systems 
engineering trade space analyses, individual acquisition programs 
establish the cost, schedule and affordability drivers and can 
demonstrate the cost-effective design point for the program.
    These trade space analyses will be conducted across the program's 
lifecycle to continuously assess system affordability and technical 
feasibility to support requirements, investments, and acquisition 
decisions and depict the relationships between system life-cycle cost 
and the system's performance requirements, design parameters, and 
delivery schedules. Recent emphasis on better reliability engineering 
has focused the Department's acquisition programs on reducing overall 
lifecycle costs. My systems engineering staff maintains regular and 
frequent engagement with acquisition programs to support the planning 
and execution of effective technical risk management, as well as 
affordability considerations. They provide regular oversight and 
guidance to assist the programs as they mature through the lifecycle.
Developmental Test and Evaluation
    Developmental Test and Evaluation (DT&E) efforts focus on engaging 
major acquisition programs early in their lifecycle to ensure efficient 
and effective test strategies, thereby ensuring a better understanding 
of program technical risks and opportunities before major milestone 
decisions. In 2013, the Deputy Assistant Secretary of Defense for 
Developmental Test and Engineering (DASD(DT&E)) introduced the ``shift 
left'' concept--specifically to drive DT earlier in the acquisition 
process. Early DT&E engagement with programs not only reduces 
acquisition costs through efficient testing, but finding and fixing 
deficiencies early, well before production and operations, drastically 
reduces overall lifecycle costs. The DASD(DT&E) is focusing on a few 
key areas to improve the overall effectiveness of developmental test 
and evaluation; use of the Developmental Evaluation Framework, 
increased emphasis on testing in a mission context, earlier cyber 
security testing, and an increased emphasis on system reliability 
testing.
    The Developmental Evaluation Framework is a disciplined process 
that results in a clear linkage between program decisions, capability 
evaluation, evaluation information needs, and test designs. Using the 
Developmental Evaluation Framework provides an efficient, yet rigorous 
T&E strategy to inform the program's decisions. Developmental Test and 
Evaluation is also moving beyond the traditional technical test focus 
to include testing in a mission context to characterize capabilities 
and limitations before production. Robust DT&E should also include 
early cyber security testing that previously was not tested until late 
in the acquisition life cycle, where deficiencies are costly to fix. 
Finally DT&E is focusing on increased system reliability testing. 
System reliability is a major driver in the affordability of future 
weapon systems. Improved reliability information early in the program 
allows acquisition leadership to understand the program technical and 
cost risks and take steps to improve system reliability and therefore 
the affordability of the system.
Prototyping
    Another way to drive down costs of weapons systems is through the 
expanded use of prototypes, which we use to prove a concept or system 
prior to going to formal acquisition. Consequently, in fiscal year 
2015, we look to expand the use of developmental and operational 
prototyping to advance our strategic shift to a greater emphasis on 
future threats. In fiscal year 2015, the Department's investment in 
prototypes or prototype like activities is around $900 million. This 
includes activities that are not classical prototype efforts, but will 
demonstrate capabilities, such as the Navy's Future Naval Capabilities, 
Integrated Naval Prototypes, the Army's Joint Multi-role Helicopter and 
Future Fighting Vehicle, as well as Air Force Flagship programs, and 
the revamping of the Department's Joint Capability Technology 
Demonstrations and Emerging Capabilities Technology Development 
programs.
    The RAND Corporation provides a good definition for prototyping, 
describing it as ``a set of design and development activities to reduce 
technical uncertainty and to generate information to improve the 
quality of subsequent decisionmaking.'' \13\ We distinguish between two 
types of prototyping activities. Developmental prototyping demonstrates 
feasibility of promising emerging technologies and helps those 
technologies overcome technical risk barriers. Operational prototyping 
focuses on assessing military utility and integration of more mature 
technologies.
---------------------------------------------------------------------------
    \13\ ``From Marginal Adjustments to Meaningful Change'', pg. 64, 
Jeffrey Drezner and Meilinda Huang, RAND Corporation, 2010.
---------------------------------------------------------------------------
    A recent example of an operational prototype is Instant Eye, a one 
pound quad-copter. We outfitted Instant Eye with an electro-optical 
camera and IR illuminator, bringing a field repairable, overhead 
surveillance capability to the soldier in the field at a unit cost of 
less than $1,000. Instant Eye would go on to provide targeting 
information for the neutralization of seven insurgents waiting to 
ambush a U.S. combat patrol.
    Joint Multi-Effects Warhead System (JMEWS) is a good example of a 
higher-risk, higher reward developmental prototype. The JMEWS project 
took on the challenge of in-flight targeting and re-tasking of the 
Tomahawk Land Attack Missile (TLAM). JMEWS' flexible lethality 
increases the combat power of these expensive weapons by tailoring the 
TLAM flight profile for best effect, taking advantage of information 
often not available until after the weapon has launched. With the 
developmental prototyping effort demonstrating the essential technical 
aspects, all that remains for Navy is to integrate JMEWS into the TLAM 
program of record.
    Throughout the history of the Department, periods of fiscal 
constraint have been marked by the use of prototypes to mature 
technology and keep design teams active in advancing the state of 
practice. We will use prototyping to demonstrate capability early in 
the acquisition process. Prototyping will also be used to improve 
capability development methods and manufacturing techniques, evaluate 
new concepts, and rapidly field initial quantities of new systems. 
Prototyping's ability to evaluate and reduce technical risk, and 
clarify the resource picture that drives costs makes it a critical 
piece of the larger research and engineering strategy. Put simply, by 
prototyping in research and engineering, we can focus on key knowledge 
points and burn down the risk before the risk reduction becomes 
expensive.
Energy and Power
    Energy and Power Technology has a strong focus of reducing DOD 
operational energy risks and costs. Power requirements of new DOD 
systems continue to grow every year, and energy is a major cost driver 
and logistic burden. The Department spends approximately $300 million 
per year on Energy and Power science and technology. Some significant 
programs are:
    Unmanned Underwater Vehicles--Air Independent Propulsion (UUV-AIP)
    The Navy program is developing and delivering long endurance, 
scalable air-independent propulsion solutions for UUVs. Highly 
efficient fuel cell technologies will provide extended mission duration 
in excess of 60 days, well beyond the current and projected capability 
of batteries. Fuel cells are also being assessed by other Services to 
extend duration of UAVs and UGVs. These systems are already spinning 
out to industry.
    The Integrated Vehicle Energy Technology (INVENT)
    The Air Force INVENT program is developing power and thermal 
management technologies and architectures that not only address today's 
aircraft performance limits but also work with adaptive cycle engines 
to enable next generation gamechanging high power airborne 
capabilities. There are related Service initiatives to realize higher 
performance, more fuel efficient designs for rotorcraft and ground 
vehicles.
    Advanced Vehicle Power Technology Alliance (AVPTA)
    The Army is working collaboratively with DOE (with secondary 
partners from the National Labs, industry and academia) to accelerate 
energy-related R&D initiatives into new vehicle designs. Current 
efforts include: (1) advanced combustion, engines and transmission with 
the help of Sandia National Laboratory; (2) examination of lightweight 
structures for vehicles (partnering with General Dynamics); (3) energy 
recovery and thermal management for improved efficiency and reduced 
emissions (industry partner, Gentherm); (4) advanced fuels and 
lubricants; (5) integrated starter-generators (ISGs) without rare earth 
permanent magnet materials (partners, Remy Intl and Oak Ridge National 
Laboratory); and (6) computer-aided engineering for electric drive 
batteries (CAEBAT).
Engineered Resilient Systems
    To address the need for more affordable and mission-resilient 
warfighting systems, we are developing an integrated suite of modern 
computational modeling and simulation (M&S) capabilities and 
engineering tools aligned with acquisition and operational business 
processes to transform engineering environments under the Engineered 
Resilient Systems (ERS) initiative. The ERS tool suite allows 
warfighters, engineers, and acquisition decisionmakers to rapidly 
assess the cost and performance of potential system designs by 
providing many data-driven alternatives resulting in systems which are 
less sensitive to changes in external threats, mission needs, and 
program constraints. ERS has already demonstrated that the insertion of 
advanced S&T models, tools and techniques into early phases of 
engineering processes and decisionmaking will positively impact 
effectiveness, affordability and sustainability of defense systems, 
thus addressing these most critical challenges head on. These new M&S-
based frameworks adopt the most advanced design and modeling approaches 
of government, industry and academia to enable our Nation to meet 
emergent threat, while insuring that we can do that affordably, today 
and in an uncertain future.
     priority 3: creating technology surprise through science and 
                              engineering
    The third and final reason the Department conducts research and 
engineering is to create surprise to potential adversaries. Previous 
Department of Defense investment in basic and applied research has a 
long history of developing technologies that led to superior 
capabilities. The DOD research program led to stealth, the internet, 
synthetic aperture radar, precision weapons, infra-red focal planes and 
night vision devices, among others. Frequently, when investing in basic 
research, we don't know the specific application that will emerge; in 
fact, by definition, basic research is conducted without a specific 
product or system in mind.
    The Department invests in a structured way to create surprise. 
Creation of surprise requires a robust basic research program coupled 
with a strong applied research. While it is not really possible to know 
where technology surprise will come from, there are several areas that 
highlight the possibility; we will discuss several of them in 
increasing level of maturity. The least mature is quantum science, 
followed by nanotechnology, autonomous systems, human systems, and then 
finally, directed energy systems.
Quantum Sciences
    The discoveries a century ago of the quantum properties of the atom 
and the photon defined and propelled most of the new technology of the 
20th century--semiconductors, computers, materials, communication, 
lasers--the technological basis of much of our civilization. Now, the 
next quantum revolution may define new technological directions for the 
21st century, building upon the intersection of quantum science and 
information theory. Consequently, the DOD is increasing its basic 
research investment in Quantum Information Science (QIS). QIS exploits 
our expanded quantum capabilities in the laboratory to engineer new 
properties and states of matter and light literally at the atomic 
scale. We are already developing new capabilities in secure 
communication, ultra-sensitive and high signal to noise physical 
sensing of the environment, and a path to exponentially faster 
computing algorithms in special purpose computers. The DOD research 
funding has driven quantum sciences in the past decade. This funding 
has led to the demonstration to measure time through cold atom research 
at 1000 times more accurate than GPS. Using quantum sciences, the DOD 
is likely within 10 years of fielding an affordable timekeeping system 
that will cut our tether to GPS. We are building in the laboratory 
gravity sensors of unprecedented sensitivity, opening the possibility 
of remote detection of tunnels (or submarines). Other military 
applications are just being realized, but quantum science is a 
technology that will provide surprise.
Nanoengineering/Nanotechnology
    QIS is based on the ability to control atoms. Nanoengineering also 
deals with the ability to develop and engineer systems at the molecular 
level. This will, in turn, lead to new system level capabilities. For 
instance, one of the limitations to systems like directed energy is 
thermal management. By designing systems at the molecular level, it is 
possible to increase thermal management by several orders of magnitude. 
Materials like ``metamaterials'' (engineered materials for specific 
properties) provide a promise of development of radars and 
electromagnetic systems that operate much more effectively at much 
broader frequency ranges. Metamaterials are especially intriguing 
because through clever design and dissimilar materials integration, 
properties that are never seen in nature's materials may be obtained. 
An example from the Navy's fundamental research realm is the 
investigation of a metamaterial suitable for antennas. This material 
system could become transparent to radio frequency waves when exposed 
to high power radio frequency radiation or pulses, preventing the 
coupling of this energy to an aircraft's electronic systems and, 
thereby, avoiding damage. Engineered nanomaterials and nanotechnology 
research remain very competitive in our research portfolio for their 
potential to provide capability advantage. Both the Navy and Army have 
explored coatings based on materials with nanometer dimensions that 
have wear and corrosion resistance superior to traditional and often 
hazardous metals. Most recently a nanocrystalline coating based on 
nickel-tungsten alloys has demonstrated properties exceeding hard 
chromium coatings without the potential environmental problems of 
chromium. One of the most exciting applications for engineered 
nanomaterials for defense and the whole economy is catalysts. The Air 
Force is supporting research on nanoparticle catalysts that are much 
more efficient in eliminating methane, a greenhouse gas, from exhausts 
while using the same quantity of the precious metal palladium and the 
rare earth element cerium. Energetic nanomaterials comprise one area of 
nanotechnology that is of interest primarily to defense at this time. 
The Army is examining highly reactive, energetic materials based on 
metals and metal oxides that are much less sensitive that traditional 
explosives. Because the DOD is committed to prudent development and 
application of new materials, we are studying the materials for any 
potentially unusual toxic properties based on their chemistry or 
extremely small particle size.
Autonomy
    A major cost driver to the Department of Defense is the force 
structure but, technology is maturing to augment the human, possibly 
keeping the warfighter out of harm's way and reducing the numbers of 
warfighters needed to conduct operations. Autonomous capabilities range 
from software to aid the intelligence analyst in processing 
exploitation dissemination (PED) through very complex networked 
autonomous air systems working in tandem with unmanned ground or 
undersea vehicles. We could field simple autonomous systems within a 
couple of years, but true autonomy will take years to realize. 
Autonomous systems are truly multidisciplinary, in that they rely on 
technologies ranging from sensors that understand the environment, to 
software algorithms that aid decisionmaking or decide to seek human 
assistance. Through autonomy, we seek to reduce the manpower required 
to conduct missions, while extending and complementing human 
capabilities. The Department has four technical areas of focus for 
investments in Autonomy: Human and Agent System Interaction and 
Collaboration; Scalable Teaming of Autonomous Systems; Machine 
perception, Reasoning and Intelligence; and Test, Evaluation, 
Validation, and Verification. Built around these four technical areas, 
we launched an experiment last year to develop an in-house capacity in 
autonomous systems. This experiment, called the Autonomy Research Pilot 
Initiative (ARPI), funded seven proposals to work on technologies in 
one of the four technical areas above. The awards were for 3 years, and 
had to be completed in DOD laboratories by DOD personnel. ARPI efforts 
include: Autonomous Squad Member--enabling robots to participate in 
squad-level missions alongside soldiers; and Realizing Autonomy via 
Intelligent Adaptive Hybrid Control--increasing robustness and 
transparency of autonomous control to improve teaming of unmanned 
vehicles with each other and with their human operators. Advancement of 
technologies from the successful Department investment in the four 
technical areas will result in autonomous systems that provide more 
capability to warfighters, reduce the cognitive load on operators/
supervisors, and lower overall operational cost.
Human Systems
    Previous wars were won by massing power through weapons systems. It 
is not clear that will be the case in future conflicts. With the 
proliferation of sensors and data, future conflicts may well be won by 
the person that can react quickest. Studies of human cognition suggest 
that cognitive response times can be reduced by using display systems 
that present information using multiple sensory modalities. Such a 
reduction would give the force that is enabled with these technologies 
the ability to process more information, faster than their adversaries. 
Additionally, we are learning how to tailor training to adapt to 
individual students' unique needs, leading to reductions in the time 
needed to acquire expertise. Reducing the time to train forces to an 
advanced level of competence offers another way to respond faster than 
our adversaries. Additionally, robots, unmanned vehicles and other 
advanced technologies continue to be deeply integrated with our 
warfighters. We are developing new methodologies and technologies to 
enable our warfighters to interact with these systems as naturally as 
they do with their human counterparts leading to faster and more 
accurate responses by these ``hybrid teams''. Lastly, we are optimizing 
warfighter physical and cognitive performance for long durations, in 
dynamic and unpredictable environments, through personalized 
conditioning and nutritional regimens.
Directed Energy
    One of the most mature ``gamechanging'' technology areas is 
Directed Energy, and specifically, High Energy Lasers. High Energy 
Lasers have been promised for many years, but these lasers were always 
based on chemical lasers, which are difficult to support logistically, 
and the byproducts are toxic. Over the past several years, however, 
solid state (electric) lasers have matured, largely through the Joint 
High Power Solid State Laser, a cross DOD effort to develop a 100 
kilowatt (KW) laser. At close range, 10-30 KW is lethal. The JHPSSL was 
demonstrated in 2009. Since then, the Services have worked on packaging 
a solid state laser that could be deployed. In the summer of 2014, a 30 
KW laser will be prototyped on the USS Ponce in the CENTCOM area of 
responsibility. In December 2013, the Army demonstrated the High Energy 
Laser Mobile Demonstrator at White Sands missile range. This 10 KW 
laser successfully engaged nearly 90 percent of the available targets. 
This system will be further demonstrated in a maritime environment at 
Eglin Air Force Base.
                              reliance 21
    The Department's Research and Engineering (R&E) Enterprise is wide-
ranging, and is the foundation of the Department's technological 
strength. The enterprise includes DOD laboratories and product centers, 
other government laboratories, federally funded research and 
development centers (FFRDC) and University affiliated research centers 
(UARCs), U.S. and allied universities, our allied and partner 
government laboratories, as well as industry. Last year I took the 
opportunity to brief the members of this committee as my impetus to 
develop a strategy for the R&E Enterprise; this strategy was discussed 
earlier. What is important this year is putting in place the structure 
to attempt to optimize the S&T investment. Consequently, the 
Department's S&T Executives and I have worked to put in place Reliance 
21. Under Reliance 21, most of the Department's S&T program will be 
managed in one of 17 cross-cutting portfolios. Each of these portfolios 
will be made up of Senior Executive or Senior Leader from each Service 
and Agency with investment in the area. These teams are building 
integrated roadmaps, and beginning the process of integrating allied 
and industry efforts onto our roadmaps. Each year, about one third of 
the portfolios will be reviewed, in depth to the S&T Executives, who 
will approve or redirect the roadmaps. The roadmap will include the 
technical and operational objective, the critical technical efforts 
needed to meet the objective, the gaps to reaching the objectives, and 
an assessment of where the portfolio leads recommend changes. The 17 
portfolios are all called Communities of Interest (COI). Done 
correctly, management of a large portion of the Department's S&T 
execution will be collaboratively achieved by the COIs.
            what congress can do for the defense s&t program
    We are the most technologically advanced military in the world but, 
as Secretary Hagel so aptly stated in his remarks on the 24th of 
February of this year, ``we must maintain our technological edge over 
potential adversaries'' \14\. I have outlined what we are doing with 
the resources that we have been given and what we plan to do with the 
resources in the fiscal year 2015 President's budget. Success, however, 
will depend on your support. In that regard I have two requests.
---------------------------------------------------------------------------
    \14\ Hagel, 24 February 2014.
---------------------------------------------------------------------------
    I ask that you enact the Research, Development, Test and Evaluation 
portion of the President's budget as submitted. We spent a lot of time 
to balance the program to best meet DOD priorities.
    The President's budget seeks funding for fiscal year 2016-2021 that 
is above the estimated sequestration levels under current law. As 
pointed out earlier, with no relief from the BCA in the out years, we 
expect modernization and readiness accounts to bear the brunt. This 
would heighten the increased risk we are already seeing. Simply, at 
that sequestration level, we expect continued erosion of the S&T and 
RDT&E accounts.
    Second, I would ask that you support our efforts in prototyping. We 
are expanding the use of developmental and operational prototyping in 
lieu of formal acquisition programs. Throughout the history of the 
Department, during periods of fiscal constraint, the Department has 
used prototypes to mature technology and keep design teams intact and 
moving forward.
    Prototyping has another advantage--it allows the Department to 
build a capability early in the acquisition process, before all the 
structure affiliated with the acquisition process begins. By 
prototyping in research and engineering, we can acquire valuable 
knowledge and buy down risk and lead time to production at relatively 
low cost.
                                closing
    In summary, the last year has been a challenge to the Department's 
S&T program. The risk to our force is growing, and the need for the S&T 
community is likewise increasing. We have shifted our focus to 
protecting the future by countering anti-access, area-denial threats, 
addressing the increasing complexity of adversary's weapons systems, 
shortening the maturation time of developing our own systems, and 
addressing the erosion of the United States' stature in international 
science markers. We need your help to remove the crippling uncertainty 
associated with sequestration so that we can transition to the balance 
of force structure, readiness, and modernization the country needs and 
deserves from us.

    Senator Hagan. Thank you, Mr. Shaffer.
    It's interesting you were speaking about the rail gun. I 
just happened to have CBS News on this morning and they had a 
demonstration of that rail gun. It was a very positive piece.
    Mr. Shaffer. It's 40 minutes down the road, ma'am. If you'd 
like to go, I'll speak to Ms. Lacey. I'm sure it would be a 
great day trip to get out of Washington, not that anybody wants 
to get out of Washington. [Laughter.]
    Senator Hagan. I do like a field trip. [Laughter.]
    Mr. Shaffer. Yes, ma'am.
    Senator Hagan. Ms. Miller.

STATEMENT OF MARY J. MILLER, DEPUTY ASSISTANT SECRETARY OF THE 
                ARMY FOR RESEARCH AND TECHNOLOGY

    Ms. Miller. Madam Chairwoman, thank you for the opportunity 
to discuss the Army's S&T program for fiscal year 2015. After 
13 years of conflict, the United States finds itself in a 
familiar situation, faced with a declining defense budget and a 
strategic landscape which continues to evolve. Given the budget 
downturn at DOD, the Army has been compelled to face some 
difficult choices in force structure, operational readiness, 
and modernization to maintain a capability to prevent, shape, 
and win in any engagement. The Army will adapt, remaining the 
ever-present land force unparalleled throughout the world.
    As a result of these difficult budget decisions, however, 
we face a situation where modernization will be slowed over the 
next 5 years, new programs will not be initiated as originally 
envisioned, and the Army's S&T enterprise will be challenged to 
better prepare for the programs and capabilities of the future.
    At the end of all major conflicts, we begin to plan for 
what's next. Perhaps the most successful example of this 
planning was found at the end of the Vietnam conflict, when the 
Army focused on developing the big five: Abrams, Bradley, Black 
Hawk, Apache, and Patriot, platforms that still dominate the 
fight today. It is this mind set that led the Army leadership 
to protect our S&T investment, their seed corn for the future, 
despite these great budget challenges.
    When I testified to this subcommittee last year, I spoke 
about an initiative to generate a comprehensive modernization 
strategy that would facilitate informed strategic decisions 
based on long-term objectives within a resource-constrained 
environment. I am happy to report that this new process has 
been extremely beneficial to the Army and is a process that we 
have continued. This long-term look, over 30 years, was 
exceptionally powerful in facilitating the strategic decisions 
made within the Army as we built the fiscal year 2015 
President's budget. It allowed Army leadership to make tough 
program decisions based on providing the most capability to our 
soldiers, knowing that in some cases that meant delaying 
desired capabilities.
    Last year, I also discussed the need for flexibility to 
balance across our investment portfolios. For fiscal year 2015 
we were allowed to do this. It made a critical difference in 
the Army's strategy, allowing us to make deliberate increase in 
our advanced technology demonstration funding, budget activity 
3, from previous years. This is essential as the Army looks to 
its S&T community to conduct more technology demonstration and 
prototyping initiatives that will focus on maturing technology, 
reducing program risk, defining realistic requirements, and 
conducting experimentation with soldiers to refine new 
capabilities and operational concepts.
    The S&T community will be challenged to bring forward not 
only new capabilities, but capabilities that are affordable for 
the Army of the future.
    I'd like to highlight a success story that exemplifies the 
value of experimentation and prototyping. In the early 2000s 
the Army S&T community developed a capability under the Hunter-
Standoff Killer Team technology demonstration called VWIT 2. 
This capability transitioned to Program Executive Officer (PEO) 
aviation in 2006 and was implemented in Afghanistan using Kiowa 
Warriors, helicopters, and Shadow Unmanned Aerial Vehicles 
(UAV).
    VWIT 2 allows pilots to see real-time video from UAVs while 
they are conducting operational missions. This experimentation 
in theater resulted in a new concept of operations (CONOPS) for 
conducting manned-unmanned teaming within the Army. VWIT 2 is 
currently going into the Apache Block 3 fleet.
    In the President's budget for fiscal year 2015, you will 
see the Army S&T portfolio increasing emphasis on research 
areas that support the next generation of combat vehicles, 
anti-access/area denial (A2/AD) technologies, such as Assured 
Position, Navigation, and Timing, soldier selection tools, 
training technologies, and long-range fires. We are also 
increasing vulnerability assessment investments, red-teaming 
our technologies, systems, and systems-of-systems to identify 
potential vulnerabilities, including performance degradation in 
contested environments, interoperability, adaptability, and 
training and ease of use.
    None of this would be possible without the world-class 
cadre of over 12,000 scientists and engineers that make up the 
Army S&T enterprise. Despite this current environment of unease 
within the government civilian workforce, exacerbated over this 
past year, we continue to have an exceptional workforce. They 
are up to the challenge that the Army has given to them.
    This is an interesting, yet challenging, time to be in the 
Army. Despite this, we remain an Army that is looking towards 
the future while taking care of our soldiers today. I hope that 
we can count on your support as we move forward. Thank you 
again for all that you do for our soldiers.
    [The prepared statement of Ms. Miller follows:]
                Prepared Statement by Ms. Mary J. Miller
    Madam Chairwoman, Ranking Member Fischer, and distinguished members 
of the subcommittee, thank you for the opportunity to discuss the 
Army's Science and Technology (S&T) Program for fiscal year 2015.

          ``Over the past 12 years of conflict, our Army has proven 
        itself in arguably the most difficult environment we have ever 
        faced. Our leaders at every level have displayed unparalleled 
        ingenuity, flexibility and adaptability. Our soldiers have 
        displayed mental and physical toughness and courage under fire. 
        They have transformed the Army into the most versatile, agile, 
        rapidly deployable, and sustainable strategic land force in the 
        world.'' \1\--Secretary John W. McHugh, General Raymond T. 
        Odierno
---------------------------------------------------------------------------
    \1\ The Posture of the U.S. Army, Committee on Armed Services, U.S. 
House of Representatives, April 23, 2013.

    After 13 years of persistent conflict, the United States finds 
itself in a familiar situation . facing a declining defense budget and 
a strategic landscape that continues to evolve. As our current large-
scale military campaign draws down, the United States still faces a 
complex and growing array of security challenges across the globe as 
``wars over ideology have given way to wars over religious, ethnic, and 
tribal identity; nuclear dangers have proliferated; inequality and 
economic instability have intensified; damage to our environment, food 
insecurity, and dangers to public health are increasingly shared; and 
the same tools that empower individuals to build enable them to 
destroy.'' \2\ Unlike past draw downs, where the threats we faced were 
going away, there remain a number of challenges that we still have to 
confront--challenges that call for a change in America's defense 
priorities. Despite these challenges, the U.S. Army is committed to 
remaining capable across the spectrum of operations. While the future 
force will become smaller and leaner, its great strength will lie in 
its increased agility, flexibility, and ability to deploy quickly, 
while remaining technologically advanced. We will continue to conduct a 
complex set of missions ranging from counterterrorism, to countering 
weapons of mass destruction, to maintaining a safe, secure and 
effective nuclear deterrent. We will remain fully prepared to protect 
our interests and defend our Homeland.\3\
---------------------------------------------------------------------------
    \2\ National Security Strategy, May 2010.
    \3\ ``The Posture of the U.S. Army,'' The Honorable John M. McHugh, 
Secretary of the Army and General Raymond T. Odierno, Chief of Staff, 
U.S. Army before the Senate Committee on Appropriations, Subcommittee 
on Defense, May 22, 2013.
---------------------------------------------------------------------------
    The Army depends on its Science and Technology (S&T) program to 
help prepare for the future, mitigate the possibility of technical 
surprise and ensure that we remain dominant in any environment. The 
Army's S&T mission is to foster discovery, innovation, demonstration 
and transition of knowledge and materiel solutions that enable future 
force capabilities and/or enhance current force systems. The Army 
counts on the S&T Enterprise to be seers of the future--to make 
informed investments now, ensuring our success for the future.
    The Army is ending combat operations in Afghanistan and refocusing 
on the Asia-Pacific region with greater emphasis on responses to 
sophisticated, technologically proficient threats. We are at a pivotal 
juncture--one that requires us to relook the past 12 years of conflict 
and capitalize on all the lessons that we have learned, while we 
implement a strategic shift to prepare for a more capable enemy. As the 
Department of Defense prepares for the strategic shift, the Army will 
adapt--remaining an ever present land force--unparalleled throughout 
the world.
    We are grateful to the members of this committee for your sustained 
support of our soldiers, your support of our laboratories and centers 
and your continued commitment to ensure that funding is available to 
provide our current and future soldiers with the technology that 
enables them to defend America's interests and those of our allies 
around the world.
                          strategic landscape
    As we built the fiscal year 2015 President's budget request, the 
Army faced a number of significant challenges. While the Army has many 
priorities, the first and foremost priority is and always will be to 
support our soldiers in the fight. We are pulling our troops and 
equipment out of Afghanistan by the end of this December, we are 
drawing down our force structure, we are resetting our equipment after 
12 plus years of war and we are trying to modernize. Given the budget 
downturn within the Department of Defense the Army has been compelled 
to face some difficult choices. The Army is in the midst of a 
significant force structure reduction--taking the Army to pre-World War 
II manning levels. The Chief of Staff of the Army has had to make 
difficult decisions balancing force structure, operational readiness, 
and modernization to maintain a capable force able to prevent, shape 
and win in any engagement. As a result, over the next 5 years we face a 
situation where modernization will be slowed, new programs will not be 
initiated as originally envisioned and the Army's Science and 
Technology Enterprise will be challenged to better prepare for those 
programs of the future. We will focus on maturing technology, reducing 
program risk, developing prototypes that can be used to better define 
requirements and conducting experimentation with soldiers to refine new 
operational concepts. The S&T community will be challenged to bring 
forward not only new capabilities, but capabilities that are affordable 
for the Amy of the future.

          ``Going forward, we will be an Army in transition. An Army 
        that will apply the lessons learned in recent combat as we 
        transition to evolving threats and strategies. An Army that 
        will remain the best manned, best equipped, best trained, and 
        best led force as we transition to a leaner, more agile force 
        that remains adaptive, innovative, versatile and ready as part 
        of Joint Force 2020.'' \4\--General Raymond T. Odierno, 38th 
        Chief of Staff, Army
---------------------------------------------------------------------------
    \4\ ``Marching Orders,'' General Raymond T. Odierno, 38th Chief of 
Staff, U.S. Army, January 2012.

                         goals and commitments
    The emerging operational environment presents a diverse range of 
threats that vary from near-peer to minor actors, resulting in new 
challenges and opportunities. In this environment, it is likely that 
U.S. forces will be called upon to operate under a broad variety of 
conditions. This environment requires a force that can operate across 
the range of military operations with a myriad of partners, 
simultaneously helping friends and allies while being capable of 
undertaking independent action to defeat enemies, deter aggression, and 
shape the environment. At the same time, innovation and technology are 
reshaping this environment, multiplying and intensifying the effects 
that even minor actors are able to achieve.
    The Army's S&T investment is postured to address these emerging 
threats and capitalize on opportunities. The S&T investment continues 
to not only focus on developing more capable and affordable systems, 
but understanding the complexity of the future environment. We are also 
focused on assessing technology and system vulnerabilities (from both a 
technical and operational perspective) to better effect future 
resilient designs and to prepare countermeasures that restore our 
capabilities when necessary.
    There are persistent (and challenging) areas where the Army invests 
its S&T resources to ensure that we remain the most lethal and 
effective Army in the world. As the Army defines its role in future 
conflicts, we are confident that these challenges will remain relevant 
to the Army and its ability to win the fight. The S&T community is 
committed to help enable the Army to achieve its vision of an 
expeditionary, tailorable, scalable, self-sufficient, and leaner force, 
by addressing these challenges which include:

        <bullet> Enabling greater force protection for soldiers, air 
        and ground platforms, and bases (e.g., lighter and stronger 
        body armor, helmets, pelvic protection, enhanced vehicle 
        survivability, integrated base protection)
        <bullet> Ease overburdened soldiers in small units (e.g., 
        lighter weight multi-functional material)
        <bullet> Enabling timely mission command and tactical 
        intelligence to provide situation awareness and communications 
        in ALL environments (mountainous, forested, desert, urban, 
        jamming, etc.)
        <bullet> Reduce logistic burden of storing, transporting, 
        distributing and retrograde of materials
        <bullet> Create operational overmatch (enhance lethality and 
        accuracy)
        <bullet> Achieve operational maneuverability in all 
        environments and at high operational tempo (e.g., greater 
        mobility, greater range, ability to operate in high/hot 
        environment)
        <bullet> Enable early detection and treatment for Traumatic 
        Brain Injury (TBI) and Post Traumatic Stress Disorder (PTSD)
        <bullet> Improve operational energy (e.g., power management, 
        micro-grids, increased fuel efficiency engines, higher 
        efficiency generators, etc.)
        <bullet> Improve individual and team training (e.g., live-
        virtual-constructive training)
        <bullet> Reduce lifecycle cost of future Army capabilities

    In addition to these enduring challenges, the S&T community 
conducts research and technology that impacts our ability to maintain 
an agile and ever ready force. This includes efforts such as 
establishing environmentally compatible installations and materiel 
without compromising readiness or training, leader selection 
methodologies, new test tools that can save resources and reduce test 
time, and methods and measures to improve soldier and unit readiness 
and resilience.
    The Army S&T strategy acknowledges that we must respond to the new 
fiscal environment and changing technology playing field. Many critical 
technology breakthroughs are being principally driven by commercial and 
international concerns. We can no longer do business as if we dominate 
the technology landscape. We must find new ways of operating and 
partnering. We realize that we should invest where the Army must retain 
critical capabilities but reap the benefits of commercially driven 
technology development where we can. No matter the source, we will 
ensure the Army is aware of the best and most capable technologies to 
enable a global, networked and full-spectrum joint force in the future. 
As the U.S. rebalances its focus by region and mission, it must 
continue to make important investments in emerging and proven 
capabilities. In a world where all have nearly equal access to open 
technology, innovation is the most important discriminator in assuring 
technology superiority.
    The Chief of Staff of the Army has made his vision clear.

          ``The All-Volunteer Army will remain the most highly trained 
        and professional land force in the world. It is uniquely 
        organized with the capability and capacity to provide 
        expeditionary, decisive landpower to the Joint Force and ready 
        to perform across the range of military operations to prevent, 
        shape, and win in support of combatant commanders to defend the 
        Nation and its interests at home and abroad, both today and 
        against emerging threats. \5\''--General Raymond T. Odierno, 
        38th Chief of Staff, Army
---------------------------------------------------------------------------
    \5\ General Raymond Odierno, 38th Chief of Staff Army, ``CSA 
Strategic Priorities, Waypoint 2'', 2014

    The Army is relying on its Science and Technology community to 
carry out this vision for the Army of the future.
                       implementing new processes
    Turning science into capability takes a continuum of effort 
including fundamental research, the development and demonstration of 
technology, the validation of that technology and its ultimate 
conversion into capability. From an S&T materiel perspective, this 
includes the laboratory confirmation of theory, the demonstration of 
technical performance, and the experimentation with new technologies to 
identify potential future capabilities and to help refine/improve 
system designs. But the S&T Enterprise is also charged to help 
conceptualize the future--to use our understanding of the laws of 
physics and an ability to envision a future environment to broaden the 
perspective of the requirements developers as well as the technology 
providers.
    As part of this continuum, the Army has adopted a 30-year look 
forward to help facilitate more informed program planning and budget 
decisions. A major part of the S&T strategy is to align S&T investments 
to support the acquisition Programs of Record throughout all phases of 
their lifecycle and across the full Doctrine, Organization, Training, 
Materiel, Leadership, Personnel, and Facilities (DOTMLPF). By expanding 
the perspective, areas where there are unaffordable alignments of 
activities (such as multiple major Engineering Change Proposals in the 
same portfolio within the same 2-3 year timeframe) or unreasonable 
alignments (such as planned technology upgrades to a system that has 
already transitioned into sustainment) are made obvious. With that 
information in mind, the Army has established ``tradespace'' to 
generate options that inform strategic decisions that allow the Army to 
stay within its fiscal top line and still maximize its capabilities for 
the warfighter.
    This new and ongoing process, known as the Long Range Investment 
Requirements Analysis (LIRA), has put additional rigor into the 
development of the Army's budget submission and creates an environment 
where the communities who invest in all phases of the materiel 
lifecycle work together to maximize the Army's capabilities over time. 
From an S&T perspective, it clearly starts to inform the materiel 
community as to WHEN technology is needed for insertion as part of a 
planned upgrade. It also cues us as to when to start investing for 
replacement platforms. In addition, this long-range planning can 
introduce opportunities for convergence of capabilities such as the 
development of a single radar that can perform multiple functions for 
multiple platforms or the convergence of cyber and EW capabilities into 
one system. Aside from the obvious benefit achieved by laying out the 
Army's programs and seeing where we may have generated unrealizable 
fiscal challenges, it has reinvigorated the relationships and 
strengthened the ties between the S&T community and their Program 
Executive Office (PEO) partners. We are working together to identify 
technical opportunities and the potential insertion of new capabilities 
across this 30-year timeframe.
    The LIRA process was used to inform the development of the fiscal 
year 2015 President's budget. As the Army faced a dramatic decline in 
its modernization accounts (a 40 percent decrement over the next 2 
years), we used the results of the LIRA to ensure that we had a 
fiscally sound strategy.
                           the s&t portfolio
    The nature of Science and Technology is such that continuity and 
stability have great importance. Starting and stopping programs 
prevents momentum in research and lengthens the timelines for discovery 
and innovation. While the Army S&T portfolio gains valuable insight 
from the threat community, this only represents one input to the 
portfolio and likely describes the most probable future. To have a 
balanced outlook across all the possible futures requires that the 
portfolio also address the ``possible'' and ``unthinkable.'' The Army's 
S&T portfolio is postured to address these possible futures across the 
eight technology portfolios identified Figure 1.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

Figure 1. Army S&T Investments by Portfolio
    The efforts of the S&T Enterprise are managed by portfolio to 
ensure maximum synergy of efforts and reduction of unnecessary 
duplication. The S&T program is organized into eight investment 
portfolios that address challenges across six Army-wide capability 
areas (Soldier/Squad; Air; Ground Maneuver; Command, Control, 
Communications, and Intelligence (C\3\I); Lethality; and Medical) and 
two S&T enabling areas (Basic Research and Innovation Enablers). The 
2014 Quadrennial Defense Review (QDR) protects and prioritizes key 
investments in technology to maintain or increase capability while 
forces grow leaner. This is an opportunity to look at innovative 
applications of technology. As a result, in the fiscal year 2015 
President's budget request, the Army is maintaining, and shifting where 
necessary, its emphasis on technology areas that enable the Army to be 
leaner, expeditionary, and more lethal.
    We are now in an era of declining acquisition budgets and are 
mindful of the challenges this brings to our S&T programs. We will have 
fewer opportunities for transition to programs of record in the next 
few years. This ``pause'' in acquisition does however afford us the 
opportunity to further develop and mature technologies, ensuring that 
when acquisition budgets do recover, S&T will be properly positioned to 
support the Army's next generation of capabilities. This year finds the 
Army beginning to rebalance its S&T funding between basic research, 
applied research and advanced technology development. We appreciate the 
flexibility that was provided to the DOD S&T executives to better align 
our funding to our Service/Agency needs after years of proscriptive 
direction.
    In fiscal year 2015, our Advanced Technology Development 
investments increase to 42 percent of our $2.2 billion budget. This is 
a deliberate increase from previous years as the Army looks to its S&T 
community to conduct more technology demonstration/prototyping 
initiatives that will inform future Programs of Record. Specifically 
you will see the Army shifting or increasing emphasis on research areas 
that support the next generation of combat vehicles (including power 
and energy efficiency and Active Protection systems), Anti-Access/Area 
Denial (A2/AD) technologies such as assured Position Navigation and 
Timing (PNT) and austere entry capabilities, soldier selection tools 
and training technologies, as well as long-range fires. Two of these 
efforts, the Future Infantry Fighting Vehicle (FIFV) and the PNT 
efforts are being done in collaboration with the respective PEOs to 
ensure that the capability developed and demonstrated not only helps to 
refine the requirements for the future PoRs but establishes an 
effective link for transition. We are also increasing our investments 
in vulnerability assessments of both technology and systems as well as 
expanding our Red Teaming efforts to identify potential vulnerabilities 
in emerging technologies, systems and systems-of-systems, including 
performance degradation in contested environments, interoperability, 
adaptability, and training/ease of use. This year begins the 
realignment necessary to implement our strategy of investing in areas 
critical to the Army--areas where we have critical skills sets, and 
leveraging others (sister services, other government agencies, 
academia, industry, allies) for everything else.
    We anticipate a future where rapidly advancing technologies such as 
autonomous systems, disruptive energetics, immersive training 
environments, alternative power and energy solutions, and the use of 
smart phones and social media will become critical to military 
effectiveness. The Army will continue to develop countermeasures to 
future threat capabilities and pursue technological opportunities. 
Enemies and adversaries however, will counter U.S. technological 
advantages through cover, concealment, camouflage, denial, deception, 
emulation, adaptation, or evasion. Finally, understanding how humans 
apply technology to gain capabilities and train will continue to be at 
least as important as the technologies themselves.
    We are mindful however that the Army will continue to be called on 
for missions around the globe. The Army is currently deployed in 160 
countries conducting missions that range from humanitarian support to 
stability operations to major theater warfare. As we have seen in the 
last month, the world is an unpredictable place, and our soldiers must 
have the capabilities to deal with an ever changing set of threats.
                        s&t portfolio highlights
    I'd like to highlight a few of our new initiatives and remind you 
of some of our ongoing activities that will help frame the options for 
the Army of the future.
Soldier/Squad Portfolio
    One of the important initiatives currently underway that we 
anticipate will make major inroads into our lightening the soldier load 
efforts is the development of a Soldier Systems Engineering 
Architecture. This architecture, developed in concert with our 
acquisition and requirements community, will create an analytical 
decision-based model through which changes in soldier system inputs 
(loads, technology/equipment, physiological and cognitive state, stress 
levels, training, et cetera) may be assessed to predict changes in 
performance outputs of the soldier system in operationally relevant 
environments. By using a Systems Engineering approach, the model will 
result in a full system level analysis capable of predicting impacts of 
materiel and non-materiel solutions of fully equipped soldiers 
performing operational missions/task.
    In keeping with the CSA's vision, our S&T efforts also support the 
Army's training modernization strategy by developing technologies for 
future training environments that sufficiently replicate the 
operational environment. We are also developing new training 
effectiveness measures and methods ensuring these technologies rapidly 
and effectively transfer emerging warfighting experience and knowledge 
into robust capabilities. In addition, the need to reduce force 
structure has increased the importance of our research in the area of 
personnel selection and classification. This research will provide the 
Army with methods to acquire and retain candidates best suited for the 
Army--increasing our flexibility to adapt to changes in force size, 
structure and mission demands. Other important research includes 
developing scientifically valid measures and metrics to assess command 
climate and reduce conduct related incidences including sexual 
harassment and assault in units to ensure the Army can maintain a 
climate of dignity, respect and inclusion.
Air Portfolio
    As the lead service for rotorcraft, owning and operating over 80 
percent of the Department of Defense's vertical lift aircraft, the 
preponderance of rotorcraft technology research and development takes 
place within the Army. Our key initiative, the Joint Multi-Role 
Technology Demonstrator (JMR TD) program, is focused on addressing the 
A2/AD need for longer range and more efficient combat profiles. As we 
shift to the Pacific Rim focus, future Areas of Operation (AO) may be 
16 times larger than those of our current AOs. The Army needs a faster, 
more efficient rotorcraft, capable of operating in high/hot 
environments (6000 feet and 95 degrees) with significantly decreased 
operating costs and maintenance required. The new rotorcraft will also 
require improved survivability against current and future threats. JMR 
is the Department of Defense's next potential ``clean sheet'' design 
rotorcraft. The overall JMR TD effort will use integrated government/
industry platform design teams and exercise agile prototyping 
approaches. At the same time, the Army is collaborating with DARPA on 
their x-plane effort. While the DARPA program is addressing far riskier 
technologies that are not constrained by requirements, we will look to 
leverage technology advancements developed under the DARPA effort where 
possible.
    Another initiative that we are beginning in fiscal year 2015 is 
addressing one of the biggest causes of aircraft loss--accidents that 
occur while operating in a Degraded Visual Environments (DVE). DVE is 
much more than operating while in brown out--this effort looks at 
mitigating all sources of visual impairment, either those caused by the 
aircraft itself (brownout, whiteout) or other ``natural'' sources 
(rain, fog, smoke, etc.). We are currently conducting a synchronized, 
collaborative effort with PEO Aviation to define control system, 
cueing, and pilotage sensor combinations which enable maximum 
operational mitigation of DVE. This S&T effort will result in a 
prioritized list of compatible, affordable DVE mitigation technologies, 
and operational specification development that will help inform future 
Army decisions. This program is tightly coupled with the PEO Aviation 
strategy and potential technology off-ramps will be transitioned to the 
acquisition community along the way, when feasible.
Ground Maneuver Portfolio
    The Ground Maneuver Portfolio is focused on maturing and 
demonstrating technologies to enable future combat vehicles, including 
the Future Infantry Fighting Vehicle. In fiscal year 2015, you will see 
the beginning of a focused initiative done in collaboration with PEO 
Ground Combat Systems, to develop critical subsystems prototypes to 
inform the development and requirements for the Army's Future Fighting 
Vehicle. These subsystem demonstrators focus on mobility (e.g., engine, 
transmission, suspension); survivability (e.g., ballistic protection, 
underbody blast mitigation, advanced materials); Active Protection 
Systems (APS); a medium caliber gun and turret; and an open vehicle 
power and data architecture that will provide industry with a standard 
interface for integrating communications and sensor components into 
ground vehicles.
    Armor remains an Army-unique challenge and we have persistent 
investments for combat and tactical vehicle armor, focusing not only on 
protection but affordability and weight. We continue to invest in 
advanced materials and armor technologies to inform the next generation 
of combat and tactical vehicles.
    In fiscal year 2015, this portfolio continues its shift to focus to 
address A2/AD challenges. We've increased efforts on technologies to 
enable stand-off evaluation of austere ports of entry and 
infrastructure to better enable our ability to enter areas of conflict. 
We are also maintaining technology investments in detection and 
neutralization of mines and improvised explosive devices to ensure 
freedom of maneuver.
C\3\I Portfolio
    The C\3\I portfolio provides enabling capability across many of the 
challenges, but specifically seeks to provide responsive capabilities 
for the future in congested electromagnetic environments. These 
capabilities are supported by sustained efforts in sensors, 
communications, electronic warfare and information adaptable in 
dynamic, congested and austere environments to support battlefield 
operations and non-kinetic warfare. New efforts in the C\3\I portfolio 
include reinvigorating efforts in sensor protection. We continue to 
invest in Electronic Warfare (EW) vulnerability analysis to perform 
characterization and analysis of radio frequency devices to develop 
detection and characterization techniques, tactics, and technologies to 
mitigate the effects of contested environments (such as jamming) on 
Army Command, Control, Communications, Computers, Intelligence, 
Surveillance, and Reconnaissance systems.
    Given the potential challenges that we face while operating in a 
more contested environment, we are placing additional emphasis in 
assured Position, Navigation, and Timing, developing technologies that 
allow navigation in Global Positioning System (GPS) denied/degraded 
environments for mounted and dismounted soldiers and unmanned vehicles 
such as exploiting signals of opportunity. Improvements will be studied 
for high sensitivity GPS receivers that could allow acquisition and 
tracking under triple tree canopy, in urban locations, and inside 
buildings, which is not currently possible. We are developing an Anti-
Jam capability as well as supporting mission command with interference 
source detection, measurement of signal strength, and locating 
interference sources, enabling the Army to conduct its mission in 
challenging electromagnetic environments.
    The C\3\I Portfolio also houses our efforts in cyber, both 
defensive and offensive. Defensive efforts in cyber security will 
investigate and develop software, algorithms and devices to protect 
wireless tactical networks against computer network attacks. We are 
developing sophisticated software assurance algorithms to differentiate 
between stealthy life cycle attacks and software coding errors as well 
as investigating and assessing secure coding methodologies that can 
detect and self correct against malicious code insertion. We will 
research and design sophisticated, optimized cyber maneuver 
capabilities that incorporate the use of reasoning, intuition, and 
perception while determining the optimal scenario on when to maneuver, 
as well as the ability to map and manage the network to determine 
probable attack paths and the likelihood of exploitation.
    On the offensive side of cyber operations, we will develop 
integrated electronic attack (EA) and computer network operations (CNO) 
hardware and software to execute force protection, EA, electronic 
surveillance (ES) and signals intelligence (SIGINT) missions in a 
dynamic, distributed and coordinated fashion.
    We will demonstrate protocol exploitation software and techniques 
that allow users to remotely coordinate, plan, control and manage 
tactical EW and Cyber assets; develop techniques to exploit protocols 
of threat devices not conventionally viewed as Cyber to expand total 
situational awareness by providing access to and control of adversary 
electronic devices in an area of operations.
Lethality Portfolio
    In fiscal year 2015, you will see continued emphasis on the 
development of A2/AD capabilities through Long Range Fires and Counter 
Unmanned Aircraft technologies. S&T is focusing on advanced seeker 
technologies to enable acquisition of low signature threats at extended 
ranges, along with dual pulse solid rocket motor propulsion to provide 
longer range rockets and extend the protected areas of air defense 
systems.
    To support these capabilities, we are conducting research in new 
energetic materials focused on both propulsive and explosive 
applications. These materials have significantly higher energetic yield 
than current materials and will increase the both effectiveness of our 
systems and reduce their size.
    We also continue to develop Solid State High Energy Lasers to 
provide low cost defeat of rockets, artillery, mortars and unmanned 
aircraft. We have had multiple successes in High Energy Lasers, as we 
demonstrated successful tracking and defeat of mortars and unmanned 
aircraft in flight this year (fiscal year 2014) from our mobile 
demonstrator.
    Additionally, we are supporting the Ground Portfolio in the 
development of a medium caliber weapon system to enable Future IFV 
requirements for range and lethality including an airburst munition.
Medical
    The Medical portfolio addresses the wellness and fitness of our 
soldiers from accession through training, deployment, treatment of 
injuries and return to duty or to civilian life. Ongoing efforts 
address multiple threats to our soldiers' health and readiness. Medical 
research focuses on areas of physiological and psychological health 
that directly support the Chief of Staff of the Army Ready and 
Resilience Campaign and the Army Surgeon General's Performance Triad 
(Activity, Nutrition and Sleep). Research in these portfolios includes 
important areas such as Traumatic Brain Injury (TBI) and Post-Traumatic 
Stress Disorder (PTSD). In fiscal year 2015, you will see continued 
focus on research to mitigate infectious diseases prevalent in the Far 
East as well as combat casualty care solutions at the point of injury 
that will extend soldier's lives during the extended distances 
associated with conducting operations in the Pacific.
    TBI research efforts include furthering our understanding of cell 
death signals and neuroprotection mechanisms, as well as identifying 
critical thresholds for secondary injury comprising TBI. The Army is 
also evaluating other non-traditional therapies for TBI, and 
identifying ``combination'' therapeutics that substantially mitigate or 
reduce TBI-induced brain damage. Current Army funded research efforts 
in the area of PTSD are primarily focused upon development of 
pharmacologic solutions for the prevention and treatment of PTSD. A 
large-scale clinical trial is currently underway evaluating the 
effectiveness of Sertraline, one of two Selected Serotonin Reuptake 
Inhibitors (SSRIs) approved for the treatment of civilian PTSD, but not 
combat-related PTSD. This study will evaluate Sertraline's 
effectiveness in the treatment of combat-related PTSD both alone and in 
combination with psychotherapy.
Innovation Enablers
    As the largest land-owner/user within the DOD, it is incumbent upon 
the Army to be good stewards in their protection of the environment. As 
such, the Army develops and validates lifecycle models for sustainable 
facilities, creates dynamic resource planning/management tools for 
contingency basing, develops decision tools for infrastructure 
protection and resiliency and assesses the impact of sustainable 
materials/systems on the environment.
    In addition, we conduct blast noise assessment and develop 
mitigation technologies to ensure that we remain ``good neighbors'' 
within Army communities and work to protect endangered species while we 
ensure that the Army mission can continue.
    The High Performance Computing (HPC) Modernization Program supports 
the requirements of the DOD's scientists and engineers by providing 
them with access to supercomputing resource centers, the Defense 
Research and Engineering Network (DREN) (a research network which 
matures and demonstrates state of the art computer network 
technologies), and support for software applications (experts that help 
to improve and optimize the performance of critical common DOD 
applications programs to run efficiently on advanced HPC systems 
maturing and demonstrating leading-edge computational technology.
    The Army's Technology Maturation Initiatives effort, established in 
fiscal year 2012 enables a strategic partnership between the S&T and 
acquisition communities. This effort has become especially important as 
the Army heads into a funding downturn. We plan to use these funds to 
prepare the Army to capitalize on S&T investments as we come out of the 
funding ``bathtub'' near the end of the decade. We are using these BA4 
resources to target areas where acquisition programs intended to 
provide necessary capabilities have been delayed, such as assured PNT, 
the Future Fighting Vehicle and Active Protection Systems. We are 
investing resources that will either provide capability or inform/
refine requirements for the Army's future systems (all of which will be 
done via collaborative programs executed with our acquisition/PEO 
partners).
    This portfolio includes our ManTech efforts as well. Last month, 
President Obama announced the launch of the Digital Manufacturing and 
Design Innovation Institute (DMDI). Headquartered in Chicago, IL, the 
DMDI Institute spearheads a consortium of 73 companies, universities, 
nonprofits, and research labs. The president announced a government 
investment of $70 million and matching private investments totaling 
$250 million for the institute. DMDI is part of the President's 
National Network of Manufacturing Innovation and will focus on the 
development of novel model-based design methodologies, virtual 
manufacturing tools, and sensor and robotics based manufacturing 
networks that will accelerate the innovation in digital manufacturing 
and increase U.S. competitiveness.
Basic Research
    Underpinning all of our efforts and impacting all of the enduring 
Army challenges is a strong basic research program. Army basic research 
includes all scientific study and experimentation directed toward 
increasing fundamental knowledge and understanding in those fields of 
the physical, engineering, environmental, and life sciences related to 
long-term national security needs. The vision for Army basic research 
is to advance the frontiers of fundamental science and technology and 
drive long-term, game-changing capabilities for the Army through a 
multi-disciplinary portfolio teaming our in-house researchers with the 
global academic community to ensure overwhelming land-warfighting 
capabilities against any future adversary.
    While we have made some significant adjustments within the Basic 
Research investments within the Army, we will continue to emphasize 
several areas that we feel have a high payoff potential for the 
warfighter. These areas include: Materials in Extreme Environments; 
Quantum Information and Sensing; Intelligent Autonomous Systems; and 
Human Sciences/Cybernetics.
    For centuries, the fabrication of solid materials has hinged 
largely on manipulating a narrow range of temperatures and pressures. 
Our Materials in Extreme Environments initiative invests in new 
revolutionary and targeted scientific opportunities to discover and 
exploit the fundamental interaction of matter under extreme static 
pressures and magnetic fields, controlled electromagnetic wave 
interactions (microwave, electrical) and acoustic waves (ultrasound) to 
dramatically enhance fabrication and create engineered materials with 
tailored microstructures and revolutionary functionalities.
    We are in the midst of a second quantum revolution. Scientists have 
moved from merely computing quantum properties of systems to exploiting 
them to drive applications in computation, communication, sensing, and 
imaging. Areas identified for particular Army focus include quantum 
enhanced sensing and imaging, quantum communications, quantum 
algorithms, and quantum simulations. A potential Army-specific quantum-
enabled capability is an exact polynomial-time quantum-chemistry 
algorithm to directly impact design of propellants, explosives, 
medicines, and materials.
    To enable the warfighter, animal-like intelligence is desired for 
simple autonomous platforms, such as robotic followers, and for aerial 
and ground sensor platforms. We are investing in research that will 
enable highly intelligent systems that allow platforms to set waypoints 
autonomously, increasing mission effectiveness; followers that 
recognize the actions of their unit, that can perceive when the unit is 
deviating from a previously prescribed plan and know enough to query 
why; that recognize when the unit is resting and be capable of doing so 
without explicit instructions from the soldier.
    Regardless of specific definition, human sciences are critical and 
can safely be predicted to become pervasive across all Army research 
activities. Cognitive predictions of social person-to-person 
communication based on observed gestures, eye movement, and body 
language are becoming possible. In addition, brain-to-brain interaction 
is emerging as a potential paradigm based on external sensors and brain 
stimulation. The Army will continue to study these and other possible 
techniques, to understand shared knowledge, social coordination, 
discourse comprehension, and detection and mitigation of conflict. 
Cognitive models combined with sensors also have the potential for 
dramatic breakthroughs in human-autonomy interaction, including aspects 
such as active learning algorithms, real-time crowd-sourcing with 
humans and machines in the cloud, and maximizing AI prediction 
accuracy. Devices and sensors that are wearable or implantable 
(including biomarkers and drug therapy) have the potential to enhance 
performance dramatically and to augment sensory information through new 
human-sensor-machine interface designs.
    The role of Basic Research to provide the knowledge, technology, 
and advanced concepts to enable the best equipped, trained and 
protected Army to successfully execute the national security strategy, 
cannot be understated. The key to success in basic research is picking 
the right research challenges, the right people to do the work, and to 
provide the right level of resources to maximize the likelihood of 
success.
                        impact of sequestration
    I am often asked what impact sequestration had on the Army's S&T 
portfolio, so I would like to address some of the impacts we have seen. 
The fiscal year 2013 application of sequestration targets (hitting 
every Program Element in the S&T portfolio by a set percentage) forced 
the Army into a scenario where we decremented programs that we would 
have protected, if given the opportunity. This lack of flexibility made 
for some very bad business and technical ramifications. Within the S&T 
community, we were able to make adjustments to balance our 
sequestration targets at the Program Element, vice Project level--
giving us the ability to avoid civilian Reduction in Force (RIF) 
actions where possible. That said, sequestration did result in unfunded 
efforts and delays in applied research and technology development areas 
across the S&T portfolio. More generally, the sequestration cuts added 
unnecessary risk to acquisition programs and delayed the transition of 
critical capabilities to the warfighter.
    However, by far the most serious consequence of sequestration (and 
the related pay freezes, shutdowns, conference restrictions, et cetera) 
has been the impact on our personnel. Without a world-class cadre of 
scientists and engineers, the Army S&T enterprise would be unable to 
support the needs of the Army. The Army Labs and Research, Development 
and Engineering Centers have reported multiple personnel leaving for 
other job opportunities or early retirement. For example, the Night 
Vision and Electronic Sensors Directorate lost eight personnel in the 2 
months prior to the well-publicized DOD-wide furloughs, compared to an 
average annual loss of around 19 personnel. These losses include 
personnel across experience levels with specialized expertise critical 
to the Army. While the average attrition rate over the past 2 years is 
running at about 8 percent (similar to a typical attrition rate found 
in prior years), the concerning impact is that 60 percent of the 
personnel leaving the Army are not eligible for retirement. This is a 
big change. During our exit interviews, reasons cited included 
conference restrictions (impeding the ability to progress 
professionally) coupled with increasing job insecurity due to budget 
decrements and planned manpower reductions. Complicating this loss of 
technical expertise is the restriction on hiring replacements for the 
lost government civilians. We are on a replacement cycle that varies 
between 1 hire per every 3 losses at one lab, to 1 hire for every 20 
losses at another. This pattern of loss is unsustainable if we hope to 
maintain a premier technical workforce. Finally, as we address the 2013 
National Defense Authorization Act (NDAA), section 955 language which 
mandates a reduction in the civilian workforce commensurate with a 
reduction in the military, we must confront the impacts of any civilian 
reductions, which are implemented through a personnel process that 
tends to primarily impact those employees who have less tenure in the 
government. For the S&T community that typically impacts those areas of 
new technical emphasis within the DOD--key areas such as cyber research 
and systems biology.
    While the Bipartisan Budget Act has provided some relief and 
stability for fiscal year 2014 and fiscal year 2015, the uncertainty 
again looming on the horizon makes it even more difficult to recruit 
and retain the scientists and engineers the Army depends on. The key to 
any success within the Army lies with our people.
            the s&t enterprise infrastructure and workforce
    Our laboratory infrastructure is aging, with an average approximate 
age of 50 years. Despite this, the S&T Enterprise manages to maximize 
the scarce sustainment, restoration, and modernization funding and the 
authorities for minor military construction using Sec. 219 funding to 
minimize the impact on the R&D functions with the Enterprise. However, 
we are only making improvements to our infrastructure at the margins, 
and where possible we have used military construction, through your 
generous support and unspecified minor construction to modernize 
facilities and infrastructure. However, we do acknowledge that much of 
the Army is in a similar position. This is not a long-term solution. 
While the authorities that you have given us have been helpful, they 
alone are not enough, and we are still faced with the difficulty of 
competing within the Army for ever-scarcer military construction 
dollars at the levels needed to properly maintain world-class research 
facilities. This will be one of our major challenges in the years to 
come and I look forward to working with the Office of the Secretary of 
Defense and Congress to find a solution to this issue.
    The S&T community affords us the flexibility and agility to respond 
to the many challenges that the Army will face. Without the world-class 
cadre of over 12,000 Federal civilian scientists and engineers and the 
infrastructure that supports their work, the Army S&T Enterprise would 
be unable to support the needs of the Army. To maintain technological 
superiority now and in the future, the Army must maintain an agile 
workforce. Despite this current environment of unease within the 
government civilian workforce, exacerbated by conference restrictions, 
budget uncertainty, furloughs, and near zero pay increases, we continue 
to have an exceptional workforce. But, as I mentioned earlier, 
attracting and retaining the best science and engineering talent into 
the Army Laboratories and Centers is becoming more and more 
challenging. Our laboratory personnel demonstrations give us the 
flexibility to enhance recruiting and afford the opportunity to reshape 
our workforce, and I appreciate Congress' continued support for these 
authorities to include the flexibilities given to the laboratories and 
centers in section 1107 in the NDAA for Fiscal Year 2014. With two 
exceptions (the Army Research Institute (ARI) for the Behavioral and 
Social Sciences and the Space and Missile Defense Command Technical 
Center (SMDCTC)), all of our laboratories and centers are operating 
under this program (ARI and SMDCTC were never designated as Science and 
Technology Reinvention Laboratories). The flexibilities given to the 
laboratories and centers allow the laboratory directors the maximum 
management flexibility to shape their workforce and remain competitive 
with the private sector.
    The Army S&T Enterprise cannot survive without developing the next 
generation of scientists and engineers. We continue to have an amazing 
group of young scientists and engineers that serve as role models for 
the next generation. For example, last year Dr. Ronald Polcawich, a 
researcher at the U.S. Army Research Laboratory (ARL), was named by 
President Obama to receive a 2012 Presidential Early Career Award for 
Scientists and Engineers as one of the Nation's outstanding young 
scientists for his work in Piezoelectric-Micro Electro-Mechanical 
Systems (PiezoMEMS) Technology. Dr. Polcawich, is leading a team of 
researchers at the ARL in studying Piezo-Micro mechanical electrical 
systems (PiezoMEMS) with a focus on developing solutions for RF systems 
and millimeter-scale robotics. These actuators combined/integrated with 
low power sensors are being developed to enable mm-scale mechanical 
insect-inspired robotic platforms.
    The need for STEM literacy--the ability to understand and apply 
concepts from science, technology, engineering, and mathematics (STEM) 
in order to solve complex problems--goes well beyond the traditional 
STEM occupations of scientist, engineer and mathematician. The Army 
also has a growing need for highly qualified, STEM-literate technicians 
and skilled workers in advanced manufacturing, logistics, management 
and other technology-driven fields. Success and sustainment for the 
Army S&T Enterprise depends on a STEM-literate population to support 
innovation and the Army must contribute to building future generations 
of STEM-literate and agile talent.
    Through the Army Educational Outreach Program (AEOP), the Army 
makes a unique and valuable contribution to meet the National STEM 
challenge--a challenge which includes the growing demand for STEM 
competencies; the global competitiveness for STEM talent; an unbalanced 
representation of our Nation's demographics in STEM fields; and the 
critical need for an agile and resilient STEM workforce. AEOP offers a 
cohesive, collaborative portfolio of STEM programs that provides 
students, as well as teachers, access to our world-class Army technical 
professionals and research centers. Exposure to STEM fields and STEM 
professionals is critical to growing the next generation of STEM-
literate young men and women who will form the Army's workforce of 
tomorrow.
    In the 2012-2013 academic years, AEOP directly engaged more than 
66,000 students and nearly 1,500 teachers in authentic research 
experiences. Almost 2,351 Army Scientists and Engineers (S&E) provided 
mentorship, either from our in-house research laboratories or through 
our university partnerships.
    Additionally in fiscal year 2013, we initiated a comprehensive 
evaluation strategy (the first of its kind) that uses the government 
and a consortium of STEM organizations known for their nationwide 
education and outreach efforts to annually assess our program. Aligned 
with Federal guidance, AEOP requires the evaluation of all program 
elements based on specific, cohesive, metrics and evidence-based 
approaches to achieve key objectives of Army outreach; increased 
efficiency and coherence; the ability to share and leverage best 
practices; as well as focus on Army priorities. The AEOP Priorities 
are:

        <bullet> STEM Literate Citizenry: Broaden, deepen and diversify 
        the pool of STEM talent in support of the Army and our defense 
        industry base.
        <bullet> STEM Savvy Educators: Support and empower educators 
        with unique Army research and technology resources.
        <bullet> Sustainable Infrastructure: Develop and implement a 
        cohesive, coordinated, and sustainable STEM education outreach 
        infrastructure across the Army.

    For fiscal year 2015, we are concentrating on further program 
assessment, implementing evidence-based program improvements, 
strengthening additional joint service sponsored efforts, and 
identifying ways to expand the reach and influence of successful 
existing programs by leveraging partnerships and resources with other 
agencies, industry, and academia.
                  new approaches to enhance innovation
    It is widely acknowledged that innovation depends on bringing 
multiple scientific disciplines together to engage in collaborative 
projects that often yield unpredictable, yet highly productive results. 
Formal and informal interactions among scientists lead to knowledge-
building and research breakthroughs. These types of collaborations are 
happening on a day-to-day basis across our labs and engineering centers 
to produce the superior technology that our Army needs today, tomorrow 
and beyond. With shrinking budgets and huge leaps in the pace of 
technological change, our Army science and technology organizations 
must do more with less and faster than ever before to develop 
technology that will ensure mission success for the Army's first battle 
after next. To this end, we must more succinctly leverage scientific 
discovery from our academic and industry base by increasing the 
scientific engagement and flow of ideas that leads to ground breaking 
innovation.
    In 1945, Vannevar Bush`s concepts documented in ``Science--the 
Endless Frontier'' stressed the necessity of a robust/synergistic 
university, industry and government laboratory research system. Over 
the years, the rigid and insular nature of the defense laboratories 
have caused an erosion of that university/industry/government lab 
synergy that is critical to the discovery, innovation, and transition 
of science and technology important to national security.
    In an effort to reenergize that synergy, the U.S. Army Research 
Laboratory (ARL) is working to extend their alliances through an Open 
Campus Concept that brings together under one roof the triad of 
industry, academia, and government. Leveraging the cutting-edge 
innovation of academia, the system development and transition expertise 
of industry and their own Army focused fundamental research; ARL can 
harness the power of the triad to produce revolutionary science and 
technology more efficiently and effectively. The Open Campus Concept 
creates an ecosystem for academia, defense labs, and industry to share 
people, facilities and resources to develop and deliver transformative 
science oriented on solving complex Army problems. It will provide the 
means for our world class scientific talent to work together in state-
of-the-art facilities to provide innovation that allows rapid 
transition of technology to our soldiers. ARL's Open Campus Concept 
could lead to a new business model that would transform the defense 
laboratory enterprise into an agile, efficient and effective laboratory 
system that supports the continuous flow of people and ideas to ensure 
transformative scientific discovery, innovation and transition critical 
to national security.
    Finally, we are increasingly mindful of the globalization of S&T 
capabilities and expertise. Our International S&T strategy provides a 
framework to leverage cutting edge foreign science and technology 
enabled capabilities through Global S&T Watch, engagement with allies 
and leadership initiatives. Global Science and Technology Watch is a 
systematic process for identifying, assessing, and documenting relevant 
foreign research and technology developments. The Research, Development 
and Engineering Command's (RDECOM) International Technology Centers 
(ITCs), Engineer Research and Development Center (ERDC) international 
research office and the Medical Research Materiel Command's OCONUS 
laboratories identify and document relevant foreign S&T developments. 
We have initiated a new process to strategically identify and 
selectively engage our allies when their technologies and materiel 
developments can contribute to Army needs and facilitate coalition 
interoperability. The resultant engagements will augment the existing 
bilateral leadership forums we currently maintain with the United 
Kingdom Canada, Germany and Israel which provide both visibility of and 
management decisions on allied developments that merit follow-up for 
possible collaboration.
                                summary
    As the Army S&T Program continues to identify and harvest 
technologies suitable for transition to our force, we aim to remain 
ever vigilant of potential and emerging threats. We are implementing a 
strategic approach to modernization that includes an awareness of 
existing and potential gaps; an understanding of emerging threats; 
knowledge of state-of-the-art commercial, academic, and government 
research; as well as a clear understanding of competing needs for 
limited resources. Army S&T will sharpen its research efforts to focus 
upon those core capabilities it needs to sustain while identifying 
promising or disruptive technologies able to change the existing 
paradigms of understanding. Ultimately, the focus remains upon 
soldiers; Army S&T consistently seeks new avenues to increase the 
soldier's capability and ensure their technological superiority today, 
tomorrow, and decades from now. The Army S&T mission is not complete 
until the right technologies provide superior, yet affordable, 
overmatch capability for our soldiers. I will leave you with a last 
thought from the Secretary of the Army, the Honorable John McHugh.

          ``Our Strategic Vision is based on a decisive technological 
        superiority to any potential adversary.'' \6\--Honorable John 
        W. McHugh, 21st Secretary of the Army
---------------------------------------------------------------------------
    \6\ Terms of Reference, Fiscal Year 2012 Army Science Board Summer 
Study, Secretary of the Army, John M. McHugh, October 28, 2011.

    This is an interesting, yet challenging, time to be in the Army. 
Despite this, we remain an Army that is looking towards the future 
while taking care of the soldiers today. I hope that we can continue to 
count on your support as we move forward, and I would like to again 
thank the members of the committee again for all you do for our 
---------------------------------------------------------------------------
soldiers. I would be happy to take any questions you have.

    Senator Hagan. Thank you, Ms. Miller.
    Senator Fischer.
    Senator Fischer. Thank you, Madam Chairwoman. I would just 
ask that my opening statement be included in the record, 
please.
    [The prepared statement of Senator Fischer follows:]
               Prepared Statement by Senator Deb Fischer
    Thank you, Madam Chairwoman. I join you in welcoming our witnesses; 
thank you for being here today, it's good to see you all again.
    I'11 keep my remarks brief so we can quickly move on to the 
witnesses.
    I would just note that this subcommittee has heard a lot from 
Secretary Kendall about the threat to our technological edge. Open 
source media reports detail the growing capabilities of potential 
adversaries and the proliferation of advanced technologies. We've heard 
directly from the Secretary of Defense that U.S. superiority can no 
longer be taken for granted. These are sobering words to hear, 
especially when science and technology dollars are decreasing. We know 
the Department of Defense has to reset and retrain after more than a 
decade of war, but it must also modernize and invest in next-generation 
technology.
    I look forward to hearing from our witnesses on their efforts to 
develop new and innovative technologies that will sustain the advantage 
our warfighters currently enjoy.
    I thank the chairman and look forward to hearing from our 
witnesses.

    Senator Hagan. So done.
    Ms. Lacey.

 STATEMENT OF MARY E. LACEY, DEPUTY ASSISTANT SECRETARY OF THE 
      NAVY FOR RESEARCH, DEVELOPMENT, TEST AND EVALUATION

    Ms. Lacey. Senator Hagan, Senator Fischer: It's really an 
honor to appear before you again to report on the efforts of 
the Department of the Navy's research and development (R&D) 
enterprise. In these exceptionally challenging times, our goal 
continues to be to provide our sailors and marines with 
technically superior capabilities while focusing on the 
affordability of our current and future weapon systems.
    I would like to concentrate my remarks this afternoon on 
the Navy Laboratory, Warfare, and System Center. The Department 
of the Navy has historically made deliberate and measured 
investments to ensure stability, competence, and technical 
capacity within the organic workforce. Over the last 2 years we 
have made great progress in aligning our labs and understanding 
the health of the facilities and the people.
    Last year, I talked to you about understanding the 
capabilities that we had in our various facilities. I'd like to 
report that we have now baselined our capabilities. We have an 
understanding of over 500 individual laboratories and we are 
using that understanding to shape our investments, to improve 
the capabilities that we have in each one of those individual 
facilities.
    To be competent, people must do actual hands-on work. We 
have made that a priority within DOD. The Navy labs are deeply 
engaged in the technical work that brings technologies from the 
lab bench, through demonstration, to a realistic option for the 
Service. An example of this is in the news today, and not the 
rail gun, ma'am, the laser system. Our success in the laser 
weapons systems is a part of our solid-state laser maturation 
effort at the Naval Surface Warfare Center, Dahlgren, and the 
Naval Research Laboratory right here in Anacostia.
    Our laser weapon system is referred to as LAWS. It 
leverages advances in the commercial technology for use in a 
rugged, robust prototype weapon capable of identifying, 
illuminating, tracking, and lasing enemy surface and air 
threats. We expect that we'll be able to dramatically change 
the cost equation from an expendable round to a dollar a shot 
with this laser weapon. That's a lot of money. The Navy is 
installing the LAWS as we speak on board the USS Ponce in the 
Arabian Gulf.
    We are mindful of the need to affordably modernize our 
systems and reduce the workload on our sailors and marines. The 
Navy's very low frequency transmitters are located around the 
world and provide the Navy with the capability to communicate 
over large distances one way to our submarines while they are 
submerged. The problem with the system is that it was put in 
place in the 1960s with technology that dated from the 1930s. 
It is very expensive to maintain and many of the parts no 
longer exist. It's a very costly repair to maintain it in 
operational status.
    An engineer at one of our centers developed a solid-state 
high-power electronics and control circuit that replaces this 
technology in the systems out there. Once implemented at all 
six vertical launching system sites, the Navy will save $20 
million a year in energy and maintenance costs on that alone.
    At another warfare center, in less than 4 months a Navy 
team of scientists and engineers developed an inexpensive 
chemical detection kit for homemade explosives. The kit is easy 
to use, only requires a few minutes of training, and includes a 
one-page manual, about the size of a 4 x 6 index card. It 
weighs in at only 6 ounces. The unit is portable and it costs 
about $85 a unit.
    This replaces and outperforms the impractical kits that 
they had, which weighed anywhere from 2 to 20 pounds and cost 
anywhere from $5,000 to $15,000 a unit.
    As part of the Navy's technology transfer program, we have 
made these detection kits available to Federal, State, and 
local law enforcement agencies.
    We get these types of results through disciplined processes 
focused on affordability and executed by a skilled workforce 
with technical capabilities second to none.
    Even with the challenges we faced this past year assessment 
sequestration and furloughs' attrition of our technical 
workforce in the Navy is down. In large part, I believe that 
this is because the workforce is motivated by the mission and 
the opportunity to work on innovative solutions to tough 
problems such as those that I just mentioned.
    I'd like to thank the subcommittee for your continued 
support as we provide new and improved affordable warfighting 
capabilities to our sailors and marines. Thank you.
    [The prepared statement of Ms. Lacey follows:]
                Prepared Statement by Ms. Mary E. Lacey
                              introduction
    Madam Chairwoman and distinguished members of the subcommittee, it 
is an honor to appear before you today to report on the efforts of the 
Department of Navy (DoN) Science and Technology (S&T) Laboratory 
Enterprise. I would like to begin by thanking the committee for your 
continued support of our Nation's science and engineering base who 
continue to provide new and improved, affordable warfighting 
capabilities to sustain the technology superiority our sailors and 
marines enjoy. The Department remains committed to developing and 
rapidly delivering innovation to our warfighters more efficiently 
through the effective use of the technological resources of our Nation 
within the commercial sector, Federally Funded Research and Development 
Centers (FFRDC), University Affiliated Research Centers (UARC), and our 
Naval Laboratory and Warfare/Systems Centers.
    In the year since I last appeared before you, DoN has continued to 
actively manage our research, development, test, and evaluation (RDT&E) 
accounts, workforce, and infrastructure. We still have many significant 
challenges, including an examination of how best to use FFRDCs and 
UARCS to address the challenges ahead, but we continue to make strides 
in understanding the full strategic potential of our national resources 
to affordably deliver advanced technologies to Naval Forces.
    The budget has offered its own set of challenges. Since 2008, the 
rate at which DoN's Budget is decreasing is at historical levels, , 
equaling or exceeding the decreases we saw after the Reagan Build-up 
and Vietnam War. These kinds of reductions call for a new investment 
strategy. In the fiscal year 2015 budget request, DoN reduced a number 
of RDT&E programs, including Marine Corps Assault Vehicles and Airborne 
Mine Countermeasures. DoN continues to develop and expand the scope of 
its Business Transformation efforts, looking to the RDT&E portfolio for 
savings within programs, high pay-off technology transitions, or better 
product outcomes for ACAT programs.
                           strategic reviews
    To ensure the future technological superiority of our Fleet and 
Force, DoN must make prudent RDT&E investments that provide combat 
effectiveness, affordability and improved reliability and 
maintainability of our current and future weapon systems. The inherent 
mismatch in timescales for our budget processes, operational needs and 
S&T development are amplified in this time of declining budgets. DoN 
must ensure RDT&E investments continue to target the correct warfighter 
missions, are aligned across all RDT&E accounts, and expeditiously 
transition required technologies to Fleet and Force operators. To 
answer these new challenges and ensure the right investments are being 
made, DoN has formed the Naval RDT&E Corporate Board consisting of the 
Under Secretary of the Navy; Assistant Secretary of the Navy for 
Research, Development and Acquisition (ASN(RDA)); Vice Chief of Naval 
Operations (VCNO); and the Assistant Commandant of the Marine Corps 
(ACMC) to help guide our RDT&E strategy. These DoN RDT&E investment 
decisions could greatly influence the battlefield of our next conflict.
    In 2013, we completed our second round of reviews of DoN RDT&E 
investments. Our focus during these reviews is to ensure we are 
effectively balancing tactical and strategic requirements against our 
current and future technical capabilities. We want to shift our 
decisions from reactive and stove-piped to a proactive and holistic 
approach where decisions are made at the appropriate level and wisely 
use our resources and intellectual capital. As a result of these 
reviews, we have made some tactical course corrections that will better 
align RDT&E projects in a more accurate budget activity and allow for 
more orderly deployment of advanced technology from the bench to the 
fleet.
    Our continuing efforts in Integration and Interoperability (I&I), 
looking across the ``kill chains'' to understand how systems really 
work together and where best to make our investments to maximize 
warfighting capabilities, are providing great insight. The Naval 
Integrated Fire Control Counter Air (NIFC-CA) project serves as a great 
example of the benefits of this approach. The objectives of this 
system-of-systems engineering, integration and test effort are to 
extend the Naval Theater Air and Missile Defense battlespace to the 
maximum kinematic range of our active missiles, increase tactical 
decisionmaking time, offer additional flexibility to platform operators 
and operational commanders, and to improve survivability and 
operational effectiveness of warfighting assets. The capability focuses 
on targets beyond the detection range of the shooter, enabling Engage-
On-Remote at targets Over-the-Horizon, with the ultimate objective of 
improving performance against multiple simultaneous targets, and 
providing the fleet operator with maximum re-engagement capability. 
Formal scoping and structure were required based on detailed 
examinations using effects/kill chains, virtual simulation analysis, 
and operational test data to determine operational needs, develop 
integrated architectures, and validate System of Systems (SoS) 
Federated model performance predictions. A critical governance element 
of this formal integrated warfighting capability structure involved the 
decision to direct Program Executive Office--Integrated Warfare Systems 
(PEO IWS) to establish a NIFC-CA Systems Engineering, Integration and 
Test (SEI&T) Project Office to integrate across the elemental programs 
to develop and acquire a NIFC-CA capability. This instantiation of a 
formal NIFC-CA project began with the critical elements identified by 
the I&I activity, namely the determination of facts-based operational 
gaps and recommended solution sets that maintain alignment between 
pillar programs. The Department is proceeding in a ``crawl, walk, run'' 
approach to System of Systems engineering, integration and test to 
reduce test risk and cost, while maximizing efficiencies by leveraging 
pillar program test opportunities. As we do, we are capturing lessons 
learned to assist the Fleet in the future development of fully vetted 
and approved Concept of Operations and Training Tactics and Procedures 
(TTPs). This essential work relies on a collaborative Government/
Industry team that includes government laboratories, academia, and 
engineering expertise within the pillar programs.
    In the next few years, DoN will expand I&I efforts to include new 
technologies into the kill chain analysis to enable mission planning 
for advanced technologies in development. One example of an advanced 
technology we are developing is the Large Displacement Unmanned 
Undersea Vehicle (LDUUV). The LDUUV will provide a reliable, fully 
autonomous, long-endurance UUV capable of extended operation (over 60 
days) in cluttered littoral environments. The program is developing the 
energy, autonomy and core systems to operate in a complex ocean 
environment near harbors, shorelines, and other high-traffic locations. 
Key approaches include using open architecture to lower cost and enable 
full pier-to-pier autonomy in over-the-horizon operations. Achieving 
these goals will reduce platform vulnerability, enhance warfighter 
capability and safety, and close gaps in critical and complex mission 
areas by extending the reach of the Navy into denied areas.
    Another example of advanced technology development is the 
Electromagnetic Railgun. Fired by electric pulse, the Railgun 
eliminates gun propellant from magazines, resulting in greater 
survivability. The Railgun has multi-mission potential for long-range, 
land-attack Naval Surface Fire Support, ballistic and cruise missile 
defense, and anti-surface warfare against ships and small boats. The 
Naval Sea Systems Command (NAVSEA) and the Office of the Secretary of 
Defense (OSD) Strategic Capabilities Office are coordinating 
development efforts to ensure commonality and reduce the need for 
expensive redesign. OSD is sponsoring a land-based Railgun experiment 
to explore its potential to defend land bases. NAVSEA is executing this 
effort and also preparing for Railgun integration in navy war ships. 
The team will conduct key system demonstrations both at a land-based 
location and aboard a Joint High Speed Vessel in 2016.
                               workforce
    I have oversight of systems engineering and overall stewardship 
responsibilities for the Naval Laboratory and Warfare/Systems Centers. 
DoN has 15 activities that compose the in-house research and 
development capacity. It is comprised of the Naval Research Laboratory 
(NRL) and Warfare/Systems Centers aligned to three Systems Commands 
(SYSCOMs): NAVSEA, Naval Air Systems Command (NAVAIR), and Space and 
Naval Warfare Systems Command (SPAWAR). The Navy's Corporate 
Laboratory, the Naval Research Laboratory (NRL), was established by an 
act of Congress in 1916 and began operation as the NRL in 1923. Over 
half of the work NRL performs is fundamental science and technology, 
nearly all in partnership or in collaboration with academia and 
researchers in other government laboratories and activities. The 
Warfare and Systems Centers, while being involved in basic science, 
play most strongly in technology and engineering, often in partnership 
with industry. They too have long histories, some dating back to the 
1800s, and were created to respond to a specific threat or 
technological challenge. The Naval Laboratory and Centers Coordinating 
Group is our principal coordinating body for our in-house activities. 
This group has been very active over the last year in:

        <bullet> Aligning processes for the work we accept from 
        customers;
        <bullet> Establishing common processes for measuring the 
        technical core capabilities and capacity of our workforce; and
        <bullet> Establishing DoN-wide definitions for technical core 
        capabilities and competencies as a part of measuring and 
        maintaining the ability to deliver the Navy after Next while 
        ensuring today's is always ready to fight.

    The Naval Laboratory and Warfare/System Centers constitute a 
diverse, highly skilled workforce of over 45,000 employees with over 
23,000 scientists and engineers. Among the scientists and engineers 
over 40 percent hold advanced degrees in science, engineering, or 
mathematics. The Navy continues its efforts to revitalize and maintain 
the technical capabilities of the acquisition workforce by maintaining 
over 5,000 technical personnel at the Warfare/Systems Centers in the 
technical career fields of Systems Planning, Research, Development and 
Engineering, Test and Evaluation (T&E), Information Technology (IT) and 
Production, Quality, and Manufacturing. As procurements draw down, we 
fully expect that a technical workforce that is trained and equipped to 
maintain and repair legacy systems will be more important than ever.
    Investments in research and development as well as in our workforce 
and facilities to support the legacy systems and the systems of systems 
must be made. The Navy has taken several steps to achieve balance in 
our technical workforce and infrastructures to ensure technical 
capabilities critical to the Navy are maintained in our Naval 
Laboratory and Warfare/Systems Centers. While we place a priority on 
the naval mission, clearly, non-naval work is an important element of 
the overall workload at many of our Warfare/Systems Centers. The 
accomplishment of this work can contribute to both the strength of the 
technical workforce at the Warfare/Systems Centers and the reduction of 
the centers' overhead rates. However, if the overall workload at the 
individual Warfare Center or across the network of Warfare/Systems 
Centers is not properly aligned to capability and capacity, their 
mission performance will suffer. A series of failures in this regard 
gave cause to a review of work acceptance practices across our Warfare/
Systems Centers and the determination that the Navy needed to increase 
standardization, visibility and accountability to ensure the Navy 
fulfills its responsibility to both the warfighter and the taxpayer.
                              section 219
    DoN is focused on the quality of our technical workforce's 
capability and capacity and ensuring stability within the organic 
workforce. Section 219 of the National Defense Authorization Act (NDAA) 
for Fiscal Year 2009 has proven invaluable to maintaining the health of 
the Navy Laboratory, Warfare and Systems Centers. Naval Innovative 
Science and Engineering (NISE) investments, $105 million in fiscal year 
2013, have been critical in refreshing aging infrastructure through 
investments in updating and creating new technical facilities. The NISE 
program has allowed the Navy Laboratory, Warfare and Systems Centers to 
revitalize and build new technical capabilities of the workforce 
through hands-on work as well as training and the support of advanced 
degrees and certifications. NISE programs have provided breakthrough 
research and been responsible for the maturation and transition of 
technology to the warfighter and programs of record. NISE has 
encouraged cross-organizational multi-disciplinary projects that 
include partnerships with academia and industry. Finally, the NISE 
program has allowed the Navy to recruit and retain top technical talent 
to support the Fleet. We want to thank you for extending the sunset 
clause until 2020. We encourage you to make this a permanent 
authorization.
                             infrastructure
    Our investment in our workforce is critical but so is our 
investment in our infrastructure. I am pleased to report we have 
completed our initial Naval Infrastructure Capabilities Assessment 
(NICAP) effort started in fiscal year 2010 at NAVAIR, to include all 
RDT&E capabilities at the Warfare/Systems Centers. NICAP has captured 
and base lined technical information on more than 500 different 
capabilities spread across 68 different geographical locations of our 
15 Laboratory and Warfare/Systems Centers. The depth and the breadth of 
their capabilities are exceptional in spite of some of the less-than-
ideal facilities in which our scientists and engineers must perform 
their work. Because each of the SYSCOMs uses a different taxonomy to 
classify and manage their RDT&E capabilities, we have embarked on a 
strategy to make the data more consistent and comparable across the 
SYSCOMs. NICAP provides dynamically generated assessment views, 
statistical and tabular, that enable the comparative assessment of 
current Naval RDT&E capability baseline and relevant supporting 
analyses for emerging infrastructure reviews.
    The Assistant Secretary of the Navy for Energy, Installations, and 
Environment (ASN(EI&E)) has identified $81 million in military 
construction funding for RDT&E projects:

        <bullet> Atlantic Test Range Facility: $9,860K (Patuxent River, 
        MD)
        <bullet> Advanced Energetics Research Lab, Phase 2: $15,346K 
        (Indian Head, MD)
        <bullet> Ohio Replacement Power and Propulsion Facility: 
        $23,985K (Philadelphia, PA)
        <bullet> Electronics Science and Technology Lab: $31,735K (NRL, 
        DC)

    An additional challenge we face is the need for increasing 
maintenance on our facilities as they age. There needs to be balance 
between repairing and maintaining our infrastructure and the need to 
build new capability. Balancing the infrastructure needs of our 
Laboratories with the needs of the fleet and our warfighters will 
always be a challenge. With the current constrained budget environment, 
the minor construction authority granted under section 2805 becomes 
even more important and holds significant potential for the 
revitalization of Naval Laboratory and Warfare/Systems Centers' 
infrastructure.
              improving processes to improve effectiveness
    DoN is focused as well on achieving meaningful process improvements 
and striving to get these into the ``DNA'' of the DoN workforce to 
continue to push for technological innovation within the framework of 
affordability and information protection.
    DoN is leading efforts for program protection planning in 
compliance with ASD AT&L/SE with policy and guidance. We are developing 
policy for the supply-chain risk management initiative required by 
section 815 of the NDAA for Fiscal Year 2010. We are also engaged with 
DOD in the development of the Concept of Operations and Implementation 
Plan for section 941 of the NDAA for Fiscal Year 2013, requiring 
cleared defense contractors to report cyber intrusion events occurring 
on their networks.
    We continue to deploy Open Systems Architecture engineering and 
business approaches to improve our systems, increase competition, and 
speed technology insertion. Last summer we ran a business innovation 
war game using crowd sourcing to identify novel ways to expand the 
implementation of Open Systems Architecture in DoN. As part of the 
game, hundreds of participants from Government and Academia developed 
15 action plans. We are currently in the process of considering these 
ideas for follow-on actions.
    The defense industrial base is a critical component of the Navy's 
RDT&E strategy. As part of the Department's Better Buying Power 
initiative to incentivize productivity and innovation in industry and 
government, the Navy is leveraging the OSD-developed Defense Innovation 
Marketplace website. The Assistant Secretary of Defense for Research 
and Engineering (ASD(R&E)) created the Defense Innovation Marketplace 
in 2011 as a resource for both the Department and industry to better 
align industry Independent Research & Development (IR&D) efforts while 
providing DoN personnel stronger connection to IR&D projects for 
current programs and future planning. To enhance the impact of the 
Defense Innovation Marketplace on the DoN's RDT&E efforts, DASN(RDT&E) 
and ONR are undertaking pilot programs to provide feedback to ASD(R&E) 
on ways to increase the utility of the Marketplace.
    Finally, I have initiated a Systems Engineering streamlining effort 
to identify cumbersome work practices, costs of doing systems 
engineering business, and to enhance our workforce capability and 
readiness. We are focused on delivering engineering excellence and 
lateral integration with program test and program support activities, 
reducing duplications, and linking requirement to test and support 
planning. We are also looking at inter-organizational responsibilities 
vertically so that organizational authorities and responsibilities at 
the Secretariat, SYSCOMs, and the Warfare/Systems Centers align 
appropriately. DoN addresses our Systems Engineering workforce 
qualifications and assignments through our Technical Authority 
qualification process at the SYSCOM level, with oversight by my office. 
We have aligned this process with DOD Acquisition Workforce Improvement 
Act goals for a highly qualified Systems Engineering workforce.
                                summary
    We have faced technological and budgetary challenges in the past 
year, but our goal remains the same: to ensure our sailors and marines 
are armed with technically superior capabilities. We can make certain 
this superiority continues through disciplined processes focused on 
affordability, executed by a skilled workforce with second-to-none 
technical capabilities, performing innovative state-of-the-art science 
and engineering in facilities. We have made great strides over this 
last year, and we look forward to continuing progress. Thank you for 
your support and the opportunity to appear before you today.

    Senator Hagan. Thank you.
    Mr. Gooder.

 STATEMENT OF KEVIN GOODER, PROGRAM INTEGRATION DIVISION CHIEF 
  OF THE OFFICE OF THE DEPUTY ASSISTANT SECRETARY OF THE AIR 
         FORCE FOR SCIENCE, TECHNOLOGY AND ENGINEERING

    Mr. Gooder. Thank you. Chairwoman Hagan, Ranking Member 
Fischer, and staff: I'm pleased to have the opportunity to 
provide testimony on the fiscal year 2015 Air Force S&T 
program. Dr. Walker is ill today and he sends his regrets for 
not being able to be here.
    Globalization and the proliferation of technology mean we 
face threats across a wide spectrum and competition across all 
domains. As stated in the vision of the Chief of Staff of the 
Air Force, despite the best analysis and projections by 
national security experts, the time and place of the next 
crisis are never certain and are rarely what we expect.
    Success and the guarantee of security in this dynamic 
environment require that we both take lessons learned from the 
last decade of conflict and creatively visualize the future 
strategic landscape. It's in this space, between learning from 
the past and keeping an open eye to the future, where we find 
opportunity.
    Air Force scientists and engineers continue to evolve and 
advance game-changing and enabling technologies which will 
transform the landscape of how the Air Force flies, fights, and 
wins in air, space, and cyber space. In close coordination with 
the requirements, intelligence, and acquisition communities, we 
have structured our S&T program to address the highest priority 
needs of the Air Force, to execute a balanced and integrated 
program that is responsive to Air Force core missions, and to 
advance critical technical competencies needed to address 
future research.
    The Air Force has matured its S&T planning process by 
improving the alignment between S&T efforts and capability gaps 
outlined in the Air Force Core Function Master Plans. We have 
brought together subject matter experts from the major 
commands, centers, and the Air Force Research Laboratory into 
capability collaboration teams. These teams work to fully 
understand documented capability needs that may require 
materiel solutions, determine where S&T is required, and then 
formulate research for potential technology solutions.
    Our improved S&T planning process ensures our S&T 
investments are well-understood, aligned to warfighters' top 
capability gaps, structured for success, and poised for 
transition when completed.
    The Air Force as a whole had to make difficult trades 
between force structure, readiness, and modernization in this 
year's President's budget submission. The Air Force S&T budget 
request is approximately $2.1 billion, which represents a 6.2 
percent decrease from the fiscal year 2014 President's budget 
request. However, when compared to the overall Air Force 
Research, Development, Test, and Evaluation (RDT&E) account, 
which was decreased by 9 percent, the Air Force S&T fared well 
in the planning and programming process.
    Our budget request rebalances basic research spending as 
part of the overall portfolio to increase emphasis on 
conducting technology demonstrations. It also emphasizes our 
efforts in game-changing technologies of hypersonics, autonomy, 
directed energy, and fuel-efficient propulsion technologies, 
which can affordably provide us the necessary range, speed, and 
lethality for operations in highly contested environments 
described in the 2014 Quadrennial Defense Review.
    Even as we push the realm of the possible with research in 
game-changing technologies, we are increasing the effectiveness 
of our warfighters today by transitioning innovative 
technologies. For example, the Air Force Research Laboratory 
has taken a leading technological role in supporting the Joint 
Space Operations Center (JSPOC) missions systems program at the 
Space and Missile Systems Center.
    The laboratory initially deployed a modern data fusion and 
display prototype, moving away from the text-based system for 
the last 50 years, and now it provides continued upgrades for 
space operations. Our space operators at the JSPOC now have an 
easy-to-use Windows-type interface to track some 20,000 space 
objects. Another key technology on the path to transition at 
the JSPOC, it enables the rapid attribution of environmental 
effects on DOD's satellites and services, a key step in 
identifying hostile activities in the increasingly congested 
space domain.
    As I stated earlier, our scientific opportunities lie 
between learning from the past and creatively visualizing the 
future. The increased laboratory hiring and personnel 
management authorities and flexibilities provided by Congress 
over the last several years have done much to improve our 
ability to attract the Nation's best talent to explore these 
opportunities.
    However, we still have work to do to ensure the sustained 
quality of our laboratories. Long-term budget decreases and 
funding uncertainty leads to countless opportunities lost to 
discover new innovative technologies. As a result of 
sequestration alone, in fiscal year 2013 we cancelled, delayed, 
or rescoped over 100 contracts, resulting in increased costs 
and extended technology development schedules, ultimately 
delaying improved capabilities to the warfighter.
    For example, the rescoping of work on the very 
sophisticated Ground-based Imaging of Objects in Extremely High 
Altitude Orbits will delay technology availability at least 1 
year beyond the Air Force Space Command technology need date.
    In closing, I firmly believe maintaining and even expanding 
our technological advantage is vital to ensuring assured access 
and freedom of action in air, space, and cyber space. The 
focused, balanced investments of the Air Force fiscal year 2015 
S&T program are hedges against the unpredictable future and 
provide pathways to a flexible, precise, and lethal force at a 
relatively low cost in relation to the return on investment.
    On behalf of the dedicated scientists and engineers of the 
Air Force S&T enterprise, thank you again for the opportunity 
to testify today and thank you for your continuing support of 
the Air Force S&T program.
    [The prepared statement of Dr. Walker follows:]
               Prepared Statement by Dr. David E. Walker
                              introduction
    Chairwoman Hagan, Ranking Member Fischer, members of the 
subcommittee, and staff, I am pleased to have the opportunity to 
provide testimony on the fiscal year 2015 Air Force Science and 
Technology (S&T) Program, especially during this unprecedented time in 
our history.
    Our Nation is one of a vast array of actors in a complex, volatile, 
and unpredictable security environment. Globalization and the 
proliferation of technology mean we face threats across a wide spectrum 
and competition across all domains. We're confronted by ever-evolving 
adversaries ranging from one person with a single interconnected 
computer to sophisticated capable militaries and everything in between. 
We're also challenged by the shear pace of change among our adversaries 
fueled by profound information and technology diffusion worldwide. As 
stated by the Chief of Staff of the Air Force in the Global Vigilance, 
Global Reach and Global Power For Our Nation vision, ``despite the best 
analyses and projections by national security experts, the time and 
place of the next crisis are never certain and are rarely what we 
expect.'' Success and the guaranty of security in this dynamic 
environment require that we both take lessons learned from the last 
decade of conflict and creatively visualize the future strategic 
landscape. It's in this space, between learning from the past and 
keeping an open eye to the future, where we find opportunity.
    The focused and balanced investments of the Air Force fiscal year 
2015 S&T program are hedges against the unpredictable future and 
provide pathways to a flexible, precise and lethal force at a 
relatively low cost in in relation to the return on investment. The 
Under Secretary of Defense for Acquisition, Technology, and Logistics 
recently reminded us that complacency now and in the future is simply 
not an option. Maintaining, and even expanding, our technological 
advantage is vital to ensuring sustained freedom of access and action 
in air, space and cyberspace.
                 air force fiscal year 2015 s&t program
    The Air Force as a whole had to make difficult trades between force 
structure (capacity), readiness, and modernization (capability) in the 
Service's fiscal year 2015 President's budget submission to recover 
from budget uncertainty over the 2 previous fiscal years. The Air Force 
fiscal year 2015 President's budget request for S&T is approximately 
$2.1 billion, which includes nearly $178 million in support of devolved 
programs consisting of High Energy Laser efforts and the University 
Research Initiative. This year's Air Force S&T budget request 
represents a decrease of $141 million or a 6.2 percent decrease from 
the fiscal year 2014 President's Budget request, a slightly larger 
reduction as compared to the overall Air Force topline reduction. This 
budget request rebalances basic research spending as part of the 
overall portfolio to increase emphasis on conducting technology 
demonstrations. The Air Force was able to reduce funding in the 
aerospace systems and materials areas while still advancing 
capabilities for the Air Force and the Department of Defense (DOD) by 
smartly leveraging research being conducted by the Defense Advanced 
Research Projects Agency (DARPA) in the hypersonics area.
    We've learned a great deal over the last decade. The dedicated 
scientists and engineers of the Air Force Research Laboratory (AFRL) 
have successfully supported warfighters during conflicts in Iraq, 
Afghanistan, and North Africa through the rapid development of systems 
and capabilities including persistent intelligence, surveillance, and 
reconnaissance (ISR); data fusion and integration from multiple 
sensors; and near real-time monitoring of some orbiting U.S. and 
commercial spacecraft assets. With the pivot to the Pacific as outlined 
in the Defense Strategic Guidance, we must continue to evolve and 
advance ``game-changing'' and enabling technologies which can transform 
the landscape of how the Air Force flies, fights and wins against the 
high-end threats in contested environments envisioned in the future.
    In close coordination with the requirements, intelligence and 
acquisition communities, we have structured our Air Force fiscal year 
2015 S&T Program to address the highest priority needs of the Air Force 
across the near-, mid-, and far-term; execute a balanced and integrated 
program that is responsive to Air Force core missions; and advance 
critical technical competencies needed to address the full range of 
product and support capabilities. The Air Force continues to focus 
efforts to deliberately align S&T planning, technology transition 
planning, development planning and early systems engineering. The 
linkages between these planning activities are critical to initiating 
acquisition programs with more mature technologies and credible cost 
estimates, and we are institutionalizing these linkages in Air Force 
policy. Air Force S&T provides critical inputs at several phases of the 
Chief of Staff of the Air Force's Air Force 2023 strategic planning 
effort including helping to shape the ``realm of the possible'' when 
envisioning long term strategy, offering technologies to expand the 
strategic viewpoint and identifying potential solutions to requirements 
and capability gaps. Our forthcoming updated Air Force S&T strategy 
focuses on investing in S&T for the future, as well as leverages our 
organic capacity, and the capacity of our partners (domestic and 
international), to integrate existing capabilities and mature 
technologies into innovative, affordable, and sustainable solutions. 
This flexible strategy provides us the technological agility to adapt 
our S&T Program to dynamic strategic, budgetary, and technology 
environments and will shape prioritized actionable S&T plans.
                    near-term technology transition
    The Air Force continues to move our Flagship Capability Concept 
(FCC) projects toward transition to the warfighter. A well-defined 
scope and specific objectives desired by a Major Command (MAJCOM) are 
key factors in commissioning this type of an Air Force-level technology 
demonstration effort. The technologies are matured by the Air Force 
Research Laboratory with the intent to transition to the acquisition 
community for eventual deployment to an end user. These FCCs are 
sponsored by the using MAJCOM and are vetted through the S&T Governance 
Structure and Air Force Requirements Oversight Council to ensure they 
align with Air Force strategic priorities. In fiscal year 2014, the Air 
Force successfully completed and transitioned the Selective Cyber 
Operations Technology Integration (SCOTI) FCC and will continue work on 
the High Velocity Penetrating Weapon (HVPW) and Precision Airdrop (PAD) 
FCCs.
    AFRL delivered the SCOTI FCC to the Air Force Life Cycle Management 
Center (AFLCMC) in September 2013, on time, on budget and within 
specification. SCOTI consists of cyber technologies capable of 
affecting multiple nodes for the purposes of achieving a military 
objective and gaining cyberspace superiority. SCOTI's robust, modular 
architecture provides vital extensibility to allow cyber warriors to 
keep pace with rapidly evolving threats. AFLCMC is evaluating the 
delivered SCOTI architecture for integration with operational cyber 
mission software to directly meet the needs of a major capability area 
in the Air Force Cyberspace Superiority Core Function Master Plan. By 
successfully meeting the requirements of the stakeholder-approved 
Technology Transition Plan, SCOTI is the first FCC to transition and 
will serve as a baseline for current and future integrated cyber tools 
to provide needed effects for the warfighter.
    The HVPW FCC was established to demonstrate critical technologies 
to reduce the technical risk for a new generation of penetrating 
weapons to defeat difficult, hard targets. This FCC matures 
technologies that can be applied to the hard target munitions 
acquisition including guidance and control, terminal seeker, fuze, 
energetic materials and warhead case design. This effort develops 
improved penetration capability of hard, deep targets containing high 
strength concrete with up to 2,500 feet per second (boosted velocity) 
impact in a GPS-degraded environment. This technology will demonstrate 
penetration capability of a 5,000 pound-class gravity weapon with a 
2,000 pound weapon thus enabling increased loadout for bombers and 
fighters. Tests will demonstrate complete warhead functionality, and 
are scheduled to be completed the end of September 2014.
    The PAD FCC was commissioned in response to a request from the 
Commander of Air Mobility Command for technologies to improve airdrop 
accuracy and effectiveness while minimizing risk to our aircrews. To 
date, PAD FCC efforts have focused on: early systems engineering 
analysis to determine major error sources, data collection, flying with 
crews, wind profiling, bundle tracking, and designing modeling and 
simulation activities. The Air Force Research Laboratory completed the 
bundle tracker development in fiscal year 2013 and in fiscal year 2014 
began wind profile sensor development.
                       game-changing technologies
    The Air Force S&T Program provides technology options to enable 
operations in anti-access, area-denial environments and transform the 
way we fly, fight and win in air, space and cyberspace. To illustrate 
how, I will highlight some of our efforts in game-changing and enabling 
technology areas:
Hypersonics
    Speed provides options for engagement of time sensitive targets in 
anti-access/area-denial environments, and improves the survivability of 
Air Force systems. Hypersonic speed weapons are also a force multiplier 
as fewer are required to defeat difficult targets and fewer platforms 
are required from greater standoff distances. The Air Force S&T 
community continues to execute the high speed technology roadmaps 
developed with industry over the last 3 years. We are also building on 
the success of the X-51A Waverider scramjet engine hypersonic 
demonstrator, which on 1 May 2013 reached an approximate Mach Number of 
5.1 during its fourth and final flight. The Air Force has focused 
multi-faceted, phased investments in game-changing technology for 
survivable, time-critical strike in the near term and a penetrating 
regional intelligence, surveillance, and reconnaissance (ISR) and 
strike aircraft in the far term.
    The near-term strike effort is the High Speed Strike Weapon (HSSW) 
program. This effort will mature cruise missile technology to address 
many of those items necessary to realize a missile in the hypersonic 
speed regime including: modeling and simulation; ramjet/scramjet 
propulsion; high temperature materials; guidance, navigation, and 
control; seekers and their required apertures; warhead and subsystems; 
thermal protection and management; manufacturing technology; and 
compact energetic booster technologies.
    The Air Force conducts research and development in all aspects of 
hypersonic technologies in partnership with NASA, DARPA, and industry/
academic sectors. The HSSW program will include two parallel integrated 
technology demonstration efforts to leverage DARPA's recent experience 
in hypersonic technologies that are relevant to reduce risk in key 
areas. One of the demonstrations will be a tactically-relevant 
demonstration of an air breathing missile technology that is compatible 
with Air Force fifth generation platforms including geometric and 
weight limits for internal B-2 Spirit bomber carriage and external F-35 
Lightening II fighter carriage. This demonstration will build on the X-
51 success and will include a tactically compliant engine start 
capability and launch from a relevant altitude.
    For the other demonstration, the Air Force and DARPA will seek to 
develop technologies and demonstrate capabilities that will enable 
transformational changes in prompt, survivable, long-range strike 
against using the Tactical Boost Glide (TBG) concept. The objective of 
the TBG effort is to develop and demonstrate the critical technologies 
that will enable an air launched tactical range, hypersonic boost-glide 
missile. Both efforts will build upon experience gained through recent 
hypersonic vehicle development and demonstration efforts supported by 
DARPA and the Air Force. These demonstrations are traceable to an 
operationally relevant weapon that could be launched from existing 
aircraft. Technology and concepts from these efforts will provide 
options for an operational weapon system for rapidly and effectively 
prosecuting targets in highly contested environments.
Autonomy
    Analysis of these future operating environments has also led the 
Air Force to invest in game-changing advances in autonomous systems. 
Autonomous systems can extend human reach by providing potentially 
unlimited persistent capabilities without degradation due to fatigue or 
lack of attention. The Air Force S&T Program is developing technologies 
that realize true autonomous capabilities including those that advance 
the state-of-the-art in machine intelligence, decisionmaking, and 
integration with the warfighter to form effective human-machine teams.
    The greater use of autonomous systems increases the capability of 
U.S. forces to execute well within the adversaries' decision loops. 
Human decisionmakers intelligently integrated into autonomous systems 
enable the right balance of human and machine capability to meet Air 
Force challenges in the future. The Air Force S&T Program invests in 
the development of technologies to enable warfighters and machines to 
work together, with each understanding mission context, sharing 
understanding and situation awareness, and adapting to the needs and 
capabilities of the other. The keys to maximizing this human-machine 
interaction are: instilling confidence and trust among the team 
members; understanding of each member's tasks, intentions, capabilities 
and progress; and ensuring effective and timely communication. All of 
which must be provided within a flexible architecture for autonomy, 
facilitating different levels of authority, control and collaboration. 
Current research is focused on understanding human cognition and 
applying these concepts to machine learning. Efforts develop efficient 
interfaces for an operator to supervise multiple unmanned air systems 
(UAS) platforms and providing the ISR analyst with tools to assist 
identifying, tracking, targets of interest.
    Autonomy also allows machines to synchronize activity and 
information. Systems that coordinate location, status, mission intent, 
and intelligence and surveillance data can provide redundancy, 
increased coverage, decreased costs and/or increased capability. 
Research efforts are developing control software to enable multiple, 
small UASs to coordinate mission tasking with other air systems or with 
ground sensors. Other research efforts are developing munition sensors 
and guidance systems that will increase operator trust, validation, and 
flexibility while capitalizing on the growing ability of munitions to 
autonomously search a region of interest, provide additional 
situational awareness, plan optimum flight paths, de-conflict 
trajectories, optimize weapon-to-target orientation, and cooperate to 
achieve optimum effects.
    Finally, before any system is fielded, adequate testing must be 
conducted to demonstrate that it meets requirements and will operate as 
intended. As technologies with greater levels of autonomy mature, the 
number of test parameters will increase exponentially. Due to this 
increase, it will be impractical to verify and validate autonomous 
system performance, cost-effectively, using current methods. The Air 
Force is developing test techniques that verify the decisionmaking and 
logic of the system and validate the system's ability to appropriately 
handle unexpected situations. Efforts are focused at the software-level 
and build to overall system to verify codes are valid and trustworthy. 
The Air Force will demonstrate the tools needed to ensure autonomous 
systems operate safely and effectively in unanticipated and dynamic 
environments.
Directed Energy
    With a uniquely focused directorate within AFRL, the Air Force is 
in a leading position in the game-changing area of directed energy. 
These technologies, including high powered microwave (HPM) and high 
energy lasers (HELs), can provide distinctive and revolutionary 
capabilities to several Air Force and joint mission areas. Laser 
technologies are rapidly evolving for infrared seeker jamming, secure 
communications in congested and jammed spectrum environments, space 
situational awareness, and vastly improved ISR and target 
identification capabilities at ever increasing ranges. To get HELs to a 
weapon system useful to the Air Force, our S&T program invests in 
research in laser sources from developing narrow line width fiber 
lasers to scaling large numbers of fiber lasers with DARPA and MDA. 
Since HEL devices are not sufficient for a weapon, the Air Force 
directed energy research also includes beam control, atmospheric 
compensation, acquisition, pointing, tracking, laser effects, and 
physics based end-to-end modeling and simulation. The Air Force also 
funds the High Energy Laser Joint Technology Office (HEL JTO) which 
supports all of the services by being the key motivator of high power 
laser devices such as the successful 100 kilowatt, lab-scale Joint High 
Power Solid State Laser (JHPSSL) and other funding many smaller 
successes. The current primer program, which is jointly funded with 
core Army and Air Force funds, is the Robust Electric Laser Initiative 
(RELI). The initiative funds efforts to develop designs for efficient 
and weaponizable solid state lasers with options leading to a 100 
kilowatt laser device.
    Our HPM S&T will complement kinetic weapons to engage multiple 
targets, neutralizing communication systems, computers, command and 
control nodes, and other electronics, with low collateral damage for 
counter-anti-access/area denial in future combat situations. The Air 
Force is using the results of from the highly successful Counter-
Electronics High Power Microwave Advanced Missile Project (CHAMP) Joint 
Capabilities Technology Demonstration (JCTD) to inform an effort known 
as Non-Kinetic Counter Electronics (NKCE). NKCE is currently in pre-
Alternative of Alternatives (AoA) phase, with an AoA potentially 
starting in fiscal year 2015. The AoA will examine the cost and 
performances for kinetic, non-kinetic, and cyber options for air 
superiority and seeks to have a procured and operational weapon system 
to support the targets and requirements of the combatant commanders in 
the mid-2020 timeframe. In parallel, the Air Force S&T Program is 
continuing HPM research and development to provide a more capable and 
smaller counter-electronics system that can fit onto a variety of 
platforms.
    The DOD directed energy research community is highly integrated and 
the Air Force leverages the work of other agencies. For example, the 
Air Force is working with the Missile Defense Agency on integrated 
electro-optical/infrared pulsed-laser targeting to enhance situational 
awareness and increase survivability by enabling the use of legacy 
weapons in the 2016 timeframe. In addition, the Air Force is partnering 
with DARPA on the Demonstrator Laser Weapon System, a ground-based 
fully integrated laser weapon system demonstration over the next 2 
fiscal years and an Air-to-Air Defensive Weapon Concept.
                      fuel efficiency technologies
    For the longer term reduction in energy demand, the Air Force is 
investing in the development of adaptive turbine engine technologies 
which have the potential to reduce fuel consumption while also 
increasing capability in anti-access/area denial environments through 
increased range and time-on-station. The Air Force has several priority 
efforts as part of the DOD's Versatile Advanced Affordable Turbine 
Engine (VAATE) technology program. VAATE is a coordinated Army, Navy, 
and Air Force plan initiated in 2003 to develop revolutionary advances 
in propulsion system performance, fuel efficiency and affordability for 
the DOD's turbine engine powered air platforms.
    The initial effort, Adaptive Versatile Engine Technology (ADVENT), 
began in fiscal year 2007 and is set to complete this year. General 
Electric is currently in final testing of the ADVENT engine 
technologies which include a next generation high pressure ratio core 
and an adaptive fan in a third stream engine architecture.
    The Adaptive Engine Technology Development (AETD) program, our 
accelerated follow-on adaptive engine effort for the combat Air Force, 
is progressing very well. The objective of AETD is to fully mature 
adaptive engine technologies for low risk transition to multiple combat 
aircraft alternatives ready for fielding as soon as the early 2020's. 
The effort will deliver a preliminary prototype engine design, 
substantiated by major hardware demonstrations, that can be tailored to 
specific applications when the DOD is ready to launch new development 
programs. The overarching goal of AETD is to mature adaptive engine 
technologies so that these programs can launch with significantly lower 
risk than previous propulsion development programs.
    The High Energy Efficient Turbine Engine (HEETE) S&T effort is our 
flagship large engine effort under the VAATE technology program. The 
HEETE effort's primary objective is to demonstrate engine technologies 
that enable a 35 percent fuel efficiency improvement versus the VAATE 
year 2000 baseline, or at least 10 percent beyond current VAATE 
technology capabilities being demonstrated in the ADVENT program.
    The Air Force Research Laboratory and industry have conducted a 
number of HEETE payoff studies that show significant potential benefits 
to future transport and ISR aircraft (e.g., 18 percent to 30 percent 
increase in strategic transport range, 45 percent to 60 percent 
increase in tactical transport radius, and 37 percent to 75 percent 
increase in ISR UAV loiter time). A study of Air Force's fleet fuel 
usage showed that introduction of HEETE-derived engines into the 
mobility and the tanker fleet would enable fuel savings of 
approximately 203 million gallons per year by the mid-2030s.
    Investments in these efforts help us reduce energy demand, bridge 
the ``valley of death'' between S&T and potential acquisition programs, 
and help maintain the U.S. industrial technological edge and lead in 
turbine engines.
                         enabling technologies
    In addition to these game-changing technologies, the Air Force S&T 
Program also invests in many enabling technologies to facilitate major 
advances and ensure maximum effectiveness in the near-, mid-, and far 
term:
Cyber
    Operations in cyberspace magnify military effects by increasing the 
efficiency and effectiveness of air and space operations and by helping 
to integrate capabilities across all domains. However, the cyberspace 
domain is increasingly contested and/or denied and the Air Force faces 
risks from malicious insiders, insecure supply chains, and increasingly 
sophisticated adversaries. Fortunately, cyberspace S&T can provide 
assurance, resilience, affordability, and empowerment to enable the Air 
Force's assured cyber advantage.
    In 2012, the Air Force developed Cyber Vision 2025 which described 
the Air Force vision and blueprint for cyber S&T spanning cyberspace, 
air, space, command and control, intelligence, and mission support. 
Cyber Vision 2025 provides a long-range vision for cyberspace to 
identify and analyze current and forecasted capabilities, threats, 
vulnerabilities and consequences across core Air Force missions in 
order to identify key S&T gaps and opportunities. The Air Force's cyber 
S&T investments for fiscal year 2015 are aligned to the four themes 
identified in Cyber Vision 2025: Mission Assurance, Agility and 
Resilience, Optimized Human-Machine Systems, and Foundations of Trust.
    Air Force S&T efforts in Mission Assurance seek to ensure 
survivability and freedom of action in contested and denied 
environments through enhanced cyber situational awareness for air, 
space, and cyber commanders. Current research efforts seek to provide 
dynamic, real-time mapping and analysis of critical mission functions 
onto cyberspace. This analysis includes the cyber situation awareness 
functions of monitoring the health and status of cyber assets, and 
extends to capture how missions flow through cyberspace. This work 
seeks to provide commanders with the ability to recognize attacks and 
prioritize defensive actions to protect assets supporting critical 
missions. Other research efforts develop techniques to measure and 
assess the effects of cyber operations and integrate them with cross-
domain effects to achieve military objectives.
    Research in Agility and Survivability develops rapid and 
unpredictable maneuver capabilities to disrupt the adversaries' cyber 
``kill chain'' along with their planning and decisionmaking processes 
and hardening cyber elements to improve the ability to fight through, 
survive, and rapidly recover from attacks. Air Force S&T efforts are 
creating dynamic, randomizable, reconfigurable architectures capable of 
autonomously detecting compromises, repairing and recovering from 
damage, and evading threats in real-time. Cyber resiliency is enhanced 
through an effective mix of redundancy, diversity, and distributed 
functionality that leverages advances in virtualization and cloud 
technologies.
    The Air Force works to maximize the human and machine potential 
through the measurement of physiological, perceptual, and cognitive 
states to enable personnel selection, customized training, and (user, 
mission, and environment) tailored augmented cognition. S&T efforts 
develop visualization technologies to enable a global common 
operational picture of complex cyber capabilities that can be readily 
manipulated to support Air Force mission-essential functions (MEFs). 
Other efforts seek to identify the critical human skills and abilities 
that are the foundation for superior cyber warriors and develop a 
realistic distributed network training environment integrated with new 
individualized and continuous learning technologies.
    The Air Force is developing secure foundations of computing to 
provide operator trust in Air Force weapon systems that include a mix 
of embedded systems, customized and militarized commercial systems, 
commercial off-the-shelf (COTS) equipment, and unverified hardware and 
software that is developed outside the United States. Research into 
formal verification and validation of complex, large scale, 
interdependent systems as well as vulnerability analysis, automated 
reverse engineering, and real-time forensics tools will enable 
designers to quantify the level of trust in various components of the 
infrastructure and to understand the risk these components pose to the 
execution of critical mission functions. Efforts to design and build 
secure hardware will provide a secure root-of-trust and enable a more 
intelligent mixing of government off-the-shelf and COTS components 
based on the systems' security requirements.
Cognitive Electronic Warfare
    With the highly contested future EW environment, we have focused 
S&T efforts on creating the ability to rapidly respond to threats. This 
is accomplished by developing the analytic ability to understand a 
complex threat environment and determine the best combination of 
techniques across all available platforms. In addition, leveraging 
cognitive and autonomy concepts improves the cycle time between 
emergence of a threat and development of an effective response. This 
system-of-systems solution approach is implemented in a physics based 
interactive simulation capability to evaluate novel concepts. The Air 
Force is also developing technologies to enhance survivability and 
improve situational awareness in the electro-optical (EO)/infrared (IR) 
and radio frequency (RF) warning and countermeasures area. New 
electronic components (antennas, amplifiers, processors) will improve 
the ability to detect threats with emphasis on advanced processing and 
software to assess threats in a crowded RF environment. This includes 
solutions to detect and defeat infrared and optical threats. These will 
enable protection against autonomous seekers using multi-spectral 
tracking.
Space Situational Awareness/Space Control
    The ability to counter threats, intentional or unintentional, in 
the increasingly congested and contested space domain begins with Space 
Situational Awareness (SSA). The SSA S&T investments needed to maintain 
our core Space Superiority and Command and Control missions in such an 
environment are substantial and include research in Assured Recognition 
and Persistent Tracking of Space Objects, Characterization of Space 
Objects and Events, Timely and Actionable Threat Warning and 
Assessment, and Effective Decision Support through Data Integration and 
Exploitation. The Air Force works across these areas in cooperation 
with the DOD, intelligence community, and industry.
    To help build a holistic national SSA capability, the Air Force's 
S&T investment is designed to exploit our in-house expertise to 
innovate in areas with short-, mid-, and long-term impact that are not 
already being addressed by others. Examples include working with 
Federally Funded Research and Development Centers and academia to 
attack the deep space uncorrelated target association problem to 
improve custody of space objects and reduce the burden on the space 
surveillance network; better conjunction assessment and re-entry 
estimation algorithms to reduce collision probabilities and unnecessary 
maneuvers; and infrared star catalog improvement to ease observation 
calibrations. These products have recently transitioned to national SSA 
capabilities. Advanced component technologies developed with industry 
include visible focal plane arrays, deployable baffles and lenses to 
meet performance, and cost and weight requirements for future space-
based surveillance systems.
    As part of the Air Force Research Laboratory's long history of 
proving new technologies in relevant environments, the Automated 
Navigation and Guidance Experiment for Local Space (ANGELS) program 
examines techniques to provide a clearer picture of the environment 
around our vital space assets through safe, automated spacecraft 
operations above Geosynchronous Earth Orbit (GEO). Equipped with 
significant detection, tracking and characterization technology, ANGELS 
will launch in 2014. It will maneuver around its booster's upper stage 
and explore increased levels of automation in mission planning and 
execution, enabling more timely and complex operations with reduced 
footprint. Additional indications and warning work focuses on change 
detection and characterization technologies to provide key observables 
that improve response time and efficacy.
Satellite Resilience
    Our Nation and our military are heavily dependent on space 
capabilities. With an operational space domain that is becoming 
increasingly congested, competitive and contested, the Air Force has 
seen the need for development of technologies to increase resilience of 
our space capabilities. The satellites upon which we rely so heavily 
must be able to avoid or survive threats, both man-made and natural, 
and to operate through and subsequently quickly recover should threat 
or environmental effects manifest. To this end, the Air Force S&T 
Program has increased technological investment in tactical sensing and 
threat warning, reactive satellite control, and hardening.
    Satellites today are equipped with a wide range of sensors, that, 
if exploited in new ways and/or coupled with new hosted threat sensing 
technologies could yield significant increases to tactical sensing and 
threat warning. The Air Force pursues a range of internally-focused 
health and status sensing (e.g. structural integrity, thermal, cyber) 
and externally focused object or phenomena sensing (e.g. space 
environment, threat sensing, directed energy detection) technologies, 
and a range of data fusion approaches to maximize the timeliness and 
confidence of that warning. While tactical warning is vital, it is only 
immediately helpful when a satellite is able to tactically respond in 
some way to avoid a threat or minimize its effects. Any choice of a 
response requires some means of reconciling warning with viable courses 
of action available. The Air Force focuses on efforts specifically 
dedicated to tailoring satellite control based on tactical warning 
inputs. Finally, hardening technologies refers to a range of both 
passive and active capabilities that, when selected and executed, could 
result in threat avoidance, lessening their effects or recovering lost 
capability more quickly. For example, for particular types of threats, 
dynamic configuration changes, optical protection, cyber quarantine, 
dynamic thermal management or possibly maneuvers might achieve the 
desired protection.
Precision Navigation and Timing
    Most U.S. weapon systems rely on the Global Positioning System 
(GPS) satellites to provide the required position navigation and timing 
(PNT) to function properly. This reliance has created a vulnerability 
which is being exploited by our adversaries through development of 
jammers to degrade access to the GPS signals. For success in the long 
term, Air Force S&T is improving the robustness of military GPS 
receivers and also developing several non-GPS based alternative 
capabilities including exploitation of other satellite navigation 
constellations, use of new signals of opportunity, and incorporation of 
additional sensors such as star trackers and terrain viewing optical 
systems. These receivers provide new navigation options with different 
accuracy depending on available sensors and computational power. Rapid 
progress is being made on advanced Inertial Measurement Units based on 
cold atom technologies. These units have the potential to provide 
accurate PNT for extended periods without any external update. 
Together, these approaches will provide future options to enable the 
Air Force mission to continue in contested and denied environments.
Assured Communications
    Assured communications are critical to the warfighter in all 
aspects of the Air Force core missions. The Air Force S&T Program is 
developing technologies to counter threats to mission performance, such 
as spectrum congestion and jamming, and to maintain or increase 
available bandwidth through access to new portions of the radio 
frequency spectrum, alleviating pressure on DOD spectrum allocations. 
Future ability to use new spectrum will increase DOD communications 
architecture capacity and affordability, by requiring fewer expensive, 
high capacity gateways. Additional bandwidth will allow improved anti-
jam communications performance and higher frequency communications, 
which will reduce scintillation losses for nuclear command and control 
(C2). The performance enhancements would directly improve the ability 
of remotely-piloted aircraft to transmit images and data (ISR) and 
improve command and control assurance.
    Efforts in Assured Communications include the Future Space 
Communications effort which includes research to characterize and 
provide new spectrum for future military space communications through 
the W/V-band Space Communications Experiment (WSCE). WSCE will 
characterize and model the atmospheric effects of upper V-band and W-
band (71-76 GHz and 81-86 GHz) signal transmission. Space-based data 
collection and atmospheric attenuation model development is necessary 
to provide the statistics necessary to design a future satellite 
communications architecture that will allow use of the currently empty 
V- and W-band spectrum.
Long-Range Sensing
    For the past decade the Air Force has provided near persistent ISR 
for Combatant Commanders conducting operations in the uncontested air 
environments of Iraq and Afghanistan. We do not see the appetite for 
ISR waning in the future. However, the ability to perform effective 
sensing in anti-access/area denial and contested environments is 
threatened by many new and different challenges rarely seen during the 
past 10 years of permissive environment operations. In the past, 
airborne collection platforms conducted airborne ISR outside of the 
lethal range of air defense systems. Today, however, the modern and 
evolving foreign Integrated Air Defense Systems (IADS) of our 
adversaries have increased lethality and significantly improved 
engagement capabilities which will force ISR aircraft to fly at longer 
stand-off distances. The effectiveness of current precision weapons 
will be reduced with distance limiting the ability to accurately 
detect, identify and geo-locate targets.
    The Air Force S&T Program is focused on significantly improving our 
sensing ability to adequately address the challenges of extended range 
ISR collection. The efforts include: (1) next generation RF sensing for 
contested spectrum environments in which long stand-off sensing is 
primarily focused on all-weather ISR using traditional active radar 
modes at ranges of greater than 100 miles; (2) passive RF Sensing in 
which signals of opportunity are exploited to detect, identify and 
locate targets through the use of passive multi-mode and distributed 
multi-static techniques; (3) laser radar sensing focused on enhancing 
target identification through the use of synthetic aperture laser radar 
and also addressing high resolution wide-area three dimensional imaging 
through advancements in direct detection ladar; and (4) passive EO/IR 
sensing to enhance capabilities to detect and track difficult targets, 
improve target identification at long standoff ranges and perform 
material identification through advancing hyperspectral and stand-off 
high resolution imaging technology.
Live, Virtual, and Constructive
    The Air Force continues to develop and demonstrate technologies for 
Live, Virtual, and Constructive (LVC) operations to maintain combat 
readiness. The training need for LVC is real while training costs are 
increasing and threat environments are complex. In particular, 
realistic training for anti-access/area-denial environments is not 
available. During a recent demonstration of LVC capability for tactical 
forces at Shaw AFB, SC, AFRL LVC research capability was integrated in 
operations with an F-16 Unit Training Device (a virtual simulator) to 
simultaneously interoperate with a mix of live F-16 aircraft, other 
virtual simulations, and high fidelity computer-generated constructive 
players. This mix of players enabled the real time and realistic 
portrayal and interaction of other strike package assets and aggressor 
aircraft with a level of complexity that could not be achieved if 
limited to live assets, given the expense and availability of them to 
support the scenarios. LVC S&T has the capability to provide greater 
focused training for our warfighters across a range of operational 
domains such as tactical air, special operations, cyber, ISR, and C2. 
The Air Force is exploring a fifth generation LVC Proof of Concept set 
of demonstrations that would validate the requirements for a formal 
program of record for LVC.
Basic Research
    The development of revolutionary capabilities requires the careful 
investment in foundational science to generate new knowledge. Our 
scientists discover the potential military utility of these new ideas 
and concepts, develop this understanding to change the art-of-the-
possible and then transition the S&T for further use. Air Force basic 
research sits at the center of an innovation network that tracks the 
best S&T in the DOD, with our partners in the Army, the Navy, DARPA, 
and the Defense Threat Reduction Agency (DTRA), while monitoring the 
investments and breakthroughs of the NSF, NASA, NIST, and the 
Department of Energy. Air Force scientists and engineers watch and 
collaborate with the best universities and research centers from around 
the world in open, publishable research that cuts across multiple 
scientific disciplines aligned to military needs.
    For example, Air Force basic research played a role in the Air 
Force's successful CHAMP technology demonstration discussed earlier. 
While the CHAMP demonstration required extensive applied research and 
advanced technology development, fundamental basic research investment 
in both supercomputers and computational mathematics provided a virtual 
prototyping capability called Improved Concurrent Electromagnetic 
Particle-In-Cell for directed energy concepts to Air Force researchers. 
This allowed new ideas to be studied effectively and affordably on the 
computer without costly manufacture for every iteration of the 
technology. Virtual prototyping was a critical enabling technology, and 
resulted from nearly two decades of steady, targeted investments in 
fundamental algorithms that then transitioned to a capability driving 
technology development in Air Force laboratories and in industry.
Manufacturing Technologies
    A key cross-cutting enabling technology area is in developing 
materials, processes, and advanced manufacturing technologies for all 
systems including aircraft, spacecraft, missiles, rockets, ground-based 
systems and their structural, electronic and optical components. The 
fiscal year 2015 Air Force S&T Program emphasizes materials work from 
improved design and manufacturing processes to risk reduction through 
assessing manufacturing readiness.
    The Air Force's investment in additive manufacturing technologies 
offers new and innovative approaches to the design and manufacture of 
Air Force and DOD systems. Additive manufacturing, or the process of 
joining materials to make objects from 3D model data layer by layer, 
changes the conventional approach to design, enabling a more direct 
design to requirements. As opposed to subtractive processes like 
machining, additive manufacturing offers a whole new design realm in 
which geometric complexity is not a constraint and material properties 
can be specifically located where needed. As with the insertion of all 
advanced materials and processes, the Air Force strives to ensure 
appropriate application and proper qualification of additive 
manufacturing for warfighter safety and system performance.
    Currently, the Air Force is invested in more than a dozen programs 
ranging from assisting in major high-Technology Readiness Level (TRL) 
qualification programs to mid-TRL process improvement programs, to low-
TRL process modeling and simulation programs. Overall, we have 
established a strategic program to quantify risk for implementation and 
to advance the understanding of processing capabilities. We have 
identified multiple technical areas that require Air Force investment 
and are developing an initiative that integrates pervasive additive 
manufacturing technologies across Air Force sectors, spanning multiple 
material classes from structural, metallic applications to functional, 
electronic needs.
    The Air Force leverages its additive manufacturing resources and 
interests with the administration's National Network for Manufacturing 
Innovation (NNMI) to support the acceleration of additive manufacturing 
technologies to the U.S. manufacturing sector to increase domestic 
competitiveness. In fiscal year 2013, the Air Force played a key role 
in supporting the NNMI National Additive Manufacturing Innovation 
Institute called ``America Makes.'' The Air Force, on behalf of the 
Office of the Secretary of Defense, led an interagency effort , which 
included DOD, DOE, DOC/NIST, NASA, and NSF, to launch a $69 million 
public-private partnership in Additive Manufacturing.
    Cooperatively working with the private partner team lead, the Air 
Force helped ``America Makes'' achieve significant accomplishments in 
its first year. After opening it headquarters in Youngstown, Ohio in 
September 2012, the ``America Makes'' consortium has grown to 
approximately 80 member organizations consisting of manufacturing 
companies, universities, community colleges, and non-profit 
organizations. A shared public-private leadership governance structure, 
organizational charter, and intellectual property strategy were 
implemented and two project calls were launched in Additive 
Manufacturing and 3D printing technology research, discovery, creation, 
and innovation. So far, more than 20 projects totaling approximately 
$29 million and involving more than 75 partners have been started 
covering a broad set of priorities including advances in materials, 
design and manufacturing processes, equipment, qualification and 
certification, and knowledge base development. ``America Makes'' serves 
as an example for future NNMI institutes and the Air Force has provided 
support to establish two additional DOD sponsored institutes of 
manufacturing innovation.
    The Air Force Manufacturing Technology program continues to lead 
the way in developing methods and tools for Manufacturing Readiness 
Assessments and continues to lead assessments on new technology, 
components, processes, and subsystems to identify manufacturing 
maturity and associated risk. Increasing numbers of weapon system prime 
contractors and suppliers have integrated Manufacturing Readiness into 
their culture which aids in product and process transition and 
implementation, resulting in reduced cost, schedule and performance 
risk. Benefits from the advanced manufacturing propulsion initiative 
continue to accrue in the form of reduced turbine engine cost and 
weight through advanced manufacturing of light weight castings and 
ceramic composites and improved airfoil processing. Advanced next 
generation radar and coatings affordability projects continue to reduce 
cost and manufacturing risk to systems such as the F-22 and F-35 
aircraft. The Air Force Manufacturing Technology investment continues 
to make a significant impact on the F-35 program in particular, driving 
down life cycle costs by over $3 billion, with a number of ongoing 
projects that will benefit multiple F-35 program Integrated Product 
Teams.
    The Air Force is also leveraging basic research efforts to improve 
sustainment of legacy systems. The ``Digital Twin'' concept combines 
the state-of-the-art in computational tools, advanced sensors, and 
novel algorithms to create a digital model of every platform in the 
fleet. Imagine a world where instead of using fleet averages for the 
maintenance and sustainment of an airframe, there is a computer model 
of each plane that records all the data from each flight, integrates 
the stress of the flights into the history of the actual materials on 
the platform, and continually checks the health of vital components. 
Thus, the computer model mimics all the missions of the physical asset, 
thereby allowing us to do maintenance exactly when required. This is 
the airplane equivalent of individualized medicine, making sure that 
each individual asset of the Air Force is set to operate at peak 
performance. Interdisciplinary basic research in material science, 
fundamental studies in new sensors and novel inquiry into new, 
transformational computer architecture enable the Digital Twin 
concepts. These foundational studies are tightly integrated with 
applied research, both in the Air Force Research Laboratory as well as 
efforts in NASA, to drive forward the S&T to permit breakthroughs in 
affordable sustainment.
    rapid innovation program and small business innovation research
    The Air Force recognizes small businesses are critical to our 
defense industrial base and essential to our Nation's economy. The U.S. 
relies heavily on innovation through research and development as the 
small businesses continue to be a major driver of high-technology 
innovation and economic growth in the United States. We continue to 
engage small businesses through the Rapid Innovation Program, and the 
Small Business Innovation Research (SBIR) and Small Business Technology 
Transfer (STTR) programs.
    The Rapid Innovation Program has been an excellent means for the 
Air Force to communicate critical needs and solicit vendors to respond 
with innovative technology solutions. The program provides a vehicle 
for businesses, especially small businesses, to easily submit their 
innovative technologies where they feel it will best meet military 
needs. The Air Force benefits from the ability to evaluate proposed 
innovative technologies against critical needs, and selecting the most 
compelling for contract award. The response to the program has been 
overwhelming, and instrumental to the transition of capability by small 
businesses. Over the last 3 years, the Air Force has received over 
2,200 white paper submissions from vendors offering solutions to 
critical Air Force needs. We have awarded over 60 projects directly to 
small businesses and anticipate awarding another 25 by the end of this 
fiscal year.
    Projects from the fiscal year 2011 Rapid Innovation Program are now 
maturing and showing great promise. For example, one project developed 
a handheld instrument for quality assurance of surface preparation 
processes used in manufacturing of the F-35 aircraft. Current F-35 
aircraft manufacturing processes require manual testing of 30,000 nut 
plates on each plane to ensure correct bonding of materials. The 
current failure rate is averaging 1 percent or 300 nut plates. Each 
failure requires individual re-preparation and re-bonding with 
supervisory oversight. The Rapid Innovation Program project handheld 
device will significantly reduce the failure rate of adhesively bonded 
nut plates. In turn, this will reduce rework and inspection costs, 
increase aircraft availability, assist Lockheed Martin in achieving its 
target production rate, and reduce repetitive injury claims from 
employees. Lockheed Martin has been very closely monitoring this 
technology and will be completing a return-on-investment review in the 
coming months following prototype evaluation.
    The Air Force continues to collaborate with other Federal agencies 
and Air Force acquisition programs to streamline our SBIR and STTR 
processes. We are also collaborating with the Air Force's Small 
Business office (SAF/SB) to implement the provisions of the 
reauthorization and to assist in maximizing small business 
opportunities in government contracts while enhancing the impact and 
value of small businesses.
    For example, to improve the effectiveness of SBIR investments, the 
Air Force Research Laboratory has started to strategically bundle, 
coordinate, and align Air Force SBIR topics against top Air Force 
priorities identified by Air Force Program Executive Officers (PEO). In 
the Fall of 2013, the Laboratory began a pilot effort with the Air 
Force Program Executive Officer for Space to focus the combined 
investments of approximately 45 SBIR Phase I awards and 15 Phase II 
SBIR awards on the identified, top priority challenge of transforming 
our military space-based PNT capabilities.
    In conjunction with this strategic initiative, the Air Force is 
also energizing efforts to seek out and attract non-traditional 
participants, which are small businesses with skills, knowledge and 
abilities relevant to the bundled topics, in SBIR awards but who, for 
various reasons, do not routinely participate in the SBIR proposal 
process. This strategic concentration of small business innovation 
against top priorities will ultimately enhance the transitioning of 
small business innovation, raise the visibility and importance of those 
investments, and take advantage of the Nation's small business 
innovation. If proven successful, the Air Force will begin to 
institutionalize it as a model for organizing and aligning SBIR topics 
against other top priority issues.
    One recent SBIR project developed innovative low profile and 
conformal antennas to allow air platforms, including small Remotely 
Piloted Aircraft (RPA), to operate more aerodynamically and ground 
vehicles to operate more covertly in areas where Improvised Explosive 
Devices (IEDs) are a threat. The wideband low profile antenna assembly 
for vehicle Counter Radio Controlled IED Electronic Warfare (CREW) 
systems operates efficiently from VHF to S-band, and at a height of 
less than 3 inches, greatly reduces visual signature. The wideband 
conformal antenna technologies developed for RPA systems operate from 
UHF through S-band and minimize the number of required antennas, 
significantly reducing weight and aerodynamic drag.
                         world class workforce
    Maintaining our U.S. military's decisive technological edge 
requires an agile, capable workforce that leads cutting-edge research, 
explores emerging technology areas, and promotes innovation across 
government, industry and academia. Nurturing our current world class 
workforce and the next generations of science, technology, engineering, 
and mathematics (STEM) professionals is an Air Force, DOD and national 
concern. We must be able to recruit, retain and develop a capable STEM 
workforce in the face of worldwide competition for the same talent.
    The Air Force continues to focus on developing technical experts 
and leaders who can provide the very best research and technical advice 
across the entire lifecycle of our systems, from acquisition, test, 
deployment and sustainment. After yielding success since 2011, the 
original Bright Horizons, the Air Force STEM Workforce Strategic 
Roadmap, is currently being updated with new goals and objectives to 
reflect the current environment. The Air Force has also developed a 
soon-to-be-released Engineering Enterprise Strategic Plan aimed at 
recruiting, developing and retaining the scientist and engineer talent 
to meet the future need of the Air Force.
    The increased Laboratory hiring and personnel management 
authorities and flexibilities provided by Congress over the last 
several years have done much to improve our ability to attract the 
Nation's best talent. The Air Force is currently developing 
implementation plans for the authorities most recently provided in the 
National Defense Authorization Act for Fiscal Year 2014. The ability to 
manage Laboratory personnel levels according to budget will allow us to 
be more agile and targeted in hiring for new and emerging research 
areas. The Air Force Research Laboratory recruits up-and-coming, as 
well as seasoned, scientists and engineers, including continuing a 
vibrant relationship with Historically Black Colleges and Universities 
and Minority Serving Institutions (HBCU/MI), who conduct research 
projects, improve infrastructure, and intern with the Air Force 
Research Laboratory in support of the Air Force mission.
    The Air Force also leverages the National Defense Education Program 
Science Mathematics and Research for Transformation (SMART) Program 
that supports U.S. undergraduate and graduate students pursuing degrees 
in 19 STEM disciplines. The Air Force provides advisors for the SMART 
scholars, summer internships, and post-graduation employment 
opportunities. The Air Force has sponsored 523 SMART scholars during 
the past 8 years, and of the 315 scholars that have completed the 
program, 88 percent are still working for the Air Force, 9 percent are 
getting advanced degrees, and 3 percent have left due to various 
reasons including furlough and government funding uncertainty. The Air 
Force identified 110 Key Technology Areas essential for current and 
future support to the war fighter, which we used for selecting academic 
specialties for SMART scholars. SMART scholars are an essential 
recruitment source of employees to enable key technology advances and 
future STEM leaders.
    Sequestration and fiscal uncertainty in fiscal year 2013 caused the 
Air Force to significantly curtail travel expenses and severely limit 
conference attendance. It is essential for our scientists and engineers 
to be fully engaged within the national and international community so 
this curtailment disproportionately impacted the S&T community. We have 
worked with Air Force leadership to solve these issues and establish 
policies allowing greater flexibility for this mission imperative in 
2014 and beyond. We can recover from the 1 year (2013) of non-
participation in the greater S&T national and international community. 
However, severe travel restrictions over the long term could undermine 
the Air Force's ability retain top talent.
    The Air Force has effectively used the authority provided by 
section 219 of the Duncan Hunter National Defense Authorization Act not 
only to increase the rate of innovation and accelerate the development 
and fielding of needed military capabilities but also to grow and 
develop the workforce and provide premier Laboratory infrastructure. 
For example, the Information Directorate of the Air Force Research 
Laboratory located in Rome, NY, used funding made available by section 
219 to develop curriculum at Clarkson University. The curriculum is 
aligned to the Information Directorate's command, control, 
communications, cyber and intelligence (C\4\I) technology mission and 
provides training and development programs to Laboratory personnel. To 
fully utilize the new section 219 authorities from the National Defense 
Authorization Act for Fiscal Year 2014, the Laboratory is now 
developing a targeted infrastructure plan to provide its scientist and 
engineer workforce premier laboratory facilities in its locations 
nationwide. Recent success in the infrastructure area includes the 
opening of two state-of-the-art fuze laboratories at Eglin AFB, FL, 
which are enabling enhanced research and development into hardened 
penetration and point burst fuzing.
                               conclusion
    The threats our Nation faces today and those forecast in the future 
leave the U.S. military with one imperative. We must maintain decisive 
technological advantage. We must take lessons from the last decade of 
conflict and creatively visualize the future strategic landscape. We 
must capitalize on the opportunities found within this space.
    The focused and balanced investments of the Air Force fiscal year 
2015 S&T program are hedges against the unpredictable future and 
provide pathways to this flexible, precise and lethal force at a 
relatively low cost in in relation to the return on investment. We 
recognize that fiscal challenges will not disappear tomorrow, and that 
is why we have continued to improve our processes to make better 
investment decisions and efficiently deliver capability to our 
warfighters.
    Chairwoman Hagan, Ranking Member Fischer, members of the 
subcommittee, and staff, thank you again for the opportunity to testify 
today and thank you for your continuing support of the Air Force S&T 
Program.

    Senator Hagan. Thank you for joining us.
    Dr. Prabhakar.

 STATEMENT OF DR. ARATI PRABHAKAR, DIRECTOR, DEFENSE ADVANCED 
                    RESEARCH PROJECTS AGENCY

    Dr. Prabhakar. Thank you, Madam Chairwoman and Senator 
Fischer. Thank you for the chance to be here with you today 
along with my colleagues.
    DARPA is, of course, very much part of this DOD S&T 
community. We're also part of the larger national R&D 
ecosystem. But within these larger communities, DARPA has a 
particular role, and that role is to make the pivotal early 
investments that change what's possible so that we can take big 
steps forward in our national security capabilities. That 
mission has been unchanged over our 5\1/2\ decades, but, of 
course, the world in which we live has changed and continues to 
change today. Today, when you look at our portfolio, you'll see 
that we're pursuing the opportunities and challenges in the 
context of today's realities very much along the lines, Madam 
Chairwoman, of the things that you highlighted in your opening 
statement.
    For example, today we look at the complexity of our 
military systems. We realize that classic approach is taking us 
in a place that is too costly and too inflexible to be 
effective for the kinds of challenges we're going to face in 
the future. A number of our programs are rethinking complex 
military systems, and we're coming up with powerful, much more 
scaleable, flexible approaches to a next generation of radars, 
weapons, space systems, and navigation.
    In a very different area, we also see this huge wave of 
change as information at massive scale starts creeping into 
every aspect of military operations. So in our portfolio you'll 
see significant investments to change the game in cyber and 
with big data tools.
    Then, more broadly across a pretty wide range of research 
areas, we can see the seeds of technological surprise. One 
example is what is happening in research as biology intersects 
with engineering. In that area, for example, we're building new 
capabilities in areas like synthetic biology and 
neurotechnologies.
    That's just a very quick glimpse of some of the things that 
we're working on today. I also want to talk a little bit about 
what it takes for us to do this kind of work and to deliver on 
our mission. You've helped us tremendously in that regard. 
First and most critically with people, you gave us a flexible 
hiring authority, the 1101 hiring authority, in 1999, and in 
the years since then we've become critically dependent on that 
hiring authority to get the kind of great people who have the 
potential to be wonderful DARPA program managers, but also to 
be able to do that at a pace that is consistent with the needs 
of our programs.
    Just to give you a recent example, a few months ago one of 
our great program managers got a terrific job at a company. 
That's great. We love it when that happens. It's very much part 
of our model, where program managers come typically for 3 to 5 
years. But when he left, as frequently happens, he left behind 
a big hole, in this case in the cyber programs that he was 
running.
    The tempo of these changes is not something we control. 
Those changes happen at a pace that reflects private sector 
decisionmaking. But if we're going to keep our programs moving 
forward at that same pace of commercial technology, we need to 
be able to react quickly.
    In this case we were able to. We found a wonderful 
candidate. Two weeks after we mutually agreed to take the 
plunge, we had him on board. The reason we moved so quickly in 
that particular case was because there was an upcoming Air 
Force exercise. We needed to have him on board to take our new 
cyber tools to that exercise. He was able to do that and, in 
fact, was able to be part of showing the Air Force these very 
interesting new capabilities.
    That was possible only because of the 1101 authority. So, I 
think that is just a great example of the power of what you've 
given us.
    We're currently under a cap that limits our use of 1101 
hiring authority to 60. You've given us that number. It's been 
terrific. We've really appreciated it. But we have now used 
that allocation fully. I want to be clear that we're not 
growing in size as an agency. We don't want to grow. We 
actually love being a nice small size, we have been for many 
decades. It's just that we are using the 1101 authority now for 
a greater share of the hiring that we do for our technical 
workforce because of the kind of people it lets us get access 
to.
    Let me turn briefly to the budget. The President's request 
for fiscal year 2015 is $2.9 billion for DARPA. The backdrop 
for that number is that between fiscal years 2009 and 2013 our 
budget declined by 20 percent in real terms. The fiscal year 
2014 appropriation turned that tide a little bit and that was 
very welcome relief. We can talk to any extent you'd like about 
the impact of that decline, but that very modest restoration in 
fiscal year 2014 also is now starting to make a real difference 
this year.
    The President's request for fiscal year 2015 continues that 
gradual restoration. So again, I'll ask for your support for 
our critical work there.
    Let me just end by saying that when I talk with our senior 
leaders in the Pentagon and here on Capitol Hill, I really feel 
that I can see the weight of our national security challenges 
bearing down on them and on you, all of us, because we all see 
that we live in a volatile world. We can see the growth and 
proliferation of threats. We're living in constrained budget 
times. Those are facts.
    I also know that American innovation has turned the tide 
time and again, and I'm confident that our efforts today are 
going to do just that for the next generation.
    I really want to thank you for your support. It's critical 
for the work that we're all doing. I'll be very happy to answer 
any questions along with my colleagues.
    [The prepared statement of Dr. Prabhakar follows:]
               Prepared Statement by Dr. Arati Prabhakar
    Chairwoman Hagan, Ranking Member Fischer and members of the 
subcommittee, thank you for the opportunity to testify before you 
today. I am Arati Prabhakar, Director of the Defense Advanced Research 
Projects Agency, DARPA. It is a pleasure to be here with my colleagues 
across the Department of Defense (DOD) Science and Technology (S&T) 
community. Our organizations work together every day to advance our 
Nation's defense technologies. DARPA plays a particular role in this 
community, and in the broader U.S. technology ecosystem. That role is 
to anticipate, create, and demonstrate breakthrough technologies that 
are outside and beyond conventional approaches--technologies that hold 
the potential for extraordinary advances in national security 
capability. This mission and our current work and plans are the focus 
of my testimony today.
       darpa's mission and the diverse threats facing our nation
    In the fall of 1957, a polished metal sphere, 23 inches in diameter 
and launched from Soviet soil, began its orbit around the Earth, 
passing over American skies approximately every 96 minutes and 
initiating the space age, a space race, and a new era in the long 
struggle to maintain American military and technological superiority. 
Starting DARPA was one of the pivotal choices our Nation made in the 
wake of Sputnik. America today enjoys a hard-earned, privileged 
position, with tremendous military might, economic strength, and social 
and political freedom. Yet, as this Subcommittee knows well, risk is 
ever evolving in our complex and dynamic world. Regional instability, 
shifting military and economic positions, demographic and natural 
resource trends--these forces drive constant change in our national 
security environment. Today and in the years ahead, our potential 
adversaries will still include nation states, but also smaller, less 
well defined bad actors and an increasingly networked terror threat. 
National security challenges will continue to range from the acute to 
the chronic. This is the threat environment that shapes our technology 
investments today at DARPA.
    Adding to the security challenges we face is the fact that 
technology and its accessibility have changed so significantly. 
Startlingly powerful technologies--semiconductors, information systems, 
and nuclear and biological technologies among them--are now globally 
available to a much wider swath of society, for good and for evil. 
While the cost of some technologies has dropped precipitously, other 
technology and non-technology related costs have risen steeply, leading 
DOD to difficult choices about our operational capabilities. That means 
our assumptions about the cost of military systems must change. I 
discussed these factors in some depth in last year's testimony, and 
they, too, continue to shape our investments at DARPA.
    DARPA was designed and built for just this kind of shifting, 
challenging threat environment. Through more than 5 decades of 
tumultuous geopolitical and technological change, we have delivered 
outsized impact by focusing on our mission of breakthrough technologies 
for national security. We imagine groundbreaking new technology 
advances with the potential for defense applications. We bring the best 
of those ideas to fruition by providing the right mix of research 
support, intellectual freedom, and responsible oversight to outstanding 
performers in industry, academia, and other government organizations. 
We facilitate the transition and operationalization of these new, 
paradigm-shifting capabilities.
 harnessing complexity to create exceptional new capabilities: darpa's 
                                programs
    Like most truly great problems that confront us, today's diverse 
threats can either be viewed as an imposing barrier or as an 
opportunity to overcome a difficult challenge. Either way, I believe 
our national security will depend upon how we deal with complexity. 
DARPA chooses to tackle complexity by harnessing it, and our programs 
reflect that approach of playing offense. We do that with game-changing 
new capabilities and with layered, adaptable, multi-technology systems. 
We do that by catalyzing major new national technology advances and by 
rapidly exploiting commercially available technologies. At a time when 
systems cost is the difference between building operational capability 
or just building PowerPoint, we do that by striving to invert the cost 
equation for our military.
    DARPA has made important strides forward in delivering key 
breakthrough technologies since I last testified before this 
Subcommittee. In discussing how we are tackling various aspects of 
technological complexity, I will update you on several new programs 
that we have launched, results we have achieved, and transitions that 
have been accomplished or are in process.
Rethinking Complex Military Systems
    Much of DARPA's work rethinks complex military systems, recasting 
today's approach with the intention of achieving far greater 
capabilities at lower cost. Today, our military relies upon the meshing 
of electronic, optical, software, and mechanical components to create 
satellites and the vehicles, aircraft, and ships that carry our 
Warfighters into battle. We also depend upon this integration of 
components in designing and producing the weapons these men and women 
must be prepared to use. That is not new. But today, these technology 
components are becoming ever more complex. Consider: radar systems have 
thousands of antenna elements, platforms run millions of lines of code, 
and integrated circuits are made of billions of transistors. These many 
components are also now interdependent and interacting to an 
unprecedented degree. Of course, these platforms and mission systems 
must operate in an environment that will be increasingly contested by 
others with access to ever-improving global technologies. All these 
factors contribute to the high cost, long development times, and 
inflexibility of today's most advanced systems. This demands that we 
rethink--sometimes in fundamental ways--how we approach the next 
generation of defense systems.
    Let me give you a few examples of how DARPA is tackling this 
challenge from our portfolio of programs.
    Robust Space
    In times of conflict, our Nation's leaders count on our military to 
wage precise, overpowering war. This type of highly effective 
warfighting is critically dependent on space--for imaging and sensing, 
for communications, for navigation, even for keeping time. As never 
before, we require ready access to space and strategic control over our 
assets in space. But while space is becoming increasingly crowded and 
contested, DOD's ability to access and operate in space has become less 
nimble and more expensive over many years. DARPA has several programs 
underway to change that equation.
    Rapid Launch: Experimental Space Plane (XS-1) and Airborne Launch 
        Assisted Space Access (ALASA)
    Imagine a world in which getting a satellite into orbit can be as 
quick and reliable as an aircraft takeoff. Our new Experimental 
Spaceplane is designed to take a 3,000- to 5,000-pound payload into 
orbit using an expendable upper stage, all for under $5 million; that 
is one-tenth the cost of a comparable launch today. Our ALASA program 
focuses on 100-pound payloads for less than $1 million. Even more 
striking is our goal of providing satellite launches for these payloads 
with just 24 hours' notice.
    Avoiding Collisions in Space: Space Surveillance Telescope (SST)
    In space, one major challenge is simply a lack of knowledge of what 
is around you. With satellite traffic and the risk of space collisions 
growing, space domain awareness is a top priority. DARPA's SST enables 
much faster discovery and tracking of previously unseen, hard-to-find 
objects in geosynchronous orbits. We expect it to be ready for 
operations within 2 years in Australia as a result of a memorandum of 
understanding signed last November by Secretary of Defense Hagel with 
his counterpart. Once operational on the Northwest Cape of Australia, 
SST will provide detection and tracking of satellites and space debris 
at and near geosynchronous orbits within the Asia-Pacific region, 
information U.S. space operators can use to better protect critical 
U.S. and Allied space-based capabilities.
    Lowering the Risk and Cost for Satellites
    Communications satellites in geosynchronous orbit, approximately 
36,000 kilometers above the Earth, provide vital communication 
capabilities to Warfighters and others. Today, when a satellite fails, 
we usually face the expensive prospect of having to launch a brand new 
replacement. Our Phoenix program strives to develop and demonstrate 
technology to robotically service, maintain, and construct satellites 
in the harsh environment of geosynchronous orbit. Phoenix is also 
exploring a paradigm change to satellite design that would enable 
ground and on-orbit assemble-able platforms to potentially lower the 
cost of next-generation space systems by a factor of 10 compared to 
what is possible today.
Winning in Contested Environments
    Space is not the only environment that is growing more crowded and 
dangerous. We must always anticipate an actively contested environment 
as we look ahead to potential challenges from future adversaries. 
Today, we are dependent on centralized command and control, and the 
fragile lines of communications linking tactical assets to 
decisionmakers. While DARPA has multiple programs addressing these 
challenges for the air, ground, and sea, a common thread is the 
development of technologies to shift and distribute capability at the 
forward edge of the battle and to adapt quickly to a changing 
technology landscape.
    Long-Range Anti-Ship Missile
    Today's anti-ship missiles face challenges penetrating 
sophisticated air defense systems from long range. As a result, 
warfighters may require multiple missile launches and overhead 
targeting assets to engage specific enemy warships from beyond the 
reach of counter-fire systems. In important progress to overcome these 
challenges, the DARPA-Navy Long-Range Anti-Ship Missile (LRASM) program 
has had a series of successful flight tests on a precision-guided anti-
ship standoff missile. That will reduce dependence on intelligence, 
surveillance, and reconnaissance platforms, network links, and Global 
Positioning System (GPS) navigation in electronic warfare environments. 
DARPA is collaborating with the Navy via a new joint program office, 
helping to move this leap-ahead capability to deployment very quickly.
    Distributed Battle Management (DBM) and Communications in Contested 
        Environments (C2E)
    Under our Air Dominance Initiative, DARPA, the Air Force, and the 
Navy together have been exploring systems-of-systems concepts in which 
networks of manned and unmanned platforms, weapons, sensors, and 
electronic warfare systems interact to succeed in a contested 
battlespace. These approaches could offer flexible and powerful options 
to the Warfighter, but the complexity introduced by the increase in the 
number of employment alternatives--particularly in a dynamic 
situation--creates a battle management challenge. Further complicating 
matters, in future conflicts U.S. forces may face degradation or denial 
of critical communications capabilities essential for coordination and 
shared situational understanding.
    We recently launched two programs that address these challenges. 
The Distributed Battle Management (DBM) program seeks to develop 
control algorithms and demonstrate robust decision-aid software for air 
battle management at the tactical edge. Our new Communications in 
Contested Environments (C2E) program is, at the same time, exploring 
the use of reference architectures to enable robust, scalable, and 
rapidly evolvable airborne communications networks.
Dominating the Electromagnetic Spectrum
    The challenge of the threat environment extends to the airwaves as 
well, a reality that also is beginning to affect commercial and civil 
activity as demand continues to grow for access to the electromagnetic 
spectrum. The United States and our allies learned an important lesson 
in World War II, when we became the first to control and take advantage 
of one small part of the spectrum--the range occupied by radar. By many 
assessments, Allied dominance in radar technology was pivotal to our 
winning that crucial war. Today we can say that the next war may be won 
by the Nation that controls the electromagnetic spectrum over the full 
range of wavelengths--a degree of control that can ensure dominance in 
communications and in the important linked domains of timing, location, 
and navigation. It also can ensure dominance in seeing what our 
adversaries are doing, and in controlling what they see of us--both our 
capacity to hide things from their sensors and our capacity to make 
``visible'' an array of things that are not really there.
    Spectrum Challenge
    One approach to dominating the spectrum is simply to be more 
nimble, both in sensing and using whatever portions of the spectrum are 
available. Radios, for example, lack agility, despite the fact that 
they are used for the most mundane to the most critical of 
communications, from garage door openers to first responders to 
military operations. Wireless devices often inadvertently interfere 
with and disrupt radio communications, and, in battlefield 
environments, adversaries may intentionally jam friendly 
communications. To stimulate the development of radio techniques that 
can overcome these impediments, DARPA launched its Spectrum Challenge, 
a national competition to develop advanced radio technology capable of 
communicating in congested and contested electromagnetic environments 
without direct coordination or spectrum preplanning. We expect to see a 
massive increase in innovation when the teams return for the final part 
of the Challenge with promising results for future applications.
    Moving to New Frequency Domains: Terahertz Electronics
    Another way to control the spectrum is to move to new frequency 
domains, where hardware limitations currently prevent us from operating 
effectively. The submillimeter wave, or terahertz, part of the 
electromagnetic spectrum falls between the frequencies of 0.3 and 3 
terahertz, between microwaves and infrared light. Unlocking this band's 
potential may benefit military applications such as high-data-rate 
communications, improved radar, and new methods of sensing. But access 
to these applications has been limited due to physics and our limited 
understanding.
    Researchers under DARPA's Terahertz Electronics (THz) program have 
designed and demonstrated a 0.85 terahertz power amplifier using a 
micromachined vacuum tube; we believe it to be a world first. The 
vacuum tube power amplifier is one achievement of the broader THz 
program, which seeks to develop a variety of breakthrough component and 
integration technologies necessary to 1 day build complex terahertz 
circuits for communications and sensing.
    Many more DARPA programs also rethink complex military systems. 
These include efforts to use the undersea environment to observe and 
access regions around the world, to rapidly bring advances in 
commercial technology to the battlefield; to develop hypersonic 
technologies for advanced speed, reach, and range; and to create new 
distributed architectures for the contested environments of the future.
                          information at scale
    Let's consider a different aspect of complexity. As the information 
revolution continues, the sheer scale and variety of data seems 
immensely, and perhaps overwhelmingly, complex--but this challenge also 
presents major opportunities.
Insight to Enhance Analysts' Capabilities and Performance
    Military intelligence analysts face the monumental and escalating 
task of analyzing massive volumes of complex data from multiple, 
diverse sources such as physical sensors, human contacts, and 
contextual databases. DARPA's Insight program addresses the need for 
new tools and automation to enhance analyst capabilities and 
performance. The program seeks to enable analysts to make sense of the 
huge volumes of intelligence-rich information available to them from 
existing sensors and data sources. Automated behavioral learning and 
prediction algorithms help analysts discover and identify potential 
threats, as well as make and confirm hypotheses about those threats' 
potential behavior. The goal is a comprehensive operating picture in 
which expedient delivery of fused actionable intelligence improves 
support of time-sensitive operations on the battlefield. We are working 
closely with the Army and the Air Force to transition operational 
capabilities to programs of record.
    MEMEX: A Different Approach to Search
    Despite the vast amounts of data available, today's web searches 
use a centralized, one-size-fits-all approach that searches the 
Internet with the same set of tools for all queries. While that model 
has been wildly successful commercially, it does not work well for many 
government use cases. Current search practices miss information in the 
deep web--the parts of the web not indexed by standard commercial 
search engines--and ignore shared content across pages.
    To help overcome these challenges, DARPA launched the Memory and 
Exploration of the Internet for Defense (MEMEX) program. This ambitious 
effort seeks to develop domain-specific search technologies and 
revolutionize the discovery, organization and presentation of the types 
of search results needed for national security concerns. MEMEX's 
initial focus will be human trafficking, which is a factor in many 
types of military, law enforcement and intelligence investigations and 
has a significant web presence to attract customers.
    Mining and Understanding Software Enclaves (MUSE)
    Information at scale includes not just data, but software code as 
well. Within the last few years, there has been a tremendous explosion 
in the number of open source projects and the size of codebases these 
projects contain. Software repositories today are estimated to contain 
more than 100 billion lines of code, and the number continues to grow. 
Open source software is widely used in mission-critical DOD systems as 
well as in the commercial world. DARPA's new Mining and Understanding 
Software Enclaves (MUSE) program aims to harness the scale and 
complexity of this array of software to instigate a fundamental shift 
in the way we conceive, design, implement, and maintain software. If 
successful, MUSE could lead to a new programming methodology, leading 
to automated mechanisms for improving resilience, reducing 
vulnerabilities, and simplifying the construction of software systems.
    High-Assurance Cyber Military Systems (HACMS)
    Embedded systems form a pervasive network that underlies much of 
modern technological society. Such systems range from large supervisory 
control and data acquisition (SCADA) systems that manage physical 
infrastructure to medical devices such as pacemakers and insulin pumps, 
to computer peripherals such as printers and routers, to communication 
devices such as cell phones and radios, to vehicles such as automobiles 
and airplanes. These devices have been networked for a variety of 
reasons, including the ability to conveniently access diagnostic 
information, perform software updates, provide innovative features, 
lower costs, and improve ease of use. But researchers and hackers have 
shown that these kinds of networked embedded systems are vulnerable to 
remote attack, and such attacks can cause physical damage while hiding 
the effects from monitors. DARPA launched the High-Assurance Cyber 
Military Systems (HACMS) program to create technology to construct 
high-assurance cyberphysical systems. Achieving this goal requires a 
fundamentally different approach from what the software community has 
taken to date. If successful, HACMS will produce a set of publicly 
available tools integrated into a high-assurance software workbench, 
which will be widely distributed for use in both the commercial and 
defense software sectors. For the defense sector, HACMS will enable 
high-assurance military systems ranging from unmanned vehicles to 
weapons systems, satellites, and command and control devices. In an 
early demonstration of the program, we are running first-of-its-kind 
provably correct software on a commercially available automobile.
    These programs are examples from DARPA's broader portfolio in cyber 
and information at scale. Other efforts are developing new technologies 
to enable distributed computer systems to work through attacks; permit 
trustworthy Internet communications in untrusted environments; automate 
the discovery, identification, and characterization of new malware; 
provide DOD with military cyber capabilities; and automatically process 
text information to discover meanings and connections that might 
otherwise not be readily apparent to analysts.
Biology as Technology
    A third area of complexity of growing interest and importance to 
DARPA--and among the most promising for future major capabilities--is 
the idea of biology as technology. Biology is nature's ultimate 
innovator, and any agency that hangs its hat on innovation would be 
foolish not to look to this master of networked complexity for 
inspiration and solutions.
    Living Foundries
    Synthetic biology--a hybrid discipline of biology and engineering--
has already proven itself capable of using customized bacteria to 
produce medicines, and now it is heading toward even more interesting 
applications as we harness it to create entirely new chemistries. Our 
Living Foundries program seeks to develop the next-generation tools and 
technologies for engineering biological systems, compressing the 
biological design-build-test cycle in both time and cost. For example, 
the program has demonstrated the ability to generate a suite of novel 
bioproducts in weeks rather than years. The program is also producing 
new classes of materials with novel properties that can enable a new 
generation of mechanical, optical, and electrical products.
    Rapid Threat Assessment (RTA)
    Even as we develop new materials and tools for engineering 
biological systems, we understand that we must also be prepared to 
react quickly to how our adversaries may seek to use similar 
capabilities. This concern is not new: novel chemical and biological 
weapons have historically been mass-produced within a year of 
discovery. Using current methods and technologies, researchers would 
require decades of study to gain a cellular-level understanding of how 
new threat agents affect humans. This gap between threat emergence, 
mechanistic understanding and potential treatment leaves U.S. forces 
and populations here and around the world vulnerable.
    DARPA launched the Rapid Threat Assessment (RTA) program with an 
aggressive goal: develop methods and technologies that can, within 30 
days of exposure to a human cell, map the complete molecular mechanism 
through which a threat agent alters cellular processes. This would give 
researchers the framework with which to develop medical countermeasures 
and mitigate threats. If successful, RTA could shift the cost-benefit 
trade space of using chemical or biological weapons against U.S. forces 
and could also apply to drug development to combat emerging diseases.
    Brain Function Research
    In an era when harnessing complexity will be the sine qua non of 
success, it should not be surprising that DARPA has a particular 
interest in tackling the brain. DARPA's interest starts with our desire 
to protect and assist our warfighters, whether it means preventing or 
treating traumatic brain injury, easing the effects of post-traumatic 
stress disorder, or learning to operate sophisticated prosthetic limbs 
with thoughts alone, as is now increasingly possible with our new and 
exciting technologies. These advances also open the door to a much 
deeper understanding of how humans interact with the world around 
them--new insights that may fuel the next revolution in how we work 
with complex technologies and systems. Over the past year, we launched 
several new brain function-related programs that are now getting 
underway. These efforts are part of the President's initiative in brain 
research. Recently, we have made unprecedented advances in developing 
advanced prosthetic arm systems and methods to restore near-natural 
movement and control.
    DARPA's biology-related investments also include diagnostics and 
novel prophylaxes to outpace the spread of infectious disease and new 
methods to accelerate the testing of critical therapeutics.
New Frontiers
    Consistent with our mission to prevent technological surprise by 
creating it, DARPA continues to invest across a wide range of fields 
where we see promising research that could lead to powerful technology 
capability. These investments are the seeds of what my successors, 
perhaps 5, 10, or 15 years from now, will be describing to you as 
technology revolutions.
    I described earlier our work in developing new algorithms, 
software, and architectures that allow us to better mesh our 
electronic, optical and mechanical components together. What about 
those components themselves? We are pushing the frontiers of physics to 
make them dramatically smaller, or more capable, or both.
    iPhod, COUGAR, and ORCHID
    Consider the many ways we are developing to harness light, which 
will directly affect the size, weight, cost, and performance of 
military components ranging from small navigation sensors to phased 
array radars and communication antennas. One recently concluded program 
(iPhod) successfully miniaturized tools for creating delays in light 
transmission, while another (COUGAR) demonstrated unique designs in 
hollow core fibers, which guide light within a device much more 
efficiently than conventional optical fibers. Yet another (ORCHID) 
successfully demonstrated the ``squeezing'' of light, a concept in 
quantum optics that can ultimately lead to dramatic performance gains 
in microsystems. These programs challenge the assumption that highly-
specialized, high-precision systems must be large and expensive.
    Miniaturization with National Security Implications
    Other advances in miniaturization include a recent demonstration by 
DARPA-funded researchers of the world's smallest vacuum pumps. This 
breakthrough technology may create new national security applications 
for electronics and sensors that require a vacuum: highly sensitive gas 
analyzers that can detect chemical or biological attack, for instance, 
or extremely accurate laser-cooled chip-scale atomic clocks and 
microscale vacuum tubes. As part of another program (QuASAR), one which 
seeks to exploit the extreme precision and control of atomic physics 
for new sensor technology, researchers have developed methods for 
measuring magnetic fields at scales smaller than the size of a single 
cell. Applications include critical advances in position, timing, and 
navigation--all critical to military situational awareness and 
operations.
    Ground Robotics
    Some advances seem at our doorstep--thanks to science fiction and 
the amazing special effects of creative individuals and teams who lead 
our entertainment industry. At the DARPA Robotics Challenge trials a 
few months ago, we drove robotics technology forward by engaging teams 
of creative specialists at companies, universities, and other 
government agencies. These world-leading experts were charged with 
advancing the capabilities of robots to perform basic skills that would 
be required in carrying out humanitarian and disaster relief missions. 
The Robotics Challenge--which is still underway--is showing how 
robotics capabilities can advance. It is also demonstrating just how 
far these kinds of robots are from serious battlefield application. 
That, too, is part of DARPA's mission: push the research frontiers of 
what is possible and inform our military decisionmakers where those 
limits are and the prospects for the future.
    Algorithms Opening New Horizons
    Research in mathematical algorithms is also creating important new 
technological opportunities. Clustering algorithms can detect common 
activity patterns across a vast data set. A combination of vector 
mathematics, time integration, and power law distributions enables the 
analysis of ensemble behaviors--patterns that only become visible when 
correlated across large numbers of points. Time series analysis can 
find previously unknown outliers in a data set for anomaly detection. 
Our programs apply these mathematical techniques to immense data sets 
with hundreds of millions or even many billions of elements. 
Individually or in combination, these new algorithmic approaches enable 
rapid analysis of data volumes that finally begins to scale with the 
complexity of the national security challenges that we face today.
                      people, process, and budgets
    I have cited several examples of DARPA technologies that made 
significant progress in the last year. There are many more in that same 
category. Additional examples of successes in the making are attached 
to my testimony.
    What does it take for DARPA to do these transformative things? It 
takes the right people, process, and funding. The support of this 
subcommittee has been essential for each of these.
People
    For DARPA to remain as creative and effective as it has been 
through its history, first and foremost we depend upon stellar program 
managers. They come to DARPA with inspirations about achieving 
breakthroughs in technologies that stand conventional wisdom on its 
head, mindful of the rare opportunity to bring about rock-the-boat 
changes that will contribute to our national security. We keep these 
program managers onboard typically for 3 to 5 years; that helps to 
infuse new people with fresh views into the Agency continuously. That 
means we need to quickly identify and bring in experts who frequently 
are widely sought after by the private sector, academia, and other 
government agencies.
    The 1101 hiring authority Congress has provided to DARPA is key to 
our continuing success and makes a very concrete, positive difference 
in our ability to recruit incomparable program managers. I thank the 
subcommittee for its continued support and extension of this special 
authority over a lengthy period.
Processes
    Likewise, the authority to conduct challenges is a very effective 
part of our toolbox of innovative management approaches. It complements 
the variety of other means we have for working with the technical 
community, including more traditional awards to performers and 
collaborative undertakings. Our challenges reach a broad range of 
performers by offering prizes to those who accomplish previously 
unattainable goals. They have proven to be an extraordinarily effective 
way to tap the creative ideas of an ever-wider community to help DARPA 
push the frontiers of technology forward. Last year, Congress extended 
the Challenge authority until September 30, 2018. Thank you for 
continuing this important authority. In fiscal year 2014 alone, we are 
in the midst of the DARPA Robotics Challenge, the Cyber Grand 
Challenge, and the Spectrum Challenge.
Budget
    The President's fiscal year 2015 budget request for DARPA is $2.915 
billion. This compares with $2.779 billion appropriated for fiscal year 
2014, an increase of $136 million. Before describing our fiscal year 
2015 plan, let me put this number in context.
    From fiscal year 2009 to fiscal year 2013, DARPA's budget declined 
through a series of small reductions followed by the 8 percent across-
the-board sequestration cut in fiscal year 2013. The total reduction to 
DARPA's budget from fiscal year 2009 to fiscal year 2013 was 20 percent 
in real terms.
    This pernicious trend turned around last year. I thank this 
Subcommittee, and Congress more broadly, for your support in helping us 
to begin to address this issue in fiscal year 2014 by restoring an 
initial $199 million. The President's fiscal year 2015 request 
continues restoration, almost returning the Agency's budget to its pre-
sequestration level in real terms.
    Let me outline what these budget changes mean in terms of our 
ability to execute DARPA's vital mission. As budgets eroded over the 
last few years, one effect was a reduction in our major demonstration 
programs. In some cases, we have been unable to advance our work to the 
point of actually demonstrating that a totally new approach is 
workable. In other cases, we had to rely on a single approach to 
solving a particularly challenging problem because we could fund only 
one performing organization. That is especially problematic since we 
are trying to do something that has never been achieved before. Reduced 
funds also meant fewer early-stage investments to explore new research 
frontiers. Sequestration further affected our programs, with many being 
delayed or reduced.
    In the current fiscal year, the partial restoration of funds is 
making a real difference in DARPA's ability to attack the thorny 
problems the Nation faces in today's military and national security 
environment. As a projects agency, DARPA is always beginning new 
programs as old ones end. But the new efforts in fiscal year 2014 are 
stronger because of the healthier budget level. In some areas, we are 
now able to plan for the real-world prototyping and field testing 
needed for new concepts to be fully evaluated. Our new programs include 
the important exploratory projects that will expand future national 
security opportunities. The fiscal year 2015 request before you today 
will allow us to continue to restore and strengthen our portfolio of 
investments. With this funding level, we will be on the right track.
    Let me close by saying that I am mindful of the challenges that our 
Nation faces and the increasingly difficult environment in which we 
work, including severe constraints on resources. But I also am excited 
about what lies ahead and confident that--with your support for the 
President's fiscal year 2015 budget request--DARPA will continue to 
make a real and outsized difference in redefining the national security 
landscape and our Nation's security.
    Again, thank you for your support--past, present, and future. I 
look forward to working with you, and will be pleased to respond to 
your questions.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
      
    Senator Hagan. Thanks to all of you for your opening 
statements. We will have 7-minute rounds for questions. I'll go 
ahead and start.
    Mr. Shaffer, I noted in my opening statement, and you 
discussed it, too, that the overall funding for the S&T 
programs in this budget request has been reduced by $500 
million compared to last year. I understand that basic research 
programs have been reduced in funding as well. Can you describe 
and give us some concrete examples and impacts that these 
reductions will have on the S&T programs in 2015 and beyond?
    Mr. Shaffer. Yes, ma'am. This will, of course, be fairly 
broad. As you said, we did reduce basic research by $200 
million. That was about a 10 percent reduction. We did that for 
a very conscious reason, not that we don't like university 
research. We love university research. Given the constraints 
that we had in making our budget, we wanted to push more money 
into the advanced technology development portion of the budget, 
because as we look at the earlier acquisition engineering 
programs, they've fallen as much as 45 percent in the last 5 or 
6 years.
    We have to continue to exercise design teams, engineering 
design teams. So we made the decision to pick up some of the 
slack in the S&T program for that.
    Now, you ask what is the cost of that particular decline to 
our universities. We figure that it's somewhere in the order of 
1,500 to 2,000 grants. That's a lot of university grants that 
are coming out.
    Senator Hagan. You're saying a cut?
    Mr. Shaffer. $200 million will cut about 1,500 grants 
nationwide, give or take.
    That's just using straight math at $100,000 roughly per 
university grant. We also see, we took about $150 million out 
of the Missile Defense Agency S&T. The reason we did that is 
it's maturing. We're picking up some of the technologies that 
are being very successful in other parts of DOD.
    The rest of the reduction was pretty much spread between 
the three Services and in lower priority projects. So, I think 
the way I would characterize our budget, we took more risk in 
basic research, which we didn't like doing. We put more money 
into category 6.3 advanced technology development and 
prototyping activities and demonstrations, because we have to 
continue to develop capabilities and we have to exercise design 
teams. The final reason is under the Budget Control Act, even 
with some of the relief we got from the Bipartisan Budget Act, 
we still had a budget that came down, we still have forces 
deployed in war. We couldn't take money out of force structure 
right now, we can't take money out of that quickly. 
Modernization and readiness was going to pay a large portion of 
the bill in fiscal year 2015, probably 2016, 2017, and maybe 
2018 also. That's just where we are until the force size comes 
down.
    Senator Hagan. It seems like as we reduce basic research, 
though, we're really hurting ourselves in the long-term, 
because we're missing that opportunity. We're missing 
opportunities with the people that would be doing that research 
during that period of time. I think on a long-term basis that's 
going to come back to hurt us.
    Mr. Shaffer. Very painful, ma'am. It really came down to, 
do we shift our emphasis to maintain contact with the 
engineering and design teams in industry? I had one company 
that came in to see my Under Secretary and myself yesterday. 
They're losing about a quarter of their design team in two very 
critical areas that no one else knows, that no other people do. 
So we're starting to see industry lose engineering design 
teams. That is also a concern, not necessarily for S&T, but we 
have to have people who catch what we develop.
    Senator Hagan. Let me move to science, technology, 
engineering, and mathematics (STEM) education. If you've been 
around me any period of time, you understand how important I 
take STEM from the standpoint of teaching and training our 
young people. I want to really look at how we can use STEM 
activities in education for our military children. I know the 
National Science Foundation and the Department of Education can 
and should play a big role in Federal STEM programs, but I 
believe DOD has a unique responsibility for supporting military 
children.
    These children are faced with dealing with the additional 
stress of deployments of their parents. They also face the 
stress and the challenges of moving multiple times, multiple 
schools, over the course of their childhood, with different and 
inconsistent educational practices and course work as they move 
from area to area. I think we owe it to the children, we owe it 
to their parents, to provide the best STEM opportunities 
possible.
    Some of this is through better access, through advanced 
course work, internships at labs, through other programs. It's 
important that these efforts are, obviously, based on sound 
educational practices and produce measurable results. This 
isn't something that we'll go in and say, we have three 
engineers to come talk to a class, without being able to 
measure what the practical ramifications and results are. So it 
needs to be much more in depth than that first example.
    Mr. Shaffer, I know that the Office of Management and 
Budget (OMB) has previously told DOD to terminate the K through 
12 programs, so there's no funding in fiscal year 2015 for 
these efforts.
    Mr. Shaffer. Correct.
    Senator Hagan. I'd like you to address that and then tell 
me what you can see as a possibility, how we, everybody in this 
room, can work together to have a focus on our military 
children in school, so that we can really have an impact on 
their education.
    Mr. Shaffer. Yes, ma'am. First, OMB and the White House did 
try to focus K through 12 Department of Education efforts, the 
thing that hurts us most as a mission area provider. I think 
everybody at this table would like to be involved in K through 
12.
    The second thing, you mentioned that the program working 
with the children of our deployed service men and women. Ma'am, 
I was a serviceman. I moved 13 times in 24 years on Active 
Duty. I support anything we can do to help our dependents. I 
recognize that it's part of our responsibility. The program 
that you're alluding to is in our Under Secretary for Personnel 
and Readiness, our personnel and readiness portfolio. We're 
working with the Secretary, Ms. Jessica L. Wright, to try to 
figure out how to enact an improvement supporting our military 
dependents.
    Senator Hagan. On page 6 of your testimony you talk about 
the STEM executive board.
    Mr. Shaffer. Yes, ma'am.
    Senator Hagan. The DOD STEM strategic plan is aligned with 
the Federal plan to achieve Federal and DOD STEM education 
goals. I don't know what those mean. I guess my question is, 
how can we make an impact and what is their assignment and what 
can we do as soon as possible to be sure that we have a 
concrete mission in this area?
    Mr. Shaffer. I will let other people comment. I would 
welcome any and all authorities for us to continue to interact 
with kids in STEM.
    Senator Hagan. Any concrete suggestions?
    Mr. Shaffer. I'll take that for the record.
    Senator Hagan. Okay.
    [The information referred to follows:]

    We do not generally have authority to fund K-12 programs with a 
limited exception. We can, for example, through the Office of the 
Secretary of Defense, the Military Departments, and the Defense 
Agencies, support certain K-12 events. For instance, in April this 
year, the Department of Defense sponsored the first day of the USA 
Science and Engineering Festival in Washington, DC. This was a great 
success and was well-attended.

    Ms. Miller. Ma'am, the Army did not lose our funding for K 
through 12 educational outreach. Our Army educational outreach 
program is still funded. We're grateful for that. It's on the 
order of between $10 and $12 million a year. We do outreach all 
the way K through 12 and then into----
    Senator Hagan. Do you have metrics, measures of your 
results?
    Ms. Miller. We do have metrics and measures. We have the 
University of Virginia that actually comes in and does an 
independent assessment of performance. We like to think that's 
one of the reasons we got to keep our resources here, but we 
frankly think we have a very good program. We have done 
deliberate outreach to the schools that are at the location of 
all of the laboratories, because part of our extended outreach 
is we try to bring the young kids into our laboratories to 
interact, not only with our researchers, but in a real research 
environment, to help inspire them. We have done that outreach 
with other schools as well.
    Senator Hagan. I would like to hear back from each of you 
if you come up with some concrete ideas on what we can do.
    Senator Fischer.
    Senator Fischer. Thank you, Madam Chairwoman.
    Mr. Shaffer, last year we discussed duplication and 
focusing research on warfighting needs. You mentioned the 
Reliance 21 process and how Senior Executive Service members 
were reviewing their portfolios. When I look at this budget, I 
see that the Navy and the Air Force are developing generator 
technology that seems to be very similar to what the Army 
already has fielded.
    In addition, and there might be a good reason for this, the 
Navy is requesting money to study kidney stones in dolphins. 
While these may be somewhat small expenditures, I think we need 
to make sure that every dollar we have is spent in a 
responsible and appropriate way, considering, especially 
considering, the times that we're in.
    Can you elaborate on what's being done to prevent or reduce 
the non-warfighter-related spending in all of the Services?
    Mr. Shaffer. Yes, ma'am. I won't talk or I won't try to 
address kidney stones in dolphins. That one got by me. I will 
let Ms. Lacey deal with that or I'll turn to that one later.
    Let me talk about the generator technology. One of our most 
mature and active communities of interest is power and energy. 
We have a senior executive from each of the three Services on 
power and energy, and we also have some DARPA input, who come 
in and compare and look at each other's programs.
    I stand comfortable and confident that the knowledge and 
the information and development that's been led by the Army is 
being leveraged by the Air Force and the Navy for their 
particular applications. I don't have the specifics. I'll be 
happy to take it for the record, come back to you with a full 
written explanation. I stand before you very confident that 
this Reliance 21 process we have and the road maps that are 
being put in place to address our highest priority needs and 
drive out unintended duplication is, in fact, working very 
well. I'm seeing evidence of it as our people interact.
    I'd offer my colleagues to say the same or back me up or 
refute that.
    [The information referred to follows:]

    The Department of Defense (DOD) Energy and Power Community of 
Interest (EPCOI) coordinates the core science and technology efforts 
that go into development of these power generation systems. Power 
Generation/Energy Conversion is one of the five major EPCOI technology 
taxonomy areas. These core technologies work to minimize size/weight 
while maximizing efficiency for energy savings. Through the EPCOI, the 
different DOD Services tailor those core technologies to unique service 
electrical power needs.
    Each of the Military Departments generator needs is uniquely 
different. The Army's power generation need for ground vehicles and 
forward operating base micro-grid power sources are rated 10s to 100s 
kilowatts at voltages that span compatibility with consumer electronics 
and specialized military equipment. Air Force generators for modern and 
next generation aircraft are 270 volt direct current to meet aircraft 
utilization equipment standards and rated at 100s to upwards of 1,000 
kilowatts. Navy ship power generation is very high voltage, very high 
power kilovolts/megawatts required to provide electrical power for very 
large shipboard power systems. While each power generation application 
is unique, there are many instances of common component technology 
development across the Military Departments in which collaboration and 
coordination allow for leveraging and acceleration for ultimate 
implementation. The EPCOI identifies common technologies and makes the 
information available to all Military Departments. It is at the 
application level that variations occur.

    Ms. Fischer. Ms. Miller, you get to back him up.
    I appreciate it. Thank you, Mr. Shaffer.
    Ms. Miller. I'll give you an example where sometimes the 
words that we put in our budget documents often sound the same 
and it seems duplicative, but it's not. I'll talk directed 
energy, because actually, if you look, you'll see that all 
Services have an investment in solid-state lasers. We did the 
fundamental solid-state laser development collaboratively 
through the Joint Technology Office (JTO), the HEL-JTO.
    We got to a point where we could get high-power energy out 
of solid-state lasers. Then every one of the Services has taken 
that capability and demonstrated it in our own respective 
mission environments. Why? Because our Services have to 
understand the effectiveness and capabilities of that same HEL 
construct in their respective mission space. So it's not the 
same.
    The Army and the Navy are testing together down at Eglin--
we're there now and we're starting our testing--to do high 
power, solid-state laser testing from a ground perspective, but 
in an environment that is not the desert. A lot of the Army 
testing has been done out at Wisner at our HEL S&T Facility out 
there. But that's not where the Army's going to be. We're going 
to be a lot of places.
    Our solid-state laser program is aligned to a program of 
record and we should see it show up in about the 2020, 2022 
timeframe, and we have progress along the way. The Navy's 
already going out on a ship and Mary Lacey will tell you about 
when we're going to deploy on a ship. The Air Force is also 
looking at how they can use solid-state lasers.
    Then there's DARPA, which always brings in another 
alternative way to do HEL, perhaps in a different construct, 
but as effectively and efficiently. If we can get the 
technology to prove out, we can insert it.
    Sometimes we all sound the same, but we're different.
    Senator Fischer. I appreciate you clarifying that, because 
I think it's important for us to be able to understand that. 
But I think that openness is also important for the public to 
understand as well, because, as you can imagine, we all hear, 
and you hear it too, I'm sure, from your friends and neighbors 
that cuts can be made, we can find cuts, we can look for 
duplication. I believe we can.
    I think it's important that in the future maybe you can 
distinguish it somehow better, that these may be similar 
programs, but they're building on each other and they are 
addressing different needs.
    Ms. Lacey, could you give me just a short answer. Please 
tell me about those kidney stones?
    Ms. Lacey. On the kidney stones, as you probably know, we 
have a marine mammal program for special operations underwater, 
and we have many dolphins that are involved in that program. 
When you have them in captivity and you limit the diet, it does 
bad things to them, just like it does to people, and this 
research is affiliated with that.
    I will get you a complete answer on exactly what they're 
doing.
    Senator Fischer. So diet and age?
    Ms. Lacey. Yes, ma'am. When they join the Navy they join 
for life.
    Senator Fischer. They have a pretty good life, I think, as 
well.
    Ms. Lacey. They do.
    Senator Fischer. Yes, the dolphins. Thank you.
    [The information referred to follows:]

    The U.S. Navy has five Marine Mammal Systems, consisting of humans 
and dolphins and/or sea lions, that conduct three missions for the 
Navy: (1) Protection of harbors and Navy assets from swimmer attack 
(including waterfront security at the Trident submarine bases in Kings 
Bay, GA, and Bangor, WA); (2) Underwater Mine Counter Measures 
(detection and neutralization of tethered, bottom, and buried sea 
mines); and (3) Location and recovery of underwater objects (expensive 
exercise and training targets). The Navy has 83 bottlenose dolphins and 
53 sea lions, two thirds of which actively participate in the Fleet 
Marine Mammal Systems and all support the Program objectives. It takes 
3 to 5 years to train and certify a mine hunting dolphin, at a cost of 
approximately $1 million. We plan for a 25-year service life of the 
animals in fleet systems and Navy dolphins typically live to be over 30 
years old, compared to late teens in the wild.
    The Secretary of the Navy Instruction 3900.41G sets policy for the 
treatment of the Navy's marine mammals, stating: ``marine mammals will 
be provided the highest quality of humane care and treatment.'' Over 
the last 2 decades, we have detected the presence of kidney stones in 
our dolphins. Since 2010, there have been three life-threatening cases 
of renal disease due to kidney stones. The research funded by the 
Office of Naval Research (ONR) enabled the Navy to save the dolphin in 
the most recent case and is expected to result in preventative measures 
for the future. The ONR investments in the health of our marine mammals 
not only ensures compliance with policy on their humane treatment, but 
also enables the operational readiness of this unequalled underwater 
detection capability. The fiscal year 2015 increment for the kidney 
stone project will be $124,629. Investment in this marine mammal health 
research totaled about $1 million over the 4-year duration of the 
project and will be complete in March 2015. The Navy has contributed 
more to the body of knowledge on marine mammals than all other 
institutions and researchers combined, with over 1,000 peer-reviewed 
publications.

    Senator Fischer. Mr. Shaffer, have you changed any 
processes since the sequestration hit last year with regards to 
Reliance 21, the process that you use? Have you changed 
anything in addressing the budget needs?
    Mr. Shaffer. I think if anything, ma'am, we've accelerated 
and put our foot on the gas for Reliance 21 after the 
sequester. We recognize that budgets are going to be hard, 
they're going to be tough. I want to drive every dollar out 
that we don't need to spend, because I have more places, we 
have more places to spend in support of our warfighters than we 
have money to spend. Every dollar I can drive out that is 
duplicative or not on our critical path I can put on some other 
really critical need.
    Senator Fischer. Are you reviewing programs differently 
than you were before sequester?
    Mr. Shaffer. We're reviewing them, I think, in more depth 
and in a more integrated fashion. So for instance--I'm going to 
get the dates wrong, but I think 28 and 29 May the S&T 
executives at this table are sitting down for 2 full days to 
review just six areas. If you do the math, that's about 3 hours 
per area for all of the major programs in things like power and 
energy, weapons, autonomy. That's a pretty extensive use of 
executive time, to spend that amount of time.
    We're going to go through it and figure out what DOD has to 
do, how industry can help us with our independent R&D, how our 
international partners can help us, and how DARPA can develop 
things that might take some of the things that are currently on 
our critical path and obliterate them. I want DARPA to disrupt 
our critical path. I want them to develop capabilities so we 
can go other places.
    I think we've put our foot on the gas, ma'am.
    Senator Fischer. Thank you, Madam Chairwoman.
    Senator Hagan. Thank you, Senator Fischer.
    Dr. Prabhakar, I wanted to ask about DARPA. We have 
discussed in this and other hearings that DOD is faced with the 
challenge of an ever expanding and complex system of threats in 
space, cyber space, WMD, and other areas. At the same time, we 
know that we're faced with defense budgets that are flat, 
operational costs are growing, and research budgets are 
declining.
    It seems like a problematic strategy for the future. What 
are some examples of programs and technological areas DARPA is 
investing in that can help break some of these trends? For 
example, I worry that we will tend to be risk-averse with our 
research funding dollars, and as Mr. Shaffer just said, he 
wants DARPA to be disruptive in these areas.
    I want to be sure we're not risk-averse as these dollars 
get tight. So how does DARPA strike the balance between risk 
and payoff in the development of your research portfolio?
    Dr. Prabhakar. Thank you for the excellent question. It's 
very much on my mind all the time that we maintain our focus on 
high impact and be willing to take the risk that it takes to 
get there.
    Just for context, one thing that has really struck me: I've 
been on board here for about a year and a half and, given the 
situation that we're in that you described with budget 
pressures and a lot of pressure on DOD right now, it was my 
expectation that DARPA would be getting pushed to be more 
incremental. I've found, somewhat to my surprise, that, in 
fact, I think it's the opposite. I think the appetite for 
fundamental change is very significant. I think it's a 
consequence of how severe the situation is, exactly as you 
described: significant threats, but cost pressures, and the 
cost of our operational systems don't compute when you put them 
all together and you project out into the future.
    Some of the things that we are doing to tackle that have to 
do with trying to break an approach to complex military systems 
that has typically started by saying: Let's build this 
monolithic platform. It's the school bus that we're going to 
launch to geosynchronous orbit, or it's the huge aircraft 
that's going to be how we think about the next generation of 
air dominance. It's a model that we have developed in many 
different domains, all for good reasons, because that's how you 
build complex, very powerful systems. That's how we know how to 
do business.
    When the working model is that we have the deepest pockets 
on the planet and therefore we can just outspend everyone else 
and that that's one of our competitive advantages, that 
actually has worked great for us. That's why we have the 
overwhelming capabilities that we have today. Of course, that 
same strategy is now what's killing us.
    Finding the way to break that is the core of a lot of our 
programs. In the space domain, just to pick one example, to get 
to a different model is going to require a variety of different 
components. One I think we touched on during the opening 
statements, has to do with moving from space catalogue 
maintenance to understand what's on orbit, moving from that to 
space domain awareness in real time--a very different 
environment than we operate in today, number one.
    Number two, we have to change the cost of launch and change 
the flexibility of launch. Today, it's 24 months typically from 
the time you know you want to launch a satellite to the time 
that you can get it on orbit. We want to take that to 24 hours.
    Then with that, we also want to change the economics of 
satellites themselves. One of our programs, Phoenix, is coming 
up with some radical new approaches using space robotics to 
change the economics of geosynchronous satellites. Those 
efforts taken together give us a way to fundamentally change 
that rigid model that we currently have for space.
    Senator Hagan. Thank you.
    Mr. Shaffer, on your page 11 you talked about how China has 
a planned launch of 100 satellites through 2015.
    Mr. Shaffer. Yes, ma'am. I was over here with Mr. Kendall 
when he came to see you. The modernization of China and, in 
fact, other countries, to include Russia, as we step back and 
look at it has been very focused and will create tremendous 
challenges for us. So Dr. Prabhakar said that DOD is interested 
in not incremental, but really blowing things up. We really are 
at a strategic crossroads, and Secretary Hagel did say it very 
well. We are in danger of losing our dominance in every domain. 
Those call for really radical, radical ideas, and I welcome 
them.
    Senator Hagan. Dr. Prabhakar, I want on this subcommittee 
to do everything we can to support DARPA's efforts at investing 
in those high-risk, high payoffs. If you have suggestions for 
us--and I take your suggestion on the section 1101 process, 
where you said you have 60 positions and those are filled, 60 
out of how many, and what would you like that number to be or 
do you have a recommendation on that?
    Dr. Prabhakar. Thank you very much for the support on that, 
because it is so critical to getting the people that we need.
    DOD sets a cap for our agency for the number of civil 
service positions that we have. That number is either 182 or 
183 right now, and it's been very consistent for a very long 
time. The 60 for the 1101s is legislative, very different from 
DOD's cap. It's just a number that's legislated separately 
within that. I don't know; I'd probably need to get back to you 
on what would make sense there.
    I think the fundamental thing that we have seen shifting 
is, of the ways that we have to hire people, others are getting 
harder and harder, and that's why the 1101 is an increasing 
percentage of what we're actually doing.
    Senator Hagan. I have about 1 minute before I'm going to 
switch it back to Senator Fischer. Another thing, when we were 
talking about staffing, once again, Mr. Shaffer, you were 
talking about the average age of the scientists and that some 
of the younger employees were leaving. They consistently cited 
travel and conference restrictions, as well as perceived 
instability of long-term career, as a motivating factor for 
their departure. I see shaking heads.
    What can we do about that and what are your suggestions 
about that?
    Mr. Shaffer. Ma'am, I think we've taken care of some of 
that, in the fact that I drafted for Mr. Kendall, he signed 
out, a very strong letter saying that going to technical 
conferences is part of the workforce development of our force.
    Senator Hagan. Which seems a given to me.
    Mr. Shaffer. It seems a given, but it is very difficult 
because every community in DOD and the military think that they 
are special. I think the scientists and engineers are special, 
but the logisticians will tell you they are special. It becomes 
very hard. I'm very sympathetic to personnel and readiness 
folks.
    Let me take for the record what you can do for us. But any 
flexibility in hiring. We're working through the section 1101 
hiring authorities from last year and trying to get 
consistencies across DOD. Our laboratories have it better than 
we have it in headquarters, and that's good because that's 
where the work has to get done.
    I am concerned about the age of our workforce. A workforce 
that's getting older each year is not healthy. We're monitoring 
that, ma'am.
    [The information referred to follows:]

    Section 1107 of the National Defense Authorization Act for Fiscal 
Year 2014, provides additional hiring authorities and flexibilities to 
our lab directors. I don't believe any further authorities are required 
at this time. We will need 1 to 2 years to assess the impact of section 
1107.
    We welcome Congress' support in strengthening our laboratory 
workforce. Due to the budget pressures of the last several years, our 
government laboratory workforce has been under increasing duress from 
furloughs, shutdowns, and perceived lack of support of our laboratory 
workforce. Positive messages from Congress on the value of our labs and 
scientists and engineers would be of high value.
    For a longer-term impact, we are exploring options for new funding 
mechanisms, using existing funds, to recapitalize our lab 
infrastructure and equipment.

    Senator Hagan. Thank you.
    Senator Fischer.
    Senator Fischer. Thank you, Madam Chairwoman.
    Dr. Prabhakar, I know that DARPA has a bit of a different 
focus when it comes to technology development. We heard Mr. 
Shaffer talk about the Reliance 21 process. I'm curious to know 
what processes do you use to ensure the greatest return on 
investment for our warfighters.
    Dr. Prabhakar. That's the question I ask myself every day, 
so that's perfect from my point of view. Our starting point at 
DARPA is to understand the context for our work, and today we 
focus on three major factors that shape the way we put together 
our investment portfolio. The first has to do with the breadth 
and the diversity of threats that our country faces, some from 
nation states, but also we continue to deal with the terror 
threat, the increasingly networked and shape-shifting terror 
threat, very different kinds of threats; just understanding 
that there is not a single kind of problem that, once solved, 
we're safe forever. That's number one.
    Number two is, simply the cost of our operational military 
systems we think now is a threat as well and something that I 
believe will require radical innovation. We think it's not 
someone else's problem. It's our community's problem.
    Then third, the technology world in which we live is one 
where very powerful technology is globally available and moves 
at a very fast pace. The United States does not have a monopoly 
really on any technology field any more.
    Those are the factors that shape our portfolio. We then 
very much look to our program managers to go out and to find, 
by being in direct contact with the technical community, with 
the Services, the operational community, with all of their 
partners in their fields of interest across DOD S&T and the 
Services that are represented here. Those program managers are 
the people that we look to to craft the programs that can 
deliver DARPA-scale impact against the problems of the day.
    Then our management role is to knit all of that into a 
portfolio that is addressing an appropriate range of challenges 
and opportunities, that is balanced, so that we don't take all 
our risks in one particular area, but we hedge our bets and 
make sure that we're covering the landscape that we think is 
the most effective over time.
    Senator Fischer. How do you weigh the risk versus reward? 
How do you look at emerging threats? How do you look at 
surprises that will happen? Do you use that team effort there, 
that team effect with your managers? With the shortage of money 
then, how are you going to do that?
    Dr. Prabhakar. Yes. I think that's a question that's hard 
to answer for the entirety of what national security threats we 
face. Maybe I could describe for you some of the work that's 
going on in a particular area, an air dominance project. An 
initiative, the Air Dominance Initiative, was kicked off by 
Under Secretary Frank Kendall about a year and a half ago. In 
that he asked us specifically to work with the Air Force and 
the Navy on concepts and potentially down the road prototypes 
that could help change the face of air dominance for the next 
generation.
    His request was rooted in an understanding that our systems 
today are not going to be effective against a sophisticated 
adversary when we're fighting far from home. In the years to 
come we know that we're going to have to up our game. I don't 
think it's yet completely clear how we need to do that.
    What came out of that was a terrific effort where DARPA, 
Air Force, and Navy folks in that case have been working 
together under a security umbrella, first to understand all the 
excellent work that's already going on, then to develop a 
shared view of threats and new capabilities that could emerge, 
and then there's been this marvelous interplay between 
technology programs and military operators thinking about how 
they would use these new technologies. As they develop new 
concepts of employment, those then feed back into how we shape 
our technology programs.
    In that case, that has led for DARPA to some specific 
program investments where, for example, we're investing in 
distributed jamming and distributed radar and new approaches to 
do collaborative autonomy among missiles. Those are programs 
that are rooted in an understanding of the threat and the 
opportunities because of this deep engagement that we've had.
    Area by area you'll find that there's that kind of 
background work, and then the program manager again is on the 
hot seat to put together a program that will really deliver 
results.
    Senator Fischer. Thank you.
    Mr. Shaffer, Dr. Prabhakar mentioned Secretary Kendall, and 
earlier you had also mentioned that you had a meeting with him. 
If you could let us know, I guess be able to provide to us, 
what your efforts are in dealing with threats, how do you stay 
ahead of the game, that would be good.
    Mr. Shaffer. Yes, ma'am. Let me just do a very short answer 
and then we'll follow up for the record. We've done a couple of 
things in my immediate office. First, I have stood up an office 
that reports directly to me for technical intelligence. I 
actually have an intelligence analyst on our staff with some of 
our S&T people. Their job is every day to look at what the rest 
of the world is doing.
    The second thing that we have done, over the last dozen 
years or so, we have lost some capacity in doing real 
operations research campaign analysis. I have a small effort 
that I've stood up in our office. We get help from the Services 
to actually do analysis and try to get at some of these cost-
capability trades that you're talking about.
    Getting support for doing more hard analysis upfront, where 
we really run through what will this mean to a campaign phase, 
I think will get us a better payoff in the long term. That's a 
new effort in 2015. I'm paying for some things this year out of 
below-threshold reprogramming, but helping us get back to a 
real strong analytic basis, ma'am, is something that I could 
use your help with.
    Senator Fischer. You said you had one new person employed 
in that area?
    Mr. Shaffer. It's a new program line. I think it's 
approximately $15 million, $12 to $15 million in 2015, and 
scales up after that. I have a person who actually has outreach 
to each of the components, plus Lincoln Laboratory, Georgia 
Tech Research Institute, and Johns Hopkins Applied Physics 
Laboratory are federally funded R&D centers and university-
affiliated research centers to start to really develop, 
redevelop, our analytic capability.
    Senator Fischer. Thank you very much.
    Mr. Shaffer. Yes, ma'am.
    [The information referred to follows:]

    We have done several things to develop capabilities to deal with 
both the current threats and to address evolving threats. Within the 
Office of the Under Secretary of Defense for Acquisition, Technology, 
and Logistics (AT&L), we have established or enhanced several entities 
to respond to the rapid military modernization efforts of potential 
adversaries; we have established the Research, Development, and 
Acquisition Task Force (RDA TF), the Strategic Capabilities Office 
(SCO), and an Analysis Team, while also enhancing the capabilities of 
the Office of Technical Intelligence to improve information flow 
between the research and acquisition community and the Intelligence 
Community (IC). Additionally, these organizations have built close ties 
with the primary combatant commander organizations in the relevant 
areas of responsibility to help understand the warfighter's ability and 
requirements to execute their missions in the face of evolving and 
modernizing threat capabilities.
    The RDA TF was established to identify near-, mid-, and far-term 
technology-based capability vulnerabilities the United States may be 
faced with from near peer competitors in an anti-access/area denial 
(A2/AD) environment, and to develop recommendations for capability 
improvement/development to mitigate those vulnerabilities. The RDA TF 
works closely with the IC, the acquisition community, and the research 
community to develop a broad range of system-of-system assessments 
(looking at current and future red and blue system interactions in an 
operational context across a 20-year timeframe) to identify potential 
vulnerabilities and then coordinate with analytic and/or developmental 
efforts across DOD to build recommendations for capability development 
efforts to mitigate the vulnerabilities.
    The SCO is spearheading efforts to cultivate cutting-edge concepts 
that could give U.S. Forces new advantages against sophisticated 
military adversaries. The SCO was established by AT&L in 2012 to 
conduct analysis in support of ongoing efforts to shape and counter 
emerging threats with emphasis on innovative and architecture-level, 
cross-service and cross-defense/intelligence concepts. The SCO's 
mission is to develop capabilities to shape, deter, or dissuade an 
adversary in pre-conflict operations and therefore focuses on impacts 
in the crisis phase and early conflict phase of an operation, whereas 
the RDA TF focuses on developing capabilities needed in the conflict 
phase of operations.
    Recently, the ASD(R&E) stood up an analytic cell to rapidly conduct 
analysis, from the physics and engineering level to the campaign level, 
which supports AT&L's efforts to develop capabilities to mitigate or 
defeat those current and emerging threats. The specific analytic 
efforts are identified and prioritized by the kill chain analysis work 
that is informed by the IC and emerging threats. The analytic cell then 
coordinates with the Military Departments and works with Federally 
Funded Research and Development Centers and University Affiliated 
Research Centers to carry out the analysis. The analysis, which is 
further informed by the IC and appropriate program offices, provides 
the objective basis for resourcing and cost/capability trade decisions.
    Although the Office of Technical Intelligence (OTI) has been 
established since before we began the efforts to address near peer 
military modernization efforts, we have reorganized it to improve our 
integration with the IC by bringing on a full time liaison officer from 
an intelligence agency that helps with the coordination and 
deconfliction with translating requirements between intelligence 
analysts and scientists and engineers, as well as keeping the 
capability developers informed of the latest military modernization 
efforts around the world. Additionally, OTI has an horizon scanning 
effort that identifies technologies that may lead to disruptive 
capability developments with the intent of developing means of 
exploiting those technologies either for development of a capability or 
to mitigate an adversary's use of those technologies.
    Throughout these organizations, the research and acquisition 
communities remain closely linked with the IC. This provides a two-way 
communication path for exchange of information and ideas that provide 
the capability developers with a more informed awareness of the 
technical capabilities a potential adversary is developing while 
providing the IC with a better understanding of the impact of 
technology on military capabilities.

    Senator Hagan. One of the things about this hearing that is 
exceptional is the fact that before us we have three highly 
qualified and distinguished women leading large and important 
technical organizations on behalf of the Nation. So, thank you.
    I worry that we're not doing enough to foster diversity 
within the overall DOD STEM workforce. A recent study by RAND 
estimated that the DOD STEM workforce was 76 percent white, 5 
percent Hispanic, and 72 percent male. For all the witnesses: 
Are there specific advantages to innovative organizations, like 
yours clearly are, to have a more diverse workforce, and what 
steps are you taking to increase the diversity of your STEM 
workforces?
    In the RAND study, I didn't see the division of the African 
Americans that were in the workforce.
    So Mr. Shaffer, do you want to start or the three women?
    Mr. Shaffer. First off, I think that report has it exactly 
right. I don't think that we are as successful as we need to be 
to bringing all aspects of American life into our laboratories. 
It takes time. This is one of the reasons I worry.
    Senator Hagan. It is 2014.
    Mr. Shaffer. I understand that. But that's one of the 
reasons I'm most worried about K through 12, because we can 
reach out and excite young boys and girls of all colors, all 
ethnic backgrounds, into science if they can do hands-on 
touching of it.
    I tend to agree. I'll let the ladies and Kevin talk, but I 
think we need to do more in making our workforce as diverse as 
possible, as representative of America as possible.
    Senator Hagan. Ms. Miller?
    Ms. Miller. In our outreach program we are looking at 
diversity, but in the broadest context, not just on ethnic 
backgrounds, but also on economic backgrounds as well, and 
bringing in this diverse school of thought. We are looking at 
how we then encourage. The statistics are that women tend to 
drop out in S&T. I don't understand that personally, but they 
do tend to drop off later in their education.
    One of the things that we try to do is to get them paired 
up with somebody that can help encourage them to stay in this 
kind of line-of-technology development. That is something I 
think is worthwhile to the enterprise itself, to help 
facilitate this.
    Senator Hagan. I'm going to interject here, that it would 
be, I think, very beneficial for DOD to have a strong focus on 
our military dependents, where they are, because it seems like 
that's a wonderful talent pool that we need to be bringing on 
board. We do lose young women in middle school.
    Ms. Lacey?
    Ms. Lacey. Ma'am, if I could? The Navy only has two DOD 
Education Activity schools that are located where our Navy 
laboratories are, and we go out of our way to reach out to them 
very strongly. One, of course, is at Dahlgren and the other one 
is at Quantico. We do enjoy those special relationships with 
the DOD schools.
    On the diversity writ large, let me just speak to the Navy 
laboratories. They tend to reach out locally in their 
community, and some of them are located in quite diverse 
communities. We have a tremendous outreach effort to the 
Hispanic community in southern California, and we have been 
very successful there in stimulating the population to consider 
the U.S. Navy as a career option.
    I agree with you, you can never do enough. It's important 
to note that the workforce of today was raised in the 1970s and 
1980s. If we want to influence the workforce 15 to 20 years 
from now, as Mr. Shaffer says, we really need to have that 
outreach in our K through 12 programs.
    Senator Hagan. Mr. Gooder?
    Mr. Gooder. Yes. Diversity is extremely important to the 
Air Force. We have a very vibrant minority leaders program.
    Senator Hagan. How about in the S&T area?
    Mr. Gooder. In the S&T area, we use the section 219 for a 
lot of workforce development activities, and we're looking at a 
current program with Reserve Officers' Training Corps that 
we're looking to get out. It's a specific program for 
electronic warfare cyber, to try to pull those folks into the 
pipeline so that we have diversity in that area. That looks 
very promising right now.
    We're also working with Mr. Shaffer's office on the STEM 
diversity campaign that Dr. Reginald Brothers, the Deputy 
Assistant Secretary of Defense for Research, is leading. In 
that area, we're looking to continue some of the materials 
camps, teachers materials camps that we're doing. One of those 
is at Howard University here in Washington, DC, that we're 
looking to host this summer. We think that that activity is 
going to be beneficial.
    Senator Hagan. Dr. Prabakhar?
    Dr. Prabhakar. I'd like to actually broaden this topic a 
little bit. In my venture capital life in Silicon Valley when I 
served on the boards of startup companies, a very typical board 
meeting looked like a junior United Nations because of the 
nations of origin that would be represented around the table. 
When I came back into the national security world, I knew it 
was going to look different, but it was really different.
    That actually caused me to go look recently to see what the 
percentage of our S&T workforce in the United States is that's 
foreign-born. I knew the numbers would be interesting, but even 
I was surprised. Over half of the Ph.D. engineers working in 
the United States were not born in the United States. About a 
third of master's degree engineers in the United States were 
not born in the United States.
    To me, that says two things. One is exactly the 
conversation we've been having, which is how do we get from 
across all of American society, how do we get more people to 
pursue these opportunities, which we all have just had the 
great pleasure of having these fulfilling careers in technical 
areas? I think that continues to be an important calling.
    At the same time, our country is so fortunate to get these 
amazing talents from around the world. It turns out I'm 
actually part of that foreign-born Ph.D. contingent. I came 
here when I was 3 years old, so it was my parents who made the 
immigrant decision, not me. Those people that made that choice 
to come to the United States to get an education, so many of 
them have stayed and have contributed in amazing ways, often 
only, though, to our economy, not as much to our national 
security.
    I think there are obviously valid reasons; that you have to 
think through security issues and figure out how you manage 
that. That is another place where I think DOD is not as fully 
tapping a very broad community that offers a great deal.
    Our university programs are one place where we have an 
important touchpoint with that much broader community.
    Senator Hagan. Where we've just cut $200 million.
    Dr. Prabhakar. That's a continuing issue. As I think you 
know, my understanding is that $6.1 actually had been in a 
somewhat more protected position in prior years. In a little 
bit broader context, I think it's still a vital and important 
part of what we do.
    My point is just that it's a two-way street, and when 
someone who's here working in a lab in a U.S. university, may 
have come from another part of the world, when they know about 
our country through the kind of work we can engage them in, 
that's something that actually can have very long-term national 
security implications. I think it strengthens us and it's 
another part of this conversation.
    Senator Hagan. I agree.
    I want to follow up, Mr. Shaffer. Since fiscal year 2010, 
the Historically Black Colleges and Universities (HBCU) program 
has been cut from $67 million down to $36 million. That's just 
from 2010. In your fiscal year 2015 budget the program is 
further reduced to $24 million. In 2010 it was $67 million, 
you're now proposing $24 million.
    Given our diversity and technical hiring challenges, this 
is disturbing. Given that the HBCUs educate roughly 20 percent 
of black science and engineering students, undergraduate 
students, why does this program have such a low priority and 
what steps can we take to strengthen the ties between DOD and 
our HBCUs?
    Mr. Shaffer. Regardless of what the numbers say, ma'am--and 
I want to take one thing for the record and get back to you--I 
don't think it has a low priority. I believe in fiscal year 
2010 there had been a previous decision. I think it was the 
Rothe decision, that didn't let us spend any money for 1 year 
in HBCUs.
    Senator Hagan. The Rothe decision?
    Mr. Shaffer. Yes, there was a protest on using Federal 
money to set aside for specific groups of people, for 
minorities, so we could not spend for a year.
    The appropriators then doubled our investment for 1 year so 
we'd have a steady stream. Traditionally, we've been at about 
$25 million to $35 million. Coming down to $25 million, hated 
doing it this year. We did it because we had across-the-board 
cuts.
    We've done something to focus the program this year. In 
fact, we're starting two Centers of Excellence. We've heard the 
people here at this table talk about how do we better use some 
of the levers. I want to help use the HBCU program to help 
universities graduate.
    Delaware State has graduated in mathematics. They have a 
Center of Excellence where now Delaware State Mathematics 
Department is as good as any in the country, maybe with the 
exception of Massachusetts Institute of Technology, but they're 
certainly as good as University of Vermont where I went. We're 
looking and we've gone out competitively for two more Centers 
of Excellence, where we're going to put $5 million into an HBCU 
to build a corpus of strength and see if that can start to have 
some schools graduate where they're competing across the entire 
Federal landscape.
    I wish I could tell you that we funded everything where we 
wanted to fund it, ma'am. There were very hard choices. HBCUs 
was one of the hard choices. Frankly, one of the things that 
led us there was that program was very late in obligating and 
executing money.
    [The information referred to follows:]

    The Historically Black Colleges and Universities and Minority 
Serving Institutions (HBCU/MI) program plays a pivotal role to 
strengthen research and educational opportunities at HBCU/MIs and 
increase number of minority graduates in science, technology, 
engineering, and mathematics disciplines critical to national defense. 
The program also allows the Department of Defense (DOD) to build a more 
diverse pool of scientists and engineers to meet future needs of 
defense-related programs.
    DOD has sponsored well-attended outreach activities for HBCU/MI 
universities. These include:

        -  An HBCU/MI National Conference on March 20 to 22, 2011, to 
        discuss the state of HBCU/MI participation in DOD programs, 
        describe areas of research interest, describe DOD funding and 
        laboratory research opportunities, provide networking 
        opportunities, and showcase HBCU/MI accomplishments. DOD had 
        over 295 participants (included HBCUs, MIs, Federal Government, 
        and industry).
        -  DOD sponsored a DOD-HBCU Workshop on May 20, 2012, to bring 
        together DOD Technical Officers and HBCU investigators to 
        discuss specified areas of research interest, including 
        breakout and one-on-one sessions, and the DOD process for 
        submission of white papers and proposals. The workshop included 
        40 participants from HBCUs and 7 DOD agencies.
        -  An HBCU/MI Webinar was conducted on August 28, 2013 for the 
        purpose of the Department to describe areas of DOD research 
        interest, provide information on how to locate DOD funding 
        opportunities, and explain the DOD contracts, grants, and 
        agreements business process. We had 310 participants from 
        HBCUs/MIs universities.

    Future outreach activities include:

        -  An HBCU/MI Webinar scheduled for May 28, 2014. The purpose 
        of the webinar is to discuss areas of DOD research interest, 
        particularly Centers of Excellence topics, to answer questions 
        and provide information about other funding opportunities.
        -  An HBCU/MI Workshop is being organized for the fall of 2014 
        for the purpose of bringing together DOD Technical Officers and 
        HBCU/MI investigators to discuss areas of research interest and 
        encourage participation in DOD research opportunities.

    From a funding perspective, the President's budget requests for 
HBCU/MIs have been relatively flat from fiscal years 2009 to 2014. 
Increases to HBCU/MI program were a result of congressional action 
except in fiscal year 2014, where the Department increased HBCU/MI core 
program to fund three Centers of Excellence. See following table.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Hagan. Why?
    Mr. Shaffer. We're going through a root cause analysis 
right now, but we get billed very late. We've had some program 
management that may not be where I want it to be. Any number of 
reasons.
    Senator Hagan. It seems like we shouldn't be penalizing the 
students who attend these universities. I think maybe better 
oversight from DOD could make a big difference.
    When we're cutting at HBCUs in this time, when you look 
around this room, the need for diversity, we should be doubling 
those funds instead of cutting them. I think diversity brings 
so much to the table when we're talking about all areas.
    Mr. Shaffer. Yes, ma'am.
    Senator Hagan. I would like to see what steps we can take 
to strengthen the tie between DOD and HBCUs. I have a number of 
HBCUs in North Carolina, 10 of them.
    Mr. Shaffer. You have very good ones.
    Senator Hagan. I know we do. I remember one time when I was 
talking to one of the generals and asked where they recruited 
for S&T. They did not recruit at North Carolina A&T. I asked 
him to specifically go there. I think things like that, where 
you actually go and recruit at HBCUs and be a face and 
actually, obviously, support from a financial perspective, too, 
will help.
    Mr. Shaffer. Yes, ma'am.
    Senator Hagan. Let me ask about the S&T support missions at 
some of our bases. As we try to advocate for these research 
efforts, it's always helpful to note specific examples of our 
S&T accomplishments and how real capabilities have been 
delivered to operational units. We have two very large military 
installations in my State, Camp Lejeune and Fort Bragg. Our 
82nd Airborne Division and the Second Marine Expeditionary 
Forces have challenging and technologically-rich missions. I'm 
interested in how the S&T enterprise supports these missions.
    Ms. Lacey, I understand you have the oversight over the 
Marine Corps S&T programs. Can you give me some of the specific 
R&D efforts that you're undertaking for supporting the mission 
of our marines?
    Ms. Lacey. Ma'am, yes, the Navy does oversee and make 
investments for the Marine Corps in S&T. Let me give you a 
recent example. Paint is a big problem for the Marine Corps, 
not just the corrosion problem, but we paint everything. If it 
doesn't move, we paint it, right. If it does move, we paint it.
    Paint scratches, things rust, they deteriorate, and the 
equipment is no longer protected. We've recently developed a 
self-healing paint. I'll be honest with you, I wish I had it on 
my car. It's a self-healing paint, so that if it scratches it 
reassembles itself, the molecules in the paint, so it heals the 
scratch until we can get it to a more permanent repair.
    We've been working on that in the S&T world for a while. 
We've taken it out, we've demonstrated it, and we're getting 
ready to transition it next year into the Marine Corps Joint 
Light Tactical Vehicles. We're pretty excited about that sort 
of thing.
    Senator Hagan. Explain to me the importance and 
significance of that.
    Ms. Lacey. It reduces the amount of work that the Marine 
Corps has to do to maintain their equipment. We've reduced the 
corrosion. They don't need to bring those vehicles back in, 
totally take them apart, strip the paint off, repaint them to 
get a complete coating on them. It's a big money-saver.
    If we put it on all of our Marine Corps vehicles, we expect 
that we could save upwards of several hundred million dollars a 
year.
    Senator Hagan. That would be great going to our HBCUs.
    Ms. Lacey. Yes, ma'am.
    Senator Hagan. Thank you.
    Ms. Miller.
    Ms. Miller. We have a couple of near-term examples that 
we've been using. One of the things that the Army does in 
support of our airborne expeditionary missions is we're looking 
at how we get better and less weighty soldier power solutions. 
We've done a lot of the base development of technology at the 
Army Research Laboratory, at our Communications-Electronics 
Research, Development, and Engineering Center, and then at our 
Soldier Research, Development, and Engineering Center, coupled 
with the PEO soldier, who actually has been able to field our 
technology, which has been very effective. We did a lot of this 
in Afghanistan.
    You'll hear about things that we did in fielding 
conformable, wearable batteries that have been 2.3 pounds, but 
ergonomic to fit to the soldier himself, make it much easier 
for him to do his mission, and not be constrained by all these 
boxes that we hung around his waist.
    We have done a universal battery charter that you'll see 
PEO soldier has made into a program of record. That allows us 
to take any kind of battery and charge out of one capability. 
We can plug in any battery and recharge it there, which has 
been useful.
    We do a lot of airdrop technology, which, of course, is 
very relevant to the 82nd. We are in development right now of 
an automatic actuation device to make sure that the static line 
parachutes in the T-11 and the MC-6, if the paratrooper's chute 
doesn't work and their reserve chute, they don't pull it or 
aren't in a capacity to pull it, it will automatically pull 
itself, to make sure that our paratrooper is okay.
    Then just from the fundamental perspective, we're looking 
at how we can get more expeditionary mobile firepower for the 
82nd. This is something we've been doing with our Maneuver 
Center of Excellence: How can we give them capability that is 
expeditionary and then gives them lethality and protection 
while they're doing their mission?
    Those are just some of the things in the broad category of 
area that we've been working.
    Senator Hagan. Those all sound great. Thank you.
    Let me move to a question on the Rapid Innovation Program. 
Over the past few years we've added funds to the DOD budget for 
this program. It was intended to support programs that move 
technology out of the labs and small businesses and into the 
hands of the acquisition programs and warfighters more 
seamlessly.
    I understand that we're still awaiting some assessments and 
how funded projects are progressing. Mr. Shaffer, what is your 
assessment of the quality of the areas being funded and the 
proposals being received under the Rapid Innovation Program? Do 
the topic areas and proposals represent ideas of importance and 
interest to DOD?
    Mr. Shaffer. Yes, ma'am, I think that the quality has been 
good. I think that we are working on the right things, because 
all of us work with our Rapid Innovation Program funding 
managers to go out for our highest priorities. We held a 
review, I want to say it was the 28th of either February or 
March. We're just now getting to the end of completion of the 
first year's funding. So projects are coming through. Right now 
it looks like about 50 percent of the projects are going into 
some type of transition to program of record.
    Senator Hagan. When you say the first year's funding?
    Mr. Shaffer. Yes, ma'am. I want to say it was 2012 or 2013 
start, but remember there was a long Continuing Resolution, so 
we didn't get the money until the end of the year. Then we had 
to go competitive. We got the money for fiscal year 2012 out 
the door at the end of fiscal year 2013. It's 2-year money. 
Those projects now are just ending.
    In fact, we've only completed four or five projects total. 
It looks like our pickup rate's going to be about 50 percent. 
That is about the same percentage of transition as the 
traditional small business innovative research program.
    We're working with that office to see, are there things 
from both programs we can bring together to improve both 
programs? Frankly, it's too early to tell you whether or not 
the program adds additional value, and even if it did, we'd 
have to get to a more stabilized funding stream before we can 
take on that size chunk of program, ma'am.
    Senator Hagan. Okay. Ms. Miller, Ms. Lacey, and Mr. Gooder, 
each of your Services are managing funds under this program 
also. Do you have any early assessments on the value of the 
program in terms of its abilities to support real service 
needs?
    Ms. Lacey. Ma'am, the fiscal year 2011 new starts were 
restricted to urgent needs, which is certainly important. So 
many urgent needs that were coming in from DOD, the actual need 
was not necessarily a program of record for this response to 
answer to. So we're still working through those transitions 
where it was a response to an urgent need.
    We've only finished two of them so far, and I believe, like 
Mr. Shaffer, that it's premature to judge the entirety of the 
program based on a data point of two from a large number.
    Senator Hagan. Mr. Gooder?
    Mr. Gooder. Yes, we actually have a success story out of 
the Rapid Innovation Program. Out of 2011, we developed a hand-
held instrument for quality assurance on surface preparation 
processes used in the F-35, in manufacturing the F-35. 
Currently, those processes require manual testing of 30,000 nut 
plates on each plane to ensure correct bonding of materials. So 
the current failure rate is about 1 percent or 300 netplates, 
and each failure requires individual repreparation and 
rebonding with supervisory oversight.
    The Rapid Innovation Program, the project, the hand-held 
device that we've developed, it's going to significantly reduce 
the failure rate of those bonded net plates. We've had about 
2,200 proposals out of the Rapid Innovation Program. There's a 
great response from industry over the last few years. We really 
view it as us being able to get out there and tell industry 
what our problems are and their responding.
    We think it's going to turn out well for the Air Force.
    Senator Hagan. Ms. Miller, what are your thoughts on this 
program?
    Ms. Miller. Ma'am, like the others, I would tell you it's 
too early to really say whether this has paid off. The Army, my 
predecessor, had established this program to do a slightly 
different focus, where we were looking at getting industry to 
look at our enduring challenges. The Army has a standard set of 
challenges. We're always looking for better force protection, 
lighter weight soldier gear. We're looking for timely mission 
command and the list goes on.
    We had sent that out as the enduring challenge set that we 
wanted industry to respond to. The goodness of this program is 
we saw outreach to industries that we hadn't seen before, so it 
was touching a different category of responders, and they came 
in with interesting ideas. It also aligns well to our S&T 
program, so when we look at the 48 fiscal year 2011 contracts 
that were let, about 38 are looking, I'll say, green, because 
they're aligned to where S&T is going anyway. It gives us an 
alternative path, an option, that we would then spin into 
something that will eventually go into a program of record.
    We've been looking at how we're now shifting our focus to 
try to get those transitions to acquisition and bring in more 
ideas like that as we go out into this fiscal year 2014 data 
call.
    Senator Hagan. We are running out of time. Ms. Miller, in 
your written testimony you indicated that over the years the 
rigid and insular nature of the defense laboratories have 
caused an erosion of the synergy that's critical to the 
discovery, innovation, and transition of S&T that's important 
to national security. My concern is what forces do you think 
made the DOD labs become rigid and insular? Maybe you can just 
spend a minute, and then you can give me a written response.
    Ms. Miller. I can give you a written response.
    Senator Hagan. Sorry. Yes, okay, let's just do that.
    [The information referred to follows:]

    Over the past 60 years there have been many organizational changes 
and consolidations throughout the Department of Defense; however, the 
research laboratory structure and operation have not changed. Policies 
related to physical and information security and personnel rules have 
led our labs to become rigid and insular. In particular, physical and 
information security rules make collaboration with universities and 
industry partners that have evolved with changing research and the 
economic environment more difficult, and make direct collaboration with 
foreign nationals nearly impossible. The erosion of the university/
industry/government lab synergy that is vital to the discovery, 
innovation, and transition of science and technology critical to 
national security is a direct result of these policies. Additionally, 
civil service personnel policies make it difficult for researchers to 
move from one lab to another, or move from government service to 
academia, or industry and back again.
    The globalization of technology requires novel and new 
collaboration mechanisms that will reenergize the university/industry/
government lab synergy. The pace of technological change from 1990 to 
2013 far exceeds the technology pace observed from 1950 to 1990 and 
will more than likely continue to increase beyond 2013.
    An example of that renewed collaboration is the Army Research 
Laboratory's (ARL) Open Campus concept, which I described in my written 
testimony. Through the Open Campus framework, ARL scientists and 
engineers will work collaboratively and side-by-side with visiting 
scientists, including foreign nationals, in ARL's facilities, and as 
visiting researchers at collaborators' institutions. The global 
academic community, industry, small businesses, and other government 
laboratories benefit from this engagement through collaboration with 
ARL's specialized research staff and unique technical facilities. These 
partnerships will build research networks, explore complex and singular 
problems, enable self-forming expertise-driven team building that will 
be well-positioned for competitive research opportunities, and expose 
science and engineering students to realistic research applications and 
perspectives, helping to ensure our Nation's future strength and 
competitiveness in these critical fields.

    Senator Hagan. Back on the Rapid Innovation Program, if any 
of you have recommendations for this subcommittee to consider 
as we review the program and its benefits, I'd like to see 
those, too.
    I appreciate, Mr. Shaffer, you and DOD with our S&T and all 
of the other individuals and witnesses here and what you do for 
your divisions. So please know that we are open, would love to 
hear further elaboration of any of the questions we asked or 
didn't ask today. We'd like to see that.
    I just wanted to be sure that Mr. Kendall knows that we 
need to have a Secretary of Defense for Research and 
Engineering. I wanted to be sure we noted that.
    Thank you very much for your testimony today. This hearing 
is adjourned. Thanks.
    [Whereupon, at 3:45 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Kay R. Hagan
section 1107 of the national defense authorization act for fiscal year 
                                  2015
    1. Senator Hagan. Ms. Miller, Ms. Lacey, and Dr. Walker, what is 
the status of implementation of the authorities and flexibilities of 
section 1107 of the National Defense Authorization Act (NDAA) for 
Fiscal Year 2014?
    Ms. Miller. The Department of Defense (DOD) has developed a Federal 
Register Notice (FRN) implementing most of the flexibilities contained 
within section 1107 of the NDAA for Fiscal Year 2014. The FRN has been 
reviewed through the Army and is currently within the office of the 
Assistant Secretary of Defense for Personnel and Readiness (ASD(P&R)). 
Pending ASD(P&R) review, the FRN will be published and the 
flexibilities can be used by all of the DOD Science and Technology 
Reinvention Laboratories (STRL). The flexibility authorized in section 
1107(h) is not included in the FRN and is currently being reviewed 
within the Army to see how to implement it within the bounds of other 
legislation related to civilian personnel.
    Ms. Lacey. Section 1107 authorities fall broadly in two categories: 
appointments and management.
    DOD is in the process of preparing a FRN that would regulate the 
Direct Hire Authority (section 1107(a)) and Senior Scientific Technical 
Manager (section 1107(f)) positions by the STRLs across the components. 
This FRN is currently with DOD(P&R) for coordination. Once it has been 
fully vetted through DOD, it will be submitted for publication. The 
Assistant Secretary of the Navy (Manpower and Reserve Affairs) and 
Deputy Assistant Secretary of the Navy (Civilian Human Resources) will 
issue deployment protocols to make the authority available to STRL 
directors.
    Section 1107(h) Exclusion from Personnel Limitations pertains to 
the management of personnel. Section 1107(h) notes that STRL directors 
shall manage workforce strength, structure, positions, and compensation 
in a manner consistent with the budget available for the STRL. 
Generally, these authorities are a feature of the Navy Working Capital 
Fund operating model and were already available to Navy STRLs. The 
Secretary of Defense has determined that section 955 of NDAA for Fiscal 
Year 2013 overrides section 1107(h). As such, the Office of the 
Secretary of Defense (OSD) established budget targets for the 
Department of the Navy, which flowed in turn to the STRLs. These budget 
targets apply an indirect restriction on workforce size.
    Dr. Walker. Section 1107 of the NDAA for Fiscal Year 2014 provides 
valuable hiring authorities for the Air Force Research Laboratory 
(AFRL). We appreciate the support Congress has provided to our 
laboratory in this regard.
    The Air Force is currently working with OSD on implementation 
guidance for the authorities in section 1107. Once the implementation 
guidance is released by OSD, Air Force approval authorities will 
coordinate on Air Force-specific guidance and provide it to AFRL. The 
laboratory will benefit greatly once able to fully utilize the flexible 
authorities.

            science and technology reinvention laboratories
    2. Senator Hagan. Ms. Miller, Ms. Lacey, and Dr. Walker, who in 
your Service is the lowest level decisionmaking authority to authorize 
the lab directors of STRLs to use the authorities as intended by this 
subcommittee?
    Ms. Miller. The flexibilities authorized in section 1107 of the 
NDAA for Fiscal Year 2014 need to be codified within a FRN before they 
can be adopted by the STRLs. The lowest level of decisionmaking 
authority within the Army for the FRN is the Assistant Secretary of the 
Army for Manpower and Reserve Affairs; however, the FRN still needs 
approval from the office of the ASD(P&R) prior to being published.
    Ms. Lacey. Section 1107(a) Authority to make Direct Hire: Once the 
FRN is published, this authority will be available for use across the 
STRLs and Assistant Secretary of the Navy (Manpower and Reserve 
Affairs) and Deputy Assistant Secretary of the Navy (Civilian Human 
Resources) will issue deployment protocols.
    Section 1107(h) Exclusion from Personnel Limitations pertains to 
the management of personnel. Section 1107(h) notes that STRL directors 
shall manage workforce strength, structure, positions, and 
compensation, consistent with budget available for the STRL. Generally, 
these authorities are a feature of the Navy Working Capital Fund 
operating model and were already available to Navy STRLs.
    Dr. Walker. The hiring authorities detailed in section 1107 of the 
NDAA for Fiscal Year 2014 have not yet been delegated to the lowest 
level Air Force decisionmaking authority.
    The Air Force is currently working with the OSD on implementation 
guidance for the authorities in section 1107. Once the implementation 
guidance is released by OSD, Air Force approval authorities will 
coordinate on Air Force-specific guidance (including lowest level 
decisionmaking authorities) and provide it to AFRL.

               science, technology, engineering, and math
    3. Senator Hagan. Ms. Miller, Ms. Lacey, and Dr. Walker, what is 
the advantage to your lab or other science and technology (S&T) 
organizations' performance to having a more diverse science, 
technology, engineering, and mathematics (STEM) workforce?
    Ms. Miller. Diversity and inclusion yield more diverse and 
innovative ideas. A wider range of experiences, knowledge, and cultural 
backgrounds yields a wider range of potential solutions and 
capabilities. Our soldiers benefit when people are looking at the 
challenges they face with a perspective that is reflective of the 
market we serve.
    Specific benefits include:

        <bullet> Diversity allows organizations to more closely mirror 
        their customer base and understand their complex concerns.
        <bullet> Diversity and inclusion present a positive environment 
        for attracting the best talent and encouraging employee growth 
        in social/cultural awareness.
        <bullet> Diversity enriches the employee experience.
        <bullet> Diversity is good for generating S&T-based 
        capabilities because it brings in a greater breadth of ideas 
        from which the best can be selected.

    Ms. Lacey. The Navy S&T organizations rely on the expertise and 
innovative capacity of the STEM workforce to avoid technology surprise 
and to develop our own new offensive and defensive capacity. Bringing 
together scientists and engineers with different qualifications, 
backgrounds, and experiences enables effective problemsolving on the 
job. Similarly, diversity breeds creativity and innovation. A diverse 
STEM workforce is critical to maintaining the flow of a broad set of 
perspectives and backgrounds to support the generation of the widest 
possible range of scientific and engineering ideas and solutions.
    Dr. Walker. Air Force capabilities in our laboratories and S&T 
organizations are enhanced by diversity among its personnel. At its 
core, diversity provides our Total Force an aggregation of strengths, 
perspectives, and capabilities that transcend individual contributions. 
Air Force personnel who work in a diverse environment learn to maximize 
individual strengths and to combine individual abilities and 
perspectives for the good of the mission. Our ability to attract a 
larger, highly-talented, diverse pool of applicants for service in our 
S&T organizations, both military and civilian, and develop and retain 
our current personnel will positively impact our future Total Force.
    Air Force decisionmaking and operational capabilities are enhanced 
by diversity among its airmen, uniformed and civilian, helping make the 
Air Force more agile, innovative, and effective. It opens the door to 
creative solutions to complex problems and provides our Air Force a 
competitive edge in air, space, and cyberspace. Diversity includes and 
involves all of us. It strengthens the United States and gives the Air 
Force a decisive advantage as we engage globally.

    4. Senator Hagan. Mr. Shaffer, Dr. Prabhakar, Ms. Miller, Ms. 
Lacey, and Dr. Walker, what is the benefit of a more diverse STEM 
workforce to DOD?
    Mr. Shaffer. Increased diversity will yield important benefits to 
DOD, including providing a technical workforce with a broad range of 
perspectives and capabilities from which DOD can draw to develop 
mission critical defense systems for national security. A diverse DOD 
workforce acts as a driving force for achieving a sustainable, 
technologically capable workforce for current and future defense needs.
    DOD workforce diversity remains a mission critical imperative for 
DOD.
    Dr. Prabhakar. Innovative thinking--thinking outside the 
mainstream--is at the heart of all technological advancement, and one 
of the best ways to make sure the United States is maximizing the 
diversity of ideas for consideration and integration into our S&T 
enterprise is to broaden the net and capture ideas from the most 
diverse collection of people. Put differently, people with different 
life experiences and world views will come up with different solutions 
to problems. This was the number one finding of a recent Forbes report 
based on a survey of more than 300 executives at enterprises around the 
world with revenues greater than $500 million each (in fact, 40 percent 
of the companies had revenues of more than $5 billion annually): 
Fostering Innovation Through a Diverse Workforce: http://
images.forbes.com/forbesinsights/StudyPDFs/Innovation--Through--
Diversity.pdf.
    This is not just an ``obvious'' idea. A growing scholarly 
literature appears to confirm this correlation: Does a different view 
create something new? The effect of employee diversity on innovation: 
http://www.sciencedirect.com/science/article/pii/S0048733310002398.
    In addition, a December 2013 Harvard Business review study found 
that more diverse companies out-innovate and out-perform others. How 
Diversity Can Drive Innovation: http://hbr.org/2013/12/how-diversity-
can-drive-innovation/ar/1.
    Simply put, diversity unlocks innovation.
    Ms. Miller. The Army and our soldiers are a diverse community with 
wide ranging needs for scientific and technical capabilities in combat, 
tactical situations, training scenarios, sustainment, and logistics. 
Our research capabilities need to be representative of the stakeholders 
we serve and their needs so that we may better understand the 
environment in which they serve. A more diverse STEM workforce brings a 
broader mix of ideas, skills, and approaches to provide those 
technology-based capabilities.
    Ms. Lacey. DOD, in general, and the Department of the Navy in 
particular, rely on the expertise and innovative capacity of the STEM 
workforce to avoid technology surprise and to develop our own new 
offensive and defensive capacity. Bringing together workers with 
different qualifications, backgrounds, and experiences are all key to 
effective problem-solving on the job. Similarly, diversity breeds 
creativity and innovation. A diverse STEM workforce is critical to 
maintaining the flow of a wide range of perspectives and background to 
support the generation of the most comprehensive and capable set of 
innovative warfighting technologies.
    Dr. Walker. Diversity is a strategic imperative, critical to 
mission readiness and accomplishment, and a leadership requirement. As 
the global threat environment continues to evolve, the DOD Total Force 
will confront complex, asymmetric operational environments, and 
unconventional tactics, necessitating full employment of all DOD 
assets. A diverse STEM workforce allows DOD to meet these challenges 
and thrive in the face of opposition.
    We defend the greatest nation in the world--a democracy founded on 
the promise of opportunity for all. It is a nation whose demographic 
makeup parallels the environment in which we live--continually 
changing--and DOD must change to maintain and sustain its future 
forces. To the degree we truly represent our democracy, we are a 
stronger, and more relevant force. The Air Force views diversity as a 
strategic imperative. Diverse backgrounds and experiences bring 
inherently different outlooks and ways of thinking, the key to 
innovation in organizations as well as our success in the STEM 
community. We gain a strategic advantage by leveraging the diversity of 
all members and creating an inclusive environment in which each member 
is valued and encouraged to provide ideas critical to innovation, 
optimization, and organizational mission success.

    5. Senator Hagan. Mr. Shaffer, Dr. Prabhakar, Ms. Miller, Ms. 
Lacey, and Dr. Walker, what ideas do you have for the committee to 
consider to promote diversity in the DOD STEM workforce?
    Mr. Shaffer and Dr. Prabhakar. DOD has launched a collaborative, 
DOD-wide STEM Diversity Campaign (SDC) to foster awareness, build 
skills, and widen pathways into DOD's technical workforce to enhance 
diversity. Support of this effort will assist in promoting diversity in 
the DOD STEM workforce.
    DOD's SDC has identified priority areas including driving home the 
DOD commitment to diversity to internal as well as external audiences 
through ``30 Under 30'' role models; creating pathways into DOD 
laboratories; and engaging DOD in a national mentoring initiative, 
Million Women Mentoring. These initiatives, among others, will serve to 
foster awareness, build skills, and widen pathways into DOD's technical 
workforce to enhance diversity.
    Ms. Miller. To promote diversity in the STEM workforce, we must 
first build a broad, diverse STEM talent pool from which to hire that 
workforce. We need investment in efforts to increase STEM literacy--
having the knowledge and skills to be competent in using STEM methods 
and tools--outside more traditional venues in order to recruit, 
develop, and retain diverse talent. We need investments in initiatives 
that lay a foundation for competitiveness from underserved communities 
and it needs to begin in the formative years, while students are in 
elementary school and haven't yet been taught to be afraid of STEM or 
haven't already lost interest or confidence in building their STEM 
skills. We must integrate building diversity as an integral part of our 
workforce initiatives rather than a subset that works in parallel to 
workforce initiatives. At a time when scientific and engineering 
capabilities help improve lives and rebuild our economy, we must reach 
and retain the best possible talent instead of limiting ourselves to 
the most accessible talent from the traditional STEM talent pool. This 
requires long-term, strategic, and sustainable investment.
    One idea we use within the Army Educational Outreach Program is to 
use a pipeline of programs to help build diversity in the talent pool 
beginning at an early age (grades 4-5), continuing with our UNITE 
initiative--a 4- to 6-week, pre-collegiate summer program for talented 
high school students from groups historically underrepresented and 
underserved in STEM and the Research in Engineering Apprenticeship 
Program--a summer program that places talented high school students 
from that same population in research apprenticeships at colleges and 
universities.
    Ms. Lacey. DOD has a number of excellent programs in place to 
promote a robust STEM workforce pipeline, including internships, 
scholarships, and specialized training programs. Rather than creating 
new programs, we believe that a better solution would be to grow or 
expand existing programs to accommodate additional young people, 
particularly underrepresented populations.
    Dr. Walker. I recommend the subcommittee support the efforts of the 
SDC, a DOD effort. The objective of the SDC is to foster awareness, 
build skills, and widen pathways into DOD's technical workforce for 
women and underrepresented minorities. The SDC highlights work 
accomplished across the Nation where DOD has a significant S&T 
presence. The SDC encourages the Services already embedded in S&T areas 
to engage with diverse communities.
    For example, the Air Force has partnered with the SDC to support 
the American Society for Metals (ASM) Materials Teacher Camp which will 
take place this summer at Howard University in Washington, DC. The ASM 
Materials Teachers Camp invites teachers who work in underrepresented 
communities and teaches them how to use low-cost, simple labs and 
experiments using everyday materials. In turn, the teachers can 
integrate the skills they have learned into lesson plans to engage and 
excite future STEM leaders in their classrooms.

                               minorities
    6. Senator Hagan. Mr. Shaffer, Dr. Prabhakar, Ms. Miller, Ms. 
Lacey, and Dr. Walker, what recommendations do you have to increase or 
improve engagement between DOD and Historically Black Colleges and 
Universities, and Minority Institutions (HBCU/MI)?
    Mr. Shaffer and Dr. Prabhakar. We believe that the statutory 
authorities in place will adequately support initiatives aimed at 
improving engagements. In addition to webinars and workshops for HBCU/
MI, we are engaging with senior management of the DOD components to 
develop strategies for ensuring that our research program is more 
inclusive. HBCU/MI and their principal investigators (PI) need an 
incentive to leave the comfortable environment created by the OSD 
program and any other funding opportunities that are reserved for HBCU/
MI, and they need encouragement to compete with other institutions of 
higher education across all DOD programs. We need to look at providing 
some form of preference that may allow funding of a technically 
meritorious proposal that may not otherwise be funded based on 
available funding. This would have the dual benefit of freeing up 
program funds reserved for HBCU/MI for additional HBCU/MI and PI and 
providing greater probability of success in competition with other 
institutions of higher education.
    Ms. Miller. We should continue to more fully utilize our ongoing 
efforts and initiatives to be inclusive and invigorate our relations 
with HBCU/MI--through our relationships as research partners in our 
university-based centers, through Educational Partnership Agreements, 
by fostering internships for HBCU/MI students in both our labs and our 
academic partners, and by including HBCU/MI faculty members on our 
evaluation panels.
    Ms. Lacey. Currently, Navy is expanding its outreach to HBCU/MI 
with a number of initiatives. We are encouraging white paper 
submissions by HBCU/MI institutions in response to DOD/Office of Naval 
Research (ONR) Broad Area Announcements and Funding Opportunity 
Announcements; site visits to HBCU/MI campuses to observe project 
progress and make recommendations for funded projects such as DOD 
Centers of Excellence; briefings to HBCU/MI faculty regarding DOD/ONR 
programs and opportunities that are available to academic institutions, 
including HBCU/MI; and ONR conference and event support that heightens 
awareness of ONR programs that are available to academic and research 
opportunities at HBCU/MI, including: the National Society of Black 
Engineers Conference, the Hispanic Association of Colleges and 
Universities Conference and Forum, and the Hispanic Engineer National 
Achievement Awards Conference.
    Recommendations for further engagements are as follows: (1) 
Increase efforts to ensure the inclusion of HBCU/MI faculty on DOD 
review panels and other advisory boards; (2) Include specific language 
in Broad Agency Announcements, Funding Opportunity Announcements, and 
other solicitations aimed at increasing the recruitment and retention 
of HBCU/MI students; and, similarly, (3) Encourage the creation of 
programs that will recruit, reward, and retain effective HBCU/MI 
faculty.
    Dr. Walker. I recommend the subcommittee continue to support 
innovative programs such as the Air Force Minority Leaders Program. 
Congress has been a great partner to the Air Force Minority Leaders 
Program, for which we are very appreciative.
    The Minority Leaders Program began in 2005 and integrates HBCU/MI 
in efforts across the AFRL enterprise. Through the Minority Leaders 
Program, a diverse group of students, faculty, scientists, and 
engineers build lasting relationships with the Air Force to conduct 
scientific research and create and encourage diversity in the STEM 
workforce.

    7. Senator Hagan. Mr. Shaffer, Dr. Prabhakar, Ms. Miller, Ms. 
Lacey, and Dr. Walker, how are you currently engaging HBCU/MI?
    Mr. Shaffer and Dr. Prabhakar. Within the OSD, we continue to work 
on two fronts to engage with HBCU/MI-internally within DOD and directly 
with HBCU/MI.
    As part of our longer-term strategy, we are engaged in outreach 
efforts that explain the DOD business processes to potential 
investigators and provide information on areas of research interest to 
DOD. We conducted a hands-on workshop for HBCU in May 2012, and used a 
webinar format in August 2013 with over 300 individuals representing 97 
HBCU/MI. We also make additional efforts to ensure that DOD staff is 
familiar with the capabilities of HBCU/MI.
    We continue to encourage HBCU/MI to compete for funding 
opportunities and to undertake to ensure that DOD staff consider HBCU/
MI faculty for opportunities at DOD that go beyond funding. For 
example, we have encouraged the DOD components to provide opportunities 
for faculty HBCU/MI, to participate in research at DOD laboratories 
through the Intergovernmental Personnel Act.
    Ms. Miller. The Army currently engages HBCU/MI through several 
initiatives and methods. We currently fund five Centers of Excellence 
at various HBCU under the Partnerships in Research Transitions (PIRT) 
program. These centers are located at Howard University-Language and 
Computer Science, Howard University-Engineering, Delaware State 
University, Hampton University, and North Carolina A&T University. The 
PIRT program's principal objective is to enhance programs and 
capabilities of a select number of high-interest scientific and 
engineering disciplines through Army-relevant, topic-focused, near-
transition-ready innovative research. Last summer, 13 PIRT interns were 
placed at the Amy Research Laboratory. Additionally, we have HBCU/MI 
partners as members of the Army High Performance Computing Research 
Center; the Automotive Research Center; and the Micro Autonomous 
Systems Technology, Robotics, and Network Science Collaborative 
Technical Alliances.
    Our labs and centers also conduct targeted outreach to the Grants 
and Sponsored Programs offices of HBCU/MI to provide awareness of all 
funding opportunities, including the core Broad Agency Announcements. 
Program managers proactively provide notice and information to 
interested parties about HBCU/MI funding opportunities.
    Beginning in fiscal year 2013 and continuing this year, we have 
made use of multiple Educational Partnership Agreements with 
educational institutions to transfer and/or enhance technology 
applications and provide technology assistance (including equipment 
loans and surplus donations) and curriculum development for all levels 
of education. We also utilize HBCU/MI faculty members to serve as 
evaluators for our core research proposals.
    Ms. Lacey. Currently, the ONR HBCU/MI program is focused on 
strengthening its portfolio by encouraging a greater research capacity 
at these institutions. While looking at ways to accomplish this, we are 
also working to make better connections between the HBCU/MI students 
and our array of internship and scholarship programs that already 
exist. To augment its goal, the ONR HBCU/MI portfolio has significant 
programs in place that include: the ONR Summer Faculty Research 
Program, which provides science and engineering (S&E) faculty members 
with the opportunity to participate in research at naval labs for a 10-
week period during the summer; the Faculty Sabbatical Leave Program, 
which provides S&E HBCU/MI faculty the opportunity to conduct research 
at naval laboratories while on sabbatical leave; and the Naval Research 
Enterprise Internship Program, which provides opportunities for HBCU/MI 
undergraduate students to participate in research under the guidance of 
a research mentor at a participating naval lab for 10 weeks during the 
summer.
    We are also encouraging white paper submissions by HBCU/MI 
institutions in response to DOD/ONR Broad Area Announcements and 
Funding Opportunity Announcements; site visits to HBCU/MI campuses to 
observe project progress and make recommendations for funded projects 
such as DOD Centers of Excellence; briefings to HBCU/MI faculty 
regarding DOD/ONR programs and opportunities that are available to 
academic institutions, including HBCU/MI institutions; and ONR 
conference and event support that heightens awareness of ONR programs 
that are available to academic and research opportunities at HBCU/MI 
institutions, including: the National Society of Black Engineers 
Conference, the Hispanic Association of Colleges and Universities 
Conference and Forum, and the Hispanic Engineer National Achievement 
Awards Conference.
    Dr. Walker. The Air Force engages HBCU/MI primarily through our 
Minority Leaders Program. The Minority Leaders Program began in 2005 
and successfully integrates HBCU/MI across the AFRL enterprise. Over 
475 students and 100 professors have participated since the beginning 
of the program.
    The Minority Leaders Program establishes collaborative research 
partnerships between AFRL, academia, and industry to develop critical 
technologies to support the warfighter in more than 25 schools in 11 
States. The method of collaboration begins with pairing an HBCU/MI with 
a mentor university within close proximity to the college or 
university. This pairing enables efficient use of technical talents, 
leadership, and resources that enhance the efforts performed at the 
HBCU/MI.

                           military children
    8. Senator Hagan. Mr. Shaffer, Dr. Prabhakar, Ms. Miller, Ms. 
Lacey, and Dr. Walker, what ideas do you have to increase the DOD S&T 
community's engagement with military children, especially to enhance 
their access to high quality STEM educational opportunities and 
experiences?
    Mr. Shaffer and Dr. Prabhakar. There are several initiatives to 
increase the DOD S&T community's engagement with military children, 
especially to enhance their access to high quality STEM educational 
opportunities and experiences. These initiatives include partnerships 
with DOD/Federal S&T professionals (both civilian and military) for 
school-based and after school activities to use expertise from DOD/
Federal facilities and laboratories to stimulate STEM experiences.
    In addition, we are looking at increasing direct outreach 
activities at schools near DOD S&T facilities; in this case, our 
researchers can visit schools to let students know the value of STEM
    This will not be a quick fix but rather a long-term commitment to 
increase participation in STEM activities for military children. While 
this is not a simple problem, we will continue to explore opportunities 
for our DOD dependents.
    Ms. Miller. Where we can reach them (geographically), we can 
utilize our existing assets--our laboratories and STEM professionals--
to provide STEM opportunities to our military family dependents. The 
challenge is, the Army's STEM assets aren't geographically aligned to 
the bulk of our military families which limits the use of our strongest 
STEM capabilities and our ability to provide authentic real-world 
hands-on experiences to students under 18. Through the Army Educational 
Outreach Program's eCYBERMISSION, we provide online exposure to 
students and have intense targeted outreach to DOD Educational Activity 
(DODEA) schools in our national program efforts. We are looking at 
other areas where we can provide direct mentorship to our military 
dependent students and the best way to continue this effort is to 
directly engage with DODEA and support their existing education 
structure and institutions.
    Ms. Lacey. The Secretary of the Navy is committed to taking care of 
Navy and Marine Corps families, including efforts to assure that our 
children have access to quality STEM educational opportunities whether 
they go to school on our bases or in surrounding communities. While 
responsibility and most resources for K-12 STEM education (including 
the National Defense Education Program K-12 and STARBASE funding) were 
removed from DOD and therefore the Navy and Marine Corps starting in 
fiscal year 2014, the naval S&T community is engaged in the interagency 
STEM reorganization effort with one goal being to make sure that the 
families of naval personnel are afforded access to programs that are 
now the explicit responsibility of the Department of Education, the 
National Science Foundation, and the Smithsonian Institution. We 
encourage our laboratory and warfare center leadership and employees to 
use STEM education as a means of community engagement and to volunteer 
their time to improve the STEM skills of children in communities 
hosting our facilities. Some base community relations funds may be 
applied to these efforts.
    Dr. Walker. As the Chief of Staff of the Air Force states in Bright 
Horizons 2.0--the Air Force STEM Workforce Strategy, all airmen, 
military and civilian, are encouraged to become ``STEM ambassadors'' in 
their communities. A culture of outreach to communities surrounding all 
Air Force bases, including those attended by military children, is 
pervasive among our airmen. Many bases employ a designated Education 
Outreach Coordinator who works with local schools to create programs to 
interest students in Air Force S&T with the assistance of local 
teachers and Air Force volunteers.
    To increase the DOD S&T community engagement with military 
children, the messages in the Bright Horizons strategy should continue 
to be embraced by our airmen. Military and civilian scientists and 
engineers should be encouraged by their leadership to participate in 
STEM programs in their local communities. Inspiring the next generation 
of STEM leaders is an important mission to the Air Force.

    9. Senator Hagan. Mr. Shaffer, Dr. Prabhakar, Ms. Miller, Ms. 
Lacey, and Dr. Walker, what can the subcommittee do to support these 
efforts?
    Mr. Shaffer and Dr. Prabhakar. DOD appreciates the subcommittee's 
continued support for DOD S&T community's engagement with military 
children and teachers, especially to enhance their access to high 
quality STEM educational opportunities and experiences. This involves 
increasing initiatives that engage DOD/Federal S&T professionals (both 
civilian and military) in results-driven, school-based and afterschool 
activities using expertise available at DOD/Federal facilities and 
laboratories.
    Ms. Miller. The subcommittee could empower DODEA to enhance STEM 
curricula in their target school areas; especially those areas that are 
traditionally low ranking, with STEM-centered school systems that have 
proven capabilities as examples. The Harmony School model is a 
remarkable success that can serve as an example.
    Harmony School has a successful model that prepares students for 
higher learning in a safe, caring, and collaborative atmosphere through 
a quality learner-centered educational program with a strong emphasis 
on STEM. These schools, established in underserved communities, are 
founded on the belief that excelling in mathematics and science 
prepares youth to succeed in college, the workplace and the 21st 
century.
    Each school concentrates on specific elements that are required to 
successfully accomplish this mission: (1) enriched curricula and 
authentic assessment, (2) effective school management, (3) parental 
involvement, (4) technology integration, (5) sound fiscal management, 
(6) leadership and character development, and (7) safety.
    The best way to serve our military families is to establish schools 
that support these same principles and provide support throughout the 
military child's educational development and not through a one-time 
enrichment experience.
    Ms. Lacey. The Secretary of the Navy is committed to taking care of 
Navy and Marine Corps families, including efforts to assure that our 
children have access to quality STEM educational opportunities, whether 
they go to school on our bases or in surrounding communities. The 
Department of the Navy has responded quickly to the Federal STEM 
reorganization by focusing our portfolio and goals towards the 
President's intent. Recognizing that one basis of a strong and 
effective military rests in the knowledge that our children are cared 
for, the subcommittee can help by assuring that we can continue to 
apply our resources, as appropriate, to assure that STEM education 
opportunities remain available to the families of our sailors, marines, 
and civilians.
    Dr. Walker. To support the DOD S&T community's engagement with 
military children and enhance their access to high quality STEM 
educational opportunities and experiences, I recommend the subcommittee 
encourage the Services to be actively involved in their local 
communities as ambassadors to mentor and champion the next generation 
to pursue interests in STEM. Working together, our impact is greater 
than working individually. Additionally, creating synergy among 
Services will increase the diversity and the number of S&T 
opportunities to which military children have access.

                         extramural performers
    10. Senator Hagan. Mr. Shaffer, Dr. Prabhakar, Ms. Miller, Ms. 
Lacey, and Dr. Walker, in your fiscal year 2015 budget request, how 
much requested funding will be available for new competitions for 
extramural performers?
    Mr. Shaffer and Dr. Prabhakar. Within the Assistant Secretary of 
Defense for Research and Engineering portfolio, we expect approximately 
90 broad area announcements worth $200 million during fiscal year 2015.
    Ms. Miller. We estimate that approximately 10 percent of total 6.1 
(Basic Research) funding, and 15 percent of 6.2 (Applied Research) and 
6.3 (Advanced Technology Development) funding will be available for new 
competition in fiscal year 2015.
    The Basic Research amount to be competed represents approximately 
one-third of the Single Investigator Program, the Multidisciplinary 
University Research Initiative, and the Defense University Research 
Instrumentation Program funding requested for these elements of 
extramural basic research.
    Ms. Lacey. The naval S&T budget can be viewed as fitting into four 
primary areas--Discovery and Invention (D&I), Leap Ahead Innovations 
(Innovative Naval Prototypes (INP)), Acquisition Enablers (Future Naval 
Capabilities (FNC)), and a Quick Reaction capability to respond to 
emerging requirements.
    D&I: D&I consists of Basic Research and early Applied Research. 
Roughly 25 to 30 percent of the fiscal year 2015 budget request is open 
to new performers across the various research areas.
    Leap Ahead Innovations: The biggest portion of leap ahead 
innovations are the INP. The INP projects are developed every other 
year and are typically set up so that in the initial year the entire 
program is approved. In fiscal year 2015 we are starting no new INP 
programs. The ongoing INP will continue with current providers.
    Acquisition Enablers: Acquisition Enablers include FNC--component 
technologies that deliver in a 2- to 4-year timeframe. For the FNC 
program, approximately 17 percent of the fiscal year 2015 budget 
request is open to new performers.
    Quick Reaction: Quick Reaction consists of TechSolutions, 
Swampworks, and Naval Warfighter Experimentation. Each fiscal year, 
TechSolutions uses approximately 90 percent of its annual budget 
allocation to support new ideas that are generated by Navy/Marine Corps 
operators. Performers within the TechSolutions venue include the Naval 
Research Enterprise (mainly Naval Warfare Centers) and those 
organizations are encouraged to partner with industry partners, when 
appropriate. The SwampWorks and Naval Warfighter Experimentation 
allocations typically have about 50 percent of their budget available 
for new start projects using existing contracting paths.
    Dr. Walker. Approximately $300 million per year of the Air Force 
S&T budget is open for new performers to compete for S&T funding. This 
is based on the extramural budgets by program element and S&T contracts 
normally being re-competed every 5 years. With an S&T extramural budget 
of approximately $1.5 billion per year, one-fifth would be open to new 
performers to compete.

    11. Senator Hagan. Mr. Shaffer, Dr. Prabhakar, Ms. Miller, Ms. 
Lacey, and Dr. Walker, how do you integrate the Small Business 
Innovation Research and Small Business and Technology Transfer (SBIR/
STTR) programs into your research and development (R&D) activities?
    Mr. Shaffer and Dr. Prabhakar. The integration of SBIR/STTR with 
other R&D activities is inherent in our process that links the small 
business programs to the Assistant Secretary of Defense for Research 
and Engineering (ASD(R&E)) high priority technology areas. The ASD(R&E) 
establishes high priority R&D technology areas based on technological 
opportunities and emerging threats. Subject matter experts in OSD, in 
coordination with the DOD components, develop SBIR/STTR topics that 
address the high priority areas. In turn, the SBIR/STTR topics are the 
basis for the solicitations for proposals. The process undertakes to 
ensure that small businesses are integrated into R&D activities and 
that they are addressing DOD's most important technology needs.
    Ms. Miller. The Army SBIR/STTR program offices work closely with 
Army Program Executive Offices (PEO) to identify emerging technology 
needs and technology transition opportunities through its Technology 
Assistance Advocates and its Commercialization Readiness Program. The 
Army is also actively working with OSD Office of Small Business 
Programs to implement reporting and incentive requirements called for 
under the recent SBIR/STTR reauthorization.
    Ms. Lacey. The R&D component of acquisition funding for Department 
of the Navy Programs of Record (PoR) is a primary source of follow-on, 
or Phase III, funding for Navy SBIR/STTR projects. ONR, with its 
commitment to ``delivering innovation to the Fleet,'' requires its FNC 
to identify, leverage, and integrate SBIR/STTR-funded efforts into FNC. 
Successful integration starts with topic development, as over 80 
percent of Navy SBIR/STTR topics are sponsored by an acquisition PoR or 
FNC, allowing the program to plan for the insertion starting with Phase 
I. Sometimes a PoR or FNC identifies past SBIR/STTR awards that address 
a technology need. In such cases the Navy SBIR/STTR program office 
provides for sequential second Phase II reach-back awards to be made. 
Here, the PoR or FNC must develop a Technology Transition Agreement 
that shows how and when the technology will be inserted and clearly 
identify out-year follow-on non-SBIR/STTR funds that will be used to 
complete the integration.
    The Navy SBIR/STTR program office also funds the Transition 
Assistance Program (TAP), which provides both small business mentoring 
and SBIR/STTR transition management, followed by the Navy Opportunity 
Forum. TAP is open to all of our Phase II firms and the forum is the 
culmination of the 11-month TAP where these firms present the planned 
insertion path to over 800 attendees from DOD PoR and prime 
integrators. TAP clearly helps firms obtain Phase III funding; 70 
percent of TAP firms obtain Phase III dollars, vice only 39 percent of 
non-TAP firms. The Navy record of direct follow-on contracts to SBIR/
STTR firms is unmatched in DOD, with $725 million in fiscal year 2012 
alone. This shows the attractiveness of these technologies to BA 4 and 
above R&D funding sources.
    Dr. Walker. The Air Force includes technologies developed within 
SBIR/STTR programs in our technology roadmaps which ensures very early 
integration into the planning of R&D activities. Within our AFRL, the 
technology directorates coordinate with weapon system PEO and develop 
topics for future SBIR/STTR programs that support their technical 
requirements. Therefore, the end-user requirement demand flows from the 
Air Force Major Commands through the PEO to the laboratory and small 
business community. The laboratory provides the technical 
representatives to manage the research. As the research matures into a 
Phase II SBIR, the technology directorates can incorporate promising 
SBIR/STTR results into their funded applied research and advanced 
technology development efforts for additional maturation.

                                 [all]
</pre></body></html>
